<html>
<title> - OVERSIGHT ON PASSENGER VEHICLE ROOF STRENGTH</title>
<body><pre>[Senate Hearing 110-1161]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 110-1161
 
                             OVERSIGHT ON 
                    PASSENGER VEHICLE ROOF STRENGTH 

=======================================================================

                                HEARING

                               before the

   SUBCOMMITTEE ON CONSUMER AFFAIRS, INSURANCE, AND AUTOMOTIVE SAFETY

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 4, 2008

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

75-609 PDF                       WASHINGTON : 2012

For sale by the Superintendent of Documents, U.S. Government Printing 
Office, Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 




       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska, Vice Chairman
    Virginia                         JOHN McCAIN, Arizona
JOHN F. KERRY, Massachusetts         KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            GORDON H. SMITH, Oregon
BILL NELSON, Florida                 JOHN ENSIGN, Nevada
MARIA CANTWELL, Washington           JOHN E. SUNUNU, New Hampshire
FRANK R. LAUTENBERG, New Jersey      JIM DeMINT, South Carolina
MARK PRYOR, Arkansas                 DAVID VITTER, Louisiana
THOMAS R. CARPER, Delaware           JOHN THUNE, South Dakota
CLAIRE McCASKILL, Missouri           ROGER F. WICKER, Mississippi
AMY KLOBUCHAR, Minnesota
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
   Christine D. Kurth, Republican Staff Director, and General Counsel
                  Paul Nagle, Republican Chief Counsel
                                 ------                                

   SUBCOMMITTEE ON CONSUMER AFFAIRS, INSURANCE, AND AUTOMOTIVE SAFETY

MARK PRYOR, Arkansas, Chairman       JOHN E. SUNUNU, New Hampshire, 
JOHN D. ROCKEFELLER IV, West             Ranking
    Virginia                         JOHN McCAIN, Arizona
BILL NELSON, Florida                 OLYMPIA J. SNOWE, Maine
MARIA CANTWELL, Washington           GORDON H. SMITH, Oregon
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
THOMAS R. CARPER, Delaware           JOHN THUNE, South Dakota
CLAIRE McCASKILL, Missouri           ROGER F. WICKER, Mississippi
AMY KLOBUCHAR, Minnesota



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 4, 2008.....................................     1
Statement of Senator Pryor.......................................     1
Statement of Senator McCaskill...................................    13

                               Witnesses

Claybrook, Hon. Joan B., President, Public Citizen...............    67
    Prepared statement...........................................    69
Coburn, M.D., Hon. Tom, U.S. Senator from Oklahoma...............     3
    Prepared statement...........................................     6
Garcia, Dr. David A., Independent Contractor and Public Speaker..    18
    Prepared statement...........................................    20
Gillan, Jacqueline S., Vice President, Advocates for Highway and 
  Auto Safety....................................................   118
    Prepared statement...........................................   119
Ports, Jr., James F., Deputy Administrator, National Highway 
  Traffic Safety Administration, DOT; accompanied by Stephen R. 
  Kratzke, Associate Administrator for Rulemaking, NHTSA, DOT....     9
    Prepared statement...........................................    10
Oesch, Stephen L., Senior Vice President, Insurer and Government 
  Relations, Insurance Institute for Highway Safety..............    28
    Letter, dated June 18, 2008 to Senator Pryor.................   154
    Prepared statement...........................................    30
Stanton, Michael J., President and CEO, Association of 
  International Automobile Manufacturers, Inc....................   114
    Prepared statement...........................................   116
Strassburger, Robert, Vice President, Vehicle Safety and 
  Harmonization, Alliance of Automobile Manufacturers, Inc.......    57
    Prepared statement...........................................    59

                                Appendix

Article, dated March 14, 2008, entitled, ``Why the NHTSA Proposal 
  for FMVSS 216 on Roof Crush Must Include At Least a Strength-
  to-Weight Ratio of 4.0 and Dynamic Roolover Testing, and Must 
  Not Include ``Preemption'' Which Would Deprive Injured 
  Victims,'' by Byron Bloch, Independent Consultant in Auto 
  Safety Design and Vehicle Crashworthiness......................   152
Letter to Senator Pryor from Brandon Bloch, Concerned Driver.....   151
Response to written questions submitted to James F. Ports, Jr. 
  by:............................................................
    Hon. Claire McCaskill........................................   166
    Hon. Mark Pryor..............................................   163
    Hon. John D. Rockefeller IV..................................   168


                             OVERSIGHT ON 
                    PASSENGER VEHICLE ROOF STRENGTH

                              ----------                              


                        WEDNESDAY, JUNE 4, 2008

                               U.S. Senate,
  Subcommittee on Consumer Affairs, Insurance, and 
                                 Automotive Safety,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Mark Pryor, 
Chairman of the Subcommittee, presiding.

             OPENING STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. Let's go ahead and call the meeting to 
order.
    I'd like to welcome everyone here today, especially Senator 
Coburn. We're going to let him go first. But, let me just give, 
if I may, give a brief opening statement. I know that Senator 
Coburn has other commitments he has to get to.
    Today we're going to talk about automobile safety, and 
we'll focus on the NHTSA rulemaking on vehicle roof strength 
standards to protect automobile passengers in the event of 
rollover accidents.
    The hearing will look at the biomechanics and what actually 
occurs in a rollover, the relationship between the vehicle roof 
strength and the occupant injury risk, the history and efficacy 
of the National Highway Traffic Safety Administration's roof 
strength standard in improving vehicle safety, and a review of 
the January 30, 2008, Supplemental Notice of Proposed 
Rulemaking. The agency's deadline for issuing the final rule is 
July 1 of this year--which is just in--what, I guess 4 weeks 
from now or less--with a legally permissible extension, if 
necessary.
    Just in terms of background, this agency has the 
responsibility of trying to make our vehicles safer, and 
thousands of Americans are killed and injured each year in 
motor vehicle accidents. The agency reported that--42,642 
highway-related fatalities and 2,575,000 injuries in 2006. Of 
the 42,000 fatalities, about 10,000--a little more than 10,000 
were killed by rollover crashes, and 2,007 people sustained 
injuries due to rollover crashes.
    The majority of rollovers occur when a driver loses control 
of the vehicle, causing the vehicle to begin sliding sideways. 
Typically, something triggers the vehicle to begin rolling. The 
trigger could be a tripping object, such as a curb or a 
guardrail, or even soft and uneven ground at the side of the 
roadway, like the shoulder. Another trigger for rollover could 
be an attempt by the driver to make an overly aggressive turn 
of the vehicle, either at a high velocity or at a tight turning 
radius.
    ``Roof crush'' describes the vehicle's roof as it is 
deformed during a rollover crash. When the vehicle's structural 
integrity is reduced, window glass can break and the doors can 
open, which can further weaken the roof structure. According to 
some analysts, a collapsing roof can compromise all the 
vehicle's safety features, including its seatbelts, window 
glazing, side-curtain airbags, and door retention. Partial or 
complete ejection of the occupants can result. And when a 
vehicle roof buckles inwards, occupants' heads are exposed to 
the risk of head and neck injuries.
    On September 1, 1973, NHTSA issued its first roof crush 
standard that took effect for passenger cars. The standard 
currently applies to passenger cars and multipurpose passenger 
vehicles, trucks, and buses with a gross weight rating of 6,000 
pounds or less. Federal Motor Vehicle Safety Standard 216 
establishes a minimum roof strength standard for these 
vehicles. The purpose of the standard is to reduce deaths and 
injuries due to the crushing of the roof into the occupant 
compartment in a rollover crash.
    One thing we'll talk about today is testing, and testing 
involves applying a metal plate at a constant speed to one side 
of the vehicle's roof. Compliance with the standard is 
contingent upon the roof withstanding a force of 1.5 times the 
vehicle's weight before 5 inches of crush have occurred. That's 
the current standard. SAFETEA-LU, which became law in August of 
2005, directed the Secretary of Transportation to initiate a 
rulemaking to revisit this. The law clarified that the 
rulemaking proceeding would apply to vehicles with a weight of 
10,000 pounds or less.
    Congress encouraged NHTSA, in its rulemaking proceeding, to 
consider dynamic tests that realistically duplicate the actual 
forces transmitted during the rollover crash. I'm sure we'll 
hear some testimony about that. The law also directed the 
agency to issue a final rule by July 1, 2008. And actually, I 
met with NHTSA yesterday, and they hope--they think that they 
can finish this by 2008, but, you know, they're not 100-percent 
confident of that, but I know they're trying very hard. If the 
agency determines that it cannot meet the deadline, the agency 
has to notify the proper Congressional committees of 
jurisdiction and establish a new deadline.
    And so, everybody's working hard. This is a very, very 
important hearing. We do have many, many fatalities in this 
country that are the result of roof crush during a crash, and 
it's something that I hear a lot about at home, and I know my 
colleagues do, as well. And so, we're going to have several 
witnesses today. I'm not going to go through the list right 
now.
    But, I do want to open this by thanking my colleague from 
Oklahoma, Dr. Tom Coburn, who is also Senator Tom Coburn, for 
those of you who don't know, and he has approached me on the 
floor and in the hallways here several times about how 
important this is to him as a medical professional and based on 
some personal experience that he has had in his home State of 
Oklahoma.
    So, Senator Coburn, welcome to the subcommittee, and we are 
honored to have you here, and we'd love to hear your opening 
statement.

              STATEMENT OF HON. TOM COBURN, M.D., 
                   U.S. SENATOR FROM OKLAHOMA

    Senator Coburn. Senator Pryor, thank you, and thank your 
staff, for making available this forum to address not only the 
process, but the safety.
    And, like many other people who are going to appear before 
you today--I'm not an expert on automobile safety or 
manufacturing, but, like everyone here, I'm very much 
interested in seeing a reduction in rollover fatalities and 
injuries.
    A few months ago, I met with one of my constituents from 
Oklahoma. His name's Kevin Moody. He's been a tireless 
advocate, calling for increased vehicle roof strength standard. 
In 2003, Kevin's son, Tyler, was killed when the SUV he was 
driving rolled over, causing the vehicle's roof to crush down 
on him. Unfortunately, Kevin couldn't be here today to testify, 
but I hope that my testimony in this hearing will honor his 
efforts and the life of his son, Tyler.
    There are many different factors that lead to vehicle 
occupant fatalities and serious injuries in rollover accidents, 
but today we're here to discuss the vehicle roof strength 
safety standard known as FMVSS 216. And, as you outlined, Mr. 
Chairman, SAFETEA-LU included language requiring NHTSA to have 
a standard by July 1, 2008.
    I would just take an aside. I don't think it's as important 
that they get this done by July 2008 as much as it is important 
as they get it right. So, I don't think the timing is as 
important as them getting it right.
    An update of this standard will be the first substantial 
change since 1973. Since the early 1970s, advancing 
technologies create a great many vehicle safety improvements, 
which our manufacturers have incorporated, that have saved a 
lot of lives. These include anti-lock brakes, airbags, and 
Electronic Stability Control. Technology has also resulted in 
better materials and design engineering that can be used to 
produce stronger vehicle roofs.
    While many automobile manufacturers have used these 
technologies to increase roof strength of their vehicles well 
above the Federal standard, there are still many vehicles that 
are produced that have roofs that will easily crush in the 
event of a rollover. Congress initiated the rulemaking process 
because NHTSA was still using the same test and performance 
criteria that they used when the roof standard was originally 
set up in 1973. It's hard to find anyone in private or public 
sector that's doing things the same today that they were in 
1973. NHTSA's Notice of Proposed Rulemaking has acknowledged 
these new testing methods and the improved roof strength in 
today's technology embodied vehicles. It does not appear that 
they're ready to make, however, with a rulemaking, a leap to 
the 21st century from the 20th century.
    I want to touch, for a minute, on the public health problem 
that's caused by vehicle rollovers. According to NHTSA's own 
numbers, 10,000 people are killed each year in rollover 
crashes, which is one-third of--at least--close to one-third of 
accident fatalities. They're the number one killer--automobile 
crashes are--of people between the age of 1 and 34. It is the 
number one cause of death. Including to--the loss of life, 
24,000 people a year are seriously injured in rollovers, 
leading to millions of dollars of healthcare expenditures, but, 
more important, marked impairment of people's lives.
    Spinal cord injuries are also very common, as the 
occupant's head makes contact with the roof or the ground. Of 
the 12,000 spinal cord injuries that occur each year, over 
5,000 occur in automobile accidents. Although exact numbers are 
not kept, the number of spinal cord injuries that result from 
rollover accidents can be conservatively estimated to be around 
2,600 per year.
    As a physician, I see having vehicles with stronger roofs 
as an effective healthcare prevention measure to reduce the 
number of quadriplegic, paraplegic, and other serious injuries 
that result from roof crush.
    I'm not here to offer a policy solution to address roof 
crush, but, after studying this issue, I believe that there are 
three things that will translate into safer cars and a more 
informed public:
    The first is greater transparency into NHTSA's rulemaking 
process. Senator Obama and I created and passed the 
Transparency and Accountability Act, two years ago. The way we 
get accountability from government is transparency. And I have 
some great heartburn with the transparency in this rulemaking 
process. The rulemaking introduced by NHTSA examines the costs 
and benefits of increasing roof strength-to-weight ratio from 
1.5 to 2.5. However, NHTSA did not provide any information as 
to why the 2.5 strength-to-weight ratio was chosen, as opposed 
to 3, 3.5, or 4.0.
    In January, in a Supplemental Notice of Proposed 
Rulemaking, NHTSA does discuss these stronger strength-to-
weight ratios, but they limit their analysis to the cost and 
weight each standard would add to vehicles, and largely ignore 
the safety benefits. NHTSA also mentions that if every single 
rollover crash--rollover death resulting from roof crush were 
prevented, the total lives saved would be 476. That doesn't fit 
with the other numbers that they publish. However, they provide 
no evidence for how they came up with that figure--there is no 
transparency in it--which most automobile safety experts say is 
difficult to quantify.
    Another provision lacking proper rationale in the proposed 
rule is one that would give the new roof strength standard 
preemption from any common law or tort law. Twenty-six state 
Attorneys General wrote to NHTSA expressing that this would be 
a major setback to vehicle safety, yet NHTSA has not offered 
any explanation for why the rights of a vehicle purchaser to 
seek a common law remedy for harm done to them should be taken 
away.
    When the final rule is released, NHTSA needs to provide the 
public with transparency into why they believe these 
regulations are to be adopted, not just offer the regulations. 
With a budget of over $830 million a year, there is no excuse 
for NHTSA not to provide clear and precise evidence for how 
vehicle safety standards were decided.
    The second thing that I think is important is that--the 
increase in the efforts to inform consumers about the safety of 
vehicles in rollovers. In my almost 10 years of experience as a 
Member of Congress, I've found the best way to connect the 
government to the people is through an open and transparent 
government. That's how we hold our elected officials 
accountable. The 2005 highway bill contained a provision known 
as ``Stars on Cars.'' And that requires all new cars to post 
NHTSA's five-star safety rating system result on car stickers. 
This was a great policy for Congress to adopt, because it takes 
critical safety information that might not be accessible to 
consumers, especially those without Internet access, and 
clearly displays it for the consumer to consider.
    The three five-star rating categories are a 35-mile-per-
hour frontal crash test, an offside--offset side-impact test, 
and a rollover resistance test. I believe that as part of 
NHTSA's comprehensive plan to address rollover safety, they 
should create a five-star rating system for roof strength that 
should appear on all car stickers. Automobile consumers need to 
know that there are significant differences in vehicle roof 
strengths among cars and trucks in the same class. For example, 
the Volvo XC90, that has the strongest roof in the midsized 
sport utility class, with a 4.6 strength-to-weight ratio--that 
is twice the roof strength of the Jeep Grand Cherokee, which 
has a vehicle roof strength-to-weight ratio of 2.3.
    The final point I would make is, Congress should challenge 
NHTSA to produce results through reduced deaths and serious 
injuries. It's not just enough to offer a new standard. It is 
to have metrics on the standards, and that the standard make a 
difference in American lives.
    A performance goal for the comprehensive rollover plan is 
never mentioned by NHTSA. As part of Congress's oversight of 
NHTSA, we should be setting performance measures that translate 
into real-world results, like a reduction in deaths caused by 
rollover accidents.
    After the creation of NHTSA in the late 1960s, the number 
of automobile deaths began to decrease. From 1975 to 1992, the 
number of vehicle occupant deaths per 100,000 people declined 
by 23 percent. Since 1992, the number of occupant deaths per 
100,000 people has only decreased by 1.5 percent. Congress 
should be asking NHTSA to get the decline of fatalities back at 
a similar rate that was achieved in the 1970s and 1980s.
    With one-third of all vehicle deaths occurring in rollover 
accidents, if NHTSA's comprehensive plan to address the 
rollovers is at all successful, we should be able to see a 
substantial decrease in rollover deaths. The metric is 
important; the rule isn't. What the rule accomplishes should be 
our goal.
    In 2008, as I said, we'll spend $830 million of taxpayer 
money at NHTSA. That's a substantial investment that should be 
tied to results in terms of reduction in accidents and 
accidental deaths. Specifically in regards to vehicle roof 
strength, if NHTSA cannot conduct a transparent and effective 
rulemaking process, I believe Congress should consider 
legislation that will set an adequate roof-strength standard 
without going through an ineffective rulemaking process.
    Thank you very much for your time. I don't--doubt that you 
have any questions for me.
    This isn't--this is something we can fix, and we fix, at 
small cost. Small relative cost, we can make a major difference 
in individuals' lives, and we can give great information to the 
consumers about what they're buying.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Coburn follows:]

             Prepared Statement of Hon. Tom Coburn, M.D., 
                       U.S. Senator from Oklahoma
    I would like to thank Senator Pryor and your staff for holding this 
timely oversight hearing. Unlike the many other people on this panel I 
am not an expert on automobile manufacturing or safety, but like 
everyone here I am very interested in seeing a reduction in rollover 
accident fatalities. A few months ago I met with one of my constituents 
from Oklahoma, Kevin Moody, who has been a tireless advocate for 
calling for an increased vehicle roof strength standard. In 2003, 
Kevin's son Tyler was killed when the SUV he was driving rolled over 
causing the vehicle's roof to crush down on him. Unfortunately Kevin 
couldn't be here today to testify, but I hope that my testimony and 
this hearing will honor his efforts and the life of his son Tyler.
    There are many different factors that lead to vehicle occupant 
fatalities and serious injuries in rollover accidents, but today we are 
here to discuss the vehicle roof strength safety standard known as 
FMVSS 216. In 2005, Congress passed the SAFETEA-LU surface 
transportation reauthorization bill which included language requiring 
the National Highway Traffic Safety Administration (NHTSA) to update 
FMVSS 216 by July 1, 2008. The update to FMVSS 216 will be the first 
substantial change to this vehicle safety standard since its inception 
in 1973. Since the early 1970s, advancing technology has created many 
vehicle safety improvements, such as anti-lock brakes, air bags, and 
electronic stability control. Technology has also resulted in better 
materials and design engineering that can be used to produce stronger 
vehicle roofs. While many automobile manufactures have used these 
technologies to increase the roof strength of their vehicles well above 
the Federal standard, there are many vehicles that have roofs that will 
easily crush in the event of a rollover. Congress initiated the 
rulemaking process through SAFETEA-LU because NHTSA was still using the 
same test and performance criteria that they used when the roof 
strength standard was originally introduced in 1973. It is hard to find 
anyone in the private or public sector that is doing things today the 
same way they did things in the early 1970s. Although the NHTSA's 
notice of proposed rulemaking has acknowledged new testing methods and 
the improved roof strength in today's technology embodied vechicles, it 
does not appear that NHTSA is ready to make the leap from 20th century 
to the 21st century.
    I also want to touch on the public health problem that is caused by 
vehicle rollovers. Ten thousand people are killed each year in rollover 
crashes, which is one-third of all automobile accident fatalities.\1\ 
Automobile accidents are the number one killer of people age one to 
thirty-four. In addition to the losses of life, twenty-four thousand 
people a year are seriously injured in rollovers leading to millions of 
dollars of healthcare expenses and reduced quality of life. Spinal 
chord injuries are very common in rollover crashes as the occupant's 
head makes contact with the roof or the ground. Of the twelve thousand 
spinal chord injuries that occur each year, over five thousand occur in 
automobile accidents.\2\ Although exact numbers are not kept, the 
number of spinal chord injures that result from rollover accidents can 
be conservatively estimated to be twenty-six hundred a year. As a 
physician, I see having vehicles with stronger roofs as an effective 
healthcare prevention measure to reduce the number of quadriplegic, 
paraplegic, and other serious injuries resulting from roof crush.
---------------------------------------------------------------------------
    \1\ NHTSA, http://www.safercar.gov/portal/site/safercar/
menuitem.13dd5c887c7e1358fefe0a2f
35a67789/?vgnextoid=6539e66aeee35110VgnVCM1000002fd17898RCRD.
    \2\ National Spinal Cord Injury Database, http://
www.spinalcord.uab.cdu/show.asp?durki=
116979.
---------------------------------------------------------------------------
    I am not here today to offer a policy solution to address roof 
crush, but after studying this issue I believe that the following three 
things will translate into safer cars and a more informed public.
    1. Greater transparency into the NHTSA rulemaking process. The 
notice of proposed rulemaking introduced by the NHTSA in August of 2005 
examines the cost and benefits of increasing the roof strength-to-
weight ratio requirement from 1.5 to 2.5. However, NHTSA did not 
provide information as to why the 2.5 strength-to-weight ratio was 
chosen as opposed to a 3.0, 3.5, or 4.0 strength-to-weight ratio. In 
January 2008, in a supplemental notice of proposed rulemaking, NHTSA 
does discuss these stronger strength-to-weight ratios, but they limit 
their analysis to the cost and weight each standard would add to 
vehicles and largely ignore the safety benefits. NHTSA also mentions 
that if every single rollover death resulting from roof crush were 
prevented the total lives saved would be 476. However they provide no 
evidence for how they came up with that figure, which most automobile 
safety experts say is very difficult to quantify.
    Another provision lacking proper rationale in the proposed rule is 
one that would give the new roof strength standard preemption from any 
common law or tort law. Twenty-six state Attorneys General wrote to 
NHTSA expressing that this would be a major set back to vehicle safety, 
yet NHTSA has not offered any explanation for why the rights of a 
vehicle purchaser to seek a common law remedy for harm done to them 
should be taken away.
    When the final rule is released, NHTSA needs to provide the public 
with transparency into why they believe these regulations are to be 
adopted. With a budget over $830 million there is no excuse for NHTSA 
to not provide clear and precise evidence for how vehicle safety 
standards were decided.
    2. Increase efforts to inform consumers about the safety of 
vehicles in rollovers. In my almost 10 years of experience as a Member 
of Congress, I have found that the best way to connect the government 
to people is through an open and transparent government. In 2006 I co-
authored the Federal Funding Accountability and Transparency Act with 
Senator Obama, which lead to the creation of usaspending.gov, a website 
that enables the public to find out information on all government 
expenditures, including contracts, grants, and loans. When taxpayers 
have better knowledge about how their tax dollars are being spent they 
are better able to hold their elected officials accountable. I believe 
the same holds true with the Federal Government's automobile safety 
testing and safety data.
    The 2005 highway bill contained a provision known as ``stars on 
cars'' that requires all new cars to post NHTSA's five-star safety 
rating system results on car stickers. This was a great policy for 
Congress to adopt because it takes critical safety information that 
might not be accessible to consumers, especially those without Internet 
access, and clearly displays it for the consumer to consider. The three 
five star rating categories are a 35-mph frontal crash test, an offset 
side-impact test, and a rollover resistance test. I believe that as a 
part of NHTSA's compressive plan to address rollover safety, they 
should create a five star rating system for roof strength that would 
also appear on car stickers. Automobile consumers need to know that 
there are significant differences in vehicle roof strengths among cars 
and trucks in the same class. For example, the Volvo XC90 has the 
strongest roof in the mid-sized sport utility class with a 4.6 
strength-to-weight ratio. That is twice the roof strength of the Jeep 
Grand Cherokee, which has a vehicle roof strength-to-weight ratio of 
2.3.
    3. Finally, Congress should challenge the NHTSA to produce results 
through reduced deaths and serious injuries caused by rollovers. In 
their notice of proposed rulemaking, NHTSA states that roof crush is 
only one factor in rollover fatalities and that their comprehensive 
plan to address rollovers looks at all the factors involved. However, a 
performance goal for the comprehensive rollover plan is never 
mentioned. As part of Congress' oversight of NHTSA we should be setting 
performance measures that translate into real world results, like a 
reduction in the deaths caused by rollover accidents. After the 
creation of NHTSA in the late 1960s, the number of automobile deaths 
began to decrease. From 1975 to 1992 the number of vehicle occupant 
deaths per 100,000 people declined by 23 percent. Since 1992 the number 
of vehicle occupant deaths per 100,000 people has only decreases by 1.5 
percent.\3\ Congress should be asking NHTSA's to get the decline of 
fatalities back at a similar rate that was achieved in the 1970s and 
1980s. With one-third of all vehicle deaths occurring in rollovers 
accidents, if NTHSA's comprehensive plan to address the rollovers is at 
all successful, we should see a substantial decrease in rollover 
deaths. In 2008 we will spend $830 million of taxpayer money to fund 
operations, research, and grants within NHTSA. That substantial 
investment should be tied to results in terms of a reduction in 
accidents and accident deaths. Specifically, in regards to vehicle roof 
strength, if NHTSA can not conduct a transparent and effective 
rulemaking process, I believe Congress should consider legislation that 
will set an adequate roof strength standard without going through an 
ineffective rulemaking process.
---------------------------------------------------------------------------
    \3\ Department of Transportation, http://www-fars.nhtsa.dot.gov/
Main/index.aspx.
---------------------------------------------------------------------------
    Thank you very much for your time and I again thank the Chairman 
for holding this important oversight hearing.

    Senator Pryor. Thank you. I do have one follow-up, if I 
may, and that is, you mentioned, early in your testimony, that 
we have this deadline of July 1 of this year. You think it's 
more important that we get it done right than get it done fast. 
And that's my sense, as well. I'd love to get it done by the 
end of this month, but if we can't, it's more important to get 
it done right. What is your sense--I mean, I can't really speak 
for the Senate, I know you can't either--what's your sense of 
Senators--I think most Senators would agree that it's more 
important to get it done right and not rush through this and 
come out with a bad result. Is that what you're hearing?
    Senator Coburn. I would agree with that, but I'd--also say 
is, if we have a little increase in roof strength that doesn't 
result in a major decrease in fatalities and injuries, we've 
done nothing. And so, the roof strength-to-weight ratio is 
important. And you didn't see any explanation for that in why 
NHTSA chose the standards that they chose. And, again, the 
metrics, the measurement of the success of the rulemaking, will 
be the marked decrease in the number of fatalities and 
injuries.
    And so, the question has to be, is, at what cost--I know 
there is a cost. The higher up we go, the more it costs. There 
has to be a point at which we see major benefit with a minimal 
amount of cost, and that ought to be part of the transparency 
of the NHTSA rulemaking process. And why we don't see a 4.5 or 
a 3.5 and the expected benefits from that is beyond me. With 
the kind of budget that they have, they have plenty of 
resources to get this right. And so, I think getting it right 
is much more important than getting it done by July 1, 2008.
    Senator Pryor. Right. Well, thank you for your interest in 
this, and thanks for your leadership on this. And when NHTSA 
comes up here to testify in a few minutes, we'll ask them some 
of----
    Senator Coburn. Well, I--let me thank Mr. Moody. Being in 
the Senate and listening to constituents, I was unaware of this 
issue. And I'm not a big-government person, I don't want us 
involved, and most people--but, this is something we can fix, 
this is something we can make a difference on, and I look 
forward to your leadership on it, and I thank you.
    Senator Pryor.--thank you. Thank you for your help, and 
thanks for all that you're doing.
    Well, we are now going to introduce all the witnesses, so 
I'd ask you all to come up, and--I'll call your name. While you 
all get situated, however she says to get situated. So, how 
does that sound?
    [Laughter.]
    Senator Pryor. Oh, I'm sorry. I'm sorry, I misread my note 
here. We're going to have NHTSA first, in the first panel.
    Mr. James Ports who is the Deputy Administrator, National 
Highway Traffic Safety Administration. Great, come on up and 
take your seat--and what I would ask everyone to do is, if we 
could please keep our opening statements to 5 minutes--I don't 
like to gavel people down, but we have a lengthy third panel, 
and we'll have good questions of both panels, and we think 
we're going to have other Senators come here. Several have said 
they would be here, but there are a lot of Committees and other 
things going on today. So, hopefully we'll have others here and 
we'll ask questions.
    The last thing I'd say on that is, don't feel like, in your 
opening statement, you have to cover every single thing because 
we're going to leave the record open, and you can always submit 
your written statement, and it'll be part of the record.
    So, Mr. Ports, go ahead.

            STATEMENT OF JAMES F. PORTS, JR., DEPUTY

         ADMINISTRATOR, NATIONAL HIGHWAY TRAFFIC SAFETY

              ADMINISTRATION, DOT; ACCOMPANIED BY

          STEPHEN R. KRATZKE, ASSOCIATE ADMINISTRATOR

                   FOR RULEMAKING, NHTSA, DOT

    Mr. Ports. Thank you, Mr. Chairman. Let me first introduce, 
to my left, Mr. Steve Kratzke. He is the Associate 
Administrator for Rulemaking.
    Mr. Chairman, members of the Committee, thank you for the 
opportunity to appear before you to discuss this important 
issue of rollover protection, and particularly roof-crush 
safety.
    Every death and serious injury that occurs on our Nation's 
highways is a tragedy. As you know, rollover crashes account 
for about one-third of the nearly 30,000 light-vehicle occupant 
fatalities that occur each year. I share the same feelings of 
concern and empathy as you do for the individuals and families 
who have been tragically affected by these dreadful crashes, 
and I extend my deepest condolences to them.
    The agency developed and is implementing a comprehensive 
plan to address rollover crashes. Our three-pronged strategy 
begins with preventing the rollover from ever happening. NHTSA 
has mandated that all passenger vehicles be equipped with 
electronic stability control by 2012, and has added a rollover 
rating to the agency's five-star vehicle safety ratings.
    We also know that we cannot prevent each and every 
rollover, so we also do our best to keep occupants in the 
vehicle during the crash. Safety belts are the most effective 
crashworthiness countermeasure, reducing ejected rollover 
fatalities, reducing the probability of ejection by 91 percent 
in fatal crashes. NHTSA also has strength requirements for door 
latches and a forthcoming SAFETEA-LU proposal for ejection 
mitigation.
    Finally, in addition to rollover crash prevention and 
ejection mitigation, we strive to better protect the occupants 
kept inside the vehicle during a rollover through enhanced 
roof-crush resistance.
    As you mentioned, in 1973 the United States became the 
first country to adopt a roof-strength requirement. Since that 
time, Canada and Saudi Arabia have also adopted a similar 
requirement. No other government anywhere in the world has any 
requirement for roof strength.
    Each of these initiatives must work together to address the 
various aspects of the rollover problem. We are in the final 
stages of completing our August 2005 Notice of Proposed 
Rulemaking to upgrade roof-crush requirements of light 
passenger vehicles. Among the major provisions, the NPRM 
proposed to extend application of the standard to heavier 
vehicles, increase the roof strength requirements so that the 
vehicle would sustain a load equal to 2.5 times the unloaded 
weight, and require a new headroom criterion.
    In response to extensive public interest to the NPRM, a 
Supplemental Notice of Proposed Rulemaking was published, this 
past January. The SNPRM modified our original proposal to 
include for consideration a two-sided test requirement, as well 
as solicited comments to allow the agency the potential to go 
beyond the 2.5 strength-to-weight ratio. We also requested 
comments on our extensive testing that the agency conducted of 
current production vehicles.
    Because we're still in the rulemaking on this standard, we 
may not be able to discuss specific decisions related to the 
estimates of lives saved, the stringency of the requirements, 
or other issues related to the final rule.
    Mr. Chairman, thank you for your consideration and this 
subcommittee's ongoing efforts to improve highway safety. I 
would be pleased to answer any questions.
    [The prepared statement of Mr. Ports follows:]

   Prepared Statement of James F. Ports, Jr., Deputy Administrator, 
          National Highway Traffic Safety Administration, DOT
    Mr. Chairman, I am Jim Ports, Deputy Administrator of the National 
Highway Traffic Safety Administration (NHTSA). I appreciate the 
opportunity to appear before the subcommittee to discuss the important 
issue of rollover protection, and particularly roof crush safety.
    Every death and serious injury that occurs on our Nation's highways 
is a tragedy. Rollover crashes account for about one-third of the 
nearly 30,000 light vehicle occupant fatalities that occur each year. I 
share the same feelings of concern and empathy as you for the 
individuals and families who have been tragically affected by these 
dreadful crashes, and extend my deepest condolences to them.
    I am proud to say that NHTSA has taken significant steps to reduce 
the deaths and serious injuries that occur due to rollover crashes. 
Rollover crashes are complex and chaotic events. They can range from a 
single quarter turn to eight or more quarter turns, with the duration 
of the rollover crash lasting from one to several seconds. The wide 
range of rollover conditions occurs because these crashes largely occur 
off road where the vehicle motion is highly influenced by roadside 
conditions. Also, rollover crashes tend to occur at higher speeds than 
other crash types due to the energy required to initiate them.
    The agency developed a comprehensive plan to address these crashes 
and has made great strides to implement these strategies. It is 
important to realize that each initiative in NHTSA's comprehensive 
program addresses a different aspect of the rollover problem. Our 
strategy is to first reduce the occurrence of rollover crashes; second, 
keep occupants inside the vehicle when rollovers do occur; and finally, 
to better protect the occupants kept inside the vehicle during the 
rollover. Each of these three initiatives must work together to address 
the various aspects of the rollover problem.
    The most effective way to reduce deaths and injuries in rollover 
crashes is to prevent the rollover crash from occurring. Two agency 
efforts have been taken to reduce the occurrence of rollover crashes--
mandating that all passenger vehicles be equipped with Electronic 
Stability Control and incorporating a rollover rating into the agency's 
5-star vehicle safety ratings (known as the New Car Assessment 
Program).
    In April 2007, NHTSA published a final rule establishing 
requirements for Electronic Stability Control, or ESC, in passenger 
cars, multipurpose passenger vehicles, trucks, and buses weighing less 
than 10,000 pounds. ESC systems use automatic computer-controlled 
braking of individual wheels to assist the driver in maintaining 
control in critical driving situations. ESC is the most significant 
safety advancement since the introduction of seat belts. The agency 
estimates that this technology will save up to 9,600 lives in all types 
of crashes annually once all light vehicles on the road are equipped 
with ESC. These safety benefits will occur in all types of crashes 
where the driver would lose control of the vehicle and the vehicle 
would crash off the road or into another vehicle. However, the lion's 
share of these benefits will be in rollover crashes, where it is 
estimated that ESC systems will reduce about one-half (4,200 to 5,500) 
of the approximately 10,000 deaths each year resulting from rollover 
crashes.
    NHTSA incorporated a rollover static stability factor into its New 
Car Assessment Program (NCAP) in 2001. This consumer information 
program uses market forces to encourage manufacturers to make safety 
improvements not the least of which has been the voluntary adoption of 
ESC systems in many vehicles, including sport utility vehicles. In the 
7 years since incorporation into NCAP, we estimate that the risk of 
rollover in a single vehicle crash for an average sport utility vehicle 
has been reduced by nearly 20 percent, and that an average pickup 
rollover risk has been reduced almost 10 percent.
    When a rollover crash does occur, it is critical to keep the 
occupant inside the vehicle. The fatality rate for an ejected vehicle 
occupant is three times as great as that for an occupant who remains 
inside the vehicle. Our crash data show that about one-half of the 
people killed in vehicles that rolled over were completely ejected, and 
another 10 percent of those killed were partially ejected. So 
mitigating ejections offers potential for significant safety gains. 
Safety belts are the most effective crashworthiness countermeasure in 
reducing ejected rollover fatalities. In fact, seat belts reduce the 
probability of ejection by 91 percent in fatal crashes in passenger 
cars and light trucks. In addition to our successful efforts to 
increase seat belt use, NHTSA also has strength requirements for door 
latches and a forthcoming SAFETEA-LU proposal for ejection mitigation.
    Finally, in addition to rollover crash prevention and ejection 
mitigation, we strive to better protect the occupants kept inside the 
vehicle during the rollover through enhanced roof crush resistance. In 
1973, the United States became the first country to adopt a roof 
strength requirement. Since that time, Canada and Saudi Arabia have 
also adopted a similar requirement. No other government anywhere in the 
world has any requirement for roof strength.
    Each initiative in NHTSA's comprehensive program to address the 
different aspects of the rollover problem is important because each 
initiative has a different target population for which that initiative 
will be effective. Each of these three initiatives must work together 
to address the various aspects of the rollover problem. However, it is 
important to understand which portion of the rollover problem can be 
addressed by each of these three initiatives so that there is a clear 
and correct understanding of the safety benefits potentially associated 
with each of the different types of actions to reduce rollover deaths 
and injuries.
    In August 2005, NHTSA published a Notice of Proposed Rulemaking 
(NPRM) to upgrade the roof crush requirements of light passenger 
vehicles. Among the major provisions, the NPRM proposed to extend 
application of the standard to heavier vehicles, increase the roof 
strength requirements so that a vehicle would sustain a load equal to 
2.5 times its unloaded weight, and require a new headroom criterion. 
The agency has received a large number of comments from industry, 
public interest groups, and other parties addressing significant issues 
related to this proposed rule.
    In response to extensive public interest and safety advocate 
comments on the NPRM, a Supplemental Notice of Proposed Rulemaking 
(SNPRM) was published on January 30, 2008. The SNPRM modified our 
original proposal to include consideration of a two-sided test 
requirement, as well as soliciting comments to allow the agency the 
potential to go beyond a 2.5 Strength-to-Weight Ratio (SWR). Subsequent 
to issuance of the NPRM, the agency conducted extensive testing of 
current production vehicles to, among other things, determine the 
effects of two-sided testing and to assess the roof strengths of 
vehicles currently on the market. These test results were released in 
the SNPRM.
    Since issuance of the NPRM in 2005, NHTSA has collected and 
analyzed additional crash data, tested the strength of vehicle roofs in 
the vehicle fleet, completed cost and lead-time studies, and completed 
other analyses important for the final rule development. The agency is 
in the final stages of its work to issue the final rule. Because we are 
still in rulemaking on this Standard, we are not able to discuss 
specific decisions related to estimates of lives saved, stringency of 
the requirements, or other issues related to the final rule.
    Mr. Chairman, thank you for your consideration and this 
subcommittee's ongoing efforts to improve highway safety. I would be 
pleased to answer any questions.

    Senator Pryor. Great.
    Let me open, if I may, with some questions. First, let me 
follow up on what Senator Coburn asked, a few moments ago. You 
know, basically, he said that there is not enough transparency 
in your process, and one of the things that is hard for John Q. 
Public and Members of the U.S. Senate to understand is all the 
criteria that you use. One of the things he asked about was, 
when you laid out some of what you're trying to accomplish 
here, you talked about a goal of trying to keep the costs down, 
et cetera, but I assume that your ultimate goal is safety. Is 
that fair to say?
    Mr. Ports. Yes, sir, and thank you for that question. 
NHTSA's mission is all about safety, it's about reducing 
fatalities and injuries on our Nation's highways. So, it is a 
top priority of this agency. Before we began the NPRM process 
in 2001, we solicited comments from the public because we 
wanted to gain their insight on some of the issues that were 
out there and the potential things that we should look at. From 
that public comment period, we began the NPRM process and 
issued that proposal in 2005. After receiving public comment 
again on that NPRM, we decided that we should do more testing 
and analyze more data. It was through that testing--there is--
well, actually, it was through these public comments--the 
public comments that we received from all the stakeholders, the 
extra testing that we did, that we thought it was prudent to 
publish an SNPRM, the supplemental notice, in January of this 
year. We are now in the process of reviewing all the public 
comments from that process, from the supplemental budget--I 
mean, supplemental proposal, and analyzing that data, and we 
will include all of those comments in our final rule.
    Senator Pryor. I do agree with what Senator Coburn said a 
few moments ago--that if new rules don't make a major 
difference, in terms of safety and preventing fatalities and 
injuries--then we really haven't accomplished much. And I do 
agree with that. And I would hate for this agency to go through 
this exercise and then, in the end, not really change the 
outcome out there on the streets and highways of this country.
    I have another concern. He mentioned the preemption issue, 
and he said that he did not think it would be prudent for NHTSA 
to somehow foreclose the car owner's rights with your 
rulemaking. Could you give us a status report on that?
    Mr. Ports. Yes, Senator, thank you for that question. I 
know that preemption is a very important topic.
    NHTSA has a comprehensive approach to rollover, and saving 
lives and reducing injuries in a rollover crash. And through 
this process, a concern was raised that increasing the roof 
resistance too much could potentially increase a vehicle's 
rollover propensity if we added weight to the roof structure. 
Other things being equal, raising the roof's center of gravity 
could upset the balance between the efforts of increasing the 
roof strength and the rollover propensity, defeating the 
purpose of this rule.
    It was in light of that concern that we simply asked the 
question. And the reason that we asked that question was 
because we wanted public input from all the stakeholders. I 
think it's important that we, as an agency, be transparent in 
this process and put the information out there so that the 
public does have an opportunity to comment. We've done that, 
we've received numerous comments from all the stakeholders, 
raising both factual and legal issues, and we're continuing to 
analyze those comments, and we are also doing extra testing 
based on that information.
    All of those additional--and let me backtrack just a hair. 
We will carefully consider all of those comments before we make 
a final decision on this proposal, but all that information 
will be put in our final rule.
    Senator Pryor. I'm going to turn this over to my colleague, 
Senator McCaskill, here in just a moment, but let me go ahead 
and add my comments to your stack. I think it would be a 
mistake to do the preemption. I think that if NHTSA chooses 
that path, my guess is there would be a serious effort in the 
House and the Senate to try to change that. And I think you'd 
save everybody a lot of headaches and create less uncertainty 
by just not pursuing a preemption on this matter. I mean, you 
heard Senator Coburn, and I think you'd get that on both sides 
of the aisle.
    Senator McCaskill?

              STATEMENT OF HON. CLAIRE McCASKILL, 
                   U.S. SENATOR FROM MISSOURI

    Senator McCaskill. Thank you, Mr. Chairman.
    I want to talk a little bit--you just mentioned ``upset the 
balance,'' and I want to talk with you about preemption.
    I'm having a hard time figuring out what preemption has to 
do with a standard rule for safety. The last time we had a rule 
was 30-some years ago, correct?
    Mr. Ports. Are you talking about the roof-crush rule?
    Senator McCaskill. The safety standard, wasn't it 30-some 
years ago?
    Mr. Ports. In 1973, yes, ma'am.
    Senator McCaskill. So, what you're basically saying, by 
proposing preemption, is, ``You need to wait around for 30 
years, and not have any redress in any court--any state court 
in America, until we get around to it again.'' I mean, don't 
you see the value at NHTSA of the innovation that has occurred 
as a result of people accessing the courts in this country? I 
mean, Ford has done a great job with some of the technology; 
they're building, now, SUVs in Kansas City with some patented 
technology that's going to make a difference, and that came 
about, in part, because they were spurred to action by the 
legitimate claims in the courts across this country about their 
safety standards. I mean, does that not worry you, that we're 
not nimble enough to update the rules, except every 30 years, 
and that we're going to tell every state in the Nation that 
their laws, as it relates to rights of people to go to court, 
are going to be crushed?
    Mr. Ports. Thank you, Senator, I appreciate the follow-up 
to that question on preemption.
    The reason that we talked about upsetting the balance is 
because the concern was raised that if we increase the 
standard, that manufacturers may simply raise weight to the 
roof and raise the center of gravity, which would increase the 
vehicle's propensity to roll over. Part of our strategy, as I 
mentioned in my, opening statement, was that we have a 
comprehensive plan to first prevent the rollover, and we were 
not sure if this roof-crush rule would upset that balance or 
not, so what we did was, we asked the question of all the 
stakeholders, would this upset the balance? And what we're 
doing in this process is, we are receiving numerous comments 
from the stakeholders.
    Senator McCaskill. But, what does that have to do with--I 
mean, whether or not they're going to add more weight to the 
roof, what does that have to do with wiping out everyone in 
America's rights to use their state courts? What's that got to 
do--I don't understand the relationship there. What is the 
direct relationship between the balance, in terms of the weight 
of the roof, and the balance, in terms of every American's 
right to go to their courthouse in their state and have people 
from their community decide whether or not somebody has messed 
up or not?
    Mr. Ports. Thank you----
    Senator McCaskill. That's what I don't understand. I mean--
and when did NHTSA start including preemption language in all 
of their rules? When did this come about? This is a relatively 
new thing, isn't it?
    Mr. Ports.--thank you, Senator.
    My understanding of the preemption language is that we 
included it as part of the public discussion. At this time, we 
have not made any decisions on whether it will be included in 
our final rule or not. I would also state, however, that if 
it's a manufacturing defect, tort suits are not preempted, even 
with this language. So, your constituents may still have that 
right to sue in a case where a defect--a manufacturing defect 
is alleged.
    So, we are going to, as I mentioned, analyze all those 
comments----
    Senator McCaskill. Right.
    Mr. Ports.--and then, and only then, will we make a 
decision to move forward on preemption, or not. And that, 
again, will be in our final rule.
    Senator McCaskill. Let me see if I can cut to the chase 
here. I reviewed your proposed rules on everything from child 
restraint to locking mechanisms; and unfortunately, the evil 
boilerplate preemption language appears in every single one of 
them. Where did this come from? Why, all of a sudden, does 
NHTSA feel compelled to crush the rights of states? I mean, the 
irony is, this administration is supposed to be all about a 
small Federal Government and the rights of states. When and how 
did NHTSA make the decision to start including boilerplate 
preemption language in every rule you're proposing?
    Mr. Ports. I appreciate that follow-up. That helps me.
    The preemption language that you're talking about, the 
boilerplate language, is simply, if an issue of preemption 
should come up--or, if a balance is tipped, then preemption may 
be warranted. However, my understanding of the way these final 
rules are laid out, the preemption language is not included. 
So, it is literally up to a court to decide if that balance has 
been disrupted.
    Senator McCaskill. If we're not going to include them, then 
you could relieve a lot of heartburn by not putting them in the 
proposed rules. But, we have to assume, if, all of a sudden, 
preemption language is popping up like spring flowers, that 
there is a plot somewhere in this administration to see if they 
can't wipe out the rights of Americans across this country to 
access their local courts. And there are people in this 
Congress that are pretty upset about it, and we're going to 
work hard to make sure this administration doesn't get away 
with it.
    Thank you very much, Mr. Chairman.
    Senator Pryor. Thank you.
    Let me follow up on that, if I may, and that is--you said 
that if your rule, or maybe if the language in the preamble is 
codified into a rule, that there could still be tort liability 
for manufacturing defects. Is that right?
    Mr. Ports. I'm sorry, I'm--I want to----
    Senator Pryor. You said that----
    Mr. Ports.--make sure I heard that question----
    Senator Pryor.--there could still be tort liability for 
manufacturing defects. Is that what you said?
    Mr. Ports. Yes, sir, Senator. My understanding, from what 
the NHTSA lawyers have told me, is that if there is a 
manufacturing defect alleged, that state tort lawsuits are not 
preempted----
    Senator Pryor. OK.
    Mr. Ports.--by this language.
    Senator Pryor. Well--but, what--I guess what you'd be 
preempting, then, is design defects. That's what you're going 
after here, is design defects. And those are two different 
things, because a manufacturing defect is where, during the 
manufacturing process, something wasn't put together correctly, 
or there was a faulty material, or something in there that 
caused it to fail. Design defect is different, that's when the 
actual design of the vehicle is flawed, or the design of the 
tire or the design of the seatbelt, whatever it may be, is 
flawed.
    And, I'll tell you this, again--I just want to give NHTSA 
warning on this--I think that if you all pursue this preemption 
effort, I think you'll have bipartisan opposition in the 
Senate. You heard Dr. Coburn, who's not a big lawsuit guy, you 
know. You heard his reaction to this, and there will be others 
like that, as well. And I would strongly encourage NHTSA to 
back off of that because I think that's a big mistake.
    First, I don't think the American public is there. I don't 
think it's in the public interest to do that. But, second, I 
think you all are overstepping your bounds, as the executive 
versus the legislative, and I think that's a problem. But, 
third, I think that what you'll see is a reaction from the 
Congress that you won't like, and I think it's easier--again, I 
said it earlier--just to avoid the headache and not get into 
that preemption issue. I think it's a big mistake here.
    Let me ask you another couple of questions. I know my time 
is short here, and I don't know if Senator McCaskill has any 
other follow-ups, but let me just ask a couple of questions.
    One of the concerns that I have, and I think others do as 
well, is that right now the test is on one part of the vehicle, 
and I understand that NHTSA is contemplating having a test that 
would actually cover two sides of the roof. Can you give us a 
status report on that? Can you comment on that?
    Mr. Ports. Thank you, Senator. I appreciate that.
    As you mentioned, the test that we have right now is a 
quasi-static test which can test both sides of the vehicle, the 
driver side and/or the passenger side of the vehicle. So, it 
protects both sides, because the manufacturer does not know 
which side we would test. And then, through the--through all 
the comments in the NPRM that we received, we did additional 
testing, and in the supplemental notice, we asked for comment 
on two-sided tests, as you just mentioned.
    Senator Pryor. And so, you're just at the comment stage on 
that and you're not sure what NHTSA's going to do yet. NHTSA 
has not made a decision on a one-sided test or a two-sided 
test.
    Mr. Ports. Senator, that is correct, we have not made 
decisions.
    Senator Pryor. Now, I know that Congress mandated, and it 
at least encouraged NHTSA, to consider dynamic tests that 
realistically duplicate the actual forces transmitted during a 
rollover crash. Is that on the table for consideration?
    Mr. Ports. Senator, thank you very much. Appreciate that.
    Yes, NHTSA has done considerable whole-vehicle dynamic 
testing for the past 20 years. Some of the testing that we've 
considered is the 208 dolly test, the SAE inverted drop test, 
and the JRS, or the Jordan Rollover System. NHTSA's assessment 
of those dynamic tests continues, and we will be including that 
in the final rule.
    Senator Pryor. OK. So, you're not saying the final rule 
will include a dynamic test but at least you're going to 
discuss it in the final rule?
    Mr. Ports. Yes, Senator. What Congress has asked us to do 
is to look at it and assess it, and we have done that. We've 
done a very comprehensive test. We sent some of our three--
three of our top technical experts to meet with JRS, for 
example, and through that process we've learned a lot, and all 
of that information will be included in the final rule.
    Senator Pryor. OK. Do you anticipate that NHTSA will come 
out with separate rules for cars and trucks, or do you think 
you'll have one rule?
    Mr. Ports. Senator, we're striving for one rule and one 
standard.
    Senator Pryor. And on these tests that you're doing and 
this rulemaking you're going through right now has NHTSA 
decided to just use the 50th-percentile male dummy for all the 
tests? Is that what you're using for the tests?
    Mr. Ports. When we put out the supplemental notice, we 
asked--or we disclosed that we were talking about the 50-
percentile dummy. There have been numerous comments to use the 
95-percentile dummy. We are assessing those comments, and we 
will absolutely have those comments in our final rule.
    Senator Pryor. OK. My, just, general question would be, 
does it make sense, engineering sense and sense in the world of 
physics, et cetera, to use different sized dummies during your 
test, or should you just have one dummy size?
    Mr. Ports. Senator, let me refer that question to Steve 
Kratske, our expert, our technical expert, and he may be able 
to shed some light on that subject.
    Mr. Kratske. Thank you, Mr. Chairman.
    Typically, in our crashes for frontal crash or side crash 
we have used different-sized dummies because we want to be 
certain that it's not just targeting a particular level. In a 
quasi-static test, you're really trying to just get to vehicle 
performance. We don't have injury criteria now for the 
different sizes. So, in lieu of that, what we've proposed is 
just touching the head, so it's a measure of the distance 
available in the vehicle.
    Senator Pryor. Senator McCaskill, did you have any other 
questions?
    Senator McCaskill. I just have one, on follow up.
    I'm going to sound like a broken record here, but it's why 
I'm here today and it's what I really feel passionately about. 
And I do want to get on the record your acknowledgment that on 
April 6th, 2007, NHTSA issued a final rule on Electronic 
Stability Control which includes the boilerplate preemptive 
language in the preamble without any subject of notice or 
comment. And I want to make sure that you acknowledge that that 
is, in fact, true as it relates to the boilerplate language on 
preemption. The final rule was issued that included the 
boilerplate on preemption without any opportunity for anyone to 
comment about the preemption.
    Mr. Ports. Senator, I appreciate that. I am not positive 
right now, at this moment, whether that was included in the 
NPRM or not. What I'd be happy to do is go back and ask that 
question and share that information with you, your staff, and 
the rest of the Committee. I'd be more than happy to get that 
information for you.
    Senator McCaskill. If you can figure out where this is 
coming from, what directive is this, who is saying that you've 
got to include this preemption in every rule, when did this 
come down, and where did it come from? Did it come from the 
White House? Who is responsible for this path that you have 
chosen at NHTSA on preemption?
    I think we're anxious to figure out why all of a sudden 
this became an issue. It's not in the rule--it's in the 
preamble. What it's doing here is it is sending a shot across 
the bow to lawyers across this country that, ``You're going to 
have to fight to be able to file a lawsuit on behalf of people 
who are hurting, people who have been dramatically injured,'' 
because you all are including this in there. It doesn't provide 
certainty, it provides a stew, rich for litigation. And that's 
not what we're looking for here. We're looking for certainty, 
so we don't have needless excessive litigation. Everybody ought 
to be in that camp.
    So, I would be anxious, if you could share with us some 
kind of indication as to why this began and who's responsible 
for it beginning.
    Mr. Ports. Senator, I appreciate that. As I mentioned, I 
don't have that answer for you, at this moment, and we'd be 
glad to get that for you.
    But, as it relates to this rule, we put it in the NPRM, in 
the supplemental notice, to make sure that everyone in the 
public had the opportunity to discuss this matter. So, we 
didn't simply wait until the final rule to surprise anyone.
    Our goal is to be transparent, and our goal at NHTSA, to 
save lives and prevent injuries, is one that we take seriously. 
And so, when we look at a rule, we look at each and every rule 
as a stand-alone event, and that's how we make our decisions in 
this agency.
    Senator McCaskill. Well, I know your lawyer is here, and I 
do know that comment does not generally come to the preamble, 
that the preamble is not part of the rule that's open to 
discussion and that NHTSA didn't say ``Should we?'' But instead 
it said ``This is it,'' in the preamble, ``we're going to have 
preemption.'' And so, I will let you know, and I'm not trying 
to be mean to you, but I am far from satisfied with the answers 
you've given. I think you obviously are not in a position to 
say. But, the way this thing is happening, it doesn't look like 
this is all about getting the input of the public. It looks 
like this is, frankly, being railroaded through in a way in 
which people can't comment--in a way that people can't have an 
impact, and proof of that is the fact that you issued a final 
rule with it in there, in the preamble.
    So, if you would do whatever you can to address these 
questions in the coming days, I can assure you that I am one of 
many in the Senate who feels very strongly about this and we're 
anxious to get to the bottom of it.
    Thank you, Mr. Chairman.
    Senator Pryor. With that, let me say that we are going to 
leave the record open for 2 weeks, and I'd ask you to get your 
answers back to Senator McCaskill--just get them back to the 
committee, and we'll share with the Senator as soon as you get 
them back.
    And other Senators will have questions who are not here 
today, and I have a few to follow up on, as well, so we would 
ask you to try to get us timely responses and detailed 
responses within the next 2 weeks.
    I don't have time to go into it, but one of the questions I 
am going to ask you about in the written question's is a status 
report on Section 10303 of SAFETEA-LU, specifically the tire 
research component--a question on tire aging. I know that's a 
little bit off the subject, but that's an important question I 
think the Senate Committee would like a status report on. So, 
we'll cover that then.
    Thank you for being here, and now I'm going to call up the 
third panel. Thank you.
    All right, as we're changing places here, I'll go ahead and 
call out the names of the panel. I'm not going to give a 
lengthy introduction, so--
    First, we'd like to hear from Dr. David Garcia. He's an 
Independent Contractor and Public Speaker. Next, we'd like to 
have Mr. Stephen Oesch, Senior Vice President, Insurer and 
Government Relations, Insurance Institute for Highway Safety. 
Next, we'll have Mr. Rob Strassburger, Vice President, Vehicle 
Safety and Harmonization, Alliance of Automobile Manufacturers. 
Next, we'll have Ms. Joan Claybrook, President of Public 
Citizen. Next, we'll have Mr. Michael J. Stanton, President and 
CEO, Association of International Automobile Manufacturers. And 
next, we will have Ms. Jacqueline Gillan, Vice President, 
Advocates for Highway and Auto Safety.
    So, what I'd like to ask everyone to do is, if possible, 
keep your opening statements to 5 minutes. Those first couple 
of panels took a little bit longer than we anticipated, and we 
would appreciate it if you all kept your comments to 5 minutes, 
and then I'm sure we'll have a lot of questions.
    So, Dr. Garcia, are you ready? Why don't we go ahead.

 STATEMENT OF DR. DAVID A. GARCIA, INDEPENDENT CONTRACTOR AND 
                         PUBLIC SPEAKER

    Dr. Garcia. Thank you, Chairman, and thank you, Senator.
    I think a lot has been said here this morning, and thank 
you for your questions and being so direct on the right 
questions that need to be asked. So, I think it's going to 
shorten a lot of the things I need to say, because you have 
asked the tough questions. So, I'm going to focus more on what 
I have to say about the victims in this country.
    Today, I graciously received from you 5 minutes to defeat a 
voracious--it's this one, right here? I'm used to this already, 
this happens a lot of times.
    [Laughter.]
    Dr. Garcia. Hello? Can you hear me? OK.
    Today, I graciously received from you 5 minutes to defeat a 
voracious and insatiable giant that, in biblical proportions, 
continues to devour our Nation's sons and daughters, fathers 
and mothers, husbands and wives, friends and foes alike, while 
many, in apathy, simply choose to watch. That giant is none 
other than ``roof-crush'' which is occurring on our Nation's 
highways and back roads, and more voraciously and insatiably 
than the biblical giant mercilessly continues to run his 
course. I aim, today, with a God-given minute, to defeat for 
the last time this ruthless giant.
    Tyler Moody, Kevin Moody's 18-year-old son, died in 2003 
from positional asphyxia, when, not even knowing what hit him, 
the roof of the Ford Explorer he drove literally crushed the 
life out of him. The statistics would never tell you that Tyler 
once saved a life. Today, you can save more than 10,000 lives 
and 24 catastrophic injuries a year.
    If Tyler's death is not enough, think about Arizona Border 
Patrol Agent David Webb, who, while responding to a routine 
narcotics call, died from roof crush when the right rear tire 
of his Chevrolet Tahoe blew out, causing his vehicle to 
overturn. Celia Webb is Agent Webb's widow, and her presence 
here today speaks for her husband.
    If David's death is not enough, think about Christopher 
Cowan, whose Chevy Silverado rolled over on a flat, grassy 
terrain, and the roof completely collapsed to the belt line, 
also crushing the life out of him.
    If Christopher's death is not enough, think about Kimberly 
Schute, who broke her neck when her Jeep Grand Cherokee's roof 
buckled at its ``weak link'' and came crushing down on her 
head. And think about what happened to Agent Luis Pena when the 
roof of his Ford F-250 patrol vehicle crushed and dislocated 
his vertebrae, injuring his spinal cord, thus rendering him a 
quadriplegic. Luis Pena has a wife, Jennifer, and two children. 
He and his family also speak out with their presence here 
today.
    If Kimberly and Luis's inability to walk is not enough, 
think about Loa Griesbach, a teenage ventilator-dependent 
quadriplegic who will forever struggle for every breath that 
she needs, because of the complete collapse of her Suburban's 
roof.
    If Loa's inability to breathe is not enough, and in light 
of the fact that the automobile industry takes the position 
that there is no correlation between roof crush and head and 
spinal cord injuries, think about the 14 Marines who were in 
their Ford E-350 Club Wagon that overturned when the vehicle's 
rear tire delaminated. All of the Marines who died or sustained 
serious injuries were sitting on the side where the roof 
crushed.
    I am David Garcia, and I may not be a king or a war hero, 
but one of the many hundreds of thousands of individuals that 
roof crush has claimed. I was not driving an SUV, I was driving 
a Ford Escort. It is only by God's grace that I'm able to stand 
up today, even if metaphorically speaking, for Tyler, David 
Webb, Christopher, Kimberly, Luis, Loa, the marines, and all 
the victims who, for one reason or another, cannot afford the 
privilege to speak for themselves. The automobile industry 
should not go on doing business as usual, and we should demand 
that the facts surrounding roof crush should not continue to be 
a proprietary secret.
    How many times must a father lose a child? And how many 
families must be broken apart for it to become obvious that 
roof crush kills and maims people for life?
    Others will speak or submit the necessary supportive 
materials that are of concern to us here. However, it is 
necessary to underscore that the 26 state Attorneys General, 
maybe from your own states, who are extremely versed in the 
rule of law, rightfully oppose the preemption clause that will 
strip away the rights of injured victims while passing on the 
$34-billion-a-year bill to your constituents. What NHTSA is 
proposing regarding preemption is unjust, and if you consider 
the mandate, it is not legal. Yet, they plan to do this, 30 
days from now.
    As if behind our backs, NHTSA continues to promote and 
legislate what I believe is an FMVSS 216 mirage. Thus, 
understanding that it would take an act of Congress for NHTSA 
to do the right thing on behalf of the American people, we 
propose a bill that will mandate that NHTSA and the automobile 
industry will do the right thing, and we have a summary of that 
bill behind us.
    The reason why we need a new standard is not a secret. 
NHTSA did not get it right, back in 1971. We are at another 
crossroad in automobile roof safety, and we are about to make 
the same mistake all over again. It is time that NHTSA and the 
automobile industry join the global momentum that was making 
vehicles that not only provide better gas mileage, but that 
truly are designed to protect occupants in a rollover, and they 
should be prevented from legalizing a roof standard that has 
not, does not, and will not work.
    Every day, people die physically and spiritually in 
rollover accidents. I have a responsibility, before man and 
God. And even though I know nothing about healing broken bones 
and spinal cords, I do know a thing or two about healing broken 
spirits. Despite my condition, by the grace of God, I have been 
given much, and you, too, have been greatly blessed. Therefore, 
if you believe in what I believe in, then just as much is 
required of you as it is required of me. It is the sole purpose 
of why I made the long journey here today.
    Thank you.
    [The prepared statement of Dr. David Garcia follows:]

   Prepared Statement of Dr. David A. Garcia, Independent Contractor 
                           and Public Speaker
    Distinguished Members of the Committee:

    Today, I graciously receive from you 5 minutes to defeat a 
voracious and insatiable giant that, in biblical proportions, continues 
to devour our Nation's sons and daughters; fathers and mothers; 
husbands and wives; friends and foes alike,\1\ while many in apathy 
simply choose to watch. That giant is none other than roof crush, which 
is occurring on our Nation's highways and back roads, and more 
voraciously and insatiably than the biblical giant, mercilessly 
continues to run its course. I aim today with a God-given minute to 
defeat for the last time this ``roofless'' giant.
---------------------------------------------------------------------------
    \1\ An American Auto Safety Tragedy--ROOF CRUSH available at http:/
/www.peoplesafein
rollovers.org/An%20American%20Auto%20safety%20Tragedy.pdf.
---------------------------------------------------------------------------
    Tyler Moody, Kevin Moody's 18-year-old son, died in 2003 from 
positional asphyxia,\2\ when, not even knowing what had hit him, the 
roof of the Ford Explorer he drove literally crushed the life out of 
him. The statistics would never tell you that Tyler once saved a life. 
Today you can save more than 10,000 lives and 24,000 catastrophic 
injuries a year.
---------------------------------------------------------------------------
    \2\ Kevin, Veronica and Michelle Moody's letter to Senators, 
engraved in marble, dated September 6, 2007.
---------------------------------------------------------------------------
    If Tyler's death is not enough, think about Arizona Border Patrol 
Agent, David Webb, who, while responding to a routine narcotics call, 
died from roof crush when the right rear tire of his Chevrolet Tahoe 
blew out, causing his vehicle to overturn. Celia Webb is agent Webb's 
widow, and her presence here today speaks for her husband.
    If David's death is not enough, think about Christopher Cowan whose 
Chevy Silverado rolled over on a flat, grassy terrain and the roof 
completely collapsed to the beltline, also crushing the life out of 
him.
    If Christopher's death is not enough, think about Kimberly Schute 
who broke her neck when her Jeep Grand Cherokee's roof buckled at its 
``weak link'' and came crushing down on her head. And think about what 
happened to Agent Luis Pena, when the roof of his Ford F-250 patrol 
vehicle crushed and dislocated his vertebrae, injuring his spinal cord, 
thus rendering him a quadriplegic. Luis Pena has a wife, Jennifer, and 
two children. He and his family also speak out with their presence here 
today.
    If Kimberly and Luis's inability to walk is not enough, think about 
Loa Griesbach, a teenage ventilator dependent quadriplegic, who will 
forever struggle for every breath that she needs because of the 
complete collapse of her Suburban's roof.
    If Loa's inability to breathe is not enough, and in light of the 
fact that the automobile industry takes the position that there is no 
correlation between roof crush and head and spinal cord injuries,\3\ 
think about the 14 Marines, who were in the Ford E-350 Club Wagon that 
overturned when the vehicle's rear tire delaminated. All of the Marines 
who died or sustained serious injuries were sitting on the side where 
the roof crushed.
---------------------------------------------------------------------------
    \3\ Paula Lawlor's letter to Senators dated June 4, 2008.
---------------------------------------------------------------------------
    I am David Garcia, and I may not be a king or a war hero, but one 
of the many hundreds of thousands of individuals that roof crush has 
claimed. I was not driving an SUV, I was driving a Ford Escort. It is 
only by God's grace that I am able to stand up today, even if 
metaphorically speaking, for Tyler, David Webb, Christopher, Kimberly, 
Luis, Loa, the Marines and all the victims, who, for one reason or 
another cannot afford the privilege to speak for themselves. The 
automobile industry should not go on doing business as usual, and we 
should demand that the facts surrounding roof crush should not continue 
to be a proprietary secret. How many times must a father lose a child, 
and how many families must be broken apart for it to become obvious 
that roof crush kills and maims people for life?
    Others will speak or submit the necessary supportive materials that 
are of concern to us here. However, it is necessary to underscore that 
26 State Attorney Generals, maybe from your own states who are 
extremely versed in the rule of law, rightfully oppose the preemption 
clause \4\ that would strip away the rights of injured victims, while 
passing on the $34 billion a year bill to your constituents. What NHTSA 
is proposing regarding preemption is unjust, and if you consider their 
mandate, it is not legal. Yet, this will happen in less than 30 days 
unless you promptly act.
---------------------------------------------------------------------------
    \4\ Paula Lawlor's submission to NHTSA Docket 2005-22143 dated 
November 21, 2005.
---------------------------------------------------------------------------
    As if behind our backs, NHTSA continues to promote and legislate, 
what I believe is an FMVSS 216 mirage. Thus, understanding that it 
would take an act of Congress for NHTSA to do the right thing on behalf 
of the American people, we are proposing a bill that will mandate that 
NHTSA and the automobile industry:

        1. Conduct two-sided sequential static roof crush tests as 
        currently done, but increase the applied force to at least 3.5 
        times the maximum unloaded vehicle weight and prohibit any part 
        of the roof or test device from contacting the dummy.

        2. Develop repeatable dynamic tests on rollovers and 
        disseminate test results to the public.

        3. Establish a roof strength safety rating consumer information 
        program and make the strength-to-weight ratio (SWR) of all 
        vehicles available to consumers.

        4. Initiate a study to determine the advantages and 
        disadvantages of retrofitting vehicles with the 10 percent 
        lowest SWR. If there is a benefit, require manufacturers of 
        these vehicles to develop retrofit kits and make these kits 
        available to the public.

    The reason why we need a new standard is not a secret: NHTSA did 
not get it right back in 1971.\5\ We are at another crossroad in 
automobile roof safety, and we are about to make the same mistake all 
over again. It is time that NHTSA and the automobile industry joined 
the global momentum toward making vehicles that not only provide better 
gas mileage, but that truly are designed to protect occupants in a 
rollover, and they should be prevented from legalizing a roof strength 
standard that has not, does not, and will not work. The technology is 
not out of this world. The 2006 Volkswagen Jetta, 5.1; the 2007 Scion 
TC, 4.6; the 2006 Volvo XC90, 4.6; the 2006 Honda Civic, 4.5; and even 
the Ford 500, which has an SWR of 3.9 not only exceed the 1.5 FMVSS 216 
standard, but also exceeds the proposed 2.5 SWR. To legally encourage a 
2.5 SWR, is inconsistent with the momentum and innovation that we are 
seeing, and would only encourage automobile manufacturers to lax when 
it comes to vehicle safety. A request was formally made to the Office 
of Management and Budget \6\ and to NHTSA, in 2005,\7\ to evaluate the 
cost/benefit at 3.5 SWR, but to this date it has not been done. This 
cost/benefit analysis is of utmost importance in realizing the actual 
lives saved and the value placed on each life saved.
---------------------------------------------------------------------------
    \5\ Deadly By Design by Paula Lawlor and Todd Tracy.
    \6\ Record of April 28, 2005 meeting with Office of Management and 
Budget.
    \7\ Paula Lawlor's submission to NHTSA Docket 2005-22143 dated 
November 21, 2005.
---------------------------------------------------------------------------
    Every day people die physically and spiritually in rollover 
accidents. I have a responsibility before man and God, and even though 
I know nothing about healing broken bones and spinal cords, I do know a 
thing or two about healing broken spirits. Despite my condition, by the 
grace of God I have been given much, and you too have been greatly 
blessed. Therefore, if you believe in what I believe in, then just as 
much is required of you as is required of me. It is the sole purpose of 
why I made the long journey here today. Thank you.

                                       Dr. David A. Garcia,
                                                Endicott, New York.
Attachments: Tyler Joseph Moody
David Webb
Christopher Cowan
Kimberly Schute
Luis Pena, Jr.
Loa Griesbach

14 Marines--Those Injured or Dead:

    Major Trevor Kleineahlbrandt
    Captain David W. Lucas
    Staff Sergeant Frank E. Weathers
    Sergeant Armando Avila
    Sergeant Michael Vasquez
David Garcia
Improving the Safety of Vehicle Roofs
                              Attachments

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                 Improving the Safety of Vehicle Roofs
    Whereas 10,000 people in the United States die in rollover crashes 
each year;
    Whereas rollover crashes constitute 3 percent of passenger vehicle 
crashes, but about one-third of the fatalities;
    Whereas 24,000 people are seriously injured in the United States in 
rollover crashes each year;
    Whereas an internal NHTSA study The Role of Vertical Roof Intrusion 
and Post-Crash Headroom in Predicting Roof Contact Injuries to the 
Head, Neck, or Face During FMVSS No. 216 Rollovers; An Updated Analysis 
became publicly available on January 31, 2008 and concluded: ``A 
statistically significant relationship existed between both vertical 
roof intrusion and post-crash headroom on the one hand and maximum 
injury severity on the head, neck, or face injury from roof contact on 
the other hand.''; and
    Whereas the Insurance Institute for Highway Safety (IIHS) sponsored 
study Roof Strength and Injury Risk in Rollover Crashes, dated March 
2008 concluded: ``Increased vehicle roof strength reduces the risk of 
fatal or incapacitating driver injury in single-vehicle rollover 
crashes.'': Now, therefore, be it

        (a) To amend title 49, United States Code  30101(1) to require 
        Federal Motor Vehicle Safety Standard No. 216; Roof Crush 
        Resistance to incorporate the following----

                (1) Increase applied force to 3.5 times the maximum 
                unloaded vehicle weight;

                (2) Prohibit any roof component or test device from 
                contacting a seated 50th percentile male Hybrid III 
                dummy under the specific applied force; and

                (3) Conduct two-sided sequential tests on each vehicle 
                retaining the current test procedure.

                (4) MOTOR VEHICLES COVERED.--This subsection applies to 
                motor vehicles, including passenger cars, multipurpose 
                passenger vehicles, and trucks, with a gross vehicle 
                weight rating of 10,000 pounds or less.

                (5) EFFECTIVE DATE.--Subsection (a) shall take effect 
                no later than 4 years after the date of enactment of 
                this Bill.

        (b) To amend title 49, United States Code  30101(2) to require 
        ROLLOVER TESTS FOR ROOF STRENGTH.----

                (1) DEVELOPMENT.--No later than 2 years after the date 
                of the enactment of this Bill, the Secretary of 
                Transportation shall----

                        (A) develop a repeatable dynamic test on 
                        rollovers of motor vehicles for the purpose of 
                        a consumer information program of vehicle roof 
                        strength; and

                        (B) carry out a program of conducting such 
                        tests.

                (2) TEST RESULTS.--As the Secretary develops a test 
                under paragraph (1)(A), the Secretary shall conduct a 
                rulemaking to determine how best to disseminate test 
                results to the public.

                (3) MOTOR VEHICLES COVERED.--This subsection applies to 
                motor vehicles, including passenger cars, multipurpose 
                passenger vehicles, and trucks, with a gross vehicle 
                weight rating of 10,000 pounds or less.

        (c) To amend title 49, United States Code  30117(a)(1) to 
        require a ROOF STRENGTH SAFETY RATING PROGRAM.--No later than 
        90 days after the date of enactment of this Bill, the Secretary 
        of Transportation shall issue a notice of proposed rulemaking 
        to establish a roof strength safety rating consumer information 
        program and make publicly available the SWR (Strength-to-Weight 
        Ratios) of all vehicles, to provide practicable, readily 
        understandable, and timely information to consumers for use in 
        making informed decisions in the purchase of vehicles. No later 
        than 6 months after the date of enactment of this Bill, the 
        Secretary shall issue a final rule establishing a roof strength 
        safety rating program and provide consumer information which 
        the Secretary determines would be useful to consumers who 
        purchase vehicles.

                (1) MOTOR VEHICLES COVERED.--This subsection applies to 
                motor vehicles, including passenger cars, multipurpose 
                passenger vehicles, and trucks, with a gross vehicle 
                weight rating of 10,000 pounds or less.

        (d) To amend title 49, United States Code  30101(2) to require 
        SAFETY RESEARCH AND DEVELOPMENT TO RETROFIT VEHICLES WITH LOW 
        SWR.----

                (1) SAFETY RESEARCH.--No later than 12 months after the 
                date of enactment of this Bill, the Secretary of 
                Transportation shall initiate and complete a study 
                compiling information on the advantages and 
                disadvantages of retrofitting vehicles with the 10 
                percent lowest SWR (Strength-to-Weight Ratios) to 
                increase their SWR, determining the benefits, if any, 
                of retrofitting, and submit a report on the results of 
                that study to Congress.

                (2) DEVELOPMENT.--If Congress believes there is a 
                benefit to retrofitting vehicles with the 10 percent 
                lowest SWR, then no later than 12 months after the date 
                of enactment of this Bill, the Secretary of 
                Transportation shall issue a notice of proposed 
                rulemaking to require the manufacturers of vehicles 
                with the 10 percent lowest SWR to develop retrofit kits 
                to strengthen the roofs of those vehicles. No later 
                than 18 months after the date of enactment of this 
                Bill, the Secretary shall issue a final rule requiring 
                the manufacturers of vehicles with the 10 percent 
                lowest SWR to develop retrofit kits to strengthen the 
                roofs of those vehicles and make the retrofit kits 
                publicly available.

                (3) MOTOR VEHICLES COVERED.--This subsection applies to 
                the previous 10 model years prior to the date of the 
                enactment of this Bill.

    Senator Pryor. Thank you.
    I'm sorry, Mr. Oesch?
    Mr. Oesch. Yes, sir.
    Senator Pryor. I mispronounced that earlier.
    Mr. Oesch. That's quite all right.
    Senator Pryor. Go ahead. Thank you.
    Mr. Oesch. No one ever gets it, sir.
    [Laughter.]

     STATEMENT OF STEPHEN L. OESCH, SENIOR VICE PRESIDENT,

               INSURER AND GOVERNMENT RELATIONS,

             INSURANCE INSTITUTE FOR HIGHWAY SAFETY

    Mr. Oesch. I am Steve Oesch, with the Insurance Institute 
for Highway Safety.
    The Institute is a nonprofit research and communications 
organization that is dedicated to identifying ways to reduce 
the deaths, injuries, and property damage on our Nation's 
highways. We are sponsored by automobile insurers. I'm here 
today to share with you the results of our recent research 
looking at the relationship between roof strength and injury 
risk in rollover crashes.
    A key to providing protection to occupants in any type of 
crash, be it front, side, or rollover, is to ensure that the 
occupant compartment, the safety cage around the occupants, is 
well maintained so that the airbags and the lap/shoulder belts 
can provide protection in the event of a crash.
    You'll see, in my written testimony, some examples of the 
40-mile-an-hour frontal offset crashes that we've done. You'll 
see the test results for the Pontiac Transport, that the 
occupant compartment collapsed around the occupants, therefore 
increasing the risk of injury. In sharp contrast, you'll see 
the test results for the 2005 Chevrolet Uplander, and the 
occupant compartment is well maintained so that the airbags and 
lap/shoulder belt could provide protection in that crash.
    Prior to our recent research on roof strength, several 
studies had reported no relationship between roof strength and 
injury risk in rollover crashes. These earlier studies defy 
logic, because, as I just explained, in every other crash 
configuration, the basic principle of occupant crash protection 
means that you preserve the safety cage so the airbags and lap/
shoulder belts can provide protection in the event of a crash.
    Thus, there is no logical reason to assume that in a 
rollover crash you would want to design a vehicle that would 
allow excessive intrusion. In fact, if you look at NASCAR 
vehicles, they're designed with roll cages. And I've included 
in my written testimony an example of a very violent crash in 
which the vehicle rolled over numerous times; the driver was 
well protected, because there was a roll cage in that vehicle.
    Our study was a two-part analysis involving vehicle testing 
and examination of the outcome of real rollover crashes. We 
looked at 11 mid-sized four-door SUVs, and we subjected them to 
a test that's similar to the test that's conducted by 
automobile manufacturers to determine whether the vehicle 
complies with the Federal standard. I've included in my 
testimony two demonstration tests--one ivolved the Nissan 
Xterra, the vehicle with one of the strongest roofs in our 
study, and we subjected it to a force of 10,000 pounds. As you 
can see in the photograph, the Nissan Xterra withstood that 
force with only 2 inches of crush. In contrast, if you look at 
the 2000 model year Ford Explorer in that same test, we crushed 
it down to 10 inches, and it was not able to resist the 10,000 
pounds of force. Such a striking difference in the amount of 
roof crush illustrates why you would expect to have higher 
injury risk in SUVs with weaker roofs.
    Having established this difference in roof strength, we 
then looked at real-world crashes. We examined more than 23,000 
crashes that occurred during the period 1997 to 2005 involving 
the vehicles that we tested. We then looked at the difference 
in the roof strength between those vehicles, and what we found 
was, no matter what measure of roof strength that we used, a 
constant relationship emerged; it showed that SUVs with 
stronger roofs had lower injury risks, just exactly what you 
would expect. We are going to continue to do additional 
research on other classes of vehicles. We expect to see that 
same relationship.
    As to the proposed Federal standard, our study clearly 
shows the relationship between increased roof strength and 
reduced injury risk in rollover crashes. We support the use of 
the current roof-crush procedures set forth in existing Federal 
standard. Our study supports--shows that you--going to a 
strength-to-weight ratio of at least three times vehicle weight 
would be warranted by the data. But, as we point out, if we 
even went from 1.5 times the vehicle weight, which is the 
existing standard, to 2.5 times the vehicle weight, which is 
the proposal from the National Highway Traffic Safety 
Administration, there would be a reduction in rollover serious 
and fatal injuries by 28 percent. So, increasing the roof 
strengths, naturally, beyond that 2.5 times vehicle weight 
would reduce the risk even further.
    Mr. Chairman, members of the Committee, I want to thank you 
very much for the opportunity. And I would like to acknowledge 
that two of the authors of the study, Mr. Matt Brumbelow and 
Mr. Eric Teoh, accompany me today, and I want to credit them 
with the very important research they did showing this 
relationship between increased roof strength and lower injury 
risk.
    Thank you.
    [The prepared statement of Mr. Oesch follows:]

Prepared Statement of Stephen L. Oesch, Senior Vice President, Insurer 
    and Government Relations, Insurance Institute for Highway Safety
    The Insurance Institute for Highway Safety is a nonprofit research 
and communications organization that identifies ways to reduce the 
deaths, injuries, and property damage on our Nation's highways. We are 
sponsored by U.S. automobile insurers. Thank you for inviting IIHS to 
testify on the findings of our recent research on the relationship 
between roof strength and injury risk in rollover crashes.
Principles of Vehicle Crashworthiness
    A key to protecting occupants in front, side, rear, or rollover 
crashes is ensuring that compartments, or ``safety cages,'' surrounding 
the occupants remain intact so lap/shoulder belts and airbags can 
provide protection during the crashes. If an occupant compartment 
allows excessive intrusion of the door, instrument panel, footwell, 
roof, or other vehicle structure, it compromises the ability of vehicle 
restraint systems to protect the occupants.
    This is demonstrated by comparing 2 vehicles IIHS evaluated in 40 
mph frontal offset crash tests. The occupant compartment in the 1997 
Pontiac Transport was compromised, thus increasing the potential for 
occupant injury. In sharp contrast is the occupant compartment in the 
2005 Chevrolet Uplander, which withstood the forces of the frontal 
impact and remained intact, allowing the lap/shoulder belt and airbag 
to provide good occupant protection.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Prior to our recent research on roof strength, several studies had 
reported no relationship between roof strength and injury risk in 
rollover crashes. These earlier findings defy logic because, as I just 
explained, in every other crash configuration--whether front, side, or 
rear--the basic principles of occupant protection dictate that the 
compartment be designed to resist intrusion so lap/shoulder safety 
belts and airbags can provide protection to occupants. There is no 
logical reason to assume that in a rollover crash, you would design a 
vehicle to permit excessive intrusion. This is the reason NASCAR 
vehicles are equipped with roll bars to prevent roof crush in violent 
rollover crashes such as the one experienced by Michael McDowell at the 
Texas Motor Speedway in 2008. He walked away from this crash uninjured.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Findings of IIHS's Study of SUV Roof Strength
    Our study, described in the attached documents,\1\ \2\ \3\ is a 2-
part analysis involving vehicle testing and examination of the outcomes 
of real-world rollover crashes. Eleven midsize 4-door SUV roof designs 
were subjected to a test similar to the one conducted by automakers to 
comply with Federal roof strength requirements. Researchers applied 
force to the roofs until crush reached 10 inches, measuring the peak 
force required for 2 inches of crush, 5 inches of crush, and 10 inches. 
There was a range of performance among the SUVs tested, and 2 
demonstration tests illustrate the differences.
---------------------------------------------------------------------------
    \1\ Brumbelow, M.L.; Teoh, E.R.; Zuby, D.S.; and McCartt, A.T., 
2008. Roof strength and injury risk in rollover crashes. Arlington, VA: 
Insurance Institute for Highway Safety.
    \2\ Insurance Institute for Highway Safety, 2008. Comment to the 
National Highway Traffic Safety Administration in response to comments 
by Padmanaban and Moffatt on the Institute's study, ``Roof Strength and 
Injury Risk in Rollover Crashes,'' May 13. Arlington, VA.
    \3\ Insurance Institute for Highway Safety, 2008. Strength of roofs 
on SUVs influences risk of occupant injury in rollover crashes, new 
Institute study finds. Status Report 43:1. Arlington, VA.
---------------------------------------------------------------------------
    These photographs show what happened when the 2000 Nissan Xterra, 
the SUV with the strongest roof in IIHS tests, and the 2000 Ford 
Explorer, which has one of the weakest roofs, were subjected to a force 
of up to 10,000 pounds. The Xterra resisted a force of 10,000 pounds 
after only 2 inches of crush, while the Explorer crushed all the way to 
10 inches without reaching this level of resistance. Such a striking 
difference in the amount of roof crush illustrates why higher injury 
risk would be expected in SUVs with weaker roofs.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Having established the range of roof strength among the SUVs in the 
IIHS study, the researchers then focused on almost 23,000 rollover 
crashes of the same SUVs that occurred in the real world during 1997-
2005. Logistic regression was used to assess the effect of roof 
strength on the likelihood of serious or fatal driver injury in the on-
the-road rollover crashes of the SUVs. The regression controlled for 
state-to-state differences, vehicle stability, and driver age, and the 
results denote the injury risk, given the strength of an SUV's roof. No 
matter what measure of roof strength the researchers used, a consistent 
relationship emerged: SUVs with stronger roofs had lower injury risks.
    There are important strengths of our study. We looked only at 
midsize SUVs because they are similar vehicles with similar drivers and 
a high risk of rolling over. This allowed researchers to limit the 
number of variables in the analysis and concentrate on the ones that 
would ensure that results were not biased by factors such as 
differences in driver age, types of use, etc. Another strength is that 
we used several different measures of roof strength, all of which 
confirmed that injury risk is lower among vehicles with stronger roofs. 
This makes logical sense, and the data confirm it.
    Based on our research, we expect that the study's finding of 
reduced injury risk with increased roof strength will hold for other 
types of vehicles, although the magnitude of the injury risk reductions 
may differ among vehicle groups. To further establish this, we plan to 
conduct another series of roof crush tests involving a different class 
of vehicles--small passenger cars--that also has a high rollover rate.
Dynamic Rollover Test
    A dynamic rollover test using instrumented test dummies would be a 
gold standard for assessing occupant protection in rollover crashes. 
However, we are not certain that the procedures for a dynamic test are 
reasonably repeatable, and we are not sure how to conduct such a test 
to obtain the most relevant information. Real-world rollover crashes 
vary widely. They often are preceded by violent events as vehicles 
leave the road and begin to roll over. The positions of occupants at 
the time a rollover begins are uncertain, so it is difficult to 
position test dummies to represent where occupants would be in real-
world rollover crashes. Current dummies designed for front, side, and 
rear testing have not been shown to behave in a human-like manner in 
rollover crashes.
Proposed Federal Roof Crush Standard
    IIHS's study clearly shows the relationship between increased roof 
strength and reduced injury risk in rollover crashes. We support the 
continued use of the current roof crush procedures set forth in the 
existing Federal standard on roof crush resistance. However, our study 
supports requiring vehicles to have a strength-to-weight ratio of at 
least 3.0. We estimate that a 1-unit increase in peak strength-to-
weight ratio--for example, from 1.5 times vehicle weight, as specified 
in the existing Federal standard, to 2.5 times, as proposed by the 
National Highway Traffic Safety Administration--would reduce the risk 
of serious or fatal injury in a rollover crash by 28 percent. 
Increasing roof strength requirements beyond 2.5 times vehicle weight 
would reduce injury risk even further.
                                 ______
                                 

     Roof Strength and Injury Risk in Rollover Crashes--March 2008

   by Matthew L. Brumbelow, Eric R. Teoh, David S. Zuby, and Anne T. 
                                McCartt

Abstract
    Vehicle rollover is a major cause of fatality in passenger vehicle 
crashes. Rollovers are more complicated than planar crashes, and 
potential injury mechanisms still are being studied and debated. A 
central factor in these debates is the importance of having a strong 
vehicle roof. Minimum roof strength is regulated under Federal Motor 
Vehicle Safety Standard (FMVSS) 216, but no study to date has 
established a relationship between performance in this or any other 
test condition and occupant protection in real-world rollover crashes. 
The present study evaluated the relationship between roof strengths of 
11 mid-size SUV roof designs and the rate of fatal or incapacitating 
driver injury in single-vehicle rollover crashes in 12 states. Quasi-
static tests were conducted under the conditions specified in FMVSS 
216, and the maximum force required to crush the roof to 2, 5, and 10 
inches of plate displacement was recorded. Various measures of roof 
strength were calculated from the test results for evaluation in 
logistic regression models. In all cases, increased measures of roof 
strength resulted in significantly reduced rates of fatal or 
incapacitating driver injury after accounting for vehicle stability, 
driver age, and state differences. A one-unit increase in peak 
strength-to-weight ratio (SWR) within 5 inches of plate displacement, 
the metric currently regulated under the FMVSS 216 standard, was 
estimated to reduce the risk of fatal or incapacitating injury by 28 
percent.
Introduction
    During the past two decades automobile manufacturers have made 
important advances in designing vehicle structures that provide greater 
occupant protection in planar crashes (Lund and Nolan 2003). However, 
there has been little consensus regarding the importance of roof 
strength in rollover crashes, as well as the best method for assessing 
that strength. In 2006 one-quarter of fatally injured passenger vehicle 
occupants were involved in crashes where vehicle rollover was 
considered the most harmful event (Insurance Institute for Highway 
Safety, 2007). Many fatally injured occupants in rollovers are 
unbelted, and some are completely or partially ejected from the vehicle 
(Deutermann 2002). There is disagreement concerning how structural 
changes could affect ejection risk or the risk of injury for occupants 
who remain in the vehicle, regardless of belt use.
    Some researchers have concluded there is no relationship between 
roof crush and injury risk as measured by anthropometric test devices 
(ATDs) (Bahling et al., 1990; James et al., 2007; Moffatt et al., 2003; 
Orlowski et al., 1985; Piziali et al., 1998), whereas others have 
reached the opposite conclusion using data from the same crash tests 
(Friedman and Nash, 2001; Rechnitzer et al., 1998; Syson 1995). These 
disparate conclusions have led to distinct hypotheses about the primary 
source of rollover injury: either a diving mechanism in which injury 
occurs independently of roof crush, or a roof intrusion mechanism in 
which injury is caused by structural collapse. These hypotheses often 
are seen as being mutually exclusive, but both assume that keeping 
occupants in the vehicle and preventing head-to-roof contact reduces 
injury risk. According to Bahling et al., (1990), ``the absence of 
deformation may benefit belted occupants if it results in the belted 
occupant not contacting the roof.''
Federal Regulation of Roof Strength
    Although many researchers have studied potential rollover injury 
mechanisms, evaluation of the Federal regulation governing roof 
strength has been lacking. Federal Motor Vehicle Safety Standard 
(FMVSS) 216 was introduced in 1971 to establish a minimum level of roof 
strength and is the only regulation governing rollover crashworthiness 
for passenger vehicles (Office of the Federal Register 1971). FMVSS 216 
specifies a quasi-static test procedure that measures the force 
required to push a metal plate into the roof at a constant rate. It 
requires a reaction force equal to 1.5 times the weight of the vehicle 
be reached within 5 inches of plate displacement. In 1991 the standard 
was extended to apply to light trucks and vans with gross vehicle 
weight ratings less than 6,000 pounds (Office of the Federal Register 
1991).
    In 2005 NHTSA issued a notice of proposed rulemaking (NPRM) 
announcing its intent to upgrade the roof strength standard (Office of 
the Federal Register 2005). According to the proposal the test 
procedure would remain largely unchanged but the level of required 
force would be increased to a strength-to-weight ratio (SWR) of 2.5. 
The maximum 5-inch plate displacement limit would be replaced by a 
requirement that the minimum strength be achieved prior to head-to-roof 
contact for an ATD positioned in the front outboard seat on the side of 
the vehicle being tested. Using two different analysis methods, NHTSA 
estimated 13 or 44 lives per year would be saved by the proposed 
standard, equivalent to less than 1 percent of rollover fatalities. 
These estimates were based on an evaluation of 32 crashes in the 
National Automotive Sampling System/Crashworthiness Data System (NASS/
CDS), after assuming that the following occupants, among others, would 
not benefit from the proposed upgraded standard: occupants in arrested 
rolls, ejected occupants, unbelted occupants, occupants in rear seats, 
and occupants without coded intrusion above their seating positions.
    In 2008 NHTSA issued a supplemental notice of proposed rulemaking 
announcing the results of additional research tests (Office of the 
Federal Register 2008). The proposal indicated the agency may consider 
adopting a sequential two-sided test. Final decisions about the minimum 
SWR for either a one- or two-sided test are pending results of an 
updated benefits analysis.
Previous Research Relating Roof Strength to Crash Injury Outcomes
    NHTSA's benefits analysis in the 2005 NPRM assumed that roofs 
designed to meet a higher strength requirement in the quasi-static test 
are better able to maintain occupant headroom during rollover crashes 
in the field. This link has never been shown, nor has any measure of 
roof strength been found to predict injury risk. The agency's own 
assessment found most vehicles ``easily exceeded'' the requirements of 
FMVSS 216, even vehicles produced before introduction of the standard 
(Kahane 1989). Demonstrating that a test promotes crashworthy designs 
is difficult without either a sample of vehicles not meeting the test 
requirements or a range of performance among vehicles that pass. Kahane 
found that some hardtop roof designs without B-pillars sustained more 
crush before meeting the minimum strength requirement, and that fleet-
wide fatality risk in non-ejection rollover crashes declined during the 
1970s, a time period corresponding to a shift toward roof designs with 
B-pillars. These findings did not establish a relationship between roof 
strength and injury because test results for specific vehicles were not 
compared with injury rates for those vehicles.
    Only two studies directly investigated the relationship between 
peak roof strength and injury outcome for occupants in real-world 
rollover crashes (Moffatt and Padmanaban 1995; Padmanaban et al., 
2005). Vehicles were evaluated using the quasi-static procedure 
outlined in FMVSS 216, but every vehicle was tested to a full 5 inches 
of plate displacement to measure roof strength in excess of the minimum 
SWR. An earlier study by Plastiras et al., (1985) did not incorporate 
measures of peak roof strength and used a severely limited sample of 
crashes.
    Moffatt and Padmanaban (1995) constructed a logistic regression 
model to investigate the effects of age, gender, belt use, alcohol use, 
crash environment (rural/urban), number of vehicle doors, vehicle 
aspect ratio (roof height divided by track width), vehicle weight, roof 
damage, and roof strength on the likelihood of fatal or incapacitating 
driver injury in single-vehicle rollover crashes. Crash data consisted 
of single-vehicle rollovers in databases of police-reported crashes in 
four states. Multiple vehicle types were included. The study reported 
no relationship between roof strength and the likelihood of fatal or 
incapacitating injury. Although more severe roof damage was associated 
with higher likelihood of injury, the study found roof strength did not 
predict the likelihood of severe roof damage.
    Padmanaban et al., (2005) conducted a follow-up study that expanded 
the vehicle sample and differed in a few other respects, but the 
findings were similar. Driver factors such as belt use, age, and 
alcohol use were reported as important predictors of injury risk, 
whereas roof strength was not related to the risk of fatal or 
incapacitating injury, or to the risk of fatal injury alone. Both 
studies also found that vehicles with higher aspect ratios had lower 
rates of fatal or incapacitating injury.
    These findings call into question the effectiveness of the FMVSS 
216 regulation. The standard was established to ``reduce deaths and 
injuries due to the crushing of the roof,'' but according to this 
research, roof strength assessed under the regulated test conditions 
has no relationship to injury likelihood. Furthermore, the Moffatt and 
Padmanaban (1995) study found no relationship between roof strength and 
roof damage in rollover crashes. This finding suggests two 
possibilities: either the Federal standard is not evaluating roof 
strength in a mode relevant to real-world rollovers, or the methods 
used in these studies have allowed other factors to obscure this 
relevance. Differences among vehicle types and state reporting 
practices are two examples of factors that may have confounded the 
results for roof strength.
    The purpose of the present study was to investigate whether there 
is any relationship between performance in the quasi-static test 
specified by FMVSS 216 and injury risk in rollover crashes. By 
restricting the analysis to midsize four-door SUVs the study sought to 
minimize other factors that may confound an analysis of roof strength, 
such as the differences in crash severity, vehicle kinematics, occupant 
kinematics, and driver demographics associated with vehicles of 
different types. Vehicle stability, occupant age effects, and 
differences between states were controlled statistically in the 
analyses. The study estimated the effects of raising the minimum SWR 
requirement and also compared alternative strength metrics calculated 
from the roof test data.
Methods
    Logistic regression was used to evaluate the effect of roof 
strength on driver injury risk in single-vehicle rollover crashes 
involving midsize four-door SUVs. Roof strength data for 11 SUV models 
were obtained from quasi-static tests in which roofs were crushed with 
up to 10 inches of plate displacement. Using data from police-reported 
crashes in 12 states, driver injury rates by make/model were calculated 
as the proportion of drivers in single-vehicle rollover crashes who 
were coded as having fatal or incapacitating injury.
Vehicle Selection and Roof Strength Testing
    Certain vehicle safety features might affect the rate of injuries 
in rollover crashes and thereby confound the analyses of roof strength. 
Side curtain airbags and electronic stability control (ESC) are two 
such features. In a single-vehicle rollover crash the presence of side 
curtain airbags may reduce the risk of full or partial occupant 
ejection or reduce the risk of injury for occupants remaining in the 
vehicle. ESC does not influence injury risk once a rollover has begun, 
but it most likely affects the type of rollover crashes in which ESC-
equipped vehicles are involved. All models with side curtain airbags or 
ESC as standard features were excluded. None of the remaining vehicles 
had optional ESC installation rates exceeding 3 percent, and only one 
had an optional curtain airbag installation rate higher than 5 percent 
(Ward's Communications, 2006). Potential confounding from the inclusion 
of 2002-04 Ford Explorers, 15 percent of which had curtain airbags, was 
addressed in a manner described below. Although it would have been 
desirable to evaluate roof strength effects for vehicles with these 
safety features, which soon will be standard across the fleet, there 
were insufficient data to do so.
    Roof strength data from vehicle manufacturers typically do not 
enter the public domain and therefore are not readily available to 
independent researchers. Additionally, compliance testing rarely is 
extended beyond the crush distance required to demonstrate the minimum 
SWR of 1.5. To study the range of roof strengths in the vehicle fleet, 
testing must continue beyond this level to measure peak force. The 
required test data were available for three midsize SUVs from NHTSA 
research related to the proposed standard upgrade. These data were 
included in the study.
    Roof strength data for additional vehicles were obtained from tests 
conducted by General Testing Laboratories, under contract with the 
Insurance Institute for Highway Safety. The eight midsize SUVs with the 
most rollover crashes in the state databases used for the study were 
tested. Six of these models were not current designs, so it was 
necessary to test used vehicles. Tested vehicles had no previous crash 
damage and were equipped with the original factory-installed windshield 
and side windows. It has been suggested that the windshield and its 
bond to the vehicle frame can contribute up to 30 percent of the 
strength measured in the test (Friedman and Nash 2001).
    In total, tests of 11 roof designs provided the data for the study. 
Some of these designs were shared by corporate twins, so the number of 
vehicle models in the study exceeds 11.
Static Stability Factor
    Moffatt and Padmanaban (1995) and Padmanaban et al., (2005) found 
that vehicles with larger aspect ratios had lower rates of serious 
driver injury. The authors did not discuss the implications of this 
finding, although the 2005 study suggested it was not due to any 
increased headroom of taller vehicles. Assuming identical suspension 
properties, taller and narrower vehicles are less stable than wider 
shorter ones, leading to rollovers at lower speeds and with less severe 
tripping events. It is possible that these lower speed rollovers are 
less likely to cause serious injury, meaning that when rollovers do 
occur, less stable vehicles may have lower severe injury rates simply 
because they roll more easily. Harwin and Emery (1989) reported this 
from a sample of 3,000 rollover crashes in Maryland. The present study 
included static stability factor (SSF) as a predictor in the logistic 
regression. SSF is a better measure of stability than aspect ratio 
because the height of the center of gravity is measured instead of the 
height of the roof. NHTSA uses SSF to assign rollover risk ratings to 
the vehicle fleet, and these publicly available data were used in this 
study.
Roof Strength Metrics
    Because performance in the FMVSS 216 test has not been shown to 
affect injury risk, it is not clear that a baseline SWR within 5 inches 
of plate displacement better predicts injury outcome than other 
strength metrics that can be calculated from the same test data. The 
energy absorbed by the roof may be more relevant to injury risk than 
the peak force it can withstand, or the roof's performance over a plate 
displacement other than 5 inches could better predict injury risk. The 
contribution of vehicle mass to rollover crashworthiness also is 
unknown.
    In the present study the following metrics were evaluated: peak 
force, SWR, energy absorbed, and equivalent drop height. SWR is peak 
force divided by vehicle curb weight, and equivalent drop height is 
energy divided by curb weight converted to inches. The term 
``equivalent drop height'' is used because this metric can be 
considered the height from which the vehicle could be dropped on its 
roof to produce the same level of crush as observed in the test (under 
an ideal condition where the roof deforms identically in the dynamic 
and quasi-static conditions). Each of the metrics was calculated within 
2, 5, and 10 inches of plate displacement. Two inches was chosen based 
on the highly linear characteristic of the force-deflection curves up 
to this displacement. Ten inches represented the maximum deflection in 
10 of the 11 tests.
    Because there were 11 tested roof designs, the evaluations using 
peak force and energy absorption had 11 available values for 
comparison. The use of curb weight for calculating SWR and equivalent 
drop height produced many more unique values. Corporate twins were 
separated where curb weights differed, and two-wheel drive vehicles 
were separated from four-wheel drive versions due to their lower 
weights and varying SSF values. These 31 vehicles produced 28 unique 
values of SWR and equivalent drop height. Table 1 lists the vehicle 
test data used in the analysis. Appendix A reports the other metrics 
for these vehicles as well as the other models for which these data can 
be applied. The results for the 1996-2001 Ford Explorer and Mercury 
Mountaineer reflect the use of averaged values obtained from two tests. 
The Mitsubishi Montero Sport was omitted from the 10-inch displacement 
evaluations because NHTSA's test of this vehicle did not continue 
beyond 7.4 inches. This omission did not substantially affect the 
results; the Montero Sport had the smallest exposure of all vehicles in 
the study.

             Table 1.--FMVSS 216 Roof Strength Test Results
------------------------------------------------------------------------
                                             Peak roof strength (lbf)
 Model years      Make         Model    --------------------------------
                                            2 in       5 in      10 in
------------------------------------------------------------------------
1996-2004     Chevrolet    Blazer            4,293      7,074      7,337
2002-2005     Chevrolet    TrailBlazer       6,896      8,943      8,943
1998-2003     Dodge        Durango           6,409      9,138      9,138
1996-2001     Ford         Explorer          5,901      7,072      8,196
2002-2004     Ford         Explorer          6,895      9,604     12,372
1996-1998     Jeep         Grand             5,497      8,455      8,455
                            Cherokee
1999-2004     Jeep         Grand             5,073      6,560      7,090
                            Cherokee
2002-2005     Jeep         Liberty           8,226     10,374     10,544
1997-2004     Mitsubishi   Montero           6,063     10,069        N/A
                            Sport
2000-2004     Nissan       Xterra            9,431     11,996     11,996
1996-2000     Toyota       4Runner           5,269      8,581      8,581
------------------------------------------------------------------------

Rollover Crash Data
    Data for single-vehicle rollover crashes were obtained from the 
State Data System. The system is maintained by NHTSA and consists of 
data from police-reported crashes submitted to the agency by certain 
states. Qualifying states had data available for some part of calendar 
years 1997-2005, had event and/or impact codes allowing single-vehicle 
rollovers to be identified, and had available information on vehicle 
identification numbers sufficient for determining vehicle make, model, 
and model year. Twelve states met these criteria: Florida, Georgia, 
Illinois, Kentucky, Maryland, Missouri, New Mexico, North Carolina, 
Ohio, Pennsylvania, Wisconsin, and Wyoming. All of these states use the 
KABCO injury coding system, where ``K'' represents fatal injuries and 
``A'' represents incapacitating injuries as assessed by the 
investigating police officer.
Logistic Regression
    Logistic regression was used to assess the effect of roof strength 
on the likelihood of fatal or incapacitating driver injury. The final 
models controlled for state, SSF, and driver age. Controlling for state 
is necessary because of differences in reporting methods, terrain, 
urbanization, and other factors that could result in state-to-state 
variation in injury rates. The potential influence of SSF on rollover 
crash severity was discussed previously, and age has been found to 
affect injury risk (Li et al., 2003). A separate model was fit for each 
roof strength metric at each plate displacement distance, yielding 12 
models. The effect of roof strength was assumed to be constant across 
all states. Because rollovers resulting in fatal or incapacitating 
injuries are fairly rare events, the odds ratios resulting from these 
models are reasonable approximations of relative risks and are 
interpreted accordingly.
    Other covariates initially were examined in the models. These 
included coded belt use, driver gender, vehicle drive type (two- vs. 
four-wheel drive), and vehicle age. Driver gender, drive type, and 
vehicle age did not have significant effects on injury likelihood and 
were excluded from the final model. Coded belt use did affect injury 
risk in rollover crashes, and there was concern that belt use may 
confound the observed effects of roof strength. To study this 
possibility, separate models were fit for drivers coded as belted, 
unbelted, and unknown despite the unreliability of this information 
from police reports.
    Tests that provided data for the 2002-04 Ford Explorer and 2000-04 
Nissan Xterra were conducted with an alternative tie-down procedure 
that NHTSA was investigating for a change to the laboratory test 
procedure specified by the Office of Vehicle Safety Compliance (NHTSA 
2006). At least one manufacturer has expressed concern that this tie-
down procedure produces different results than the procedures used in 
its own compliance tests (Ford Motor Company 2006). The test procedure 
employed by General Testing Laboratories for this study differed from 
both the alternative being investigated by NHTSA and the procedure used 
by Ford. Two supplemental analyses addressed these procedural 
variations. First, results for the Explorer and Xterra were excluded 
and the data were modeled again. This also addressed any potential 
confounding resulting from the 15 percent installation rate of side 
curtain airbags in the 2002-04 Explorer. Second, a sensitivity analysis 
was conducted. This consisted of 10 separate regression models in which 
the roof strength inputs to the model varied by up to 10 percent above 
or below the measured strength. These values were sampled from a 
distribution using a random number generator.
    One difficulty associated with using fatal and incapacitating 
injury counts as the measure of crash outcome is the subjectivity with 
which police can code incapacitating injuries. To check potential error 
from police judgment, separate models were fit for fatal injuries alone 
to ascertain that they followed the same pattern as models including 
incapacitating injuries.
Estimated Lives Saved
    The present study has direct bearing on any future upgrades to 
FMVSS 216. Most of the study vehicles would require stronger roofs if 
the SWR requirement increased from 1.5 to 2.5 without any other 
modifications to the test procedure. To estimate the number of lives 
saved by such a change, data were extracted from the Fatality Analysis 
Reporting System for 2006. Fatalities were counted for occupants in 
front outboard seating positions in single-vehicle rollover crashes for 
each of the study vehicles. For vehicles with SWRs below 2.5, the 
increase required to achieve this level of strength was used to scale 
the effectiveness estimates of the final logistic regression model, 
producing vehicle-specific effectiveness values. These values were 
applied to the number of fatalities in each vehicle to produce an 
estimate of total lives saved. A second estimate was calculated using a 
target SWR of 3.16, the highest level achieved by any of the study 
vehicles. No compliance margin was included in these estimates; it was 
assumed that the roof strength values would not be greater than the 
target strength value.
Results
    Figure 1 shows the unadjusted relationship between the rate of 
fatal or incapacitating driver injury and peak SWR within 5 inches of 
plate displacement, the metric used in FMVSS 216. The circles represent 
the raw injury rate data; circle sizes are proportional to the total 
number of rollover crashes in the state databases for each study 
vehicle, and hence to that vehicle's contribution to the weighted 
regression line that is plotted. The slope of the line represents an 
injury rate 24 percent lower than average for an SWR one unit higher 
than average, but no adjustment was made for potentially confounding 
factors.
    After controlling for state effects, SSF, and driver age the 
logistic regression models estimated changes in the odds of fatal or 
incapacitating driver injury for greater roof strength. Lower injury 
rates were associated with higher values of peak force, SWR, energy 
absorption, and equivalent drop height at 2, 5, and 10 inches of plate 
displacement. All of these findings were statistically significant at 
the 0.05 level. The model for peak SWR within 5 inches predicted that a 
one-unit increase in SWR would reduce the risk of fatal or 
incapacitating driver injury by 28 percent. These findings were based 
on 22,817 rollover crashes in the 12 states.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Table 2 lists the odds ratios for fatal or incapacitating driver 
injury for higher roof strength values. Odds ratios less than one 
indicate that greater roof strength is associated with lower injury 
risk. The units vary by metric. Peak force is given in English tons, 
SWR in increments of vehicle weight, energy absorption in kilojoules, 
and equivalent drop height in inches. One-unit differences in these 
metrics do not represent equivalent changes in roof strength, so the 
point estimates in the first column should not be directly compared 
against one another. To facilitate comparison, the second column lists 
the range of roof strength test performance for the study vehicles, and 
the third column lists the effect associated with a difference of this 
amount. For example, the lowest peak force within 2 inches of plate 
displacement was 4,293 lb<INF>f</INF> (2.15 tons), observed in the test 
of the Chevrolet Blazer. The highest peak force was 9,431 
lb<INF>f</INF> (4.72 tons) for the Nissan Xterra, or 2.57 tons greater 
than the force in the Blazer test. A strength difference of 2.57 tons 
was associated with a 49 percent lower injury risk for the stronger 
roof.
    The effects of driver age and SSF also are listed in Table 2. SSF 
values ranged from 1.02 to 1.20 for the study vehicles, so the effect 
of a 0.1 unit increase in SSF was evaluated. Results did not show a 
clear trend in injury risk by SSF. The effect of age was very 
consistent and statistically significant. Each 10-year increase in 
driver age was estimated to increase injury risk, given a single-
vehicle rollover had occurred, by 12-13 percent.

       Table 2.--Results of Logistic Regression Models for Risk of Fatal or Incapacitating Driver Injuries
----------------------------------------------------------------------------------------------------------------
                                                                        Roof strength            SSF     Driver
                                                               ----------------------------------------    age
                                                                                                       ---------
                                                      Plate       Odds            Odds ratio    Odds      Odds
                Strength  metric                  displacement    ratio               for       ratio     ratio
                                                                 for  1    Range   observed   for  0.1   for  10
                                                                  unit               range      unit      year
                                                                increase                      increase  increase
----------------------------------------------------------------------------------------------------------------
Peak force                                               2 in   0.77*     2.15-4      0.51*   1.05      1.13*
                                                                          .72
(tons)                                                   5 in   0.82*     3.28-6      0.58*   1.06      1.12*
                                                                          .00
                                                        10 in   0.74*     3.55-6      0.46*   1.06      1.13*
                                                                          .19
----------------------------------------------------------------------------------------------------------------
                                                         2 in   0.55*     1.05-2      0.43*   0.98      1.13*
                                                                          .48
SWR                                                      5 in   0.72*     1.64-3      0.61*   0.96      1.12*
                                                                          .16
                                                        10 in   0.57*     1.77-3      0.45*   0.93      1.13*
                                                                          .16
----------------------------------------------------------------------------------------------------------------
Energy                                                   2 in   0.34*     0.45-0      0.57*   1.01      1.13*
                                                                          .97
absorbed (kJ)                                            5 in   0.71*     2.58-4      0.52*   1.08      1.13*
                                                                          .51
                                                        10 in   0.82*     6.28-8      0.59*   1.06      1.13*
                                                                          .96
----------------------------------------------------------------------------------------------------------------
Equivalent                                               2 in   0.56*     0.96-2      0.48*   0.95      1.13*
                                                                          .25
drop height (in)                                         5 in   0.85*     5.56-1      0.45*   0.98      1.13*
                                                                          0.5
                                                        10 in   0.89*     13.6-2      0.44*   0.93      1.13*
                                                                          0.5
----------------------------------------------------------------------------------------------------------------
* Statistically significant at 0.05 level.

    Eighty-three percent of drivers in the study were coded as belted. 
Logistic regression models using only these drivers produced estimates 
for the effectiveness of roof strength in preventing injury that were 
very similar to those of the regression models for all drivers. All 
estimates were statistically significant. Ten percent of drivers were 
coded as unbelted, and regression models restricting to these crashes 
found small effects of roof strength on injury risk that were not 
statistically significant. Police reported unknown belt use for the 
remaining 7 percent of drivers. Roof strength effect estimates for 
these crashes were similar to the overall model, although not all were 
statistically significant at the 0.05 level. Results are listed in 
Table 3.

  Table 3.--Results of Logistic Regression Models for Risk of Fatal or
       Incapacitating Driver Injuries By Police-reported Belt Use
------------------------------------------------------------------------
                                       Odds ratios for 1 unit increases
                                          in roof strength, by police
                            Plate              reported belt use
                        displacement -----------------------------------
                                        All
                                      drivers  Belted  Unbelted  Unknown
------------------------------------------------------------------------
Peak force                     2 in   0.77*    0.79*   0.93      0.79
(tons)                         5 in   0.82*    0.82*   1.00      0.90
                              10 in   0.74*    0.76*   0.94      0.81
------------------------------------------------------------------------
                               2 in   0.55*    0.59*   0.85       0.54*
SWR                            5 in   0.72*    0.73*   0.99      0.78
                              10 in   0.57*    0.59*   0.90      0.59
------------------------------------------------------------------------
Energy                         2 in   0.34*    0.40*   0.64      0.34
absorbed (kJ)                  5 in   0.71*    0.73*   0.95      0.79
                              10 in   0.82*    0.85*   0.95      0.86
------------------------------------------------------------------------
Equivalent                     2 in   0.56*    0.62*   0.79       0.54*
drop height (in)               5 in   0.85*    0.86*   0.98      0.86
                              10 in   0.89*    0.91*   0.97       0.88*
------------------------------------------------------------------------
*Statistically significant at 0.05 level

    The two supplemental analyses addressing test procedure differences 
produced results comparable with the overall results in Table 2. The 
odds ratio for fatal or incapacitating driver injury associated with a 
one-unit higher SWR at 5 inches of plate displacement, originally 0.72, 
was 0.74 for the regression model excluding the Explorer and Xterra and 
ranged from 0.67 to 0.78 for the 10 regression models with varying roof 
strengths. These results remained statistically significant at the 0.05 
level.
    Of the 22,817 rollover crashes in the state data set, 1,869 drivers 
sustained incapacitating injuries and 531 sustained fatal injuries. 
Because these injuries were split among 12 different states and up to 
28 unique SWR values, fatality counts were quite small. Nevertheless, 
results from the fatality models were similar to results from the 
models that also included incapacitating injury, and in 11 of 12 cases 
were statistically significant at the 0.05 level. Results are presented 
in Table 4.

    Table 4.--Results of Logistic Regression Models of Risk of Driver
                                Fatality
------------------------------------------------------------------------
                                                                  Odds
                                                                  ratio
                                                   Plate         for  1
                                               displacement       unit
                                                                increase
------------------------------------------------------------------------
Peak force                                               2 in   0.61*
(tons)                                                   5 in   0.80*
                                                        10 in   0.58*
------------------------------------------------------------------------
                                                         2 in   0.36
SWR                                                      5 in   0.76
                                                        10 in    0.43*
------------------------------------------------------------------------
Energy                                                   2 in   0.11*
absorbed (kJ)                                            5 in   0.54*
                                                        10 in   0.62*
------------------------------------------------------------------------
Equivalent                                               2 in   0.35*
drop height (in)                                         5 in   0.79*
                                                        10 in   0.80*
------------------------------------------------------------------------
* Statistically significant at 0.05 level.

    In 2006, 668 occupants in front outboard seating positions were 
killed in single-vehicle rollover crashes involving the study vehicles. 
It was estimated that 108 of these lives (95 percent confidence 
interval: 63-148) could have been saved by increasing the minimum SWR 
required by FMVSS 216 from 1.5 to 2.5. Increasing the minimum SWR to 
3.16 could have saved 212 lives (95 percent confidence interval: 130-
282).
Discussion
    The present study demonstrates that roof strength has a strong 
effect on occupant injury risk. This is in contrast to previous 
research relating roof test results to injury rates in field rollover 
crashes (Moffatt and Padmanaban 1995; Padmanaban et al., 2005). To 
fully investigate these differences, the detailed roof strength data 
from the previous studies would need to be compared with the data 
reported here. Unfortunately, these earlier data are confidential and a 
precise reason for the difference in results cannot be established. 
Nevertheless, the differing methods employed by the studies offer some 
potential explanations.
    One of the biggest differences is that confounding effects 
associated with vehicle type largely were ignored in earlier research. 
Passenger cars, minivans, pickups, and SUVs all were included, and 
vehicles were classified by aspect ratio (roof height divided by track 
width). The substantial differences in driver demographics, rollover 
kinematics, and other factors associated with these vehicle types were 
unlikely to be captured with a measurement based solely on two exterior 
vehicle dimensions.
    The only consideration of vehicle type was a secondary analysis in 
the Moffatt and Padmanaban (1995) study in which sports cars were 
grouped with pickups and SUVs, while non-sports cars were grouped with 
minivans. This attempted to control for the likelihood of drivers 
engaging in risky driving maneuvers, but likely only served to 
exacerbate differences in rollover crashes. Sports cars typically are 
the least rollover prone of all vehicles, with low centers of gravity 
and wide track widths. By grouping sports cars with SUVs and pickups, 
the authors combined vehicles requiring very severe roll-initiation 
events with vehicles requiring less severe initiation. Calculations 
using data reported by Digges and Eigen (2003) showed that for belted 
non-ejected occupants in rollover crashes, more than 20 percent of 
those in passenger cars were exposed to two or more roof impacts, 
whereas less than 10 percent of SUV and pickup occupants were in 
rollovers this severe.
    Another difference was that these two previous studies did not 
control for differences among the states used in the analysis. NHTSA 
analyses of rollover crashes using state data controlled for these 
differences (Office of the Federal Register 2000), and the present 
study did so as well.
Belt Use and Ejection
    Schiff and Cummings (2004) found that police reports overestimate 
belt use as compared with NASS/CDS, which is regarded as a more 
reliable source of this information. The authors found the most 
disagreement in cases where occupant injuries were least severe; for 
uninjured occupants coded as unbelted in NASS/CDS, police reported 
positive belt use 47 percent of the time. Because of this discrepancy, 
including restraint use as a predictor of injury would produce 
regression models that overestimate the true effect of belt use and 
reduce the apparent effect of other variables, such as roof strength.
    The present study did not include police-reported belt use in the 
final regression model. Preliminary models separately analyzed drivers 
coded as belted and unbelted. Regression models for drivers with 
reported belt use estimated roof strength effects nearly identical to 
the effects estimated for all drivers. This is not surprising given the 
high percentage of reported belt use, but it does imply that belt use 
is not confounding the results of the final regression model. The 
models for drivers reported as unbelted did not find a significant 
relationship between roof strength and injury risk. Roof strength may 
have less of an effect on injury risk for unbelted drivers, but results 
are inconclusive given the limited sample of drivers reported as 
unbelted and the inaccuracy of restraint use from police reports.
    Thirty-eight percent of drivers who police said were unbelted also 
were reported as ejected. Digges et al., (1994) reported that 42 
percent of unrestrained occupants who were ejected exited the vehicle 
through a path other than the side windows, such as the door opening or 
the windshield. Increased roof strength potentially can reduce the 
integrity loss that can lead to doors opening or windshields being 
displaced. As the number of vehicles with side curtain airbags 
increase, the likelihood of ejection through the side windows should 
decrease. However, weak roofs could compromise the protection afforded 
by these airbags if they allow the roof rails to shift laterally and 
expose occupants to contacts with the ground.
Injury Causation
    In finding that vehicles with stronger roofs are more protective of 
occupants, this study does not directly address injury mechanisms. It 
is possible the occupant protection provided by increased roof strength 
mitigates crush injuries by maintaining head clearance, reduces diving 
injuries by changing vehicle kinematics, or some combination of the 
two.
    The possibility that roof strength influences vehicle kinematics 
was identified by Bahling et al., (1990). The authors observed 
substantial differences in rollover tests of production and rollcaged 
sedans. The production vehicles had a greater ``velocity and duration 
of the roof-to-ground impact of the trailing roofrail'' due to more 
roof deformation earlier in the roll. In addition, the actual number of 
far-side roof impacts among the rollcaged vehicles was less than half 
the number among the production vehicles. For far-side occupants, these 
changes produced a dramatic reduction in the number and average 
magnitude of neck loads surpassing 2 kN.
Various Roof Strength Metrics
    The present study evaluated roof strength with multiple metrics 
calculated from NHTSA's quasi-static test data. Logistic regression 
analyses found rollover injury risks were significantly lower for 
vehicles with stronger roofs, regardless of which strength assessment 
was used. Based on this finding, it is difficult to determine whether 
any one metric may be more predictive of injury outcome than the 
others. To permit an indirect comparison of the metrics, the one-unit 
effect estimates were converted to estimates for strength level 
increases equal to the range of study vehicle roof strengths. However, 
it is not known how much the relationship between these ranges would 
change with samples of other vehicles. For the vehicles in this study, 
such comparisons showed a range of predicted injury risk reductions but 
did not reveal any single combination of strength metric and plate 
displacement distance that stood out above the others.
    For the study vehicles, higher peak roof strengths and SWRs within 
2 and 10 inches of plate displacement predicted greater reductions in 
injury risk than roof strengths within 5 inches of displacement. The 
federally regulated metric of SWR evaluated within 5 inches predicted 
the smallest reduction in injury risk of all 12 metric and displacement 
combinations. Across all three displacement distances, higher values of 
equivalent drop height predicted the most consistent reductions in 
injury risk but the differences from other metrics were not large. 
Future analyses of the quasi-static test condition's relevance to real-
world rollovers should further evaluate the equivalent drop height 
metric.
    The metrics that accounted for vehicle curb weight were somewhat 
better predictors of injury risk than the metrics that did not. The 
importance of weight may be stronger across the entire vehicle fleet, 
where the range of curb weights is much wider than for the study 
vehicles. More than 80 percent of the rollover crashes in this study 
occurred among vehicles with curb weights between 3,800 and 4,200 
pounds.
Other Covariates
    All of the logistic regression models estimated significant injury 
risk increases of 12-13 percent for each 10-year increase in driver 
age. The findings for SSF were not statistically significant. Although 
the full range of SSF values for the study vehicles was 1.02-1.20, 74 
percent of the rollover crashes in this study involved vehicles with 
SSF values between 1.06 and 1.09. This could explain the inconclusive 
injury risk estimates because such small variation in SSF values may be 
outweighed by other differences that affect vehicle stability and 
cannot be captured in SSF calculations, such as wheelbase or suspension 
and tire properties. A stronger trend may exist across the wider range 
of SSF values found in the entire fleet, with the most stable vehicles 
typically having values of 1.50 (Robertson and Kelley 1989).
Implications of Testing Used Vehicles
    The analyses required vehicle models that have been in the fleet 
for enough years to accumulate sufficient crash data, so it was 
necessary to test used vehicles. According to vehicle manufacturers and 
NHTSA, roof strengths of used vehicles may not be equivalent to those 
of new vehicles (Office of the Federal Register 2006). Vehicles in the 
present study had no crash damage or corrosion that could have affected 
test results. Factory-installed windshields and side glazing still were 
present. However, it is possible that different results would have been 
obtained for new models. To some extent, this concern was addressed 
with the sensitivity analysis. The injury risk findings did not vary 
substantially when roof strength values were varied up to 10 percent.
    Test results for the study vehicles may better represent the roof 
strengths of vehicles involved in rollover crashes than results for 
vehicles used in compliance testing and those used in earlier research. 
Previous studies included tests of production vehicles, prototypes, and 
vehicles ``representative of production'' that were ``deemed 
satisfactory for compliance . . . [based on] engineering judgment'' 
(Moffatt and Padmanaban 1995). The authors did not specify how many 
values were obtained from production vehicles.
Relevance To Proposed FMVSS 216 and Estimated Lives Saved
    The estimated number of lives saved by increasing the regulated SWR 
to 2.5 is considerably higher than the estimated 13 and 44 lives saved 
indicated in NHTSA's 2005 NPRM, despite the fact the agency's estimates 
cover the entire passenger vehicle fleet. Estimates presented here are 
limited to the 11 study vehicles for two reasons: peak roof strength 
values for other vehicles mostly are unknown, and the effectiveness of 
roof strength in reducing injury may vary across vehicle types. Another 
difference in the estimates comes from the NPRM's modified plate 
displacement criterion, which allows roof intrusion for each vehicle 
until head contact with an ATD. The NPRM details 10 research tests in 
which plate displacement ranged from 3.2 to 7.3 inches at roof contact 
with the ATD. Because the present study looked at midsize SUVs with a 
narrow range of headroom values relative to the entire fleet, results 
could not directly address the headroom criterion proposal.
    The number of rollover fatalities in the future will be affected by 
other changes to the vehicle fleet in addition to roof strength, such 
as wider availability of ESC and side curtain airbags, especially those 
designed to inflate in rollovers. Nevertheless, an upgraded standard 
requiring an SWR value of 2.5 likely would produce much greater 
reductions in fatal and incapacitating injuries than estimated by 
NHTSA. Further increasing the minimum SWR requirement beyond 2.5 would 
prevent even more deaths and serious injuries.
Conclusions
    Increased vehicle roof strength reduces the risk of fatal or 
incapacitating driver injury in single-vehicle rollover crashes. This 
finding contradicts those from two previous studies on the topic, but 
the present study more tightly controlled potential confounding 
factors. The study focused on midsize SUVs, but there is no obvious 
reason similar relationships would not be found for other vehicle 
types, although the magnitudes of injury rate reductions may differ. 
Any substantial upgrade to the FMVSS 216 roof strength requirement 
would produce reductions in fatal and incapacitating injuries that 
substantially exceed existing estimates.
Acknowledgment
    This work was supported by the Insurance Institute for Highway 
Safety.
References
    Bahling, G.S.; Bundorf, R.T.; Kaspzyk, G.S.; Moffatt, E.A.; 
Orlowski, K.F. and Stocke, J.E., 1990. Rollover and drop tests--the 
influence of roof strength on injury mechanics using belted dummies. 
Proceedings of the 34th Stapp Car Crash Conference. SAE Technical Paper 
Series 902314. Warrendale, PA: Society of Automotive Engineers.
    Digges, K.H. and Eigen, A.M., 2003. Crash attributes that influence 
the severity of rollover crashes. Proceedings of the 18th International 
Technical Conference on the Enhanced Safety of Vehicles. Paper 231-O. 
Washington, D.C.: National Highway Traffic Safety Administration.
    Digges, K.H.; Malliaris, A.C. and DeBlois, H.J., 1994. 
Opportunities for casualty reduction in rollover crashes. Proceedings 
of the 14th International Technical Conference on the Enhanced Safety 
of Vehicles. Paper 94-S5-O-11. Washington, D.C.: National Highway 
Traffic Safety Administration.
    Deutermann, W., 2002. Characteristics of fatal rollover crashes. 
Report no. DOT HS-809-438. Washington, D.C.: U.S. Department of 
Transportation.
    Ford Motor Company. 2006. Comment to the National Highway Traffic 
Safety Administration concerning Federal Motor Vehicle Safety Standard 
216, Roof Crush Resistance. Docket Document No. NHTSA-2005-22143-191, 
January 11, 2006. Washington, D.C.: U.S. Department of Transportation.
    Friedman, D. and Nash, C.E., 2001. Advanced roof design for 
rollover protection. Proceedings of the 17th International Technical 
Conference on the Enhanced Safety of Vehicles. Paper 01-S 12-W-94. 
Washington, D.C.: National Highway Traffic Safety Administration.
    Harwin, E.A. and Emery, L., 1989. The crash avoidance rollover 
study: a database for the investigation of single vehicle rollover 
crashes. Proceedings of the 12th International Technical Conference on 
the Enhanced Safety of Vehicles, 470-477. Washington, D.C.: National 
Highway Traffic Safety Administration.
    Insurance Institute for Highway Safety. 2007. Analysis of 2006 data 
from the Fatality Analysis Reporting System. Arlington, VA.
    James, M.B.; Nordhagen, R.P.; Schneider, D.C. and Koh, S.W., 2007. 
Occupant injury in rollover crashes: a reexamination of Malibu II. SAE 
Technical Paper Series 2007-01-0369. Warrendale, PA: Society of 
Automotive Engineers.
    Kahane, C.J., 1989. An evaluation of door locks and roof crush 
resistance of passenger cars, Federal Motor Vehicle Safety Standards 
206 and 216. Report no. DOT HS-807-489. Washington, D.C.: U.S. 
Department of Transportation.
    Li, G.; Braver, E.R. and Chen, L., 2003. Fragility versus excessive 
crash involvement as determinants of high death rates per vehicle-mile 
of travel among older drivers. Accident Analysis and Prevention 35:227-
35.
    Lund, A.K. and Nolan, J.M., 2003. Changes in vehicle designs from 
frontal offset and side impact crash testing. SAE Technical Paper 
Series 2003-01-0902. Warrendale, PA: Society of Automotive Engineers.
    Moffatt, E.A.; Cooper, E.R.; Croteau, J.J.; Orlowski, K.F.; Marth, 
D.R. and Carter, J.W., 2003. Matched-pair rollover impacts of rollcaged 
and production roof cars using the controlled rollover impact system 
(CRIS). SAE Technical Paper Series 2003-01-0172. Warrendale, PA: 
Society of Automotive Engineers.
    Moffatt, E.A. and Padmanaban, J., 1995. The relationship between 
vehicle roof strength and occupant injury in rollover crash data. 
Proceedings of the 39th Annual Conference of the Association for the 
Advancement of Automotive Medicine, 245-267. Des Plaines, IL: 
Association for the Advancement of Automotive Medicine.
    National Highway Traffic Safety Administration, 2006. Laboratory 
test procedure for FMVSS 216 roof crush resistance. Report no. TP-216-
05. Washington, D.C.: U.S. Department of Transportation.
    Office of the Federal Register. 1971. Federal Register, vol. 36, 
no. 236, pp. 23299-23300. National Highway Traffic Safety 
Administration--Final rule. Docket no. 2-6, Notice 5; 49 CFR Part 571--
Motor Vehicle Safety Standards. Washington, D.C.: National Archives and 
Records Administration.
    Office of the Federal Register. 1991. Federal Register, vol. 56, 
no. 74, pp. 15510-15517. National Highway Traffic Safety 
Administration--Final rule. Docket no. 89-22, Notice 03; 49 CFR Part 
571--Federal Motor Vehicle Safety Standards, Roof Crush Resistance. 
Washington, D.C.: National Archives and Records Administration.
    Office of the Federal Register. 2000. Federal Register, vol. 65, 
no. 106. pp. 34998-35024. National Highway Traffic Safety 
Administration--Request for comments. Docket no. NHTSA-2000-6859; 49 
CFR Part 575--Consumer Information Regulations, Federal Motor Vehicle 
Safety Standards, Rollover Prevention. Washington, D.C.: National 
Archives and Records Administration.
    Office of the Federal Register. 2005. Federal Register, vol. 70, 
no. 162, pp. 49223-49248. National Highway Traffic Safety 
Administration--Notice of proposed rulemaking. Docket no. NHTSA-2005-
22143; 49 CFR Part 571--Federal Motor Vehicle Safety Standards, Roof 
Crush Resistance. Washington, D.C.: National Archives and Records 
Administration.
    Office of the Federal Register. 2006. Federal Register, vol. 71, 
no. 168, pp. 51663-51665. National Highway Traffic Safety 
Administration--Denial of petition for compliance investigation. Docket 
no. NHTSA-2005-22904, Notice 1; 49 CFR Part 571--Federal Motor Vehicle 
Safety Standards, Roof Crush Resistance. Washington, D.C.: National 
Archives and Records Administration.
    Office of the Federal Register. 2008. Federal Register, vol. 73, 
no. 20, pp. 5484-5493. National Highway Traffic Safety Administration--
Supplemental notice of proposed rulemaking. Docket no. NHTSA-2008-0015; 
49 CFR Part 571--Federal Motor Vehicle Safety Standards, Roof Crush 
Resistance. Washington, D.C.: National Archives and Records 
Administration.
    Orlowski, K.F., Bundorf, R.T. and Moffatt, E.A., 1985. Rollover 
crash tests--the influence of roof strength on injury mechanics. 
Proceedings of the 29th Stapp Car Crash Conference. SAE Technical Paper 
Series 851734. Warrendale, PA: Society of Automotive Engineers.
    Padmanaban, J.; Moffatt, E.A. and Marth, D.R., 2005. Factors 
influencing the likelihood of fatality and serious/fatal injury in 
single-vehicle rollover crashes. SAE Technical Paper Series 2005-01-
0944. Warrendale, PA: Society of Automotive Engineers.
    Piziali, R., Hopper, R., Girvan, D. and Merala, R., 1998. Injury 
causation in rollover accidents and the biofidelity of Hybrid III data 
in rollover tests. SAE Technical Paper Series 980362. Warrendale, PA: 
Society of Automotive Engineers.
    Plastiras, J.K., Lange, R.C., McCarthy, R.L. and Padmanaban, J.A., 
1985. An examination of the correlation between vehicle performance in 
FMVSS 216 versus injury rates in rollover accidents. SAE Technical 
Paper Series 850335. Warrendale, PA: Society of Automotive Engineers.
    Rechnitzer, G., Lane, J., McIntosh, A.S. and Scott, G., 1998. 
Serious neck injuries in rollovers--is roof crush a factor? 
International Journal of Crashworthiness 3:286-94.
    Robertson, L.S. and Kelley, A.B., 1989. Static stability as a 
predictor of overturn in fatal motor vehicle crashes. The Journal of 
Trauma 29:313-19.
    Schiff, M.A. and Cummings, P., 2004. Comparison of reporting of 
seat belt use by police and crash investigators: variation in agreement 
by injury severity. Accident Analysis and Prevention 36:961-65.
    Syson, S.R., 1995 Occupant to roof contact: rollovers and drop 
tests. SAE Technical Paper Series 950654. Warrendale, PA: Society of 
Automotive Engineers.
    Ward's Communications, 2006. Ward's Automotive Reports, 2003-06. 
Southfield, MI.

 Appendix A: Table A1.--All Study Vehicle Make and Model Combinations With Roof Strength and SSF Data; Vehicles Grouped by FMVSS 216 Test Result; Only 4
                                                         Door Models Were Included in the Study
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                 SWR        Energy absorbed   Equivalent
                                                                                                          -----------------       (J)            drop
                      Last                                                                 Drive                           ----------------- height (in)
  First model year   model               Make                          Model               type     SSF     2   5                           ------------
                      year                                                                                 in  in   10 in    2   5   10 in    2    5  10
                                                                                                                            in  in            in  in  in
--------------------------------------------------------------------------------------------------------------------------------------------------------
1996                 2004   Chevrolet                      Blazer                         2wd       1.02   1.  1.    1.98   44  2,   6,282   1.1  6.  15
                                                                                                           16  91           7   57                2   .0
                                                                                                                                5
1996                 2004   Chevrolet                      Blazer                         4wd       1.09   1.  1.    1.81   44  2,   6,282   1.0  5.  13
                                                                                                           06  75           7   57                6   .7
                                                                                                                                5
1996                 2001   GMC                            Jimmy                          2wd       1.02   1.  1.    1.96   44  2,   6,282   1.1  6.  14
                                                                                                           14  89           7   57                1   .8
                                                                                                                                5
1996                 2001   GMC                            Jimmy                          4wd       1.09   1.  1.    1.79   44  2,   6,282   1.0  5.  13
                                                                                                           05  73           7   57                6   .6
                                                                                                                                5
1996                 2001   Oldsmobile                     Bravada                        4wd       1.09   1.  1.    1.80   44  2,   6,282   1.0  5.  13
                                                                                                           05  74           7   57                6   .6
                                                                                                                                5
2002                 2005   Chevrolet                      Trail Blazer                   2wd       1.16   1.  2.    2.04   72  3,   7,647   1.5  7.  15
                                                                                                           58  04           9   48                0   .5
                                                                                                                                2
2002                 2005   Chevrolet                      Trail Blazer                   4wd       1.18   1.  1.    1.97   72  3,   7,647   1.4  6.  14
                                                                                                           52  97           9   48                8   .9
                                                                                                                                2
2002                 2005   GMC                            Envoy                          2wd       1.16   1.  2.    2.04   72  3,   7,647   1.5  7.  15
                                                                                                           58  04           9   48                0   .5
                                                                                                                                2
2002                 2005   GMC                            Envoy                          4wd       1.18   1.  1.    1.97   72  3,   7,647   1.4  6.  14
                                                                                                           52  97           9   48                8   .9
                                                                                                                                2
2002                 2004   Oldsmobile                     Bravada                        2wd       1.16   1.  2.    2.02   72  3,   7,647   1.5  7.  15
                                                                                                           56  02           9   48                0   .3
                                                                                                                                2
2002                 2004   Oldsmobile                     Bravada                        4wd       1.18   1.  1.    1.94   72  3,   7,647   1.4  6.  14
                                                                                                           50  94           9   48                7   .7
                                                                                                                                2
1998                 2003   Dodge                          Durango                        2wd       1.20   1.  2.    2.08   69  3,   7,483   1.4  6.  15
                                                                                                           46  08           4   40                9   .1
                                                                                                                                5
1998                 2003   Dodge                          Durango                        4wd       1.16   1.  1.    1.98   69  3,   7,483   1.3  6.  14
                                                                                                           39  98           4   40                5   .3
                                                                                                                                5
1996                 2001   Ford                           Explorer                       2wd       1.06   1.  1.    2.07   71  2,   7,064   1.6  6.  15
                                                                                                           50  79           0   96                6   .8
                                                                                                                                6
1996                 2001   Ford                           Explorer                       4wd       1.06   1.  1.    1.96   71  2,   7,064   1.5  6.  14
                                                                                                           40  68           0   96                3   .9
                                                                                                                                6
1997                 2001   Mercury                        Mountaineer                    2wd       1.06   1.  1.    2.05   71  2,   7,064   1.6  6.  15
                                                                                                           48  77           0   96                6   .6
                                                                                                                                6
1997                 2001   Mercury                        Mountaineer                    4wd       1.06   1.  1.    1.96   71  2,   7,064   1.5  6.  14
                                                                                                           40  68           0   96                3   .9
                                                                                                                                6
2002                 2004   Ford                           Explorer                       2wd       1.10   1.  2.    2.95   83  3,   8,780   1.8  7.  18
                                                                                                           64  29           8   71                8   .5
                                                                                                                                3
2002                 2004   Ford                           Explorer                       4wd       1.14   1.  2.    2.81   83  3,   8,780   1.7  7.  17
                                                                                                           57  18           8   71                5   .7
                                                                                                                                3
1996                 1998   Jeep                           Grand Cherokee                 2wd       1.07   1.  2.    2.35   57  2,   6,443   1.4  7.  15
                                                                                                           53  35           7   97                3   .8
                                                                                                                                1
1996                 1998   Jeep                           Grand Cherokee                 4wd       1.07   1.  2.    2.23   57  2,   6,443   1.3  6.  15
                                                                                                           45  23           7   97                9   .0
                                                                                                                                1
1999                 2004   Jeep                           Grand Cherokee                 2wd       1.09   1.  1.    1.86   66  2,   6,376   1.5  6.  14
                                                                                                           33  72           1   64                1   .8
                                                                                                                                5
1999                 2004   Jeep                           Grand Cherokee                 4wd       1.11   1.  1.    1.77   66  2,   6,376   1.5  5.  14
                                                                                                           27  64           1   64                9   .1
                                                                                                                                5
2002                 2005   Jeep                           Liberty                        2wd       1.10   2.  2.    2.72   96  3,   8,959   2.2  8.  20
                                                                                                           12  68           2   89                9   .5
                                                                                                                                6
2002                 2005   Jeep                           Liberty                        4wd       1.12   1.  2.    2.56   96  3,   8,959   2.1  8.  19
                                                                                                           99  51           2   89                4   .2
                                                                                                                                6
1997                 2004   Mitsubishi                     Montero Sport                  2wd       1.07   1.  2.     N/A   66  3,     N/A   1.5  7.  N/
                                                                                                           56  59           7   47                9   A
                                                                                                                                3
1997                 2004   Mitsubishi                     Montero Sport                  4wd       1.11   1.  2.     N/A   66  3,     N/A   1.4  7.  N/
                                                                                                           46  42           7   47                4   A
                                                                                                                                3
2000                 2004   Nissan                         Xterra                         2wd       1.09   2.  3.    3.16   96  4,   8,708   2.3  10  20
                                                                                                           48  16           7   51                .5  .3
                                                                                                                                4
2000                 2004   Nissan                         Xterra                         4wd       1.12   2.  2.    2.93   96  4,   8,708   2.1  9.  18
                                                                                                           30  93           7   51                7   .8
                                                                                                                                4
1996                 2000   Toyota                         4Runner                        2wd       1.08   1.  2.    2.45   61  2,   6,618   1.5  7.  16
                                                                                                           51  45           2   89                3   .7
                                                                                                                                6
1996                 2000   Toyota                         4Runner                        4wd       1.06   1.  2.    2.26   61  2,   6,618   1.4  6.  15
                                                                                                           39  26           2   89                7   .4
                                                                                                                                6
--------------------------------------------------------------------------------------------------------------------------------------------------------

                                 ______
                                 
                    Insurance Institute for Highways Safety
                                        Arlington, VA, May 13, 2008
Hon. Nicole R. Nason,
Administrator,
National Highway Traffic Safety Administration,
Washington, DC.
Supplemental Notice of Proposed Rulemaking; 49 CFR Part 571, Federal 
        Motor Vehicle Safety Standards, Roof Crush Resistance; Docket 
        No. NHTSA-2008-0015
    Dear Administrator Nason:

    The Insurance Institute for Highway Safety (IIHS) has conducted a 
study that demonstrates a direct relationship between roof strength and 
injury risk reduction in rollover crashes (Brumbelow et al., 2008). We 
included this study in our previous comment to the docket (IIHS, 2008) 
because of its relevance to the National Highway Traffic Safety 
Administration's (NHTSA) rulemaking under Federal Motor Vehicle Safety 
Standard (FMVSS) 216.
    Finding that stronger roofs reduce the risk of injury in rollover 
crashes, the IIHS study contradicts two previous studies on the topic 
(Moffatt and Padmanaban, 1995; Padmanaban et al., 2005). Two authors of 
these earlier studies have submitted a comment and additional analysis 
to NHTSA (Padmanaban and Moffatt, 2008), questioning the IIHS study and 
concluding that ``stronger roofs are not safer roofs.''
    The comments by Padmanaban and Moffatt (2008) contain misleading 
statements about the IIHS study that are detailed in item 6 of the 
attached document, ``Logical and Statistical Errors in Comments by 
Padmanaban and Moffatt on the Insurance Institute for Highway Safety 
Study, `Roof Strength and Injury Risk in Rollover Crashes.' '' In 
addition, the analytical tactics recommended and used by Padmanaban and 
Moffatt depart in fundamental ways from appropriate use and 
interpretation of statistical results (see item 4). Of most concern is 
their insistence on including ejection, belt use, and alcohol use as 
control variables in their analysis when, in fact, these variables are 
either direct outcomes of roof crush strength or affected by the 
dependent variable, injury risk. Inclusion of them in the analysis 
obfuscates the real effects of roof strength on injury risk (see items 
1-3).
    These concerns are detailed in the attachment. We would be happy to 
discuss the issues further if NHTSA has questions.
            Sincerely,
                                     Adrian K. Lund, Ph.D.,
                                                         President.
cc: Docket Clerk, Docket No. NHTSA-2008-0015
                               Attachment
Logical and Statistical Errors in Comments by Padmanaban and Moffatt on 
        the Insurance Institute for Highway Safety Study, ``Roof 
        Strength and Injury Risk in Rollover Crashes''
    1. Ejection is an outcome of rollover and is influenced by roof 
strength. Including ejection as a predictor of death or serious injury 
in a rollover crash masks a major benefit of roof strength.

    Padmanaban and Moffat argue that IIHS should have included a number 
of additional variables in the predictive model of injuries and deaths 
in rollovers. One of these variables is ejection. Their argument is 
that ejection greatly increases the risk of injury while ``ejection is 
. . . likely to be unrelated to roof strength'' (pg. 1).

        a. This argument is illogical. Roof strength may not affect 
        injury risk once a person is ejected, but a strong roof may 
        prevent occupants from being ejected in the first place. 
        Preventing an occupant compartment from collapsing obviously 
        can reduce ejection risk by preventing broken glazing and 
        deformed structure, which create ejection paths.

        b. This argument is testable. Using the midsize SUVs in the 
        IIHS study, IIHS researchers investigated the relationship 
        between roof strength and ejection risk with an additional 
        analysis. The risk of ejection was 31 percent lower for each 1-
        unit increase in peak roof strength-to-weight ratio (SWR) 
        measured within 5 inches of plate displacement (p-value of 
        0.004). Appendix A reports details of this analysis. Clearly, 
        ejection risk is not ``unrelated to roof strength.''

        c. By treating ejection as a risk factor unrelated to roof 
        strength, when reduced ejection risk is one of the benefits of 
        stronger roofs, Padmanaban and Moffatt bias their analysis 
        against finding a relationship between roof strength and injury 
        risk.

        d. Padmanaban and Moffatt's concern about ejection implies that 
        roof strength does not matter if ejected occupants are not 
        counted. However, a new IIHS analysis limited to drivers coded 
        by police as not having been ejected reveals that stronger 
        roofs reduced injury risk among these drivers. Many of the 
        fatal and incapacitating injuries in the overall analysis were 
        sustained by ejected drivers, but risk reductions for drivers 
        not ejected were statistically significant and very similar to 
        the overall analysis. Appendix B reports the full results.

    2. Belt use cannot be used in a model evaluating roof strength and 
injury likelihood because information about belt use in crashes is 
inaccurate, incomplete, and subject to influence by the injury 
outcomes.

    Another variable that Padmanaban and Moffat argue should be 
included as a control (predictor) variable in the IIHS study is police-
reported belt use. According to Padmanaban and Moffat, ``It is well 
known that the majority of rollover KA injuries and fatalities are to 
unbelted occupants, mostly ejectees'' (pg. 2) and, later, ``. . . 56 
percent of the fatalities and 28 percent of the serious/fatal injuries 
were unbelted and completely ejected'' (pg. 5). As a result, Padmanaban 
and Moffat conclude that belt use should have been a predictor 
variable. However, because this variable is difficult to know with 
precision, inclusion as a predictor variable can bias any analysis of 
roof strength.

        a. The principal source of bias in belt use codes is that 
        police-coded belt use is subject to distortion by crash 
        outcomes. No official typically is present to observe belt use 
        prior to a crash. Instead, police must judge belt use based on 
        information gathered after the crash including statements by 
        occupants about their own belt use, statements by witnesses to 
        the crash and, significantly, the presence of injuries and 
        whether police believe they are consistent or inconsistent with 
        belt use. In other words, Padmanaban and Moffat include in 
        their analysis a variable that is itself subject to influence 
        by the outcome (injury severity and pattern) to be predicted. 
        In addition, occupant statements about belt use are influenced 
        by the fact that it is illegal in most states to be unbelted. A 
        result of these twin biases is that belt use in crashes can be 
        overestimated, especially for occupants with lesser injuries 
        whose claims of belt use are more believable (Schiff and 
        Cummings, 2004). Models including belt use as a predictor of 
        injury severity not only introduce general inaccuracy but also 
        overestimate the effect of belt use on reducing injury, 
        simultaneously masking the effects of any other variables.

        Evidence of the bias toward overestimating belt use in the 
        dataset used in the IIHS study is provided by comparisons with 
        NHTSA's National Occupant Protection Use Survey (NOPUS), which 
        records rates of belt use for the general population observed 
        during daylight hours. During the calendar years of the IIHS 
        study, NOPUS data show driver belt use averaging 70-75 percent, 
        which is lower than the 83 percent recorded by police for 
        drivers in the rollover crashes in the IIHS study. It is 
        unlikely that drivers involved in single-vehicle rollover 
        crashes, many of which occur at night when belt use rates are 
        lower (NHTSA, 2005, 2007), were wearing belts more often than 
        the general population during daylight hours.

        b. Because of these problems, IIHS did not include belt use as 
        a predictor. However, IIHS did examine whether the effects 
        varied by coded belt use. As reported in the study, additional 
        statistical models were run for occupants coded as belted (83 
        percent), for those coded as unbelted (10 percent), and for 
        those coded as unknown (7 percent).

                i. For those coded as belted, the pattern of effects of 
                roof strength varied little from the overall analysis. 
                This is not surprising because most drivers in the 
                study were coded as belted. In addition, if belt use is 
                miscoded, as argued above, then many of the drivers 
                actually were unbelted, again meaning that this 
                analysis is very similar to the overall analysis.

                ii. For those coded as unknown, the pattern also was 
                quite similar to the overall analysis. Again, this is 
                not surprising because the unknown group also included 
                both belted and unbelted occupants.

                iii. Effects estimated for those coded as unbelted were 
                much smaller, but this would be expected from the twin 
                biases noted in item 2.a. It is likely many of those 
                coded as unbelted received their codes because their 
                injuries were serious and inconsistent with belt use. 
                This bias would occur for both weak and strong roofs, 
                masking the effect of roof strength by assigning higher 
                weight to the (overestimated) effect of belt use.

                The conclusion from these separate analyses is that 
                coded belt use does not affect the estimated effect of 
                roof strength on injury severity, except in a way that 
                would be expected from the biases and inaccuracies 
                inherent in police-coded belt use.

    3. Like police-coded belt use, police-coded alcohol involvement in 
crashes is incomplete, inaccurate, and may be related to the injury 
severity. Besides, Padmanaban and Moffatt offer no justification other 
than the empirical relationship, which could be spurious, for including 
alcohol use codes in the prediction equation.

        a. Results of blood alcohol concentration (BAC) tests are the 
        most objective measures of the presence of alcohol, but only a 
        small percentage of crash-involved drivers typically are 
        tested. Queries of the state databases used in the IIHS study 
        show that about 11 percent of the drivers studied were tested. 
        Padmanaban and Moffatt report using a combination of BAC test 
        results and ``had been drinking'' codes. They do not specify in 
        their comments to NHTSA what percentage of the codes resulted 
        from actual BAC tests, what codes were used for those not 
        tested, or the extent of missing data. In response to an IIHS 
        inquiry, they provided this additional information:

                i. Of drivers identified in their analysis as positive 
                for alcohol use, about 18 percent were tested. About 13 
                percent tested positive, and 5 percent were coded as 
                having positive alcohol use despite negative BAC tests. 
                Thus 5 percent were coded as positive for alcohol 
                despite chemical tests to the contrary.

                ii. For drivers without BAC test results, Padmanaban 
                and Moffatt determined alcohol use from a variety of 
                codes regarding police judgment of alcohol use or 
                factors contributing to the crashes. When alcohol was 
                not listed as a factor, alcohol use was coded as 
                negative.

        b. It is incorrect to assume that all of the drivers not tested 
        were alcohol-free based on police not listing alcohol as a 
        contributing factor to the crashes. According to Moskowitz et 
        al., (1999), police most often cite breath odor in determining 
        alcohol involvement in traffic offenses, but the ability to 
        detect this odor is unreliable even under controlled laboratory 
        conditions.

        c. It is likely that reported alcohol use is spuriously related 
        to injury outcome because more seriously injured people are 
        more likely to undergo close examination. About half of the 
        states included in the IIHS study mandate BAC testing of 
        fatally injured drivers (NHTSA, 2004), creating inherent 
        reporting bias because the likelihood of testing is correlated 
        with injury outcome. Padmanaban and Moffatt do not report or 
        account for this bias.

        d. It is likely that factors such as crash severity, vehicle 
        damage, and driver age and gender have some influence on whom 
        police choose to test for alcohol as well as which crashes they 
        judge to be influenced by alcohol. Previous research has found 
        that driver age and gender affect which drivers at sobriety 
        checkpoints are judged not drinking (Wells et al., 1997).

        e. Although alcohol clearly increases crash likelihood, 
        Padmanaban and Moffatt offer no explanation of how alcohol 
        increases the likelihood of K/A injury, given that a crash 
        already has occurred. Absent convincing evidence that alcohol 
        increases the susceptibility of human tissue and bones to 
        injury, the primary determinants of whether an injury occurs to 
        alcohol-impaired or sober occupants are the forces experienced 
        during the crash. It might be argued that sober drivers' 
        rollover crashes would be more severe, and their injurious 
        forces greater, than those of drinking drivers because more 
        extreme circumstances would be required for the sober drivers 
        to lose control of their vehicles or leave the road. But this 
        argument leads to the opposite of the effect claimed by 
        Padmanaban and Moffatt. Any empirical relationship to the 
        contrary observed between alcohol and K/A injury likelihood is 
        likely to be spurious and related to the absence of objective 
        evidence of alcohol involvement after a crash has occurred.

    4. Padmanaban and Moffatt's docket submission is based on unsound 
and inconsistent statistical treatment. It contains numerous 
misstatements and omissions that undermine its conclusions.

        a. They either misunderstand or misconstrue the fundamental 
        concepts of statistical estimation and significance testing. 
        The object of a study of roof strength is to obtain the best 
        estimate permitted by the data. In this context, statistical 
        significance is only a way of representing how often one 
        expects to be wrong in concluding that the observed estimate is 
        indicative of a real non-zero effect. Padmanaban and Moffatt 
        claim that if the estimated effect of roof strength on injury 
        risk is found to be ``not significant, then the lives saved [by 
        strengthening roofs] could just as well be zero or negative'' 
        (pg. 2). This trivializes the process of statistical estimation 
        in a way that is fundamentally misleading.

                i. It is misleading to treat any estimate with a p-
                value slightly above 0.05 as if it were drastically 
                different from estimates with p-values slightly below 
                0.05. For example, among the effects estimated for 
                reductions in the likelihood of driver death with 
                increased roof strength, the p-value for SWR within 5 
                inches of crush was slightly greater than 0.06. This 
                means that if one were to conclude that an effect this 
                large is different from zero, one would expect to be 
                wrong about 6 times out of 100 (a p-value of 0.05 would 
                lower the error risk only slightly, to 5 times in 100). 
                This 6 percent error risk also means that the 
                likelihood of seeing effects as large as that estimated 
                for roof strength when the true effect is zero or 
                negative is only about 3 in 100. Padmanaban and Moffatt 
                misrepresent the logic of statistical estimation and 
                misconstrue the implications of significance testing.

                ii. This illogical approach leads them to ignore the 
                overwhelming consistency of the results of the IIHS 
                study. Their docket submission suggests that a single 
                IIHS estimate for injury risk reduction that was not 
                significant at the 0.05 level contradicts and 
                invalidates the overall finding that stronger roofs 
                reduce injury risk. Of the 12 estimates for K/A injury 
                risk related to roof strength measured in 4 different 
                ways and at 3 different crush distances, all were 
                significant at p < 0.0001. For the 12 estimates for K 
                injury risk, 9 were significant at p < 0.0001, 2 at p < 
                0.05, and 1 at p < 0.07. Robustness of an empirical 
                pattern when measured in different ways is much more 
                important than the fact that 1 of 24 tests did not meet 
                an arbitrary level of p < 0.05.

        b. The docket submission does not include sample sizes for any 
        of Padmanaban and Moffatt's 7 statistical models. In response 
        to subsequent requests by IIHS, they indicated sample sizes 
        ranging from 1,352 to 20,010. These details should have been 
        included in the discussion of their statistical modeling, 
        especially given their ill-advised reliance on levels of 
        statistical significance for interpretation of results. For 
        example, they emphasize that odds ratios in the IIHS study were 
        not statistically significant for the subset of drivers that 
        police coded as unbelted, asserting that this means roof 
        strength is not beneficial for these occupants. However, these 
        drivers account for only 10 percent of the total sample, 
        limiting the power to detect statistically significant effects.

        c. Padmanaban and Moffatt do not give parameter estimates for 
        the predictors of injury risk they chose to include in their 
        comment. Without these, it is unknown whether the effects being 
        estimated by their models are consistent or realistic relative 
        to some underlying reasonable theory. Subsequent IIHS inquiries 
        produced some, but not all, of the parameter estimates (see 
        item 5.a.i. below).

        d. Padmanaban and Moffatt do not present p-values for their 
        additional parameters in the model that looked at fatality 
        risk, saying only that roof SWR was not significant at a p-
        value of 0.10. It is possible that some variables previously 
        claimed to be major factors (alcohol, belt use, ejection 
        status) in injury outcome were not significant in this model.

    5. Padmanaban and Moffatt's docket submission is based on 
questionable engineering judgment.

        a. They stress the importance of aspect ratio (height divided 
        by track width) in previous research and criticize IIHS for 
        excluding it. In their reproduction of the IIHS study, they 
        find it statistically significant. This is problematic for 4 
        reasons:

                i. Based on data provided to IIHS, their models predict 
                greater injury risk in SUVs with larger aspect ratios. 
                This directly contradicts their previous studies, which 
                reported decreased injury risk for vehicles with larger 
                aspect ratios. Padmanaban and Moffatt do not explain or 
                even disclose this fact in their submission to NHTSA.

                ii. They do not offer a hypothesis for how the shape of 
                these SUVs, as defined by aspect ratio, would affect 
                injury risk. This also is true of their previous 
                research, although they have stated that it is 
                unrelated to differences in headroom. If the small 
                geometric differences between these midsize SUVs are 
                important in the rollover crash dynamics, more 
                meaningful measurements would include maximum vehicle 
                width or vehicle width at the height of the roof.

                iii. The range of aspect ratios given for these 
                vehicles is very small. Height and track width vary by 
                up to only about 2 inches.

                iv. There is enough variation in the specified height 
                and track width measurements between model years of 
                several of the study vehicles to invalidate whatever 
                data were used.

        b. Padmanaban and Moffatt do not seem to understand the IIHS 
        motivation for including static stability factor (SSF) in the 
        statistical models, stating that ``the purpose of the IIHS 
        study and of ours was to evaluate the likelihood of serious/
        fatal injuries given a rollover and not the likelihood of 
        rollovers.'' The IIHS study clearly explains why SSF may be 
        correlated to crash severity: By definition, more stable 
        vehicles require more severe events to cause them to roll over.

        c. Padmanaban and Moffatt do not explain why vehicle weight 
        should be included in two different places in their statistical 
        models. They include it both as an independent variable and in 
        the calculation of SWR.

    6. Padmanaban and Moffatt misrepresent the IIHS study.

        a. They say they ``agree [with the IIHS study] that SWR within 
        5 inches is the most useful and universally accepted roof 
        strength metric,'' but the IIHS study makes no such claim. Its 
        calculations of lives saved use this metric simply because 
        FMVSS 216 uses the same metric. SWR within 5 inches of plate 
        displacement is 1 of 12 roof strength metrics IIHS evaluated, 
        and several of the other metrics predict greater reductions in 
        injury risk across the range of tested vehicles. Even with 
        their problematic predictors, it is possible that Padmanaban 
        and Moffatt would have found statistically significant results 
        with different roof strength metrics.

        b. Padmanaban and Moffatt claim that the regression line in 
        Figure 1 of the IIHS study is the ``primary finding'' and later 
        in their submission to NHTSA dedicate much time to discussing 
        this line. However, they separately state their understanding 
        that the plot is included ``solely to present a visual 
        representation of their raw data. [IIHS does] not rely upon it 
        in any way for their conclusions.'' This second statement is 
        correct, and it is disingenuous to criticize the statistical 
        fit of a plot presented for visualization and understood to be 
        uncorrected for known confounding factors.

        c. They claim IIHS used the estimate for the reduction of fatal 
        and incapacitating injury in the lives-saved calculations 
        because the fatality estimate alone was not statistically 
        significant (see items 4.a.i. and 4.a.ii. above). However, the 
        former estimate was used because it is based on more 
        observations (of injuries) and therefore likely to be more 
        accurate. For the other 11 roof strength metrics, little 
        variation was observed between effect estimates for K/A injury 
        and for fatal injury, so the choice was well founded.

        d. Padmanaban and Moffatt say their analysis does not ``differ 
        significantly from [IIHS] raw data counts'' but do not give any 
        details. Responses to subsequent requests from IIHS indicate 
        their analysis includes 2,807 fewer drivers overall and 100 
        more drivers with fatal or incapacitating injuries. These 
        differences are not explained. Padmanaban and Moffatt fail to 
        demonstrate that their data and analysis replicate the IIHS 
        study before including additional predictor variables. If their 
        initial analysis cannot replicate IIHS's, then none of their 
        subsequent claims are applicable to the current discussion.

    7. Padmanaban and Moffatt's docket submission and associated 
analysis cannot be fully evaluated due to the lack of detailed 
information about data sources, methods, and results.

    In contrast, IIHS methods and findings are fully described in the 
study. IIHS staff further assisted JP Research in understanding the 
construction of the statistical models used in the study. All 
information necessary to reconstruct the IIHS study is available to the 
public.

        a. For some additional predictor variables, unexplained 
        discrepancies exist between the data counts in the state files 
        and the counts JP Research reported to IIHS. For example, JP 
        Research reports that ejection status was known for all but 
        2,198 drivers, whereas IIHS observed that ejection status was 
        coded as unknown or completely missing for 8,713 drivers in the 
        state data files. It would be useful to know how JP Research 
        obtained the ejection status for their analyses.

        b. The docket submission includes statements about the methods 
        used in their two previous studies that were not disclosed in 
        that research. For example, the submission claims that both 
        earlier studies controlled for ejection and rural/urban land 
        use, but their 2005 study mentions neither among the factors 
        included in the logistic regression models. The docket comment 
        says ``all our previous models also controlled for states, 
        though it was not explicitly stated in the reports'' (pg. 3). 
        It is impossible to judge the credibility of any study when 
        important details are omitted about how the research was 
        conducted.

        c. Padmanaban and Moffatt report access to the results of other 
        roof strength tests of the IIHS study vehicles that differ 
        substantially from the IIHS results. These other results are 
        not public, so it is impossible to determine their relevance. 
        Previous research by Padmanaban and Moffatt included 
        confidential tests conducted by vehicle manufacturers on non-
        production vehicles (Moffatt and Padmanaban, 1995; Padmanaban 
        et al., 2005), and we do not know the nature of any additional 
        test data on IIHS study vehicles.

        d. As detailed above, Padmanaban and Moffatt exclude several 
        important facts that were revealed to IIHS only after follow-up 
        inquiries to JP Research (see items 3.a., 4.b., 4.c., 5.a.i., 
        6.d. and 7.a.).
Appendix A--Relationship Between Roof Strength and Ejection Risk
    To address Padmanaban and Moffatt's claim that ejection is ``likely 
to be unrelated to roof strength,'' IIHS conducted a logistic 
regression analysis of ejection likelihood based on roof strength. 
Vehicle and crash data were the same as in IIHS's analysis of vehicle 
roof strength and injury risk (Brumbelow et al., 2008). Figure 1 shows 
the relationship in the raw data between peak roof SWR within 5 inches 
of plate displacement and ejection rate before adjusting for any 
potentially confounding factors. Of 22,817 rollover crashes of study 
vehicles, police coded 13,086 drivers as not ejected, 1,018 as fully or 
partially ejected, and the rest were coded as unknown or had missing 
values. Only the drivers with known ejection status were included in 
this analysis. Table 1 presents results of the logistic regression 
model controlling for the effects of state, driver age, and vehicle 
SSF. For a 1-unit increase in peak SWR, ejection risk was reduced 32 
percent. For each 10-year increase in driver age, there was an 11 
percent decrease in ejection risk. Both of these results are 
statistically significant at the 0.05 level. An increase in SSF of 0.1 
was predicted to increase ejection risk by 4 percent, but this result 
was not statistically significant at the 0.05 level.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                       Table 1.--Results of Logistic Regression Model for Risk of Ejection
----------------------------------------------------------------------------------------------------------------
                                       Parameter                                               Odds ratio
----------------------------------------------------------------------------------------------------------------
Roof SWR within 5 inches (1-unit increase)                                                                0.68*
Driver age (10-year increase)                                                                             0.89*
SSF (0.1-unit increase)                                                                                   1.04
----------------------------------------------------------------------------------------------------------------
* Statistically significant at 0.05 level.

Appendix B--Relationship Between Roof Strength and Injury Risk for 
        Drivers Coded as Not Ejected
    The logistic regression model described in Appendix A demonstrates 
that reducing the risk of driver ejection is one benefit of stronger 
roofs. Also of interest is how stronger roofs benefit drivers who 
remain inside a vehicle during a rollover crash. Police coded 13,086 
drivers in the IIHS study as not ejected. Figure 2 shows the 
relationship between the rate of fatal or incapacitating injury among 
the nonejected drivers and the peak roof SWR measured within 5 inches 
of plate displacement for each of the vehicles. The figure plots the 
raw data before adjusting for any confounding factors. Controlling for 
state effects, SSF, and driver age, a logistic regression model 
estimated a 27 percent reduction in the risk of fatal or incapacitating 
driver injury for a 1-unit increase in peak SWR within 5 inches of 
plate displacement. Nearly identical to the risk reduction estimated 
for all drivers in the IIHS study (see Table 2), this result is not 
surprising because nonejected drivers represent 93 percent of all 
drivers with known ejection status. A 10-year increase in driver age 
was predicted to increase the risk of K/A injury by 18 percent. A 0.1-
unit increase in SSF was associated with a 6 percent increase in K/A 
injury risk. The odds ratios for SWR and driver age were significant at 
the 0.05 level, but the odds ratio for SSF was not.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Table 2.--Results of Logistic Regression Model for Risk of Fatal or Incapacitating Injuries for Drivers Coded as
                                    Nonejected by Police and for All Drivers
----------------------------------------------------------------------------------------------------------------
                                                                                       Odds ratio
                                                                                       for drivers   Odds ratio
                                      Parameter                                         coded as       for all
                                                                                       nonejected      drivers
----------------------------------------------------------------------------------------------------------------
Roof SWR within 5 inches (1-unit increase)                                                  0.73*         0.72*
Driver age (10-year increase)                                                               1.18*         1.12*
SSF (0.1-unit increase)                                                                      1.06          0.96
----------------------------------------------------------------------------------------------------------------
* Statistically significant at 0.05 level.

References
    Brumbelow, M.L.; Teoh, E.R.; Zuby, D.S. and McCartt, A.T., 2008. 
Roof strength and injury risk in rollover crashes. Arlington, VA: 
Insurance Institute for Highway Safety.
    Insurance Institute for Highway Safety. 2008. Comment to the 
National Highway Traffic Safety Administration concerning proposed 
changes to Federal Motor Vehicle Safety Standard 216, Roof Crush 
Resistance; Docket No. NHTSA-2008-0015, March 27. Arlington, VA.
    Moffatt, E.A. and Padmanaban, J., 1995. The relationship between 
vehicle roof strength and occupant injury in rollover crash data. 
Proceedings of the 39th Annual Conference of the Association for the 
Advancement of Automotive Medicine, 245-67. Des Plaines, IL: 
Association for the Advancement of Automotive Medicine.
    Moskowitz, H.; Burns, M. and Ferguson, S., 1999. Police officers' 
detection of breath odors from alcohol ingestion. Accident Analysis and 
Prevention 31:175-80.
    National Highway Traffic Safety Administration, 2004. State laws 
and practices for BAC testing and reporting drivers involved in fatal 
crashes. Report no. DOT HS-809-756. Washington, D.C.: U.S. Department 
of Transportation.
    National Highway Traffic Safety Administration, 2005. Connecticut's 
day and night safety belt use. Report no. DOT HS-809-954. Washington, 
D.C.: U.S. Department of Transportation.
    National Highway Traffic Safety Administration, 2007. Daytime and 
nighttime seat belt use at selected sites in New Mexico. Report no. DOT 
HS-810-705. Washington, D.C.: U.S. Department of Transportation.
    Padmanaban, J. and Moffatt, E.A., 2008. Comment to the National 
Highway Traffic Safety Administration concerning proposed changes to 
Federal Motor Vehicle Safety Standard 216, Roof Crush Resistance; 
Docket No. NHTSA-2008-0015, March 27. Mountain View, CA.
    Padmanaban, J.; Moffatt, E. A. and Marth, D.R., 2005. Factors 
influencing the likelihood of fatality and serious/fatal injury in 
single-vehicle rollover crashes. SAE Technical Paper Series 2005-01-
0944. Warrendale, PA: Society of Automotive Engineers.
    Schiff, M.A. and Cummings, P., 2004. Comparison of reporting of 
seat belt use by police and crash investigators: variation in agreement 
by injury severity. Accident Analysis and Prevention 36:961-65.
    Wells, J.K.; Greene, M.A.; Foss, R.D., Ferguson, S.A. and Williams, 
A.F., 1997. Drinking drivers missed at sobriety checkpoints. Journal of 
Studies on Alcohol 58:513-17.
                                 ______
                                 

Insurance Institute for Highway Safety--Status Report--Vol. 43, No. 2, 
                             March 15, 2008

                                Rollover

    Rollover in your SUV, and you want the roof to hold up so you're 
protected from injury, including harm from the roof caving in on you. 
Every passenger vehicle meets Federal requirements for roof strength, 
measured in a test, and some exceed the requirements by substantial 
amounts. The question has been whether stronger roofs actually reduce 
injury risk in real-world rollover crashes. Some studies have concluded 
that the strength of a vehicle's roof has little or no effect on the 
likelihood of injury, but a new Institute study indicates that roof 
strength definitely influences injury risk.
    Researchers tested SUVs in a procedure similar to what the 
government requires automakers to conduct to assess roof strength and 
then related the findings to the real-world death and injury experience 
of the same SUVs in single-vehicle rollover crashes. The main finding 
is that injury risk went down as roof strength increased.
    Injury rates vary considerably among vehicles in rollovers, and 
there are still a lot researchers don't know about these crashes. For 
example, is injury risk primarily from the sudden crushing of the roof? 
Is it because people crash into the roof when the vehicle is upside 
down? Or does the main risk come from full or partial ejection of 
occupants when vehicle doors and windows break open during rollover 
crashes?
    ``We don't know just what happens to people in these crashes or 
what the injury mechanisms are. What we do know from the new study is 
that strengthening a vehicle's roof reduces injury risk, and reduces it 
a lot,'' says Institute president Adrian Lund.
    Extent of the rollover problem: About 35 percent of all occupant 
deaths occur in crashes in which vehicles roll over. This problem is 
worse in some kinds of vehicles than others. About 25 percent of 
occupant deaths in crashes of cars and minivans involve rolling over. 
The proportion jumps to 59 percent in SUVs.
    Of course, the best way to prevent these deaths is to keep vehicles 
from rolling over in the first place, and electronic stability control 
is helping. It's reducing rollover crashes, especially fatal single-
vehicle ones, by significant percentages.
    ``But until these crashes are reduced to zero, roof strength will 
remain an important aspect of occupant protection,'' Lund points out.
    What the U.S. government requires: Federal Motor Vehicle Safety 
Standard 216 establishes minimum roof strength for passenger vehicles. 
Compliance testing involves the application of a metal plate to one 
side of a roof at a constant speed. The roof must withstand a force of 
1.5 times the weight of the vehicle before reaching 5 inches of crush. 
Thus, a vehicle weighing 4,000 pounds has to withstand 6,000 pounds of 
force while sustaining 5 or fewer inches of crush.
    This requirement, in effect since 1973 for cars and 1994 for other 
passenger vehicles, is in the process of an upgrade. One of the 
government's main proposals, issued in 2005, is to boost the specified 
force to 2.5 times vehicle weight (see Status Report, Jan. 28, 2006; on 
the web at iihs.org). Last month the government indicated it may 
consider further altering the standard by testing both sides of vehicle 
roofs instead of applying the force to one side only. When the changes 
were proposed in 2005, the Institute voiced general support but noted 
the ``surprising lack of evidence'' connecting the requirements of the 
standard to real-world rollover crash outcomes.
    The new Institute study provides some missing evidence. Across 11 
SUVs at 3 different degrees of roof crush--2, 5, and 10 inches--the 
strongest roofs are associated with injury risks 39 to 57 percent lower 
than the weakest roofs. Peak roof strength at 2 and 10 inches of crush 
is more highly related to injury risk than at 5 inches. Based on these 
findings, the researchers estimate that if the roofs on every SUV the 
Institute tested were as strong as the strongest one, about 212 of the 
668 deaths that occurred in these SUVs in 2006 would have been 
prevented.
    ``These are big risk reductions, bigger than what the government or 
anybody else has established,'' Lund says.
    The researchers estimate that a 1-unit increase in peak strength-
to-weight ratio--for example, from 1.5 times vehicle weight to 2.5, as 
the government proposed in 2005--reduces the risk of serious and fatal 
injury in a rollover crash by 28 percent. Increasing roof strength 
requirements beyond 2.5 times vehicle weight would reduce injury risk 
even further.
    New findings vs. previous studies: Before the Institute's study, 
there was no conclusive evidence about the specific contribution of a 
vehicle's roof strength to occupant protection. The government 
estimated that proposed changes in Federal roof strength requirements 
would save 13 to 44 lives per year.
    ``This was based on assumptions that were conservative in the 
extreme,'' Lund explains. ``For example, the government assumed zero 
benefit for unbelted occupants. We don't know exactly what the benefit 
of an upgraded roof strength standard would be for these occupants, but 
it would be likely to exceed zero.''
    Meanwhile two studies sponsored by automakers, one in 1995 and the 
other a decade later, found no relationship at all between roof 
strength and injury risk in rollovers. Findings of the first study 
prompted General Motors to tell The Detroit News in 2002, ``Good 
science, long established and well reviewed in the technical 
literature, has conclusively demonstrated that there is no relationship 
between roof strength and the likelihood of occupant injury given a 
rollover.'' Four years later, Ford told the government that 
``substantial and compelling real-world crash data and laboratory 
testing have confirmed that simply increasing roof strength will not 
measurably reduce the risk of injury or death to vehicle occupants in 
rollovers.''
    A main problem with these studies is that they included all kinds 
of passenger vehicles with their substantial differences in driver 
demographics, rollover propensity, and other factors that confound the 
results. In contrast, the Institute's new study focuses on one kind of 
vehicle, midsize 4-door SUVs, and tightly controls for other factors 
that could confound the results. While the findings are about a limited 
number of SUVs, the researchers conclude that the overall finding of 
reduced injury risk as roof strength increases would hold for other 
kinds of vehicles, although the magnitude of the injury rate reduction 
may differ among vehicle groups.
    Lund adds that the findings ``prompt us to expand our research on 
roof strength with an eye to supplying consumers with comparisons of 
how well vehicles protect people in rollover crashes. A dynamic test 
with dummies instrumented to measure injury risk in rollovers would be 
desirable, but there is a sticking point. First we have to understand 
how the movement of dummies in controlled tests could reflect how real 
people move in real-world rollovers. Meanwhile, simpler roof strength 
measurements could provide useful consumer information.''
    Details of the study: The Institute study is a two-part analysis 
involving vehicle testing and examination of the outcomes of real-world 
rollover crashes. Eleven midsize 4-door SUVs were subjected to a test 
similar to the one run by automakers to comply with Federal roof 
strength requirements (the manufacturers' own test data aren't public 
information). The 11 SUVs exclude features that might affect injury 
rates in rollovers such as side curtain airbags and electronic 
stability control (see p. 2). To assess the range of roof strength 
among the SUVs, researchers applied force to the roofs until crush 
reached 10 inches, measuring the peak force required for 2 inches of 
crush, 5 inches, and 10 inches. Because crush in a rollover can depend 
on vehicle weight as well as roof strength, the researchers calculated 
strength-to-weight ratios for each degree of crush. They also measured 
the amount of energy absorbed by each roof at each degree of crush and, 
again taking vehicle weight into account, the height from which the 
vehicle would have to be dropped to produce equivalent energy 
absorption.
    By almost any of these measures, the strongest roof was on the 
2000-04 Nissan Xterra while one of the weakest was on the 1999-2004 
Jeep Grand Cherokee. Within 5 inches of crush, the Jeep withstood a 
force as high as 6,560 pounds, which amounts to 1.64 times the weight 
of the 4-wheel-drive version and 1.72 times the weight of the 2-wheel-
drive. The corresponding figure for the Xterra was 11,996 pounds, or 
2.93 times the weight of the 4-wheel-drive and 3.16 times the 2-wheel-
drive.
    Having established the range of roof strength among the SUVs, the 
researchers studied almost 23,000 real-world rollovers of the same 11 
SUVs during 1997-2005. This information was collected from 12 states 
with sufficient data on police-reported crashes to comply with study 
criteria.
    Logistic regression was used to assess the effect of roof strength 
on the likelihood of driver injury in the rollover crashes of the 11 
SUVs. The regression controlled for state-to-state differences in 
methods of reporting crashes, terrain, urbanization, etc.; vehicle 
stability; and driver age. Results indicate the various injury risks 
given the various SUV roof strengths.
    ``No matter what measurement of roof strength we used or whether we 
measured at 2 or 5 or 10 inches of crush, we found a consistent 
relationship between roof strength and injury risk,'' Lund points out.
    The relationship between roof strength-to-weight ratio and injury 
risk was stronger at 2 inches than at 5 inches, the crush specified for 
testing under the Federal standard (the government doesn't require 
automakers to assess roof strength at 2 or 10 inches). At 5 inches, the 
predicted injury risk for people in SUVs with roof strength-to-weight 
ratios as strong as the Xterra's would be 39 percent lower than for 
people in vehicles with roof strength like the Grand Cherokee's. At 2 
inches of crush, the difference in predicted injury risk is 51 percent.
    The 11 SUV designs in the study include the 1996-2004 Chevrolet 
Blazer, 2002-05 Chevrolet TrailBlazer, 1998-2003 Dodge Durango, 1996-
2001 Ford Explorer, 2002-04 Ford Explorer, 1996-98 Jeep Grand Cherokee, 
1999-2004 Jeep Grand Cherokee, 2002-05 Jeep Liberty, 1997-2004 
Mitsubishi Montero Sport, 2000-04 Nissan Xterra, and 1996-2000 Toyota 
4Runner.
    For a copy of ``Relationship between roof strength and injury risk 
in rollover crashes'' by M.L. Brumbelow et al., write: Publications, 
Insurance Institute for Highway Safety, 1005 N. Glebe Rd., Arlington, 
VA 22201, or e-mail publica
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="394d5056574a795050514a17564b5e17">[email&#160;protected]</a>
    The rate of neck injury complaints is 15 percent lower in cars and 
SUVs with seat/head restraint combinations rated good compared with 
poor. The results for serious injuries are more dramatic. Thirty-five 
percent fewer insurance claims for neck injuries lasting 3 months or 
more are filed for cars and SUVs with good seat/head restraints than 
for ones rated poor.
    These are the main findings of a new Institute study of thousands 
of insurance claims filed for damage to vehicles, all 2005-06 models, 
that were struck in front-into-rear impacts. Conducted in cooperation 
with State Farm and Nationwide, the study is the first time seat/head 
restraint ratings based on dynamic tests conducted by the Institute 
have been compared with real-world neck injury results.
    ``In stop and go traffic, you're more likely to get in a rear-end 
collision than any other kind of crash, so you're more likely to need 
your seat and head restraint than any other safety system in your 
vehicle,'' says David Zuby, the Institute's senior vice president for 
vehicle research. ``This is why it's so important to fit vehicles with 
seats and head restraints that earn good ratings for saving your 
neck.''
    The Institute has been measuring and rating head restraint geometry 
since 1995. The higher and closer a restraint is, the more likely it 
will be to prevent neck injury in a rear collision. In 2004 the 
Institute added a dynamic test simulating a rear crash to refine the 
ratings. Vehicles are rated good, acceptable, marginal, or poor based 
on both restraint geometry and test results (see Status Report, Nov. 
20, 2004; on the web at iihs.org). The same rating system is used 
internationally by a consortium of insurer-sponsored organizations, the 
International Insurance Whiplash Prevention Group.
    An estimated 4 million rear collisions occur each year in the 
United States. Neck sprain or strain is the most serious injury in one-
third of insurance claims for injuries in all kinds of crashes. The 
annual cost of these claims exceeds $8 billion annually.
    While findings about real-world neck injury in vehicle seats rated 
good and poor are clear, those for seats rated acceptable and marginal 
aren't as clear. There wasn't any reduction in initial neck injury 
complaints for acceptable and marginal seats, compared with poor, 
though long-term neck injuries were reduced.
    ``The long-term injuries are the very ones we want to reduce 
because they're the most serious,'' Zuby points out. ``While many neck 
injuries involve moderate discomfort that goes away in a week or so, 
about one of every four initial complaints still was being treated 3 
months later. These longer term injuries involve more pain and cost 
more to treat. They're being reduced about one-third in vehicles with 
seat/head restraints rated good compared with poor. Serious neck 
injuries also are being reduced in seats that are rated acceptable or 
marginal.
    Improvements: More and more passenger vehicles are being equipped 
with seats and head restraints rated good. When the Institute started 
evaluating and comparing the geometry of the head restraints in 1995 
model cars, only a handful were rated good and 80 percent were poor. 
Then the automakers responded, and by 2004 about 4 of every 5 head 
restraints had good or acceptable geometry (see Status Report, Nov. 20, 
2004; on the web at iihs.org). Similarly, the dynamic performance of 
seat/head restraint combinations is improving. Only 12 percent of 2004 
model cars had combinations rated good, but by the 2007 model year the 
proportion had increased to 29 percent (see Status Report, Aug. 4, 
2007; on the web at iihs.org).
    These improvements are being driven not only by ratings of seat/
head restraints published by the Institute and other insurer-sponsored 
groups but also by a U.S. standard that will require the restraints to 
extend higher and fit closer to the backs of people's heads by the 2009 
model year. In the United States, automakers also have been spurred by 
the Institute's TOP SAFETY PICK award. To win this designation, a 
vehicle has to earn good ratings in all three tests--front, side, and 
rear.
    How the injuries occur: When a vehicle is struck in the rear and 
driven forward, its seats accelerate occupants' torsos forward. 
Unsupported, an occupant's head will lag behind this forward torso 
movement, and the differential motion causes the neck to bend and 
stretch. The higher the torso acceleration, the more sudden the motion, 
the higher the forces on the neck, and the more likely a neck injury is 
to occur.
    Factors that influence neck injury risk include gender and seating 
position in addition to the designs of seats and head restraints. Women 
are more likely than men to incur neck injuries in rear crashes, and 
front-seat occupants, especially drivers, are more likely to incur such 
injuries than people riding in back seats.
    The key to reducing whiplash injury risk is to keep an occupant's 
head and torso moving together. To accomplish this, the geometry of a 
head restraint has to be adequate--high enough and near the back of the 
head. Then the seat structure and stiffness must be designed to work in 
concert with the head restraint to support an occupant's neck and head, 
accelerating them with the torso as the vehicle is pushed forward.
    About the study: To correlate seat/head restraint ratings with 
real-world neck injury risk, researchers studied about 3,000 insurance 
claims associated with rear crashes of 105 of the 175 passenger 
vehicles (2005-06 models) for which the Institute has ratings based on 
both restraint geometry and seat performance in dynamic tests. The 
claims were filed with State Farm Mutual Insurance and Nationwide 
Insurance, which together account for more than 20 percent of the 
personal auto insurance premiums paid in the United States in 2005. The 
researchers modeled the odds of a neck injury occurring in a rear-
struck vehicle as a function of seat ratings (good, acceptable, 
marginal, or poor), while controlling for other factors that also 
affect neck injury risk, such as vehicle size and type and occupant age 
and gender.
    The percentage of rear-struck drivers with neck injury claims was 
16.2 in vehicles with seats rated good, based on dynamic testing. 
Corresponding percentages were 21.1 for seats rated acceptable, 17.7 
for marginal seats, and 19.2 for poor ones. Neck injuries lasting 3 
months or more were reported by 3.8 percent of drivers in good seats, 
4.7 percent in acceptable seats, 3.6 percent in marginal seats, and 5.8 
percent in seats rated poor.
    ``What these data show is that we're pushing seat designs in the 
right direction,'' Zuby says, ``Results for acceptable and marginal 
seats weren't as clear as for good seats. Initial neck injury claims 
weren't significantly lower than for poor seats. Still we saw 
reductions in claims for serious neck injuries in acceptable and 
marginal seats as well as in good ones.''
    This is the third study the Institute has conducted that indicates 
the superiority of seat/head restraint combinations rated good for 
reducing neck injury risk. In 1999 the Institute found that head 
restraints rated good for geometry alone had lower insurance claims for 
neck injuries. In 2003 Institute researchers expanded the data, finding 
that modern features such as head restraints that automatically adjust 
in rear-end collisions and seats that absorb energy also reduce 
insurance claims.
    For a copy of ``Relationship of dynamic seat ratings to real-world 
neck injury rates'' by C.F. Farmer et al., write: Publications, 
Insurance Institute for Highway Safety, 1005 N. Glebe Rd., Arlington, 
VA 22201, or e-mail <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="176762757b7e7476637e78796457">[email&#160;protected]</a> iihs.org.
Importance of ESC and Side Airbags
    Vehicle roof strength is crucial to occupant protection in rollover 
crashes. Other features are effective, too, in both preventing such 
crashes in the first place and protecting people when their vehicles do 
roll. Researchers estimate that electronic stability control, or ESC, 
reduces the risk of a fatal single-vehicle rollover by about 69 percent 
for all passenger vehicles and 72 percent for SUVs in particular. Side 
curtain airbags are expected to reduce the risk of death in the 
rollovers that still occur.
    ``These technologies are essential,'' Institute president Adrian 
Lund points out, ``but electronic stability control doesn't completely 
eliminate rollover crashes, and side airbags aren't the only protection 
occupants need if they do roll over. This is why we have to pay 
attention to the roof. If a vehicle's roof is strong enough to absorb 
the energy of a rollover without caving in on its occupants, injury 
risk goes down.''
    Electronic stability control monitors vehicle response to driver 
steering and applies the brakes on individual wheels to maintain the 
path that's indicated by the steering wheel position (see Status 
Report, June 13, 2006; on the web at iihs.org). This technology is 
standard or optional on about two-thirds of all current passenger 
vehicle models. Side airbags are standard or optional in about 80 
percent.
Strong vs. Weak
    The difference in roof strength was obvious when the Nissan Xterra 
and Ford Explorer, both 2000 models, were subjected to a crushing force 
of up to 10,000 pounds. The Xterra's roof crushed about 2 inches, and 
damage is hardly visible except for a cracked windshield. Meanwhile the 
Explorer's roof crushed 10 inches, caving far into the occupant 
compartment even before reaching 10,000 pounds of force.
Rollovers in Which Drivers Died Demonstrate Need for Strong Roofs on 
        SUVs
    The drivers of these SUVs died when their vehicles overturned. It's 
a big problem--more than half of all occupant deaths in SUVs occur in 
rollover crashes. New research indicates that strengthening vehicle 
roofs would reduce this problem. If the roof on every SUV were as 
strong as the best one the Institute tested, injury risk in rollover 
crashes could be reduced 39 to 57 percent. These are very big risk 
reductions, bigger than the Federal Government or anybody else has 
established.
Injuries in Rear Crashes
    These vehicles didn't sustain a lot of damage when they were struck 
from behind, but the drivers were treated for injuries suffered in the 
impacts. Neck sprains and strains are the most serious problems 
reported in about 1 of 3 insurance claims for injuries. This problem 
could be reduced by equipping vehicles with seat/head restraints rated 
good, based on Institute tests. Twenty-nine of all recent model cars 
and 22 perent of other passenger vehicles have systems rated good for 
protection against neck injury.

    Senator Pryor. Thank you.
    Mr. Strassburger?

   STATEMENT OF ROBERT STRASSBURGER, VICE PRESIDENT, VEHICLE 
 SAFETY AND HARMONIZATION, ALLIANCE OF AUTOMOBILE MANUFACTURERS

    Mr. Strassburger. Thank you, Mr. Chairman.
    As an engineer, I'm here today representing the thousands 
of auto engineers who are working around the clock to make cars 
safer. We show up to work each day to make a difference.
    At the Alliance, safety is our highest priority, and 
therefore, we support Congress's comprehensive plan to further 
reduce rollover-related risk, injury risk, including 
strengthening roofs.
    Rollovers are a significant safety problem. In 2006, 
roughly 10,000 people died in rollover crashes, but government 
data also show that rollover rates are declining. In fact, over 
the last 10 years, the SUV rollover fatality rate is down by 
about 30 percent, and we want them to go even lower.
    There are many reasons for this decline, including the 
voluntary introduction, installation of advanced safety 
technology, such as electronic stability control, side-curtain 
airbags, safety belts with pretensioners, safety belt 
reminders, increased safety belt usage, and consumer 
information. We are proud of our successes in voluntarily 
introducing safety advancements that help drivers avoid 
rollovers and enhance occupant protection in rollover crashes.
    Rollovers are complex, violent events that require a number 
of solutions. Congress wisely recognized this when it adopted 
its comprehensive plan in SAFETEA-LU, which we supported. As 
the committee exercises oversight of the proposed roof-strength 
rule, it is important to keep in mind that the proposal is one 
element of this comprehensive plan. If there is no rollover 
crash, there will be no rollover fatality or injury. Therefore, 
our first priority must be to reduce the occurrence of 
rollovers.
    As directed by SAFETEA-LU, NHTSA adopted an electronic 
stability control rule last spring which the agency estimates 
will prevent at least half of all rollovers. Alliance members 
are proud of the fact that we began installing this technology 
on vehicles well before the rule was finalized. Over 80 percent 
of model year 2008 cars and trucks have ESC available already. 
Our goal is to make ESC available on 100 percent of the fleet 
well in advance of the model year 2012 requirement.
    Should a rollover occur, however, the priority becomes 
keeping occupants inside their vehicles. While safety belt use 
remains the lynchpin safety technology, SAFETEA-LU directs 
NHTSA to implement supplemental occupant ejection mitigation 
technologies. Here again, automakers are ahead of the 
regulatory curve, with over three-quarters of new vehicles 
having side-curtain airbags available.
    Turning to the specific issues associated with this 
rulemaking, the relationship between roof strength and rollover 
injury risk is controversial. There are more than three decades 
of risk analysis debating whether or not there is a causal 
relationship between these parameters. A new analysis by IIHS, 
just described by Mr. Oesch, asserts a causal relationship 
between roof strength and injury risk. While we welcome the 
IIHS's input to try to shed light on this controversial issue, 
we cannot agree with the conclusions of their study, for the 
reasons described in the Alliance's written statement.
    On the issue of testing, the Alliance agrees with NHTSA 
that dynamic rollover tests for assessing roof strength are not 
practicable or repeatable. Repeatability is a problem with 
dynamic tests, as slight differences from one test to the next 
can significantly change the test outcome.
    In conclusion, Alliance members have demonstrated that 
motor vehicle safety is our number one priority, through 
voluntary and public policy initiatives and through expenditure 
of many millions of dollars in safety research and development.
    With regard to rollover safety, in particular, Alliance 
members have voluntarily implemented technologies that will 
help drivers avoid rollovers in the first place and better--and 
help them better survive them when they occur.
    Reducing injuries and fatalities from auto crashes is a 
significant public health challenge. We appreciate the 
leadership shown by the members of this subcommittee to address 
these issues, and we look forward to continuing to work with 
you to make our roads the safest in the world.
    Mr. Chairman, members of the subcommittee, I would be happy 
to answer your questions.
    [The prepared statement of Mr. Strassburger follows:]

  Prepared Statement of Robert Strassburger, Vice President, Vehicle 
     Safety and Harmonization, Alliance of Automobile Manufacturers
Introduction
    Thank you Mr. Chairman and members of the Subcommittee. My name is 
Robert Strassburger and I am Vice President of Vehicle Safety and 
Harmonization at the Alliance of Automobile Manufacturers. The Alliance 
of Automobile Manufacturers (Alliance) is a trade association of ten 
car and light truck manufacturers, including BMW Group, Chrysler LLC, 
Ford Motor Company, General Motors, Mazda, Mercedes-Benz, Mitsubishi 
Motors, Porsche, Toyota and Volkswagen. Within Alliance membership, 
safety is our highest priority. Ours is a high-tech industry that uses 
cutting-edge safety technology to put people first. In fact, automakers 
invest more in research and development than any other industry, 
including pharmaceuticals and computers, according to the National 
Science Foundation. In 2005 alone, automakers invested $40 billion, 
roughly $2,400 for every car and light truck sold in the U.S. that 
year. We support NHTSA's comprehensive plan to further reduce rollover-
related injury risks, including strengthening vehicle roofs, and we are 
proud of our successes in voluntarily introducing critical safety 
advancements that help drivers avoid rollovers and enhance occupant 
protection in rollover crashes.
Industry, Consumers and Motor Vehicle Safety
    Advancing motor vehicle safety remains a significant public health 
challenge--one that automakers are addressing daily, both individually 
and collectively. Most of the new, significant safety features 
currently available on motor vehicles in the U.S.--antilock brakes, 
stability control, side airbags for head and chest protection, side 
curtains, pre-crash occupant positioning, lane departure warnings, 
radar use for collision avoidance were implemented voluntarily by 
manufacturers, not as a result of any regulatory mandate. The industry 
is engaged in high-tech research and implementation of new safety 
technologies, such as autonomous braking systems and vehicle safety 
communications systems for crash avoidance. Claims that vehicle safety 
will not be advanced in the absence of regulatory requirements simply 
do not reflect the reality of the current marketplace. Before 
addressing specific measures to address rollover crashes and injuries, 
it is important to understand the industry's approach to motor vehicle 
safety. There are several principles to which the industry adheres.
    First, we consider motor vehicle safety to be a public health 
challenge. Collisions result in a human toll--approximately 42,000 
fatalities and 3 million injuries per year--and account for an 
estimated $230 million in direct economic loss. This is why we work to 
improve safety. The causes of these fatalities, injuries, and crashes 
vary between driver behavior or attention errors, to roadway and 
vehicle hazards. Addressing the causes of motor vehicle crashes 
therefore requires a comprehensive and system-wide approach that 
encompasses driver, vehicle, and environmental factors.
    Second, as with any public health challenge, it is essential to 
base policy and improvement initiatives on sound science and a robust 
understanding of crash and injury causation and effective 
countermeasures. It is also important to use good science in 
identifying and prioritizing specific opportunities for improvement. To 
do so, high-quality data about the occupant and injury morphology, the 
environment in which collision events occur (roadways), and the vehicle 
are necessary. Therefore, we support the collection and analysis of 
collision data and the prioritization of collision problems by measures 
of harm (numbers of fatalities, serious injuries, total economic cost, 
lost days of productivity, etc.). Such understanding and information 
should inform and prioritize public policy initiatives aimed at 
enhancing motor vehicle safety.
    Third, safety resources should be expended so as to maximize the 
safety benefits, wherever possible, per dollar expended on safety.
Alliance Members' Voluntary Actions To Mitigate Rollover Injuries and 
        Fatalities--Rollover Crashes
    According to crash data collected and compiled by the NHTSA, 
rollovers comprise approximately 3 percent of all light passenger 
vehicle crashes and account for almost one-third of all occupant 
fatalities in light vehicles. Rollover fatalities are strongly 
associated with the following factors:

----------------------------------------------------------------------------------------------------------------
                                        Factor                                                 Percentage
----------------------------------------------------------------------------------------------------------------
Single Vehicle Crash                                                                                         83
Rural Crash Location                                                                                         60
High-speed (55 mph or higher) Road                                                                           72
Nighttime                                                                                                    66
Off-road tripping/tipping Mechanism                                                                          60
Young (under 30 years old) Driver                                                                            46
Male Driver                                                                                                  73
Alcohol-related                                                                                              40
Speed-related                                                                                                40
----------------------------------------------------------------------------------------------------------------

    NHTSA has estimated that approximately 64 percent of about 10,000 
occupants fatally injured in rollovers each year are injured when they 
are either partially or completely ejected during the rollover. 
Approximately 53 percent of the fatally injured are completely ejected, 
and 72 percent are unbelted. Most of the fatally injured are ejected 
through side windows or side doors. Those who are not ejected, 
including belted occupants, are fatally injured as a result of impact 
with the vehicle interior.
    Further, agency data indicate that in 95 percent of single-vehicle 
rollover crashes, the vehicles were tripped, either by on-road 
mechanisms such as potholes and wheel rims digging into the pavement or 
by off-road mechanisms such as curbs, soft soil, and guardrails. 
Eighty-three (83) percent of single-vehicle rollover crashes occurred 
after the vehicle left the roadway. Five (5) percent of single vehicle 
rollovers were ``untripped'' rollovers. They occurred as a result of 
tire and/or road interface friction.
Comprehensive Plan to Abate Rollover Injuries and Fatalities
    NHTSA's proposal to upgrade its safety standard on roof crush 
resistance is just one part of a comprehensive agency plan for reducing 
the serious risk of rollover crashes and the risk of death and serious 
injury when rollover crashes do occur. The other parts of this plan 
are:

  <bullet> Vehicle actions reducing the frequency of rollovers--for 
        example, by improving vehicle stability and control;

  <bullet> Vehicle actions reducing occupant ejections--for example by 
        introducing side curtain air bags and increasing safety belt 
        use; and

  <bullet> Consumer education.

    With the adoption of the provisions of SAFETEA-LU, Congress 
ratified this comprehensive plan. Section 10301 of this act directed 
NHTSA to complete rulemakings to ``reduce vehicle rollover crashes and 
mitigate deaths and injuries associated with such crashes.1'' The 
objective of this plan is to, first, help vehicle operators avoid 
driving situations that may lead to a rollover--a loss of directional 
control followed by a tripping of the vehicle by a curb, or soft earth, 
etc., and second, reduce injury to vehicle occupants during rollover 
events when they occur. NHTSA has taken or is taking the following 
actions to implement this plan:

                           Comprehensive Rollover Fatality & Injury Mitigation Actions
----------------------------------------------------------------------------------------------------------------
                                                   Congressional                                Implementation
                    Action                            Mandate         Federal Register Cite          Date
----------------------------------------------------------------------------------------------------------------
Dynamic Rollover NCAP                             Pub. L. 106-414        68 Fed. Reg. 59250             MY 2004
Door Latches and Locks                             Pub. L. 109-59         72 Fed. Reg. 5385             MY 2010
Electronic Stability Control                       Pub. L. 109-59        72 Fed. Reg. 17236             MY 2012
Side Impact Protection                             Pub. L. 109-59        72 Fed. Reg. 51908             MY 2013
Roof Strength                                      Pub. L. 109-59              Due 07/01/08                 tbd
Occupant Containment                               Pub. L. 109-59              Due 10/01/09                 tbd
----------------------------------------------------------------------------------------------------------------

Alliance Members Have Voluntarily Taken a Number of Actions in 
        Furtherance of NHTSA's Comprehensive Plan
    The Alliance supports NHTSA's comprehensive plan to further reduce 
the risks related to vehicle rollovers, including (1) reducing the 
occurrence of rollover crashes, (2) keeping occupants inside the 
vehicle when rollovers occur, and (3) enhancing protection of occupants 
inside the vehicle during a rollover. Alliance members are committed to 
making progress on the introduction of systems that will lead to 
reductions in rollover injuries. Members have voluntarily taken a 
number of proactive steps in furtherance of these goals. These actions 
are described briefly below.
Reducing the Occurrence of Rollover Crashes
Electronic Stability Control
    By far, the most effective strategy for reducing rollover injuries 
is crash avoidance. Electronic Stability Control (ESC), a proven crash 
avoidance system, was voluntarily introduced by Alliance members and 
the volume of vehicles with ESC is rising rapidly. As of Model Year 
2008, 81 percent of the new light vehicle models on sale are available 
with ESC (61 percent standard; 20 percent optional). The percentage of 
MY 2008 SUVs with ESC available is even higher. Ninety-five percent of 
MY 2008 SUVs are available with ESC (93 percent standard; 2 percent 
optional). This is well in advance of MY 2012 when such systems will be 
required.
    ESC systems use automatic, computer-controlled braking of 
individual wheels to assist the driver in maintaining control (and the 
vehicle's intended heading) in situations where the vehicle is 
beginning to lose directional stability (e.g., where the driver 
misjudges the severity of a curve or over-corrects in an emergency 
situation). In such situations (which occur with considerable 
frequency), intervention by the ESC system can assist the driver in 
maintaining control of the vehicle and keeping it on the roadway, 
thereby preventing fatalities and injuries associated with run-off-the-
road crashes that frequently involve rollover or collision with various 
objects (e.g., trees, highway infrastructure, other vehicles). NHTSA 
estimates that ESC will prevent roughly half of all rollovers in 
passenger cars and light trucks.
Lane Departure Warning Systems
    Some Alliance members have begun to install lane departure warning 
(LDW) systems. When a drowsy or otherwise impaired or distracted driver 
begins to drift out of the lane of travel, either into another lane or 
off the road, the LDW system alerts the driver by vibrating the 
steering wheel or seat, emitting an audible or visual warning, or by 
other means. Some systems can also brake selected wheels to nudge a 
vehicle back in lane. The potential benefit of LDW systems is to 
prevent head-on crashes, sideswipes, and run-off-the-road crashes which 
can lead to rollovers or impacts with off-road objects. LDW systems may 
be able to reduce such events by 25 to 30 percent.
Keeping Occupants Inside the Vehicle During a Rollover and Enhancing 
        Protection of those Occupants
Enhanced Side Impact Protection
    In December 2003, auto manufacturers committed to a plan developed 
by an international group of safety experts for enhancing the crash 
compatibility of passenger cars and light trucks. The plan established 
new performance criteria for further enhancing occupant protection in 
front and side crashes between cars and light trucks. It also defined 
research programs to investigate future test procedures and performance 
criteria. The Insurance Institute for Highway Safety (IIHS) facilitated 
the development of this plan with the sponsorship of the Alliance. By 
September 2009,100 percent of each participating manufacturer's 
applicable vehicles will be designed to these criteria. However, 
participating auto manufacturers began implementing the front-to-front 
and front-to-side performance criteria immediately upon industry's 
agreement. Manufacturers' recent progress in implementing this 
commitment is described below.

                                      Approximate Percentage of Production
                                 [Designed in Accordance w/Performance Criteria]
----------------------------------------------------------------------------------------------------------------
                                                        Production Year     Production Year     Production Year
                     Crash Mode                              2005                2006                2007
----------------------------------------------------------------------------------------------------------------
Front-to-Side                                                       33%                 53%                 71%
Front-to-Front                                                      62%                 75%                 81%
----------------------------------------------------------------------------------------------------------------

    The front-to-side crash component of the commitment established 
performance criteria to further enhance head protection for people 
riding in passenger vehicles that are struck in the side. As of Model 
Year 2008, 76 percent of the new light vehicle models on sale are 
available with side curtain air bags (63 percent standard; 13 percent 
optional). The percentage of MY 2008 SUVs with side curtain air bags 
available is even higher. Ninety-seven percent of MY 2008 SUVs are 
available with side curtain air bags (91 percent standard; 6 percent 
optional). Side curtain air bags provide some ejection mitigation 
benefits in rollovers.
Occupant Containment Systems
    Ejection is the most common source of serious injuries and 
fatalities in rollover crashes. With input from a separate rollover 
sensor, side curtain air bags can be designed to also deploy as 
rollover airbags in the event of a rollover. Rollover air bags stay 
inflated longer to help keep occupants inside the vehicle during a 
rollover. The Alliance estimates that approximately one-quarter of the 
side curtain air bags available on MY 2008 models are fitted with 
rollover air bags.
Safety Belt Reminder Systems
    Safety belt use is critical to reducing rollover-related fatalities 
and injuries. While safety belts are, overall, 45 percent effective in 
reducing fatalities in passenger cars and 60 percent effective in light 
trucks and SUVs, their greatest benefit occurs in rollovers. NHTSA data 
show that safety belts are 74 percent effective in reducing fatalities 
that occur in passenger car rollovers, and are 80 percent effective in 
reducing rollover fatalities in light trucks and SUVs. Thus, any 
comprehensive program to address fatalities in rollovers must begin 
with improving safety belt use, especially since the data show that 
approximately 72 percent of the people killed or injured in single-
vehicle rollovers are unbelted.
    Alliance members are voluntarily installing vehicle-based 
technologies to encourage safety belt usage. Research on one system 
deployed in the United States by an Alliance member found a 
statistically significant 5 percentage point increase in safety belt 
use for drivers of vehicles equipped with that system compared with 
drivers of unequipped vehicles. NHTSA estimates that a single 
percentage point increase in safety belt use nationwide would result in 
an estimated 280 lives saved per year. Beginning in model year 2004, 
all members of the Alliance began voluntarily deploying various 
vehicle-based technologies to increase safety belt use. Eighty-five 
percent of model year 2006 cars and light trucks were equipped with 
safety belt reminder systems.
Other Actions to Mitigate Rollover Injuries and Fatalities
Primary Enforcement Belt Use Laws
    Alliance members' support (totaling $33 million) of the Air Bag and 
Seat Belt Safety Campaign conducted from 1996-2007, helped to achieve a 
more than 20 percentage point increase in the national safety belt use 
rate, to a highest-ever level of 82.4 percent in 2007. The Campaign's 
work let to the national adoption of the Click It or Ticket program, 
supported by national and state advertising and significant commitments 
from the law enforcement community. In addition, the Campaign worked 
throughout its tenure for the adoption of primary enforcement seat belt 
laws in the states. States with primary enforcement laws have average 
safety belt usage rates approximately 11 percentage points higher than 
states having secondary enforcement laws. In 1996, when the Campaign 
started, only 11 states covering 38 percent of the Nation's population 
had primary enforcement laws. Currently, 26 states and the District of 
Columbia have these laws, covering more than two-thirds of the 
population. Impressively, the latest data shows that 12 states, led by 
Hawaii at 97.6 percent, have belt use rates above 90 percent. 
Unfortunately, three states still have belt use rates below 70 percent.
Campaign to Eliminate Drunk Driving
    Because approximately 40 percent of the fatalities occurring in 
rollovers annually are alcohol-related, abating drunk driving will also 
help to reduce rollover fatalities and injuries. In November 2006, the 
Alliance joined with the U.S. Department of Transportation, the 
Insurance Institute for Highway Safety (IIHS), the Governors Highway 
Safety Association, The Century Council, the Distilled Spirits Council 
of the United States (DISCUS), and the International Association of 
Chiefs of Police, to support MADD's Campaign to Eliminate Drunk 
Driving. The Campaign is pursuing the adoption of state laws mandating 
the installation of alcohol ignition interlocks (breathalyzers) on 
vehicles driven by convicted drunk drivers. In New Mexico--the first 
state to adopt such a mandate--alcohol-involved crashes are down 30 
percent, injuries are down 32 percent, and fatalities are down 22 
percent.
NHTSA's Roof Strength Rulemaking
    Turning to the matter at hand, as part of a comprehensive plan for 
reducing the serious risk of rollover crashes and the risk of death and 
serious injury in those crashes, NHTSA has proposed to amend the 
agency's safety standard on roof crush resistance--FMVSS 216--in 
several ways. First, NHTSA has proposed to extend the application of 
the standard to vehicles with a Gross Vehicle Weight Rating (GVWR) of 
10,000 pounds or less (the current rule limits applicability to 
vehicles with a GVWR of 6,000 pounds or less). Second, the agency has 
proposed to increase the applied force to 2.5 times each vehicle's 
unloaded weight, and to eliminate the existing 5,000 pound limit on the 
force applied to passenger cars. Third, the agency has proposed to 
replace the current limit on the amount of allowable roof crush with a 
new requirement prohibiting roof contact with the head of a seated test 
dummy representative of a mid-size adult male occupant. A summary of 
the current and proposed roof strength requirements is given below.

                                      FMVSS 216, ``Roof Crush Resistance''
----------------------------------------------------------------------------------------------------------------
                                        Existing Standard               NPRM                      SNPRM
----------------------------------------------------------------------------------------------------------------
Applicability                              GVWR  6,000 lbs.         GVWR  10,000 lbs.         GVWR  10,000 lbs.
Applied Force Limit                              5,000 lbs.                      None                      None
Strength-to-Weight                                      1.5                       2.5                 2.5  3.0
Performance Criteria                    5 in. Platen Travel           No head contact           No head contact
                                                                    (50th Male Dummy)         (Head Positioning
                                                                                                       Fixture)
Sides Tested                             One side at a time        One side at a time    Two sides sequentially
                                       (Driver & Passenger)      (Driver & Passenger)      (Driver & Passenger)
Leadtime                                                 na                   3-years                   3-years
Phase-in                                                 na                      None                      None
Carry-forward Credits                                    na                      None                      None
----------------------------------------------------------------------------------------------------------------

    The Alliance supports NHTSA's efforts to implement a multi-part 
comprehensive plan to mitigate rollover injuries and fatalities. The 
Alliance agrees with the agency that, by itself, the proposed changes 
to the roof crush resistance standard will have a limited effect 
(compared to other elements of the comprehensive plan) in reducing 
rollover related casualties. The Alliance has undertaken various 
studies and analyses to help inform this rulemaking. These demonstrate 
that the proposed rule should be modified in several aspects as 
described below. We conclude with our recommendations for the final 
rule.
Injury Patterns of Occupants Involved in Rollovers
    The Alliance sponsored research to examine the injury patterns of 
occupants involved in rollover crashes. Like NHTSA, the research 
sponsored by the Alliance analyzed real-world rollover injury data in 
order to determine the number of occupant injuries that could be 
attributed to roof intrusion. This research examined only front 
outboard occupants who were belted, not fully ejected from their 
vehicles, whose most severe injury was associated with roof contact, 
and whose seating position was located below a roof component that 
experienced vertical intrusion as a result of a rollover crash. Using 
the National Automotive Sampling System/Crashworthiness Data System 
(NASS/CDS), the first phase of this research developed a statistical 
estimate of the number of belted occupants seriously injured in 
rollovers through various injury sources. The second phase of this 
research involved an in-depth review of each of the cases identified 
during the first phase to explore injury patterns. A comprehensive 
review of 278 NASS/CDS rollover cases was performed. A few of the 
significant findings of this study are:

  <bullet> Injury Causation. Review of a wide range of rollover 
        crashes, from those resulting in significant roof deformation 
        and no injury to those resulting in significant injuries with 
        minimal deformation, indicates that rollovers are complex 
        events and that a single parameter (such as roof performance) 
        cannot explain the injury potential for occupants.

  <bullet> Vehicle Headroom. The NASS/CDS rollover data show no 
        relationship between vehicle headroom and the risk of serious 
        head/neck/face injury for belted occupants.

  <bullet> Roof Strength-to-Weight Ratio. The NASS/CDS rollover data 
        show no relationship between vehicle roof strength-to-weight 
        ratio (as measured by FMVSS 216) and the risk of serious head/
        neck/face injury for belted occupants, even after controlling 
        for rollover class, driver age, and belt use.

  <bullet> Two Occupants. The detailed reviews include numerous 
        examples of variability in injury outcome for occupants in the 
        same vehicle, even when other factors (age, height, belt and 
        ejection status, magnitude of vertical roof deformation at 
        occupant positions, etc.) are essentially the same. In 
        particular, these cases show no difference between far-side/
        near-side occupants and associated injury risk.

    The auto industry has been conducting research into rollover 
related injury for many years and an understanding of injury causation 
is essential to understanding the relevance of roof strength. Decades 
of real-world crash data analysis and laboratory testing has 
established that roof deformation and injury in rollover crashes are 
related to the severity of the crash, but that does not mean roof 
deformation causes injury.
Roof Strength and Rollover Injury Risk
    The Insurance Institute for Highway Safety (IIHS) recently 
published a study that examined the relationship between roof strength 
and rollover injury risk. IIHS conducted independent tests of roof 
strength among a group of midsize SUVs and analyzed the relationship 
between different measures of roof strength and injury risk in real-
world rollover crashes. IIHS researchers concluded that there is a 
strong relationship between roof strength and injury risk in a rollover 
crash; the stronger the roof the lower the injury risk. See IIHS Figure 
1 below. Based on this finding they are recommending that the NHTSA 
consider increasing the minimum strength-to-weight (SWR) ratio beyond 
the currently proposed value of 2.5 within 5 inches of roof crush, to 
an SWR of 3.0-3.5.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Alliance welcomes the IIHS's input in trying to shed light on 
this important but controversial issue, but the IIHS's recommendations 
for even greater roof strength requirements than those currently being 
proposed by NHTSA are not warranted based on these data. The IIHS data 
do not demonstrate a relationship between roof strength and injury 
causation in rollovers.
    In its analysis, the IIHS assumed that the ratio between roof 
strength and vehicle weight, or SWR, is monotonic (consistently 
decreasing) over the entire range of SWR for the samples it examined. 
Further analyses of these data casts doubt on the acceptability of 
these assumptions. Using the IIHS data on roof strength, and the same 
analytical approach, a statistical analysis commissioned by the 
Alliance closely replicated the IIHS analysis with police-reported 
crash data obtained from 9 of the 12 states used in the IIHS study 
(Some of the state data used by IIHS are not publicly available.). The 
analysis then tested whether there was good evidence that a straight 
line provided the best explanation of the relationship. Using a widely 
accepted statistical procedure, the data for SUVs from the central 
group of roof strength values was reanalyzed, followed by data from the 
lowest and the highest groupings. If a linear relationship is evident 
across the full range of values then the findings from the central 
group of the data should essentially predict those from the upper and 
lower groups. They did not--see Figure 2 below. Furthermore, limiting 
the analysis to higher roof strength vehicles (SWR * 2.0), arguably 
closer in value to the IIHS recommended SWR of 3.0-3.5), yielded no 
relationship between roof strength and injury risk.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The IIHS findings exceed the conclusions that can reasonably be 
drawn from their data and analysis, and the IIHS conclusions are at 
odds with an understanding of injury causation. They are assuming that 
a linear (straight line) relationship exists across the range of roof 
strength values for which they have test results. The evidence is that 
it does not. That being the case, it is not acceptable to use these 
limited data to predict benefits for roofs stronger than those 
currently seen in the fleet. Another limitation of the analyses that 
limit its extrapolation to the passenger vehicle fleet as a whole is 
that only a limited set of midsize SUVs were tested.
Alliance Cost/Weight Analysis
    Alliance members studied strategies for increasing the strength-to-
weight ratio (SWR) of exemplar large sport utility vehicles and large 
pickup trucks by simulating the modifications of existing designs with 
design changes that are capable of being produced in mass-production 
volumes with current technology. These studies confirmed NHTSA's 
general concern that near-term design changes for existing vehicle 
models would add substantial weight to the vehicle, potentially 
adversely affecting two of NHTSA's safety priority issues: reducing 
rollover events and improving vehicle-to-vehicle compatibility. A 
summary of these studies follows.

                                    Summary of Alliance Cost/Weight Analysis
----------------------------------------------------------------------------------------------------------------
                                                          Effect of Modifications to Reach: <dagger>
    Vehicle Type         Baseline Vehicle   --------------------------------------------------------------------
                              Weight               SWR 2.520              SWR 3.020               WR 3.520
----------------------------------------------------------------------------------------------------------------
Large SUV              5,600 to 7,200 lbs.         +60 to 67 lbs.       +150 to 270 lbs.       +250 to 540 lbs.
Costs                                   na      Variable: $38-$58      Variable: $60-$90    Variable: $110-$130
                                                 Fixed: $40M-$75M       Fixed: $80M-$90M      Fixed: $80M-$180M
Large Pickup           5,800 to 8,900 lbs.         +38 to 68 lbs.        +85 to 260 lbs.       +120 to 520 lbs.
Costs                                   na     Variable: $55-$185    Variable: $100-$200    Variable: $165-$525
                                               Fixed: $10.5M-$77M     Fixed: $10.8-$218M      Fixed: $11M-$660M
----------------------------------------------------------------------------------------------------------------
<dagger> The nomenclature SWR2.520 means NHTSA's proposal: a SWR of 2.5 times the vehicle's unloaded vehicle
  weight, plus a 20 percent compliance margin.

Strength-to-Weight Ratio at and above 2.5 and the Impacts on Safety
    The Alliance's analysis demonstrates that increasing SWRs above 2.5 
necessitates significant mass increases that negatively impact safety, 
if insufficient leadtime is provided. The average weight penalty, for a 
large SUV, for increasing the SWR from 1.5 to 2.5 (NPRM) would be 60 to 
67 lbs., and for a large truck the corresponding average weight penalty 
would be 38 to 68 lbs. A NHTSA requirement for single-sided testing at 
a SWR of 3.0 or 3.5 or two-sided testing (SNPRM) will add substantial 
mass increases to vehicle roof structures, particularly for heavier 
vehicles. For instance, for a large SUV, increasing the SWR from 1.5 to 
3.0 would add an average weight penalty of 150 to 270 lbs. and 
increasing the SWR from 1.5 to 3.5 would add an average weight penalty 
of 250 to 540 lbs. Similarly, for a large truck, increasing the SWR 
from 1.5 to 3.0 would add an average weight penalty of 85 to 260 lbs. 
and increasing the SWR from 1.5 to 3.5 would add an average weight 
penalty of 120 to 520 lbs. The added weight associated with increasing 
roof strength may also adversely affect vehicle crash compatibility.
Increase in Vehicle Mass and Effect on CAFE Performance
    NHTSA has recently proposed substantial increases in the Corporate 
Average Fuel Economy (CAFE) standards for passenger cars and light 
trucks. The agency's fuel economy rulemaking is being issued pursuant 
to the Energy Independence and Security Act of 2007 (EISA), which 
Congress passed in December 2007. EISA mandates the setting of separate 
maximum feasible standards for passenger cars and for light trucks at 
levels sufficient to ensure that the average fuel economy of the 
combined fleet of all passenger cars and light trucks sold by all 
manufacturers in the U.S. in model year (MY) 2020 equals or exceeds 35 
miles per gallon. That is a 40 percent increase above the average of 
approximately 25 miles per gallon for the current combined fleet.
    Increasing SWR above 2.5 necessitates significant mass increases 
that negatively impact fuel economy. As indicated above, the average 
weight penalty, for a large SUV, for increasing the SWR from 1.5 to 2.5 
(NPRM) would be 60 to 67 lbs., and for a large truck the corresponding 
average weight penalty would be 38 to 68 lbs. A NHTSA requirement for 
single-sided testing at a SWR of 3.0 or 3.5 or two-sided testing 
(SNPRM) will add substantial mass increases to vehicle roof structures, 
particularly for heavier vehicles. For instance, for a large SUV, 
increasing the SWR from 1.5 to 3.0 would add an average weight penalty 
of 150 to 270 lbs. and increasing the SWR from 1.5 to 3.5 would add an 
average weight penalty of 250 to 540 lbs. Similarly, for a large truck, 
increasing the SWR from 1.5 to 3.0 would add an average weight penalty 
of 85 to 260 lbs. and increasing the SWR from 1.5 to 3.5 would add an 
average weight penalty of 120 to 520 lbs. The added weight will also 
reduce fuel economy and increase vehicle lifetime fuel consumption. 
Because every 100 lbs. added to a vehicle reduces its fuel economy by 
1-2 percent, a 3.5 SWR could reduce a large pickup truck or SUV's fuel 
economy by up to 10 percent.
Two-sided vs. One-sided Testing
    NHTSA has indicated that it is considering two-sided testing to 
evaluate the strength of the second side of the roof of vehicles whose 
first side had already been tested. In this testing, after the force 
was applied to one side of the roof over the front seat area of a 
vehicle, the partially crushed vehicle was repositioned and force was 
then applied on the opposite side of the roof over the front seat area. 
The variability and challenges in repeatability of roof strength 
testing in a one-sided test would be amplified in a two-sided test and 
manufacturers would have to select compliance margins to compensate for 
this resultant increased variability. The setup of vehicles relative to 
the platen can vary substantially from testing facility-to-testing 
facility and within a single testing facility. The configuration of the 
load application device and the load measurement system can be quite 
different between testing facilities. Depending upon the structural 
architecture of the vehicle, these variations and differences can 
manifest themselves as variations in measured roof strength.
Performance Criteria--Headroom vs. Platen Travel
    The Alliance recommends that NHTSA maintain the use of 5 inches of 
platen travel as the deformation criterion in the final rule. The 
Alliance does not support a ``no head contact'' criterion, whether it 
is determined by the use of a test dummy representative of an average 
adult male (as in the NPRM) or via the use of a headform-positioning 
device with an associated contact force measured by a load cell 
attached to the headform. A ``no head contact'' criterion only serves 
to further increase both test-to-test variability and testing 
complexity without providing any additional engineering data beyond 
that which can be obtained using a 5-inch platen travel limit.
    Besides the fact that a ``no head contact'' criterion offers no 
engineering value with respect to assessing a vehicle's roof strength 
performance, such a criterion does not recognize the well-established, 
scientific body-of-knowledge concerning occupant kinematics in a 
rollovers. In rollover events, rotational and gravitational forces 
combine to result in restrained and unrestrained occupants moving 
inside vehicles in an uncontrolled and unpredictable manner and thus 
are subject to injury risk from incidental impact with the vehicle 
interior, other occupants, and the ground, independent of roof-to-
ground contact or roof deformation. Use of any variant of a head 
contact criteria for determination of roof strength or the ratio of 
roof strength to vehicle mass (SWR) does not correlate or relate to 
occupant injury.
Recommendations
    The table below summarizes the Alliance recommendations for the 
final rule for FMVSS 216. Where the Alliance recommendation differs 
from NHTSA's proposal bolded text has been used.

                                      FMVSS 216, ``Roof Crush Resistance''
----------------------------------------------------------------------------------------------------------------
                                          Existing Standard          NPRM SNPRM         Alliance Recommendation
----------------------------------------------------------------------------------------------------------------
Applicability                               GVWR  6,000 lbs.      GVWR  10,000 lbs.           GVWR  10,000 lbs.
Applied Force Limit                               5,000 lbs.                   None                        None
Strength-to-Weight                                       1.5              2.5  3.0                         2.5
Performance Criteria                     5 in. Platen Travel        No head contact         5 in. Platen Travel
                                                                (50th Male Dummy or
                                                                   Head Positioning
                                                                           Fixture)
Sides Tested                              One side at a time     One side at a time          One side at a time
                                        (Driver & Passenger)             (Two sides        (Driver & Passenger)
                                                                      sequentially)
Leadtime                                                  na                3-years                     3-years
Phase-in                                                  na                   None                         Yes
Carry-forward Credits                                     na                   None                       Allow
----------------------------------------------------------------------------------------------------------------


    Senator Pryor. Thank you.
    Ms. Claybrook?

 STATEMENT OF HON. JOAN B. CLAYBROOK, PRESIDENT, PUBLIC CITIZEN

    Ms. Claybrook. Thank you so much, Mr. Chairman. We at 
Public Citizen, appreciate the opportunity to testify today.
    Every day there are 29 fatalities from rollover crashes. If 
there were 29 fatalities from an airplane crash every day, I 
think this Congress would be in a revolutionary state about 
what to do to remedy that. And yet, for the past 7 years, the 
National Highway Traffic Safety Administration has diddled in 
its rulemaking activities and come up with a terrible proposal 
that is not going to really make any difference. It's going to 
save between 44 and 476 lives out of 10,600, which is, in 
itself, an indicator of the lack of capacity of this rulemaking 
to make any difference.
    Rollover crashes, it's really important to say, are highly 
survivable. That's the most important thing to know, because 
the physics of rollover crashes are indisputable. They occur 
over a 4- to 6-second time interval, which is a very long 
period of time, whereas, other crashes are milliseconds. There 
is time for the body to adjust to the rollover; it just has to 
be protected when that occurs. Consequently, the forces acting 
on the occupants are mild, and the focus then becomes 
threefold. Do the restraints properly and safely keep the 
occupant in the survival zone of the vehicle? Does the vehicle 
structure maintain occupant survival space? And do the portals 
of ejection--i.e., the side windows and doors--stay intact, and 
thus, prevent exposure to partial ejection, a hideous and 
terrible consequence of rollovers? These questions can best be 
answered by a dynamic test standard.
    Public Citizen recommends the following. First, NHTSA 
should issue one unified, dynamic rollover injury prevention 
crashworthiness standard for rollover, for all aspects of 
rollover. We know it's practicable. The Volvo XC90, built by 
one small auto manufacturer, shows that a vehicle that protects 
occupants in most rollover crashes can be built and sold 
successfully. In order to do this, of course, the deadline for 
this rulemaking needs to be extended.
    NHTSA needs to go back to the drawing board and re-envision 
its rollover crashworthiness program. Instead of tackling the 
rollover problem in a piecemeal way, which is what it's doing 
now, it should issue a comprehensive rollover crashworthiness 
standard that mimics real-world crash conditions using an 
injury prevention metric that addresses the three elements of 
rollover occupant protection: ejection prevention, adequate and 
effective restraint, and assurance that occupants are not 
killed or injured by an intruding roof. These dynamic tests 
should cover belts and belt pretensioners, door locks, door 
retention, side-curtain airbags, glazing, ejection potential, 
and roof crush. That could all be done in one test. Such a 
dynamic standard would subsume the ejection final rule, which 
is required by the 2005 legislation and is due by October 1, 
2009. NHTSA, for that standard, is now merely looking at a 
totally inadequate quasi-static head-form test.
    NHTSA has known of the problem of rollover since 1970, when 
it first, with the airbag rule, issued a voluntary dynamic 
rollover test. I want to repeat that. A dynamic rollover test 
was developed in 1970, called the dolly rollover test, which 
industry has been using for years in its own internal testing.
    And now there is a vastly improved privately designed 
system called the Jordan Rollover System. Two brilliant 
engineers, in California one of whom is here in the audience--
Don Friedman--developed this; the other, Acen Jordan, is a 
renowned developer of test equipment and has done many designs 
for industry.
    We recommend, as well, that the language on preemption 
restricting victims access to the courts be removed. And, in 
the interim, we recommend that a new consumer information 
program be designed using a static test with a much improved 
requirement so that, in the interim, while the redesign of the 
test is going on, consumers at least can get some information, 
using the static test, about the performance of the airbags.
    This is totally feasible. All of the other standards of 
significance that NHTSA has issued are dynamic tests. The front 
crash is a dynamic test. The side is a dynamic test. The rear 
is a dynamic test. Why not a rollover dynamic test? It makes no 
sense.
    In my statement, I mention a number of criteria that have 
not been met by NHTSA that are in the SAFETEA-LU requirements, 
including the word ``upgrade''--this is not an ``upgrade''--
``tested on both sides,'' ``consider dynamic testing,'' and 
then there are a number of technical difficulties that I 
mention.
    I'd like to conclude with a brief 17-second film showing 
the Jordan Rollover System, so that the committee can see how 
well it works.
    This has no signal. Well, technology always intervenes, 
doesn't it?
    Well, I'll just say that this system is inexpensive. The 
vehicle is put on a spit. The vehicle is upside-down, it's 
lowered so that the roof has contact with a roadway running 
underneath, at whatever miles per hour it is designed to be. 
This test can be done with a vehicle in white, which is very 
inexpensive, before it's all painted, with the engine, and so 
on. It can be adjusted to any angle and way that you want to 
test it. And it very much mirrors the real world of a rollover 
crash. And without a dynamic test, it's not possible to really 
figure out how this vehicle is going to perform. The JRS has 
done over 80 rollover tests, and it is a remarkable system. And 
it is shameful--it is shameful that NHTSA has not really--they 
said they had done testing with the JRS; they have done no 
testing with the JRS. So, it's been most unfortunate.
    Senator Pryor. Well, I'll tell you what, if we get the 
video working here in a minute, we'll go back----
    Ms. Claybrook. Thank you very much.
    Senator Pryor.--to it, but----
    Ms. Claybrook. Thank you very much, Mr. Chairman.
    Senator Pryor.--you bet.
    Ms. Claybrook. I appreciate the opportunity to testify.
    [The prepared statement of Ms. Claybrook follows:]

Prepared Statement of Hon. Joan B. Claybrook, President, Public Citizen
    Chairman Pryor and members of the subcommittee, I am grateful to be 
here today to discuss the National Highway Traffic Safety 
Administration's utter and complete failure to provide the public with 
the protection that it needs in rollover crashes. I am Joan Claybrook, 
president of Public Citizen, and I have worked on auto safety issues 
for more than 40 years, first as a congressional staffer during the 
drafting of NHTSA's organic act, then as the special assistant to the 
first administrator of NHTSA, later as the administrator of NHTSA 
during the Carter administration, and ever since then as an advocate 
for the public.
    In 1969, there were just 1,400 deaths in rollover crashes--at the 
time, pickup trucks were predominately work vehicles, and SUVs marketed 
as passenger-carrying vehicles had not entered the product mix.\1\ As 
Congress has learned over the years, the rollover problem we now face 
is a direct result of the industry's marketing campaign to make SUVs 
the station wagon of the future.
---------------------------------------------------------------------------
    \1\ 36 FR 166 (January 6, 1971).
---------------------------------------------------------------------------
    Rollover crashes should be highly survivable. The forces felt by an 
occupant who has a rollover pretention restraint and who does not 
contact the roof are not as violent as those experienced in a frontal 
impact crash. The physics of rollover crashes are indisputable: 
rollover crashes occur over a 4-6 second time interval, whereas other 
crashes are over milliseconds. Consequently, the forces acting on 
occupants are relatively mild and the focus becomes threefold: (1) 
whether the restraint properly and safely keeps the occupant in the 
survival zone of the vehicle; (2) whether the vehicle structure 
maintains the occupant survival space; and (3) whether the portals of 
ejection, e.g., side windows, stay intact thus preventing exposure to 
partial ejection.
    In 2007 there were 10,698 fatalities in rollover crashes, 
accounting for 33 percent of all highway occupant fatalities.\2\ By 
contrast, there have been fewer than 100 fatalities in plane crashes in 
the past 3 years combined.\3\ If there were as many fatalities in plane 
crashes as there are in just rollover crashes, there would be 
overwhelming public outcry for the FAA to more strictly oversee the 
airline industry. Motor vehicle accidents are the number one killer of 
people aged 3 to 33, and rollover crashes account for a 
disproportionate and unnecessary number of these deaths.
---------------------------------------------------------------------------
    \2\ National Highway Traffic Safety Administration, DOT HS 810 837. 
September 2007.
    \3\ National Transportation Safety Board, Aviation Accident 
Statistics. Available at http://www.ntsb.gov/aviation/Stats.htm.
---------------------------------------------------------------------------
    To say that this is a national crisis ignores the fact that this 
has been a problem for almost twenty years, and yet, I am back before 
the Senate, asking that you revisit this issue again--for the sake of 
the over 10,500 families who lose a loved one each year in crashes that 
should be survivable and for the tens of thousands of others whose 
lives are irreversibly damaged by paralysis. Since 1991, when Congress 
first acted in the Intermodal Surface Transportation Efficiency Act 
(ISTEA) \4\ and instructed NHTSA to take action, more than 155,000 
Americans have died in rollover crashes. These figures are appalling 
and reflect a clear lack of action on the part of the auto industry 
and, unfortunately, NHTSA.
---------------------------------------------------------------------------
    \4\ Pub. L. 102-240. December 18, 1991.
---------------------------------------------------------------------------
    After 20 years of pushing for a response from NHTSA to the problem 
of far too many rollover fatalities, we recommend that the agency do 
the following:

  <bullet> Issue a comprehensive rollover crashworthiness standard that 
        dynamically tests the performance of seat belts and belt 
        pretensioners, door locks and door retention, side curtain 
        airbags, glazing retention, ejection potential and roof crush 
        resistance. The agency must abandon the current useless 
        rulemaking and do it right.

  <bullet> Until the agency can issue a dynamic crash test standard, it 
        should provide widely publicized consumer information about 
        roof strength using a static test that consists of two 
        sequential platen tests. First, the platen is applied at a 10 
        degree pitch angle and a 25 degree roll angle for the first 
        side, and then at a 40 degree roll angle for the second side. 
        The roof should be able to reach a 3.5 times gross vehicle 
        weight rating strength-to-weight ratio.

History
    In 1970, NHTSA first addressed rollovers as a voluntary part of the 
airbag rule, Federal Motor Vehicle Safety Standard (FMVSS) 208, with a 
dynamic dolly rollover test. It was never made mandatory, but was used 
by industry internally to test their vehicles for decades. In 1971, 
NHTSA issued the mandatory static roof crush standard, FMVSS 216, but 
the final rule at GM's urging was seriously cut back from a two-sided 
test to a weak one-sided test which resulted in almost no improvement 
in roof strength. This standard is still in effect today.
    It wasn't until a large number of consumers were driving pickup 
trucks and SUVs that fatalities due to rollover started to rise that 
Congress called for a reevaluation of rollover. It has taken nearly 
twenty years more for the agency to address rollover fatalities than 
when Congress first called for action, and the work is still not done.
    Seventeen years ago Congress first acted to address this problem. 
In 1991, Congress passed the ISTEA, which directed NHTSA to develop a 
stability standard, and issue a rule by May 1994 to reduce head injury 
from contact with the upper interior of a vehicle. The stability 
standard has never been issued and was abandoned after an advance 
notice of proposed rulemaking in 1992. The rulemaking action was 
terminated in 1994, and American drivers are still waiting for a 
meaningful, comprehensive approach to rollover fatalities.\5\
---------------------------------------------------------------------------
    \5\ See 57 FR 242 (January 3, 1992) and 59 FR 33254 (June 28, 
1994).
---------------------------------------------------------------------------
    Frederico Pena, then Secretary of Transportation, announced a plan 
to replace the terminated rulemaking with a comprehensive regulatory 
and information regime. This would include the consumer information on 
rollover propensity, as well as an upgrade of the side-impact and door 
retention standard and an examination of an upgrade to the roof crush 
standard.\6\ The head injury rule was issued as a final rule in August 
1995 \7\ and became effective in September 1995, with a phase-in 
through September 1998. The standard required padding on the door 
pillars, roof interiors and windshield headers for cars, pickup trucks 
and SUVs.
---------------------------------------------------------------------------
    \6\ 59 FR 33254.
    \7\ See 60 FR 43031, 43061(August 18, 1995).
---------------------------------------------------------------------------
    In May 2000, following an expose by Houston television reporter 
Anna Werner of station KHOU, highlighting litigation relating to some 
of these very problems, NHTSA opened an investigation into the 47 
million Firestone ATX and ATX II Wilderness tires Ford used on the 
Explorer. There were more than 200 deaths and 700 injuries just in 
rollover crashes of Ford Explorers equipped with the faulty Firestone 
tires. In August, there was a voluntary recall of 6.5 million of these 
tires. The Ford-Firestone experience prompted Congress to pass the 
Transportation Recall Enhancement, Accountability and Documentation 
(TREAD) Act,\8\ which required a dynamic rollover test for consumer 
information. The dynamic test NHTSA used for this purpose only measures 
rollover propensity, it does not provide any information about rollover 
crashworthiness. In 2001, NHTSA issued its ANPRM on roof crush; 
however, nothing came of the rulemaking effort until just before the 
Safe, Accountable, Flexible, Efficient Transportation Equity Act: A 
Legacy for Users (SAFETEA-LU) \9\ was signed into law in 2005.\10\
---------------------------------------------------------------------------
    \8\ Pub. L. 106-414. November 1, 2000.
    \9\ Pub. L. 109-59. August 10, 2005.
    \10\ 66 FR 53376, 53385 (October 22, 2001).
---------------------------------------------------------------------------
    NHTSA decided to disseminate consumer information about rollover 
propensity through the New Car Assessment Program (NCAP). From 2001-
2003, NHTSA based its NCAP rollover ratings on a measure of the 
vehicle's geometry, meant to estimate the relation between a vehicle's 
center of gravity height and track width, which is referred to as the 
static stability factor (SSF). In 2004, NHTSA added two dynamic 
rollover test maneuvers which estimate a vehicle's on-road, untripped 
rollover threshold. Although important, NHTSA's action failed to 
address the roughly 95 percent of rollover crashes that are tripped--
that is when a vehicle starts to slide laterally and is tripped by 
mechanisms such as curbs, soft soil, pot holes, guard rails, or wheel 
rims digging into the pavement.
    But in light of NHTSA's failure to provide consumers information 
about occupant protection in rollover crashes, inadequate information 
about rollover propensity, no improvement in the roof strength standard 
since it took effect in 1973, and no requirement for belt performance 
in rollover crashes, rollover fatalities continued to increase, with 
10,590 fatalities in 2004. In 2005, Congress passed the SAFETEA-LU, 
which mandated rollover prevention, occupant ejection mitigation, and 
roof crush occupant protection upgrades.
    In 2006 NHTSA issued its rollover prevention rule to much 
fanfare,\11\ with NHTSA Administrator Nicole Nason calling electronic 
stability control the ``the greatest life saving improvement since the 
safety belt.'' \12\ By contrast, the proposed upgrade to the roof crush 
resistance standard was published just 8 days after SAFETEA-LU was 
signed into law.\13\ In response to the voluminous debate in the 2005 
docket--containing 281 documents from the auto industry, public 
interest groups, and private engineers--as well as the results of 
additional two-sided static tests conducted by the agency, and results 
of independent dynamic tests conducted by the Center for Injury 
Research, NHTSA issued a Supplemental Notice of Proposed Rulemaking 
(SNPRM) in January of 2008.\14\
---------------------------------------------------------------------------
    \11\ 72 FR 17236, 17322 (April 6, 2007).
    \12\ See ``DOT Proposes Anti-Rollover Technology for New 
Vehicles,'' Press Release. National Highway Traffic Safety 
Administration. September 14, 2006.
    \13\ 70 FR 49223, 49248 (August 23, 2005).
    \14\ 73 FR 5484, 5493 (January 30, 2008).
---------------------------------------------------------------------------
    This latest proposal failed to correct the significant deficiencies 
in the 2005 proposal--NHTSA still neither mandates testing on both 
sides of the roof, nor has it considered dynamic testing, as the 2005 
law requires. It also continues the misplacement of the test device 
that makes it easier to pass the test, but not protect occupants. 
Further, NHTSA's latest proposal was not accompanied by a new 
regulatory impact analysis, as the White House Executive Order 12,866 
requires. Therefore, there is no estimate of the relative benefits of 
the regulatory options provided in the proposal, making fully-informed 
public comment impossible.
    In its 2005 NPRM, NHTSA estimated that its proposed increase in 
roof strength would save between 13 and 44 lives. The ``target 
population'' of potentially avoided fatalities estimated in NHTSA's 
2008 proposal is 476. These estimates show that NHTSA has neither 
looked at the problem of rollover fatalities in a new light nor made a 
real attempt to correct the problem. In the face of more than 10,000 
fatalities a year, an ``upgraded'' rule that barely addresses 5 percent 
of the fatalities is just gross negligence.
    Furthermore, the agency has callously included language that 
expresses the agency's view that injured parties should not be 
compensated by automakers whose vehicles comply with this weak Federal 
standard even if those vehicles fail to protect occupants with 
catastrophic failure of structural components of the roof.
    So now three Congressional mandates later, NHTSA has failed time 
and again to address the rollover crisis. There have been more than 
155,000 rollover fatalities--that's almost three times the number of 
U.S. Armed forces killed in Vietnam--and more than 17 years to develop 
the standards and practices needed to prevent these unnecessary deaths, 
since Congress first intervened. It is a tragedy that I am here before 
the Committee again, asking for Congress to send a message to the 
agency: Issue a comprehensive rollover occupant protection standard 
that actually saves lives.
Rollover Crashes Wreak Unspeakable Havoc on Too Many Families
    Jonathan Arreola was just 19 when his 2000 Toyota 4Runner rolled 
over in California. The roof crushed in on his head, fracturing his 
skull and ending his life. His sister, who was 7 when he died, told her 
mother that she feels bad that her brother will never meet her kids 
when she gets older. This has left a void in his family's life. His 
mother asks: ``With a top heavy SUV, how can a company not be mandated 
to test this factor?'' The sad truth is that Congress did mandate that 
companies test this factor--but NHTSA callously decided not to.
    Before the rollover crash that left Patrick Parker a quadriplegic, 
automobile safety was one of the last things on Patrick's and his wife 
Dena's mind. They had other things to think about at their Texas dream 
home in a rural part of the state: paying the bills, taking care of 
their house, finding time to relax on weekends. But their lives changed 
the tragic day that Patrick swerved to avoid a deer while driving to 
work. He missed the deer he saw, but he hit a second and his pickup 
truck flipped. Though he was wearing his safety belt, the roof crushed 
to nearly the level of the hood of the truck, breaking his neck. His 
Ford pickup cab was designed with doors that opened from the center to 
facilitate removal of tools and other equipment from the rear of the 
cab. But this type of door weakened the roof because there was no B-
pillar by his shoulder.
    In an instant, Patrick lost so much. The hunting and outdoor 
activities he once loved he can now only enjoy as memories. Months of 
intensive physical therapy have failed to improve his condition, and he 
now gets around his 30-acre ranch in a motorized wheelchair. His 
devoted wife Dena has struggled with him, helping him each morning for 
the 3 hours it takes him to get up, eat breakfast, take a shower, and 
get dressed. His best time of day, he explains, is when he goes to 
sleep and no longer feels the pain. At least his successful lawsuit 
means the Parkers do not have to leave their beloved ranch.
    The sad fact is that this story gets retold day after day, year 
after year, with 29 fatalities each day, and more than 300 catastrophic 
injuries per week. Families will keep being broken until there is a 
comprehensive dynamic rollover standard that covers belt performance, 
door and glazing retention, and roof crush.
Need for Dynamic Testing
    A rollover crash is a complex and dynamic event, with many 
interrelated hazards that all contribute to the risks vehicle occupants 
face. However, despite its complexity, the remedies are well-known and 
proven. It is NHTSA's responsibility to understand these crash dynamics 
and set a performance standard using a test that, as well as being 
practicable and repeatable, protects occupants from the impact of crash 
forces. A test of the strength for a vehicle roof that is neither 
inverted nor in motion cannot demonstrate the risk to occupants in a 
real-world rollover, where occupants are both inverted and in motion.
    In order to be realistic and meaningful, any performance test must 
be two-sided. The risk to vehicle occupants varies depending on whether 
the occupant is seated in the ``near side'' or the ``far side'' of the 
vehicle. Imagine looking at a vehicle as it rolls sideways, in slow 
motion: as it rolls over, first one side of the vehicle roof will make 
contact with the ground; then, the other side will make contact; and, 
depending on the speed of the vehicle crash, this sequence might repeat 
several times. In the first impact, the vehicle's windshield and 
windows often break, weakening the roof structure by as much as 30 
percent, which means the ``far'' side occupant is protected by a roof 
up to 30 percent weaker than the occupant on the ``near'' side, that 
hit the ground first. In real-world crashes, this leads to a situation 
where the far seated occupant often suffers fatal injuries, while the 
near seated occupant walks away with only minor injuries.
    NHTSA conducted 26 two-sided quasi-static tests as part of its 
evaluations for the January 2008 SNPRM. The agency found ``the strength 
of the roof on the second side of some vehicles may have been increased 
or decreased as a result of the deformation of the first side of the 
roof.'' \15\ The agency must explain in more specific detail what the 
implications of these results are in terms of occupant protection. The 
test results fail to show what happens dynamically when the first side 
of the roof striking the ground is followed by the second side of the 
roof striking the ground. This was what Congress meant to capture when 
it mandated NHTSA in SAFETEA-LU to ``establish performance criteria to 
upgrade Federal Motor Vehicle Safety Standard No. 216 relating to roof 
strength for driver and passenger sides,'' \16\ to develop performance 
criteria that account for the different forces that are experienced on 
the two sides of the vehicle.
---------------------------------------------------------------------------
    \15\ Id. at 5487.
    \16\ Safe, Accountable, Flexible, Efficient Transportation Equity 
Act: A Legacy for Users (SAFETEA-LU), Sec. 10301(a). (Pub. L. 109-59).
---------------------------------------------------------------------------
    The agency has not revisited nor studied the representativeness of 
the pitch and roll angles used in the test. Underpinning the technical 
details is the core concern: making the test represent occupant risk as 
a result of the changing crash forces in a rollover crash. The roof 
structure is supported by pillars which join the roof and glazing 
components connected to the frame of a vehicle. They are typically 
described in alphabetical order from the windshield to the back 
window--so the front windshield supporting pillar is known as the A-
pillar, the pillar that is beside the driver's seat back is known as 
the B-pillar, and the pillar which supports the rear windshield is the 
C-pillar. Some vehicles have no B-pillar, and some, like station wagons 
or SUVs may have a D-pillar which supports the rear glazing, and the C-
pillar is behind the second row windows.
    When a vehicle rolls in a real-world crash, the weight of the 
engine pulls the front of the vehicle down, such that much of the 
impact is borne by the A-pillar, which almost always causes the 
windshield glass to break.\17\ The static test that NHTSA has been 
using since 1973 pushes a flat metal plate against the roof of one side 
of the vehicle at 5 degrees of pitch and 25 degrees of roll. This 
places an unrealistic burden on the B-pillar, allowing automakers to 
design vehicles which pass NHTSA's roof strength standard on the 
strength of the B-pillar, when the A-pillar gets the brunt of the force 
in real-world rollovers. Without being stringently tested by NHTSA's 
roof crush test, A-pillars in the vehicle fleet are weak, exposing 
occupants to significant danger of head or neck injury in rollovers.
---------------------------------------------------------------------------
    \17\ Carl Nash and Allan Paskin, ``A Study of NASS Rollover Cases 
and the Implication for Federal Regulation.'' 19th Conference on the 
Enhanced Safety of Vehicles, 2005, Paper No. 05-0415.
---------------------------------------------------------------------------
    A dynamic test provides more realistic evaluation about the 
changing forces a roof experiences in a rollover crash. Use of a 
dynamic test would allow NHTSA to develop a performance standard of 
occupant protection that could include measurements of dynamics of the 
crash dummy. In the current static test, the dummy is not in motion, 
and therefore, no measurements are taken of neck deflection, or other 
injury potential measures that would more accurately portray risk to 
occupants in real crashes.
    Another benefit of dynamic testing is that NHTSA could test 
multiple elements of rollover crashworthiness all at the same time in 
one test. For example, under SAFETEA-LU, Congress mandated that NHTSA 
initiate rulemaking on performance standards to reduce complete and 
partial ejection of occupants. One dynamic test standard should include 
rollover performance standards for safety belts, including performance 
of belt pretensioners, side curtain airbag performance, window glazing 
retention, and door locks and door retention, in addition to roof 
crush. NHTSA was also required to complete an upgrade of the FMVSS 206 
standard, pertaining to door locks and retention. All of these elements 
could be tested using a dynamic test, making this type of testing 
efficient, as many different performance standards can be tested on the 
same apparatus, and theoretically, even in the same test, cutting the 
cost and time for the tests.
    Although GM and Nissan have both recently made public new rollover 
test facilities, neither company has released test results to the 
public, so Public Citizen is unable to comment on whether or how these 
automakers could reconfigure existing test apparatus to test for roof 
strength or a comprehensive dynamic standard. NHTSA is empowered and, 
in fact, obligated, to investigate these test methods and assess 
whether they could be used for other purposes, or request test results 
for research purposes in developing a test that would work best for 
roof strength testing.
    Autoliv, a major supplier of safety systems for light duty 
vehicles, including seat belts and airbags, commented that the static 
platen test may not be able to measure the response of ``active'' roof 
systems. As an alternative, Autoliv recommends that NHTSA ``[e]stablish 
an alternate dynamic rollover test or drop test for vehicles with 
active roof structures.'' \18\ Autoliv specifically cites problems with 
the potential for delay between subsequent tests on either side of the 
vehicle, stating that ``[t]he duration of this test may well exceed the 
time in which certain active roof structures can be effective,'' (that 
is, dynamic testing).
---------------------------------------------------------------------------
    \18\ See Comments of Autoliv at Docket No. NHTSA-2008-0015, at 
0079.1 (March 31, 2008), available through www.regulations.gov.
---------------------------------------------------------------------------
    NHTSA has since the very beginning been committed to dynamic 
testing. Even in 1971, the agency proposed an optional dynamic rollover 
test--the dolly rollover test. The agency uses dynamic tests for 
frontal, side, and rear impact crashworthiness tests.[i] This type of 
testing provides crucial information about how injuries occur, which 
provides automakers with information about how to design vehicles that 
protect occupants in real-world crashes. The automobile safety advances 
we've had in the past thirty years would not be possible without 
dynamic testing. NHTSA's opposition to dynamic rollover testing is 
neither scientifically based, nor is it consistent with its approach to 
vehicular testing.
Need for One Unified Rollover Standard
    NHTSA needs to go back to the drawing board and re-envision its 
rollover crashworthiness program. Instead of tackling the rollover 
problem in a piecemeal way, it should issue a single, unified rollover 
crashworthiness standard that tackles the three elements of rollover 
occupant protection: prevent ejection, provide adequate restraint, and 
ensure that occupants are not injured or killed by an intruding roof by 
issuing a dynamic two-sided roof strength standard that measures 
occupant injury potential.
    A single standard need not be more complicated or expensive to 
administer--and could even be more cost effective while better 
protecting public safety. NHTSA does it for other crash modes: frontal- 
and side-impact crashes are both tested in a way that considers all of 
the occupant protection systems at the same time. In a frontal impact 
crash, occupants are protected by seat belts, airbags, steering 
components, and front crumple zones. Testing all these systems together 
led to improvements in occupant protection--airbags work better when 
occupants are belted, steering columns collapse toward the dashboard, 
and front crumple zones provide crash force dispersion so that when 
crash forces get to the occupant they have been diminished.
    Better occupant protection design doesn't happen overnight--just 
ask Volvo, which took considerable care in developing an SUV that took 
a whole-vehicle approach to safety design.
    The Volvo XC90 approaches occupant protection with both crash 
avoidance and crashworthiness in mind. It is equipped with an 
electronic stability control system that includes the most state-of-
the-art rollover prevention equipment available, significantly beyond 
the minimal system described in the 2007 NHTSA rulemaking to mandate 
the inclusion of electronic stability control systems in all vehicles, 
with the phase-in to be complete for all vehicles in model year 2012. 
The XC90 was also designed to protect occupants in the event of a 
rollover. These occupant safety features include a strong roof, 
laminated glass in the windshield and side windows,[ii] side curtain 
airbags, and seat belt pretensioners. All of these features--both crash 
avoidance and occupant safety features--work together to make rollover 
crashes more survivable.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Volvo can achieve a strength-to-weight (SWR) ratio of nearly 4 
in the 1973 FMVSS 216 static test, which is almost three times what 
NHTSA currently mandates. A dynamic test of the XC90 measured an SWR of 
just 2, suggesting that the platen test fails to represent realistic 
crash forces. Most contemporary vehicles that Xprts, LLC of Santa 
Barbara, California has tested can barely reach an SWR of 1 in a 
modification of NHTSA's test, the M216 test.[iii] This also shows that 
manufacturers can currently ``game'' the system, by developing vehicles 
with a strong B-pillar, which bears the majority of the force in the 
agency's proposed platen test, rather than developing vehicles that 
adequately protect vehicle occupants in rollover crashes with stronger 
A-pillars and other features we have discussed.
    The XC90 is not simply proof of the concept that safer vehicles are 
possible; it is also proof that safety does not have to break the bank. 
The total cost for upgrading a Ford Explorer to have the roof strength 
performance of the XC90 is a mere $81, plus one penny, per vehicle.\19\
---------------------------------------------------------------------------
    \19\ See Erin E. Hutter, ``Improving Roof Crush Performance of a 
Sport Utility Vehicle'' (Ohio State U., 2007), NHTSA-2008-015-0005, at 
63.
---------------------------------------------------------------------------
    The Volvo XC90 documents submitted by Ford Motor Company in the 
Duncan case in Florida several years ago are in the agency's 
possession, but Ford has objected to their release in the public 
docket. However, the agency is well aware from this information how the 
XC90 performed in rollover tests and how Volvo went about designing a 
comprehensive approach to rollover occupant protection. NHTSA should 
use this knowledge in developing the final rule.
    SAFETEA-LU set a statutory deadline for the roof crush rulemaking 
to be complete by July 1, 2008. However, NHTSA may contact the Senate 
Committee on Commerce, Science, and Transportation, and House of 
Representatives Committee on Energy and Commerce and request an 
extension. The work that NHTSA has done to meet its obligation under 
SAFETEA-LU is wholly inadequate. The agency needs extend the deadline 
for this standard and to go back to the drawing board to issue a real, 
life-saving, comprehensive rollover standard.
Electronic Stability Control
    In April 2007, NHTSA issued its final rule on electronic stability 
control (ESC).\20\ The agency has time and again praised ESC as being 
the biggest breakthrough in auto safety since air bags; however, at 
this time, there is not enough real-world data on the effectiveness of 
ESC. The agency estimated that ESC would prevent 71 percent of single-
vehicle passenger car rollover and 84 percent of single-vehicle light 
truck rollover.\21\
---------------------------------------------------------------------------
    \20\ 72 FR 17235, 17322 (April 6, 2007).
    \21\ Id. at 17236.
---------------------------------------------------------------------------
    The agency's estimates are based on a study of a broad range of 
vehicles that already had ESC installed by model year 2006. Electronic 
stability control is a blanket term for a variety of combinations of 
technologies, which typically use braking intervention controlled by a 
computer algorithm to allow the driver to maintain stability and stay 
on the road. Each manufacturer installs a proprietary form of ESC, or 
even multiple systems for different vehicles, making it difficult to 
estimate the effectiveness of any one system. The effectiveness of the 
ESC rule is likely to be less than what NHTSA estimated, due to the 
fact that NHTSA required an ESC system so minimal that every vehicle 
with ESC exceeds the technology required by NHTSA.
    Furthermore, estimates of the effectiveness of ESC are irrelevant 
in the crashes that ESC does not prevent. If a vehicle is involved in a 
maneuver that overwhelms the ESC, then drivers will still lose control, 
leave the roadway, their vehicles will be tripped and roll over. It is 
for occupants in vehicles that do rollover that NHTSA must provide 
crashworthiness, as part of a comprehensive response.
Deficiencies in NHTSA's Rulemaking
    Both the 2005 NPRM and 2008 SNPRM have failed to meet the 
requirements set by SAFETEA-LU to provide a meaningful upgrade to the 
1971 standard. The proposals together have the following deficiencies:

  <bullet> NHTSA's proposed test procedure has no scientific basis;

  <bullet> in the two-sided tests NHTSA conducted, there was not a 
        uniform test protocol, confounding the public and the agency 
        from drawing meaningful conclusions from these results;

  <bullet> there was no consistent limit on dummy head contact;

  <bullet> the agency had no analytical basis for the first and second 
        side tests;

  <bullet> NHTSA produced no new regulatory impact analysis for the 
        2008 SNPRM, nor;

  <bullet> did NHTSA make a specific recommendation for regulatory 
        action.
NHTSA's 2005 NPRM Failed to Make a Substantial Upgrade.

    NHTSA has failed to make a meaningful effort to upgrade the roof 
crush standard. It has not proposed an injury criterion for occupants 
in rollover crashes, nor has it upgraded the insufficient static test 
to account for crash dynamics in real-world rollovers.
    Instead, NHTSA proposed that the static platen test be applied to a 
vehicle's roof at a force equal to 2.5 times the vehicle's weight, a 
small upgrade to the 1.5 times vehicle weight standard that has been in 
effect since the 1970s.[iv] NHTSA has not attempted to account for the 
fact that in a real-world crash, a vehicle's roof can contact the 
ground several times, losing strength with each impact. NHTSA's 
proposed test does not account for multiple impacts. Also, the two 
sides of a vehicle's roof will contact the ground at different angles, 
but NHTSA's proposed test only applies force at one angle. NHTSA's one-
sided test does not comply with Congress's mandate in SAFETEA-LU that 
NHTSA issue an upgrade in roof protection for both the ``driver and 
passenger sides.''
    NHTSA's proposed test would retain a pitch angle of 5 degrees, 
which is not reflective of the pitch angle in real-world rollovers. 
SUVs and pickups are front-heavy and pitch forward during a rollover to 
an angle of 10 degrees or more. NHTSA has not published additional 
research about whether the pitch and roll angles are representative of 
real-world crash data. Through the Fatality Analysis Reporting System 
(FARS) and the National Automotive Sampling System (NASS), NHTSA has a 
wealth of data to conduct such analyses.
    The proposed rule wrongly allows the strength provided by the 
window to be measured as part of the roof strength test. Vehicle 
windshields are frequently broken or separated from their bonding in 
rollovers, yet NHTSA's proposed test allows vehicles to be tested with 
windows intact, as in the 1970s standard. NHTSA has found that roof 
strength is reduced by about one-third after bonded windshields are 
broken.\22\ The minimal estimated benefit--of just 13 to 44 lives--to 
occupants for NHTSA's 2005 proposal alone illustrates the assertion of 
Donald Friedman and Carl Nash in the 2001 Enhanced Safety of Vehicle 
Conference that FMVSS 216 ``provides poor emulation of the conditions 
of actual rollovers that result in serious injury.'' \23\ Friedman and 
Nash further explain:
---------------------------------------------------------------------------
    \22\ Don Friedman, ``Deficiencies of NHTSA's Current and Proposed 
Static, One-Sided Test of Roof Strength, FMVSS 216,'' at 22, (April 11, 
2005).
    \23\ Donald Friedman and Carl Nash. ``Advanced Roof Design for 
Rollover Protection,'' 17th Conference on the Enhanced Safety of 
Vehicles, 2001, Paper No. 01-S12-W-94.

        If the force of FMVSS 216 were applied at a greater roll angle, 
        a typical roof would be as much as 30 percent weaker. However, 
        a greater roll angle more accurately simulates what occurs in a 
---------------------------------------------------------------------------
        real rollover.

        Dynamic roof loading in rollover almost always fractures or 
        separates the windshield from its frame when the roof first 
        contacts the ground.[v] Without the strength provided by its 
        windshield, the roof is much more likely to deform and buckle 
        upon its subsequent impact with the ground.\24\
---------------------------------------------------------------------------
    \24\ Id.

    The agency has subsequently learned the same lesson: it found in 
its two-sided testing program that roof deformation on the first side 
results in cracked or broken glazing, and says that ``the first side 
test generally produces a weakening of the structure.'' \25\
---------------------------------------------------------------------------
    \25\ 73 FR 5487.
---------------------------------------------------------------------------
    The proposed test, which applies a slow constant force to a 
vehicle's roof, does not account for roof buckling as a source of 
injury. Yet roof intrusion occurs at speeds up to 22 mph and can cause 
devastating spinal and thoracic as well as head, face and neck injuries 
to both restrained and unrestrained occupants. The forces on a 
vehicle's roof during a rollover are always changing, and include 
lateral deformation, which cannot be replicated with a test that only 
pushes in a single direction. Even the two-sided static test proposed 
by the agency will fail to replicate the ever-changing forces across 
the entire roof.
    NHTSA proposes to change its requirement that a roof sustain the 
force of 1.5 times the vehicle weight sustaining no more than five 
inches of roof crush to a headroom requirement. The proposed rule 
requires that a vehicle's roof not contact a dummy's head when crushed 
during testing. But the degree of roof crush, irrespective of headroom, 
is important in protecting occupants from ejection. If the roof of a 
vehicle resists more than three inches of crush, the side windows are 
much less likely to break, preventing ejection.\26\ Also, with less 
roof crush, safety belts better retain their original geometry, doors 
are more likely to stay shut, and side curtain airbags retain their 
correct positioning, all of which are critical to reduce ejection 
potential.
---------------------------------------------------------------------------
    \26\ Don Friedman, ``Deficiencies of NHTSA's Current and Proposed 
Static, One-Sided Test of Roof Strength, FMVSS 216,'' at 22, (April 11, 
2005).
---------------------------------------------------------------------------
    The ``no-head-contact'' substitute requirement is flawed. Ensuring 
headroom during NHTSA's proposed static test does not ensure headroom 
in a real-world rollover, as occupants will be thrown toward the roof 
and within the range of roof intrusion allowed under the flawed NHTSA 
proposal. Worse, the proposal only requires maintenance of headroom 
sufficient for a 50th percentile male, neglecting taller occupants.
    The proposed rule will only minimally increase roof strength. NHTSA 
estimated for the 2005 NPRM that the proposed standard would save at 
most 44 lives, or less than half of 1 percent of the lives lost each 
year in rollover crashes. Nearly 70 percent of the current vehicle 
fleet would require no improvement to meet the standard proposed in 
2005. The agency's SNPRM, which is really just a series of options, 
fails to correct the problem, and the estimated costs for vehicles 
requiring improvement is a measly $10.61.\27\
---------------------------------------------------------------------------
    \27\ 70 FR 49225.
---------------------------------------------------------------------------
    Manufacturers can, and do, make vehicles that adequately protect 
occupants in rollovers. One example is the Volvo XC90, which shows good 
performance in real-world rollover crashes,\28\ and has a 3.5 SWR and a 
high-strength, non-buckling, steel rollover and side impact structure. 
As described above, Volvo took a comprehensive, whole-vehicle approach 
to designing the XC90 to protect occupants in rollover--something that 
a dynamic NHTSA standard would encourage all manufacturers to do for 
every vehicle.
---------------------------------------------------------------------------
    \28\ Real-world rollover performance of an XC90 showing good 
structural integrity was recorded in NASS-2003-79-57.
---------------------------------------------------------------------------
NHTSA's Supplemental Notice Fails to Improve the Deficiencies of the 
        2005 Proposal
    The SNPRM does not serve as a replacement for the 2005 proposal, 
but merely adds for consideration the results of the 26 two-sided 
platen tests NHTSA completed.[vi] However, NHTSA leaves it up to the 
industry to make the case again, as it did in 1971, that a one-sided 
test was sufficient to measure roof strength. NHTSA solicits comments 
on: ``the cost implications associated with different stringency 
requirements and different design strategies.'' \29\ But NHTSA didn't 
provide a new regulatory impact analysis for its supplemental notice, 
making it almost impossible for commenters to provide precise feedback 
to the agency.
---------------------------------------------------------------------------
    \29\ 73 FR 5490.
---------------------------------------------------------------------------
    The agency's 2008 SNPRM is procedurally inadequate as it makes no 
specific regulatory recommendation. This is exacerbated by the absence 
of a regulatory impact analysis. It has not given the public enough 
information to assess the relative benefits of different regulatory 
options it lays out in the proposal, and therefore competent comment is 
impossible.
    In spite of multiple appeals in person to agency officials, 
communications at congressional and agency headings, hundreds of pages 
of documents, and even a visit from NHTSA researchers to the Jordan 
Rollover System facility in California to witness a live dynamic 
rollover test, the agency has not fully ``considered'' dynamic testing 
for its rule. Even changing from a one-sided to two-sided platen test 
will not accurately assess risk to occupants in rollover crashes.[vii]
    In addition to not effectively addressing the need for dynamic 
testing, the agency has also failed to re-envision the platen test to 
focus primarily on occupant protection, and a key change that must be 
made is the ``no-head-contact'' requirement. The agency proposes 
replacing the limit of five inches of platen travel in the existing 
standard to a requirement that at 2.5 times SWR the roof not make 
contact with a 50th percentile Hybrid III male dummy. The use of a 50th 
percentile male dummy ignores injury potential to tall occupants, and 
the biofidelity of the Hybrid III dummy head for rollover has been 
questioned: ``The human head traveled farther downward and over a 
longer period of time, while the Hybrid III head rebounded faster after 
translating downward a smaller distance.'' \30\
---------------------------------------------------------------------------
    \30\ Herbst, Brian, Stephen Forrest, et al., ``Fidelity of 
Anthropomorphic Test Dummy Necks in Rollover Accidents,'' 16th 
Conference on the Enhanced Safety of Vehicles, 1998, Paper No. 98-S9-W-
20.
---------------------------------------------------------------------------
    The standard should be written from an injury prevention 
perspective, rather than limiting inches of roof crush. The ``no-head-
contact'' provision should be abandoned in favor of a post-crash 
headroom requirement that maintains a survival space around occupants. 
This would avoid the problem of significant variation in allowable roof 
crush in vehicles with different amounts of headroom. Considering the 
standard from this perspective would also promote the development of 
vehicles that protected occupants in the event of rollover.
    As we have stated above, the platen test described by the agency 
cannot adequately predict the potential for occupant injury in real-
world rollover crashes. If the agency retains inches of platen travel 
as a measure of injury potential in the interim while it works to 
develop a dynamic test for occupant protection, then it should lower 
the allowable intrusion and require a minimum level of residual 
headroom. This course of action is preferable because the agency found 
``positive post-crash headroom'' (residual space over the occupant's 
head after the rollover) reduced the likelihood of suffering a roof 
contact injury to the head, neck, or face. This real world data shows 
quantifiable benefits of limiting headroom reduction.\31\
---------------------------------------------------------------------------
    \31\ 70 FR 49237.
---------------------------------------------------------------------------
    Since 1978, there have been more than 300,000 rollover fatalities. 
There is no excuse--Congress told NHTSA to fix this problem 17 years 
ago, and NHTSA has delayed and delayed. While there has been a 7.5 
percent decrease in overall highway fatalities since 1991, rollover 
fatalities have increased almost 20 percent over the same period. This 
is unconscionable--NHTSA's mission is to protect Americans on the 
highways, and with respect to rollover crashes, the agency has been 
grossly negligent.
Results of NHTSA's Two-Sided Testing Suggest Need for More Inquiry
    For the SNPRM, NHTSA conducted 26 two-sided tests.[viii] In 22 of 
the 26 tests, the peak force measured for the second side at five 
inches of platen travel was less than that of the first side, 
suggesting that the deformation experienced by the test on the first 
side changed the strength of the second side. In 4 of the 26 cases, the 
peak force measured for the second side was greater than that for the 
first side. NHTSA says ``[w]e concluded that the strength of the roof 
on the second side of some vehicles may have been increased or 
decreased as a result of the deformation of the first side of the 
roof.'' \32\
---------------------------------------------------------------------------
    \32\ 73 FR 5487.
---------------------------------------------------------------------------
    The agency does not provide further explanation for why the roof 
strength on the second side may have increased or decreased. The auto 
industry has long argued that they design vehicles such that the roof 
strength is the same on both sides, and therefore there is no need for 
a two-sided test. NHTSA's conclusion that it cannot be predicted how 
the roof strength will change refutes the industry claim that a vehicle 
will performs the same on both sides in the platen test.
    The results of NHTSA's two-sided testing, it concluded, justify 
that the agency ``consider'' two-sided testing. However, NHTSA was 
already directed by SAFETEA-LU to produce an upgrade to FMVSS 216 that 
``relat[es] to roof strength for driver and passenger sides.'' The 
results of NHTSA's two-sided testing confirm what observers of vehicles 
involved in rollover crashes could ascertain by looking at them--that 
the amount of intrusion is not the same on the far side. This makes a 
stronger recommendation to the agency than ``considering'' two-sided 
testing. The agency is now obligated to determine how to best conduct 
two-sided testing that estimates the risk to occupants in rollover 
crashes.
Two-sided Dynamic Testing Is Possible
The Jordan Rollover System shows that a cost-effective dynamic test is 
        possible.
    The Jordan Rollover System (JRS) is a flexible, efficient, dynamic 
test that can be used to test for roof crush, but can also be used to 
test ejection and injury potential. The device was developed by Acen 
Jordan and Don Friedman, a test designer and a mechanical engineer. 
Acen Jordan worked on the Experimental Safety Vehicle and the Research 
Safety Vehicle and developed test sleds that are widely used by the 
industry. Don Friedman worked on the Sidewinder missile development, 
the Lunar Rover, air bags, offset frontal crash testing and rollover 
crash safety, and was selected to design NHTSA's Research Safety 
Vehicle in a competition with large auto companies.
    The way the JRS device is designed provides adequate flexibility 
for the agency to use the device in a number of different ways. The 
test is efficient, because multiple safety systems could be tested in a 
single test, which would reduce the burden on the agency and auto 
companies to conduct compliance testing. The most important element of 
the test device is its ability to better approximate real-world roll 
dynamics in a controlled manner, unlike other dynamic tests.
    The JRS can be used to test roof crush resistance under a variety 
of metrics. Donald Friedman has conducted tests using the JRS for 
research purposes using a protocol that measures intrusion velocity and 
dynamic roof crush. The test apparatus can be used in a number of 
different configurations to suit whatever metric the agency chooses for 
a compliance standard. The agency can change the test protocol, and the 
basic mechanism in the test device serves to rotate the vehicle in such 
a way to realistically replicate rollover crashes.
    A dynamic rollover test conducted on a device like the JRS could 
simultaneously test multiple rollover safety standards in the same 
test. This should include performance standards for safety belts in 
rollovers, including performance of belt pretensioners, side curtain 
airbag performance, and window glazing and door retention as well as 
roof crush.
    The agency has a responsibility to consider a dynamic test that 
mirrors real-world crashes. This test has the potential to give the 
agency valuable information for the development of performance 
standards, as well as efficient compliance testing for rollover 
occupant protection.
    The JRS can provide valuable information for the design of safer 
vehicles. The JRS can be configured to collect information about roll 
dynamics, which can then be used by manufacturers to improve vehicle 
design to enhance safety. As with frontal, side and rear impact 
crashes, the use of dynamic testing has provided industry with 
information that allows for the improvement of vehicle design to 
withstand crashes of that type. As a result, there has been a reduction 
in fatalities, particularly in frontal and side impact crash modes.\33\
---------------------------------------------------------------------------
    \33\ Priorities for EU Motor Vehicle Safety Design. European 
Transport Safety Council. 2001.
---------------------------------------------------------------------------
    A similar approach must be taken with respect to rollover crashes. 
Occupant protection, through reduced roof crush as well as ejection 
mitigation, would effectively reduce rollover fatalities. Vehicle 
design decisions must be made with the use of representative data about 
rollover dynamics. Improvements in vehicle design to improve 
performance on a test that is not representative will not serve to 
improve occupant safety and is a waste of resources. A dynamic test, 
like the JRS, can provide manufacturers with the information needed to 
improve occupant protection.
    The information gathered from dynamic testing such as the JRS can 
be used to write meaningful performance standards for ejection 
mitigation equipment. Rollover performance of belts, side curtain 
airbags, window glazing, and door locks will all play a critical role 
in preventing ejection. This performance standard must be developed in 
accordance with SAFETEA-LU requirements to issue a performance standard 
for ejection mitigation equipment by October 1, 2009.
    As part of their desperate attempt to fend off legitimate product 
liability litigation against them, several automobile manufacturers 
have challenged the validity of the JRS as a legitimate vehicle test 
instrument. They have inappropriately used the Daubert test defined by 
the Supreme Court to control the use of junk science in trials 
involving testimony of technical experts.
    Unfortunately, some judges have acquiesced to these industry 
objections even though the JRS is fully based on traditional scientific 
principles: Newtonian physics, and analysis of rollover crash 
investigations and data, and the biomechanics of human injury. This has 
potentially affected the roof crush rulemaking in that the industry now 
claims that these successful challenges to the JRS demonstrate that the 
JRS is not an objective instrument for conducting rollover roof crush 
or occupant protection testing.
    The Center for Injury Research (CfI R) has invested substantial 
private resources in developing and demonstrating the JRS--conducting 
the research that NHTSA should have been conducting over the past 
decade--to provide the basis for more realistic and reliable evaluation 
of vehicle rollover occupant protection performance. Automaker 
litigators should not be permitted to derail this important work as 
part of their questionable courtroom tactics, and 30 years' opposition 
to effective testing of occupant protection in rollover crashes.
Dynamic Test Results Using the Jordan Rollover System
    A total of 81 JRS tests have been conducted by Xprts, LLC since 
January 2003. The Center for Auto Safety, with the support solicited of 
the Santos Family Foundation by Public Citizen has conducted both 
quasi-static (M216 two-sided tests at a 10 degree pitch angle) and 
dynamic tests (JRS) of the roof crush performance of the Volvo XC90. 
The vehicles used for the test were donated by State Farm Insurance. 
The XC90 performed exceptionally well in all tests, demonstrating that 
it has been practicable for at least the past 5 years to build 
production vehicles with adequately strong roofs, in combination with 
other safety features to achieve superior rollover protection. As far 
as we can determine, no one has been seriously injured or killed in a 
rollover of an XC90 in the years it has been on the highway.
    When briefed on the JRS, NHTSA asked for a demonstration of 
repeatability of tests conducted on the JRS. The Santos Family 
Foundation provided support for a series of tests that were conducted 
on three Subaru Foresters. The result of the repeatability series 
showed that the tests were in agreement to at least the same degree as 
NHTSA's and the Insurance Institute for Highway Safety tolerances for 
dynamic testing: a variation of about 10 percent.\34\ No other dynamic 
test device, specifically the CRIS system used by industry, can provide 
the repeatability of the JRS.
---------------------------------------------------------------------------
    \34\ Machey, John M. and Charles L. Gauthier, Results, Analysis and 
Conclusions of NHTSA's 35 MPH Frontal Crash Test Repeatability Program, 
Office of Marketing Incentives, National Highway Traffic Safety 
Administration, Washington, D.C.: 1984. SAE 840201.
---------------------------------------------------------------------------
    Under a new Santos Family Foundation grant, additional tests have 
also been conducted on three vehicles provided by State Farm that were 
the same models tested by NHTSA: the 2007 Toyota Camry, 2006 Hyundai 
Sonata and 2006 Chrysler 300. The results of these tests are that the 
residual roof crush for the 2.5 SWR Chrysler 300 leaves negative 
headroom on both JRS tests at 5.6 and 7.4 inches of residual crush at 
the A-pillar. By contrast the 3.2 SWR Hyundai Sonata had just 2.6 
inches of residual crush [ix] at the A-pillar on the first roll. The 
4.3 SWR Toyota Camry had the least residual roof intrusion on the first 
roll at 1.6 inches but 4.3 on the second roll. These results have been 
submitted to NHTSA's docket for the SNPRM.\35\ Further tests of 
vehicles in this series are currently being conducted.
---------------------------------------------------------------------------
    \35\ See Submissions of Center for Auto Safety, Docket No. NHTSA-
2008-0015 at 0061, 0062, and 0063. (March 27, 2008).
---------------------------------------------------------------------------
The Industry Is Rapidly Moving To Adopt Dynamic Testing as Well
    The industry has recently resumed dynamic rollover testing. In the 
1970s GM conducted drop tests. The Malibu tests, also conducted by GM 
were conducted using the FMVSS 208 dolly rollover procedure, where a 
vehicle is rolled off of a dolly rolling at around 30 mph.[x] Ford has 
conducted tests using the Controlled Rollover Impact System, in which a 
vehicle carried at the back of a tractor/trailer is rotated until it 
reaches a steady state roll before the vehicle is dropped on its roof. 
However, this device has been misused primarily to support the 
industry's claim that roof crush does not cause occupant head or neck 
injury.
    Recently, the auto industry has been developing dynamic testing for 
purposes other than assessing roof strength. General Motors unveiled 
its new rollover test facility in December of 2006. The rollover tests 
chosen by General Motors are deliberately designed to avoid measuring 
roof crush. In one test, the vehicle is driven on a ramp, and then tips 
onto its side.\36\ This test can be used to evaluate the deployment of 
side curtain airbags, which General Motors has publicly announced it 
will be installing in all its vehicles by 2012, but fails to provide 
any information about roof crush. Ford has also conducted dolly 
rollover tests of the Ford Explorer.[xi] The vehicle never fully 
inverts, and so the test fails to realistically represent a rollover 
crash. Nissan also recently announced publicly that it has developed an 
apparatus that is capable of fully inverting a car.\37\ The stated 
purpose of this apparatus is to test seat belt performance.
---------------------------------------------------------------------------
    \36\ David Shephardson, ``GM to Put Rollover Bags in All Models'' 
The Detroit News, (December 5, 2006).
    \37\ Hans Greimel, ``The upside of upside down: Better belts.'' 
Automotive News. (February 25, 2008).
---------------------------------------------------------------------------
    Neither GM crash test results nor Nissan car flip results are 
available to the public, so Public Citizen is unable to comment on 
whether or how these automakers could reconfigure existing test 
apparatus to test for roof strength. NHTSA could investigate these test 
methods and assess whether they could be used for other purposes, or 
request test results for research purposes in developing a test that 
would work for roof strength testing.
Roof Crush Causes Injury
    For more than three decades the auto industry, led by General 
Motors, has conducted a campaign to convince courts of law, NHTSA, and 
the public that ``there is no relationship between roof strength and 
the likelihood of occupant injury given a rollover.'' \38\ GM conducted 
an extensive two-part test program, referred to as Malibu I 
(unrestrained occupants) and Malibu II (fully belted occupants) that it 
claimed supported its thesis. In half of the tests of each series, the 
vehicles were equipped with full roll cages emulating a strong roof. 
However, although the company published and presented research papers 
making that claim, it would not release the underlying data and film 
until forced to do so in a major lawsuit. In fact, the company only 
this year released high quality, complete copies of the film recorded 
in these tests.
---------------------------------------------------------------------------
    \38\ Robert C. Lange as quoted in The Detroit News, ``GM, NHTSA 
Unfairly Treated in Series,'' (March 19, 2002).
---------------------------------------------------------------------------
    Analysis of the extensive data, film and analyses of the Malibu 
tests has demonstrated that in fact roof crush is directly related to 
neck injury which occurred only in tests of production roof Malibus. 
Film of these tests show definitively how these injuries are a direct 
result of the roof failures and that when the roofs are strong, with 
rollcages, the test dummies in the vehicles indicate the potential of 
only minor to moderate injuries from which an individual would fully 
recovery. We have submitted this evidence to NHTSA and attach a letter 
from the CfIR as an appendix to this testimony.
    CfIR has conducted further research using the JRS which shows how 
the Hybrid III dummy which is commonly used for crash testing can be 
used effectively in dynamic rollover testing. They have shown that 
changes in neck instrumentation and the positioning of the dummy to be 
more like the position of actual occupants in a rollover can overcome 
the limitations of the Hybrid III which has a very simple neck 
structure that only poorly represents the complexities of the human 
neck. Again, these developments are discussed in detail in the CfIR 
letter to the committee.
    Martha Bidez, a biomechanical engineer, has done a detailed study 
of the Ford Autoliv tests of the Ford Explorer. She concludes:

        During each of the three FMVSS 208 dolly rollover tests of Ford 
        Explorer SUVs, the far-side, passenger [anthropomorphic test 
        dummies] exhibited Peak neck compression and flexion loads, 
        which indicated a probably spinal column injury in all three 
        tests. . . . In all three tests, objective roof/pillar 
        deformation occurred prior to the occurrence of Peak neck loads 
        . . . and Peak neck loads were predictive of probable spinal 
        column injury.\39\
---------------------------------------------------------------------------
    \39\ Martha Bidez, John E. Cochran, Jr., et al., ``Occupant 
Dynamics In Rollover Crashes: Influence of Roof Deformation and Seat 
Belt Performance on Probably Spinal Column Injury.'' Annals of 
Biomedical Engineering, Vol. 35, No. 11. (2007) pp. 1973-1988. See 
Comments of Martha Bidez at Docket No. NHTSA-2008-0015, at 0030 (March 
17, 2008).

    Dynamic testing is needed to study the dynamic motion of occupants 
in rollover. The role of properly functioning restraints, ejection, and 
biomechanical factors such as neck preflexion must be taken together to 
get a complete picture of occupant risk in rollover crashes.
Docket
    The public dockets for different stages of the roof crush 
rulemaking have resulted in hundreds of public comments from the auto 
industry, public interest groups, independent engineers, legal experts, 
and interested citizens. With tens of thousands of affected families 
each year, the problems of rollover and roof crush are of significant 
public concern.
    After the close of the docket for the 2005 NPRM, the debate didn't 
stop--over 100 more submissions were made from December of 2005 until 
the opening of the docket for the SNPRM in January 2008. These 
submissions provided the agency with substantial additional materials, 
including multiple submissions from the auto industry, as well as 
multiple submissions from the public interest community about dynamic 
testing.
Overview of Additional Comments From the Auto Industry
    Additional auto industry comments to the 2005 docket can be found 
at docket number NHTSA-2005-22143 at the following: July 25, 2006 
(#232), August 3, 2006 (#233), August 11, 2006 (#234), September 7, 
2006 (#236 and #237). Public Citizen, Advocates for Highway and Auto 
Safety (Advocates) and the Center for Auto Safety responded with a 
letter on August 3, 2006 requesting a meeting to discuss these 
submissions.
    These late submissions deal with industry objections to the 
proposed tie down procedure, a request for authority to use FMVSS 220 
for long roofline vehicles, and concerns about low roofline vehicles. 
The manufacturer submissions represent several considerations that are 
significantly different than the proposed rule and, if incorporated 
into the final rule, would result in an even greater deviation from 
NHTSA's legal obligations. Some of these major changes would make 
compliance easier to achieve, because the standards to which a vehicle 
would comply could effectively be tailored to that vehicle, allowing 
more vehicles to pass--at a significant cost to public safety. Further, 
the late submissions of industry expose the failure of the platen test 
to adequately represent real-world crashes. Public Citizen has directly 
addressed these issues in comments to the SNPRM Docket.\40\
---------------------------------------------------------------------------
    \40\ See Comments of Public Citizen at Docket No. NHTSA-2008-0015, 
at 0076.1 (March 27, 2008).
---------------------------------------------------------------------------
Overview of Additional Contact With Public Interest Groups
    Several meetings have occurred since the close of the 2005 docket 
on issues related to the need for significant revisions to the NPRM, 
and to reiterate the need for dynamic testing, two-sided testing. 
Meetings were also held with representatives from the Center for Injury 
Research and Xprts, LLC to present research findings of the dynamic 
test apparatus--the Jordan Rollover System (JRS). These meetings and 
comments can be found in NHTSA docket NHTSA-2005-22143 at: October 18, 
2006 (#240), February 6, 2007 (#251), May 14, 2007 (#266), August 21, 
2007 (#271), September 18, 2007 (#276), January 1, 2008 (#280) and 
February 19, 2008 (#281).
    We wish to emphasize that the agency was given ample opportunity to 
inquire and consider dynamic testing. However, the agency's response 
has thus far been to give lip service to the idea of dynamic testing, 
but take no steps to evaluate it. NHTSA was offered the opportunity by 
CfIR to test a number of vehicles on its JRS or the option to buy the 
test device for its testing, but the agency took no initiative to do 
either.[xii] As a result, it has issued a 1970s SNPRM instead of an 
advanced, 21st century one. An Australian engineering group, which has 
worked on developing roof strength regulations in Australia responded 
to NHTSA's assessment of dynamic testing criticizing NHTSA for citing 
``repeatability issues [with dynamic testing] and other pseudo-science 
references reflect a callous preference for bureaucratic process over 
function.'' \41\
---------------------------------------------------------------------------
    \41\ See Comments of DV Experts at Docket No. NHTSA-2008-0015, at 
0010 (March 4, 2008).
---------------------------------------------------------------------------
NHTSA Is Attempting To Block Injured Consumers' Access to the Court
    NHTSA asserts in the preamble to the 2005 NPRM that its final rule 
should preempt state tort law jury verdicts. The agency argues that a 
court liability decision is equivalent to a state performance 
requirement for greater levels of roof crush resistance that would 
``frustrate the agency's objectives by upsetting the balance between 
efforts to increase roof strength and reduce rollover propensity.'' 
\42\ Their view is a massively overbroad reading of the Supreme Court 
decision in Geier v. Honda, which provided protection from product 
liability litigation to an automaker who had not installed an airbag in 
its vehicle, where the relevant safety standard rule had given 
manufacturers a choice among various technologies and giving automakers 
that choice was seen as a key component of the rule.\43\
---------------------------------------------------------------------------
    \42\ 70 FR 49245.
    \43\ Geier v. Honda Motor Corp. 529 U.S. 861, 884. (2000).
---------------------------------------------------------------------------
    Given that the agency's rule, in its own estimation, will save 
merely 7 percent of the affected population, its statements on 
preemption, and the risk that the agency will destroy any incentive to 
exceed its de minimis standard or to save the remaining 93 percent of 
affected occupants is a serious dereliction of the agency's mandate. 
This power grab by Federal authorities would leave victims 
uncompensated and remove incentives to improve safety designs beyond 
the weak new proposed rule--imposing a ceiling on safety and stripping 
victims like Marcia Arreola and Patrick Parker of their right to seek 
compensation for harm done to them.
    The agency has not made a compelling case for preemption based on 
any scientific or policy basis. NHTSA states a higher standard would 
make vehicles more rollover prone from the heavier roof; however, the 
Volvo XC90 far exceeds NHTSA's standard and yet is one of the safest 
SUVs on the road. The use of advanced high strength steels and other 
lightweight materials can strengthen roofs without a weight increase. 
NHTSA's data show the impact of weight increases on raising a vehicle's 
center of gravity is immeasurably small, and rollover and stability 
control systems can more than compensate for any small increase in 
weight.
    NHTSA does not suggest that it would be unsafe to exceed the 
standard, nor does it provide penalties or disincentives when vehicles 
do so. NHTSA has provided no examples of vehicles with elevated 
rollover risks due to the weight of the roof. If rollovers are 
significantly more survivable because of a stronger roof, the actual 
risk of injury is reduced even if there is a marginal increase in 
rollover propensity. The tort system provides the best incentive for 
automakers to make design decisions that will not increase rollover 
propensity--an outcome NHTSA's design-neutral standard does not 
guarantee. NHTSA is compounding public risk by reducing automaker 
accountability.
    When NHTSA suggests a higher standard would interfere with its 
``comprehensive'' package of rollover safety measures, the agency gets 
it exactly backward. A weak roof deforms such that the geometry of 
safety belts is compromised, making them far less effective. Without a 
strong roof, side windows will shatter and allow side impact air bags 
to flop out through the broken window, providing little protection and 
increasing the risk of deadly full or partial ejection. A stronger, not 
a weaker, roof is required for a successful, truly comprehensive 
approach to rollover injury reduction.
    Meanwhile, the agency's static roof crush standard fails to measure 
the comprehensive interaction between safety systems in a real-world 
rollover crash. A dynamic test comprehensively measures the safety 
protection from the roof, windows, doors, belts and airbags working 
together. The agency's main duty to Congress and the public is to 
improve motor vehicle safety. Because liability law enhances safety by 
providing continual incentives to improve, the agency's action violates 
its core mission.
    Those in a position to prevent injury or death should be held 
responsible for that injury or death when they fail to act. It is far 
more cost-effective, and the most responsible way to reduce the number 
lawsuits brought against is to avert harm in the first place. Adequate 
regulatory protection is also the ethical duty we owe to others out of 
respect for human life. Victims of roof crush cases deserve justice 
because automakers have known for years (since the late 1960s at least) 
how to prevent injuries in rollover crashes but have not designed 
vehicles to prevent this harm. In fact, the 1928 Ford Model A had 
superior roof protection than today's vehicles. Instead, auto companies 
cut costs to maximize profits, impose gag orders to cover up harm, and 
lobby regulators to weaken new rules. Victims of misconduct should be 
fairly compensated by the perpetrator. When those who can prevent harm, 
yet choose not to, and then are let off the hook, they, rather than 
society should pick up the tab, paying medical bills and higher 
insurance costs, etc., caused by the wrongful actions of a few.
    In addition, improved motor vehicle safety--and particularly 
rollover occupant protection--would have major positive economic 
implications. Using NHTSA's own economic estimates of the cost of 
injury, the more than 10,000 fatalities and more than 17,000 serious 
injuries cost society more than $50 billion annually. Even if building 
cars with strong roofs cost manufacturers as much as $100 per vehicle, 
that would amount to a total annual cost of only $1.5 billion, which 
would be more than justifiable if it only reduced rollover casualties 
by 10 percent. In fact, appropriate changes in vehicle performance to 
reduce rollover casualties would save a majority of the more than $50 
billion cost of these crashes.
    Consumer justice attorneys stand with citizens, both the weak and 
the strong, to ensure that injured people are compensated by 
wrongdoers. NHTSA has not upgraded its ``temporary'' roof crush vehicle 
safety standard, issued in 1971, for 34 years, while the death toll 
from rollover crashes continued to mount at an astounding rate. In 
light of the egregious failure of NHTSA to protect the public many of 
these attorneys are calling for a substantial upgrade to the standard 
against their own interest, as these type of cases are a bread and 
butter issue for some of them. NHTSA's new proposal is deeply flawed, 
and will save few lives. In contrast, tort law establishes a duty of 
care that protects citizens when the government is too slow to act, 
when minimum standards are insufficient to prevent harm, or when 
standards are inadequately enforced. The tort system also brings to 
light useful information--most of the information about the harm from 
roof crush, its all-too-long history and its prevention has come from 
cases brought by injured plaintiffs.
    This rule is not the only one in which NHTSA has interfered with 
harmful preemption language. Attached is a list of 51 regulations or 
proposed regulations in which language has been included which would 
make it more difficult for injured parties to seek redress, of these 20 
of the regulations or proposals were issued by NHTSA.
    While most citizens do not have a real voice in the regulatory 
decisions, they do understand what is fair. Juries charged with 
articulating ethical standards for a community define a common sense 
standard for reasonable care. They cannot be lobbied by either side and 
are generally free of political coercion. Our reliance on the 
collective wisdom of ordinary people to hold companies who cause harm 
accountable is a crucial democratic safeguard and a fundamental right 
of all citizens.
Conclusions
    NHTSA has not produced an adequate upgrade to FMVSS 216 to meet its 
mandate under SAFETEA-LU. As part of a comprehensive approach to 
reducing rollover fatalities, NHTSA should offer an upgrade to its roof 
strength standard that produces a meaningful estimation of the risk to 
occupants in rollover crashes from intrusion of the roof. The agency 
must produce a regulatory impact analysis that estimates the relative 
benefits of different compliance options. The Senate Committee on 
Commerce, Science, and Transportation has the authority to agree to an 
extension of the rulemaking period to give the agency yet another 
chance to produce a roof strength proposal that protects occupants in 
deadly rollover crashes.
    But the agency should give substantial thought to reimagining the 
standard. Roof strength is only part of developing comprehensive 
vehicle design approaches to protecting occupants in rollover crashes, 
which kill more than 10,000 people every year. The objective of FMVSS 
216 is to prevent occupant injury by maintaining the structural 
integrity of the vehicle when it rolls over. Significant progress has 
been made in reducing injury from frontal, rear and side impact crashes 
with dynamic test standards. This standard should govern occupant 
protection from one more direction--the top. Adoption of a dynamic test 
would give valuable information about how occupants are injured in 
rollover crashes, which would in turn produce the industry, NHTSA, and 
the public information to design safer vehicles. A dynamic test can be 
used to test other elements of occupant protection, such as side 
curtain air bags, seat belt performance and belt pretensioners.
    In the meantime, NHTSA immediately has the authority to provide 
consumer information through the New Car Assessment Program. It could 
use a modified version of the quasi-static platen test to estimate the 
roof strength, and provide this information, along with information on 
such things as whether a vehicle had rollover-triggered safety belt 
pretensioners and side curtain air bags, and whether a vehicle had more 
effective safety belt use reminders to provide a preliminary rating of 
the rollover occupant protection provided by current production 
vehicles. We will shortly make such a proposal to the agency.
    Public Citizen would like to see the most expedient possible 
conclusion to the roof strength standard upgrade practicable; however, 
we support an upgrade to the standard that is significantly more 
protective than the existing standard. NHTSA must exercise its 
authority to set an extended deadline for this rulemaking, which is 
permitted under SAFETEA-LU, although the law mandates the standard be 
issued by July 1, 2008. NHTSA should go back to its 2003 plan and 
complete research programs into developing a more representative two-
sided test for occupant protection in rollover crashes, and that 
research must include state-of-the-art dynamic testing.
    NHTSA cannot produce a final rule until it has first returned to 
the drawing board and produced a notice of proposed rulemaking that 
outlines a two-sided testing regime that provides a scientifically-
based estimate of risk to occupants in rollover crashes. This new 
proposal must:

  <bullet> Be accompanied by research for each regulatory option and an 
        assessment of the relative life-saving, injury-averting 
        benefits to the public from each option;

  <bullet> include dynamic testing, including the possibility of using 
        a dynamic test to assess roof performance in addition to the 
        performance of seat belts, door locks and latches, and windows;

  <bullet> protect the public, including persons not represented by a 
        50 percent male dummy, using a performance test that does its 
        utmost to mimic real-world crash conditions while using an 
        injury prevention metric; and

  <bullet> consider the significant benefit of combining all rollover 
        occupant protection measures under a single comprehensive 
        dynamic test standard resembling FMVSS 208.

    In the meantime, the agency should immediately issue a consumer 
information standard that will allow consumers to make a meaningful 
assessment of the potential safety concern of vehicles on the market. 
This consumer information standard should include an estimate of roof 
strength that is based on an improved two-sided platen test, as well as 
highlighting other safety equipment such as belt pretensioners and side 
curtain airbags.
    Members of the Subcommittee, I thank you for this opportunity today 
to testify on these critical needs of children for improved motor 
vehicle safety. I am eager to address your questions.
Footnotes
    [i] Frontal impact protection is governed by FMVSS 208, side impact 
by FMVSS 214, and rear impact by FMVSS 223. In addition to these tests, 
FMVSS 301L and 301R are dynamic tests for fuel system integrity. FMVSS 
212 is a dynamic test which assesses windshield mounting.
    [ii] In later model years, laminated glazing was removed from side 
windows in the XC90 for ``cost'' reasons.
    [iii] The M216 test subjects vehicles to two sequential platen 
tests. The platen is applied at a 10 degree pitch angle and a 25 degree 
roll angle for the first side, and a 40 degree roll angle for the 
second side. This test provides sequential measurements, which give 
information about the ``sequential effect''--that is the difference in 
loading on the near versus far sides.
    [iv] The 1971 standard limited the force to 1.5 times gross vehicle 
weight rating (GVWR) with a 5,000 pound ceiling. At that time, many 
passenger cars exceeded 5,000 pounds GVWR, so they could meet a 
standard of less than even 1.5 SWR.
    [v] This is consistent with what NHTSA researchers found in the 
two-sided roof crush tests conducted for the SNPRM ``We note that in 
all 26 tests, the windshield cracked before completion of the first 
side test.'' (73 FR 5487.)
    [vi] The agency did not use a consistent test procedure for all the 
tests, which makes it impossible to compare the results of the tests.
    [vii] Secretary of Transportation Mary Peters was questioned by 
Senator Mark Pryor during the October 18, 2007 oversight hearing of the 
Department of Transportation held before the Senate Committee on 
Commerce, Science, and Transportation. Senator Pryor asked Secretary 
Peters several questions about the roof crush rulemaking, including 
whether the yet-to-be-released SNPRM would include two-sided testing 
and whether it considered ``any different types of testing.'' Secretary 
Peters responded that she believed that inquiry into different types of 
testing was the purpose of the SNPRM.
    [viii] NHTSA does not provide an explanation in the SNPRM as to how 
it selected the 26 vehicles for two-sided testing.
    [ix] When a vehicle is tested dynamically, there may be a larger 
amount of peak dynamic crush, that is the greatest extent to which the 
roof crushes in when in contact with the simulated road. When the 
vehicle is turned back upright, the roof may spring back to a small 
extent. The ``residual'' crush is the amount of roof crush that is 
measured after the roof springs back.
    [x] The dolly rollover test was proposed as an optional requirement 
as part of the 1971 rulemaking, but has not been used for Federal 
compliance testing.
    [xi] These tests were conducted at Autoliv ASP in Auburn Hills, 
Michigan on 8/10/99 (Autoliv Test B190042); 12/9/98 (AutolivTest 
B180219); 8/11/99 (Autoliv Test B190043); and 12/10/98 (Autoliv Test 
B180220).
    [xii] NHTSA has not made public records of any dynamic testing it 
has conducted if any has been conducted since it issued its ANPRM on 
roof crush in 2001.
                                 ______
                                 
                               Appendix I
The Sad History of Rollover Prevention--30 Years, Thousands of Deaths 
        and Injuries, and Still No Safety Performance Standard
    Rollover crashes are responsible for a full one-third of all 
vehicle occupant fatalities, yet meaningful Federal action to reduce 
these crashes has been delayed for more than three decades.




April 1973         The National Highway Traffic Safety Administration
                    (NHTSA) issues an Advanced Notice of Proposed
                    Rulemaking (ANPRM) on a rollover resistance standard
                    ``that would specify minimum performance
                    requirements for the resistance of vehicles to
                    rollover in simulations of extreme driving
                    conditions encountered in attempting to avoid
                    accidents.'' No safety standard has ever been
                    issued.
1986               NHTSA analysis shows that rollover crashes are the
                    most dangerous collision type for passenger
                    vehicles.
Sept. 1986         Rep. Tim Wirth, the Chairman of the House Commerce
                    Committee petitions NHTSA to issue a rollover
                    standard based on Static Stability Factor (SSF)--a
                    geometric measurement concerning the relationship
                    between vehicle height and track width.
Dec. 1987          Rep. Tim Wirth petition denied by NHTSA on the basis
                    that SSF does not accurately predict rollover
                    propensity. SSF was later adopted in the year 2000
                    as the basis for the agency's rollover resistance
                    consumer information program, but not as a minimum
                    safety standard.
Feb./July 1988     The Center for Auto Safety (CAS) and the Safety First
                    Coalition (SFC) petition NHTSA to initiate a defect
                    investigation on the highly rollover-prone Suzuki
                    Samurai.
June 1988          Consumers Union petitions NHTSA to protect occupants
                    against ``unreasonable risk of rollover.''
Sept. 1988         NHTSA grants Consumers Union petition and states that
                    it is already undertaking research into rollover
                    safety and that the petition is consistent with the
                    agency's ``steps to address the rollover problem.''
                    NHTSA simultaneously denies the CAS and SFC
                    petitions to investigate the Samurai.
1988-1993          NHTSA conducts an investigation and data analysis of
                    more than 100,000 single-vehicle rollover crashes.
Oct. 1991          Congress requests report from NHTSA regarding
                    rollover and roof crush standards (FY92 DOT
                    Appropriations Act, Pub. L. 102-143, S. Rept. 102-
                    148).
Dec. 1991          Congress requires NHTSA rulemaking to prevent
                    unreasonable risk of rollover. An ANPRM or Notice of
                    Proposed Rulemaking (NPRM) was required no later
                    than May 31, 1992 and completion of a rulemaking
                    action on rollover within 26 months of publication
                    of the ANPRM. Yet Congress allowed the rulemaking to
                    be considered completed when NHTSA either published
                    a final rule or announced that the agency would not
                    promulgate a rule.
Jan. 1992          NHTSA publishes an ANPRM proposing multiple options
                    for establishing a reasonable metric baseline for
                    acceptable rollover propensity. The ANPRM states
                    that NHTSA is considering regulatory action to
                    reduce the frequency of rollovers and/or the number
                    and severity of injuries resulting from vehicle
                    rollovers. A Technical Assessment Paper was also
                    published discussing testing activities, results,
                    crash data collection and data analysis (NHTSA-1996-
                    1683-4).
April 1992         NHTSA issues Report to Congress, Rollover Prevention
                    and Roof Crush, highlighting the research and its
                    plans to address rollover prevention and survival.
Sept. 1992         NHTSA delivers the agency's planning document,
                    Planning Document for Rollover Prevention and Injury
                    Mitigation, at Society of Automotive Engineers
                    Conference, giving an overview of the rollover
                    problem and the action NHTSA was examining to
                    address it, including vehicle measures for rollover
                    resistance; improved roof crush resistance to
                    prevent head and spinal injury, and improved side
                    window glazing and door latches to prevent occupant
                    ejection.
June 1994          Rollover standard rulemaking terminated following a
                    cost-benefit analysis that used out-dated late 1980s
                    data regarding the prevalence of light trucks in the
                    vehicle population and ignored the significant trend
                    of increasing rollover-prone vehicles, namely SUVs,
                    as a percentage of new vehicle sales and an
                    increasing presence on the highway.
June 1994          Secretary of Transportation, Federico Pena, announces
                    NHTSA's plans to substitute a ``comprehensive
                    regulatory and information strategy'' for the
                    rollover propensity standard. This strategy included
                    (1) a safety sticker to be placed on all vehicles
                    that includes their rollover likelihood rating
                    (watered down following Industry complaint, it now
                    only mentions a generic likelihood of rollover); (2)
                    the consideration of new standards for side windows
                    and door latches (promulgated after SAFETEA-LU); and
                    (3) examination of an upgraded roof crush standard
                    (NPRM 2005 and SNPRM 2008).
July 1994          NHTSA issues a notice of rulemaking on a vehicle
                    safety consumer information label for rollover
                    stability.
July 1994          Advocates for Highway and Auto Safety (Advocates) and
                    Insurance Institute for Highway Safety (IIHS)
                    petition NHTSA to reconsider decision to terminate
                    rulemaking on rollover standard.
Sept. 1994         Congress requires National Academy of Sciences (NAS)
                    study of vehicle safety consumer information (FY95
                    DOT Appropriations Act, Pub. L. 103-331, see H.
                    Rept.103-543, Part 1); NHTSA suspends rulemaking on
                    vehicle rollover safety consumer information
                    labeling until study is completed.
Aug. 1995          Responding to a 1991 ISTEA requirement that NHTSA
                    initiate and complete a rulemaking to address
                    ``improved head impact protection from interior
                    components of passenger cars (i.e., roof rails,
                    pillars, and front headers),'' the agency issues a
                    final rule amending FMVSS 201 to require passenger
                    cars and light trucks with a GVWR of 10,000 pounds
                    or less to provide greater protection when an
                    occupant's head hits upper interior components (such
                    as A-pillars and side rails) during a crash. A
                    rulemaking intended to address roof crush is thereby
                    transformed into a rule on interior padding.
March 1996         NAS issues study of vehicle safety information,
                    Shopping for Safety, on NHTSA's proposed consumer
                    information program, stating that consumers need
                    more information then they are currently provided
                    and that a safety label, like the one currently used
                    for displaying fuel economy, should be displayed on
                    all new passenger vehicles sold at U.S. dealerships
                    listing standardized safety ratings.
May 1996           NHTSA issues Status Report for Rollover Prevention
                    and Injury Mitigation, with a description of NHTSA's
                    planned development of a dynamic rollover propensity
                    test.
June 1996          NHTSA re-opens 1994 rulemaking docket on a rollover
                    consumer warning label.
June 1996          NHTSA denies Advocates/IIHS July 1994 petition for
                    reconsideration of decision to terminate rulemaking
                    on rollover prevention standard, stating that a
                    standard based on static vehicle measurements would
                    eliminate a ``very popular vehicle type''--the
                    compact SUV and was not justified on cost-benefit
                    grounds.
Aug. 1996          Consumers Union petitions NHTSA to develop a standard
                    that would produce meaningful, comparative data on
                    the emergency-handling characteristics of various
                    SUVs and to provide test results to the public as
                    consumer information.
May 1997           NHTSA grants CU petition, stating: ``NHTSA will
                    initially focus on exploring whether it can develop
                    a practicable, repeatable and appropriate dynamic
                    emergency handling test that assesses, among other
                    issues, a vehicle's propensity for involvement in an
                    on-road, untripped rollover crash.''
April 1998         NHTSA issues an NPRM on a SUV rollover warning label
                    for the vehicle visor.
Mar. 1999          NHTSA issues final rule on revised SUV rollover
                    warning label, requiring a rollover warning sticker
                    on the vehicle's visor or window that says
                    ``Warning: Higher Rollover Risk'' and instructions
                    to avoid abrupt maneuvers and excessive speed, and
                    to buckle up, are written beneath the heading.
June 2000          NHTSA proposes rollover consumer information based on
                    static stability factor (SSF) measurements as part
                    of the agency's New Car Assessment Program (NCAP)
                    that provides comparative vehicle performance
                    information on the agency's website, but declines to
                    require that the information be placed on the window
                    sticker at the point-of-sale.
Oct. 23, 2000      Congress funds NAS study of NHTSA proposed rollover
                    information rating based on SSF.
Nov. 2000          Following the Ford Explorer/Firestone tire tragedy,
                    Congress requires dynamic testing of vehicle
                    rollover be added to NHTSA's consumer information
                    rating program with testing to begin by November,
                    2002 (TREAD Act, Sec. 12, Pub. L. 106-414).
Jan. 2001          NHTSA begins publishing rollover ratings based on a
                    vehicle's static stability factor (SSF) on the
                    agency's website.
July 2001          NHTSA issues request for comments on developing
                    dynamic test as basis for rollover rating consumer
                    information program beginning in 2003.
Sept. 2001         According to a Louis Harris poll commissioned by
                    Advocates for Highway and Auto Safety, 85 percent of
                    Americans support a Federal rollover prevention
                    minimum standard.
Feb. 2002          NAS study, Rating System for Rollover Resistance, An
                    Assessment, issued. The report recommends that NHTSA
                    expand the scope of its program, consider metrics
                    other than stars, and develop an overall measure of
                    vehicle safety to be integrated into the vehicle
                    label. The NAS also points that NHTSA should
                    evaluate the appropriateness of a rollover rating
                    program in the absence of a minimum standard (the
                    other consumer information ratings, for frontal and
                    side impact crashes, reward performance above a
                    minimum compliance standard).
Oct. 2002          NHTSA issues NPRM on dynamic test procedure for
                    rollover consumer information.
Feb. 26, 2003      Senate Commerce Committee holds a well-publicized
                    hearing on SUV safety where Senators, auto industry
                    representatives, the administrator of NHTSA and
                    spokespeople from consumer safety groups speak about
                    the rollover prevention and survivability.
April 2003         NHTSA publishes Characteristics of Fatal Rollover
                    Crashes and reports the following:  
June 2003          NHTSA issues Initiatives to Address the Mitigation of
                    Vehicle Rollover --reporting that rollover
                    mitigation is one of its four major priority areas,
                    but proposing few concrete actions or deadlines. The
                    other three priority areas include vehicle
                    compatibility, safety belt use and impaired.
July 2003          NHTSA issues Motor Vehicle Traffic Crash Injury and
                    Fatality Estimates: 2002 Annual Report, finding that
                    rollover crashes accounted for 82 percent of the
                    total fatality increase between 2001 and 2002. The
                    report also reveals that in 2002, 10,666 occupants
                    were killed in rollovers--one-third of all occupant
                    deaths.
Oct. 2003          In accordance with the TREAD mandate, NHTSA adopts a
                    ``fishhook'' maneuver as the dynamic test procedure
                    to be combined with SSF in rollover consumer
                    information ratings and to be used beginning with
                    its 2004 model year tests.
Feb. 4, 2004       NHTSA issues first round of rollover ratings for 14
                    vehicle models and their corporate twins, based on a
                    new dynamic test/SSF measurement. While the dynamic
                    test provides an indication of on-road performance,
                    the absence of a standard, or performance ``floor''
                    means that every vehicle starts with at least one
                    star, and inflates the performance results on the
                    tests (i.e., with a two-star ``floor,'' vehicles now
                    earning three stars would receive substantially
                    lower ratings).
Feb. 12, 2004      Senate passes S. 1072, the Safe, Accountable,
                    Flexible, and Efficient Transportation Equity Act of
                    2003 (SAFETEA 2003), which includes safety
                    provisions concerning rollover that would:  
Aug. 10, 2005      S. 1072 is amended and re-introduced by the next
                    Congress and passed into law as the Safe,
                    Accountable, Flexible, and Efficient Transportation
                    Equity Act: A Legacy for Users (SAFETEA-LU) is
                    signed into law. SAFETEA-LU requires an upgrade of
                    several rollover protection standards including:  Aug. 18, 2005      NHTSA issues an NPRM on the roof crush resistance
                    upgrade (73 FR 49223, 49248).
Nov. 21, 2005      Close of the formal comment period for the NPRM. Over
                    120 documents are submitted to the docket after its
                    close.
Aug. 3, 2006       Public Citizen, Advocates for Highway and Auto Safety
                    and the Center for Auto Safety submit a joint letter
                    asking for a chance to respond to late industry
                    comments to the docket.
Dec. 13, 2006      Representatives from Public Citizen, the Center for
                    Auto Safety, the Center for Injury Research and
                    Xprts, LLC meet with NHTSA to discuss concerns about
                    the 2005 NPRM, including dynamic testing.
Feb. 23, 2007      Representatives from NHTSA travel to Goleta,
                    California to see a test conducted using the Jordan
                    Rollover System.
Oct. 18, 2007      Transportation Secretary Mary Peters responds to
                    questions asked by Senator Mark Pryor of the Senate
                    Committee on Commerce, Science, and Transportation
                    regarding the roof crush rulemaking. Sen. Pryor asks
                    specifically whether the SNPRM would include two-
                    sided testing or address ``different types of
                    testing.'' Secretary Peters responded that she
                    believed the purpose of the SNPRM was to address
                    different types of testing.
Jan. 30, 2008      NHTSA issues its SNPRM on roof crush resistance.
Mar. 27, 2008      End of formal comment period for 2008 SNPRM on roof
                    crush resistance. Public Citizen submitted formal
                    comments including response to late industry
                    submissions to the 2005 NPRM docket, as well as
                    concerns about the new proposal.
Jun. 4, 2008       Senate Commerce, Science, and Transportation
                    Committee holds hearings to investigate NHTSA's
                    proceedings on the mandated upgrade of the roof
                    crush rule.
Jul. 1, 2008       Statutory deadline in SAFETEA-LU for completion of
                    roof crush rulemaking, if NHTSA does not seek an
                    extension.
                              Appendix II
Legislative Language from the Safe, Accountable, Flexible, Efficient 
        AppendixTransportation Equity Act: A Legacy for Users
SEC. 10301.  VEHICLE ROLLOVER PREVENTION AND CRASH MITIGATION.
    (a) IN GENERAL.--Subchapter II of chapter 301 is amended by adding 
at the end the following:

 30128. Vehicle rollover prevention and crash mitigation
    (a) IN GENERAL.--The Secretary shall initiate rulemaking 
        proceedings, for the purpose of establishing rules or standards 
        that will reduce vehicle rollover crashes and mitigate deaths 
        and injuries associated with such crashes for motor vehicles 
        with a gross vehicle weight rating of not more than 10,000 
        pounds.

    (b) ROLLOVER PREVENTION.--One of the rulemaking proceedings 
        initiated under subsection (a) shall be to establish 
        performance criteria to reduce the occurrence of rollovers 
        consistent with stability enhancing technologies. The Secretary 
        shall issue a proposed rule in this proceeding by rule by 
        October 1, 2006, and a final rule by April 1, 2009.

    (c) OCCUPANT EJECTION PREVENTION.----

      (1) IN GENERAL.--The Secretary shall also initiate a rulemaking 
            proceeding to establish performance standards to reduce 
            complete and partial ejections of vehicle occupants from 
            outboard seating positions. In formulating the standards 
            the Secretary shall consider various ejection mitigation 
            systems. The Secretary shall issue a final rule under this 
            paragraph no later than October 1, 2009.

      (2) DOOR LOCKS AND DOOR RETENTION.--The Secretary shall complete 
            the rulemaking proceeding initiated to upgrade Federal 
            Motor Vehicle Safety Standard No. 206, relating to door 
            locks and door retention, no later than 30 months after the 
            date of enactment of this section.

    (d) PROTECTION OF OCCUPANTS.--One of the rulemaking proceedings 
        initiated under subsection (a) shall be to establish 
        performance criteria to upgrade Federal Motor Vehicle Safety 
        Standard No. 216 relating to roof strength for driver and 
        passenger sides. The Secretary may consider industry and 
        independent dynamic tests that realistically duplicate the 
        actual forces transmitted during a rollover crash. The 
        Secretary shall issue a proposed rule by December 31, 2005, and 
        a final rule by July 1, 2008.
                              Appendix III

                                Summary of 2005 NPRM and 2008 SNPRM on FMVSS 216
----------------------------------------------------------------------------------------------------------------
                    NHTSA's 2005 Proposed Rule                               NHTSA's 2008 Proposed Rule
----------------------------------------------------------------------------------------------------------------
Extend application of standard for multi-
  purpose passenger vehicles, trucks and buses up to 10,000
 pounds
                                                                   Extend application of standard for multi-Require vehicle subject to 2.5 times their unloaded vehicle
 weight
                                                                   Require vehicle subject to 2.5 times theirEliminate the limit of 22,240 Newton maximum force limit for
 passenger cars
                                                                   Eliminate the limit of 22,240 Newton maximumHeadroom requirement would be set that no roof component be
 allowed to contact a seated 50th percentile male dummy
                                                                   Headroom requirement would be set that noCurrent test procedure would be retained--test configuration
 would be a 5-25 degree configuration and would not change load
 plate configuration
                                                                   Current test procedure would be retained-- 
Testing would occur with windshields in place
                                                                   Testing would occur with windshields in placeAgency plans to evaluate whether both sides need be tested;
 agency believes changing the test plate angle is not necessary
                                                                   Agency completed 26 two-sided platen tests,Dynamic test would be rejected due to the fact the agency is
 ``unaware of any dynamic test procedures that provide a
 sufficiently repeatable test environment''
                                                                   No mention of dynamic testingAgency proposes removal of secondary plate positioning----------------------------------------------------------------------------------------------------------------

                              Appendix IV
Preemption Language from 2005 Notice of Proposed Rulemaking
``F. Civil Justice Reform
    This NPRM would not have any retroactive effect. 49 U.S.C. 30161 
sets forth a procedure for judicial review of final rules establishing, 
amending, or revoking Federal motor vehicle safety standards. That 
section does not require submission of a petition for reconsideration 
or other administrative proceedings before parties may file suit in 
court. State action on safety issues within the purview of a Federal 
agency may be limited or even foreclosed by express language in a 
congressional enactment, by implication from the depth and breadth of a 
congressional scheme that occupies the legislative field, or by 
implication because of a conflict with a congressional enactment. In 
this regard, we note that section 30103(b) of 49 U.S.C. provides, 
``When a motor vehicle safety standard is in effect under this chapter, 
a State or a political subdivision of a State may prescribe or continue 
in effect a standard applicable to the same aspect of performance of a 
motor vehicle or motor vehicle equipment only if the standard is 
identical to the standard prescribed under this chapter.'' Thus, all 
differing state statutes and regulations would be preempted.
    Further, it is our tentative judgment that safety would best be 
promoted by the careful balance we have struck in this proposal among a 
variety of considerations and objectives regarding rollover safety. As 
discussed above, this proposal is a part of a comprehensive plan for 
reducing the serious risk of rollover crashes and the risk of death and 
serious injury in those crashes. The objective of this proposal is to 
increase the requirement for roof crush resistance only to the extent 
that it can be done without negatively affecting vehicle dynamics and 
rollover propensity. The agency has tentatively concluded that our 
proposal would not adversely affect vehicle dynamics and cause vehicles 
to become more prone to rollovers. In contrast, the agency believes 
that either a broad State performance requirement for greater levels of 
roof crush resistance or a narrower requirement mandating that 
increased roof strength be achieved by a particular specified means, 
would frustrate the agency's objectives by upsetting the balance 
between efforts to increase roof strength and reduce rollover 
propensity.
    Increasing current roof crush resistance requirements too much 
could potentially result in added weight to the roof and pillars, 
thereby increasing the vehicle center of gravity (CG) height and 
rollover propensity. In order to avoid this, we sought to strike a 
careful balance between improving roof crush resistance and potentially 
negative effects of too large an increase upon the vehicle's rollover 
propensity. We recognize that there is a variety of potential ways to 
increase roof crush resistance beyond the proposed level. However, we 
believe that any effort to impose either more stringent requirements or 
specific methods of compliance would frustrate our balanced approach to 
preventing rollovers from occurring as well as the deaths and injuries 
that result when rollovers nevertheless occur. First, we believe that 
requiring a more stringent level of roof crush resistance for all 
vehicles could increase rollover propensity of many vehicles and 
thereby create offsetting adverse safety consequences. While the agency 
is aware of at least several current vehicle models that provide 
greater roof crush resistance than would be required under our 
proposal, requiring greater levels of roof crush resistance for all 
vehicles could, depending on the methods of construction and materials 
used, and on other factors, render other vehicles more prone to 
rollovers, thus frustrating the agency's objectives in this rulemaking. 
Second, we believe that requiring vehicle manufacturers to improve roof 
crush resistance by a specific method would also frustrate agency 
goals. The optimum methods for addressing the risks of rollover crashes 
vary considerably for different vehicles, and requiring specific 
methods for improving roof crush resistance could interfere with the 
efforts to develop optimal solutions. Moreover, some methods of 
improving roof crush resistance are costlier than others. The resources 
diverted to increasing roof strength using one of the costlier methods 
could delay or even prevent vehicle manufacturers from equipping their 
vehicles with advanced vehicle technologies for reducing rollovers, 
such as Electronic Stability Control.
    Based on the foregoing, if the proposal were adopted as a final 
rule, it would preempt all conflicting State common law requirements, 
including rules of tort law.'' \1\
---------------------------------------------------------------------------
    \1\ 70 FR 49223, 49248 (August 23, 2005) at 49245-46.
---------------------------------------------------------------------------
                               Appendix V
Associated Press List of Rulemakings Containing Preemption Language

              Federal Regulations Limit Consumer Lawsuits

                 By The Associated Press--May 13, 2008

    A list by agency of 51 Federal health and safety regulations 
proposed or adopted since 2005 that could make it more difficult for 
consumers to sue businesses for faulty products:
 National Highway Traffic Safety Administration2005June 22: proposed, designated seating positions and seat belt anchorage.
Aug. 19: proposed, roof crush strength.
Sept. 12: proposed, rearview mirror.2007Feb. 6: adopted, door locks and door retention.
April 6: adopted, electronic stability control.
May 4: adopted, head restraints.
July 12: final, tire pressure monitoring.
July 24: adopted, test procedures for installing child restraints to a child restraint anchorage system.
Sept. 5: adopted, occupant head protection in interior impact.
Sept. 11: adopted, side impact.
Sept. 25: proposed, occupant crash protection.
Oct. 9: proposed, electric-powered vehicles.
Oct. 9: proposed, brake hoses.
Nov. 2: adopted, occupant crash protection, fuel system integrity.
Nov. 21: proposed, school bus passenger seating.
Dec. 4: adopted, cargo carrying capacity.
Dec. 4: adopted, lamps, reflective devices.
Dec. 20: proposed, platform lifts for motor vehicles.2008Jan. 23: supplemental proposed, child restraint systems.
April 30: adopted, changes in vehicle identification number requirements.Consumer Product Safety Commission2006March 15: adopted, mattress flammability standards.Federal Railroad Administration2006Oct. 11: adopted, continuous welded rail.
Oct. 12: proposed, railroad operating standards.
Oct. 27: adopted, occupational noise exposure.2007Aug. 1: proposed, passenger equipment safety standards.
Sept. 4: proposed, electronically controlled pneumatic brake systems.Federal Railroad Administration/Pipeline and Hazardous Materials Safety Administration2008April 1: proposed, improving safety of railroad tank cars.
April 16: interim, enhancing rail transportation safety.Food and Drug AdministrationDrug regulation:2006Jan. 24: adopted, prescription drug labeling.
Aug. 1: adopted, over-the-counter allergy medicine.
Aug. 29: proposed, skin bleaching drug products.
Dec. 12: proposed, over-the-counter drug labeling.
Dec. 26: proposed, over-the-counter analgesics.2007March 6: adopted, over-the-counter dandruff products.
March 29: adopted, over-the-counter laxatives.
Aug. 27: proposed, sunscreen labels.
Dec. 19: adopted, over-the-counter contraceptives.2008Feb. 1: adopted, lip protectant over-the-counter drug products.
Jan. 16: proposed, labeling changes for approved drugs, biologics and medical devices.Food regulation:2006March 29: adopted, dietary sweeteners.
May 22: adopted, soluble fiber.
July 25: adopted, raw fruits and vegetables.
Dec. 13: adopted, dietary supplements.2007Jan. 5: proposed, calcium content claims.
Jan. 12: adopted, lean meat claims.
Feb. 6: proposed, soluble fiber, expand the use of health claims.
Sept. 17: interim, dietary sweeteners, adds a noncarcinogenic sugar.
Nov. 27: proposed, fatty acids.2008Feb. 25: interim, soluble fiber, additions to list of eligible sources.
Department of Homeland Security2006Dec. 21: proposed, rail transportation security.2007April 9: interim, chemical facilities.
                              Appendix VI
                     Safety Briefing on Roof Crush

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 How a Strong Federal Roof Crush Standard Can Save Many Lives and Why 
              the Test Must Include Both Sides of the Roof

                     Public Citizen www.citizen.org

The Importance of Far Side Safety in Rollover Crashes
    The current National Highway Traffic Safety Administration (NHTSA) 
static test applies a platen on only one side of the vehicle.
    Yet a NHTSA study from July 2004 (Roof Crush Analysis Using 1997-
2001 NASS Case Review) stated ``[g]enerally, it was found that roof 
deformation was most severe on the side of the vehicle opposite the 
side that makes first contact with the ground.''
    Of the 6,000 to 7,000 of people seriously injured or killed by roof 
crush every year, NHTSA officials have said that only a small number of 
lives (between 50 and several hundred) would be saved by the new 
standard.
    A slight upgrade of the one-sided test would, in fact, be very 
ineffective in saving lives.
The Problem of Far Side Impacts:
        In rollovers the roof is mainly crushed and people are 
        seriously injured on the far side, opposite to the direction of 
        roll (or near side).

        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
Far Side Occupants at Much Higher Risk from Roof Crush than Near Side

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The second, far side impact in a rollover crash is different from 
the first impact in a number of ways. It has a different and more 
severe pitch angle and greater roll angle. The strength provided by the 
windshield and its bonding is gone after the first impact when both 
break, meaning that the roof is substantially weakened when the second 
or far side impact occurs.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    For this reason, a one-sided test fails to diagnose a major cause 
of injury to occupants in rollovers, and far side roof strength is far 
more important than near side. While near side tests pass vehicles that 
can support 1\1/2\ times the vehicle's weight in a static test, on the 
far side in a sequential test, many vehicle roofs cannot actually 
support even the weight of the vehicle. This is the reason for roof 
collapse in actual rollover crashes.
    In addition, a strong roof prevents breakage of the glass. Dynamic 
testing confirms that if the roof crushes less than 4 inches, the side 
window glazing is generally preserved, limiting ejection. In images of 
a Volvo XC90 in a multiple roll dynamic test available on the Public 
Citizen Website (www.citizen.org), the windows remain totally intact, 
even after multiple rolls.
    A one-sided test would not measure the roof crush on the far side 
in the images below: 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

The Importance of A-Pillar Strength in Rollover Crashes
    The current National Highway Traffic Safety Administration (NHTSA) 
static test applies a large platen on only one side of the vehicle's 
roof at a pitch angle of 5+, and a roll angle of 25+. The roof must be 
strong enough that with a force of 1.5 times the vehicle's weight 
pushing on it, it does not crush more than 5 inches. The 1.5 times 
figure is called the Strength-to-Weight Ratio, or SWR.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Based on agency officials' statements and reports it appears NHTSA 
is planning a minimal change to the standard, increasing the Strength-
to-Weight-Ratio (SWR) to about 2.5 and permitting the roof to crush 
until it contacts a dummy's head. The pitch angle and roll angle would 
not change, and the test would also still be performed on only one side 
of the roof.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    NHTSA officials have said that only a small number of lives--50--
would be saved by the new standard, although roof crush in rollover 
kills 6,000 to 7,000 people a year, and 27,000 people annually are 
killed or seriously injured in rollover crashes. This type of NHTSA 
rule would save few lives, in part because data show the average roof 
strength of on-road vehicles is already 2.3 SWR, and that many, if not 
most, vehicles now made can meet the anticipated NHTSA proposal. NHTSA 
tests in 2003 of recent models found that 8 of 10 vehicles would pass 
the anticipated new standard.
    A major reason for the low benefits is that NHTSA's test conditions 
permit a very weak A-pillar (beside the windshield). In addition to 
testing only the near side of the vehicle, the NHTSA test is 
unrealistic when compared to actual rollovers for three critical 
reasons:

        1. It uses the wrong pitch angle--5+. SUVs and pickups are 
        significantly front-heavy and typically pitch forward during a 
        rollover crash at an angle of 10+ or even more--not 5+. In the 
        test, the low pitch angle for the platen allows the B-pillar 
        (beside the dummy's shoulder) to take up the load, whereas in 
        an actual rollover the force is concentrated on the more 
        forward A-pillar that holds the windshield.

        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
        2. The dummy's head position is unrealistic--In the NHTSA test, 
        the test dummy's head is positioned straight up, where as in 
        actual rollover crashes the occupant's head is tossed forward--
        essentially in-line with the collapsing A-pillar section of the 
        roof.

        3. The test does not measure the speed of the roof's 
        intrusion--When a weak A-pillar buckles, it collapses into 
        occupant survival space at a speed that inflicts injury.

        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
    A weak A-pillar also allows side window glass to break, allowing 
occupants' bodies, head and arms to be ejected through the side 
openings, with devastating results. Due to all these factors, the NHTSA 
test is very poor at predicting the performance of vehicles in real 
world rollover crashes. A dynamic test which simulates actual rollovers 
is needed.
Roof Strength is Critical to Ejection Risk in Rollovers
    Ejection is the most dangerous possibility for an occupant caught 
in a rollover crash. Between 1992 and 2002, two-thirds of people killed 
in rollovers were partially or fully ejected, and 20 percent of these 
were belted. There is no existing standard for belt performance in 
rollovers. The total number of people seriously injured or killed in 
rollover crashes in a single year is 27,000.
    NHTSA ignores roof-strength/ejection link. NHTSA's roof crush 
analysis excludes ejection risks. Yet NHTSA data shows 45 percent of 
partially or fully ejected occupants contacted the inside of vehicle, 
including the roof, prior to ejection.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Roof strength is critical to ejection risk in a rollover: When a 
weak roof collapses, the supporting pillars deform, warping and 
shattering the windshield and side windows and unlatching the doors. 
This opens many potential portals through which occupants can be 
ejected.
    Centrifugal forces exacerbate risk: The centrifugal forces of the 
rolling violently pull occupants outside of the vehicle, and without 
pretensioners, belts are too slack to hold occupants in place.
    Industry documents prove ejection-roof strength relationship: In 
1982, General Motors began a study of rollover occupant ejection and 
roof strength. GM engineer Ivar Arums found that the roof lost about 
one-third of its strength when the bonded windshield broke. Arums 
estimated a 23 percent reduction in ejections with tempered glass and a 
stronger roof. However, GM failed to tell NHTSA about these results.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Dynamic tests show the adequate roof strength prevents window 
breakage: Testing with the use of the dynamic rollover testing device 
the Jordan Rollover System (JRS) indicates that if the roof does not 
distort more than 3 or 4 inches, the rollover will not break the 
windows, and occupants cannot be ejected.
Summary: Roof Strength is Backbone of Rollover Safety, Dynamic Tests 
        Needed to Reflect Actual Rollover Risks
    Far Side Occupant Risks Ignored by NHTSA: In rollover crashes, the 
roof is mainly crushed and people are seriously injured on the far 
side. This impact occurs at a more severe pitch and roll angle, after 
the roof has been substantially weakened by windshield breakage from 
the first impact. NHTSA's current static test is a one-sided test, and 
fails to measure roof crush or occupant risk on the far side.
    Weak A-Pillars Ignored by NHTSA: NHTSA's test conditions permit a 
very weak A-pillar (the pillars beside the windshield). SUVs and 
pickups are significantly front-heavy and typically pitch forward 
during a rollover crash at an angle of 10+ or even more--not 5+, as in 
the NHTSA test. The low pitch angle in the test allows the B-pillar 
(behind the dummy's shoulder) to take up the load, whereas in an actual 
rollover the blow is concentrated on the A-pillar. Also, in NHTSA's 
test the test dummy's head position is unrealistic, positioned straight 
up instead of tossed forward as it would be in an actual rollover 
crash. Finally, NHTSA's static test ignores the speed of the A-pillar 
collapse, which is up to 22 mph--fast enough to injure or kill an 
occupant.
    Ejection/Roof Strength Relationship Ignored by NHTSA: A vehicle's 
roof strength is closely tied to the risk of ejection during a 
rollover. If the roof is too weak, the supporting pillars deform and 
collapse when the vehicle's roof strikes the ground in a rollover, 
warping and shattering the windshield and side windows and unlatching 
the doors. This opens many potential portals through which occupants 
can be ejected.
    An effective roof strength test would prevent thousands of deaths 
and serious injuries. A standard that limits crush to about 4 inches in 
a dynamic test, such as the dolly rollover which is currently an 
optional test part of Federal Motor Vehicles Safety Standard 208, would 
reduce ejections at least 50 percent--preventing at least 6,500 deaths 
and serious injuries, or 125 per week. Roof intrusion injury would also 
be greatly reduced, preventing another 100 deaths and serious injuries 
each week and bringing the total number to 10,000 each year. In order 
to minimize rollover deaths, a vehicle needs a stronger roof, in 
addition to advanced window glazing and rollover-sensitive belt and 
airbag systems--as is featured on Volvo's XC90 SUV.
    NHTSA should make the now-voluntary FMVSS 208 dolly rollover test 
mandatory. And at a minimum, a two-sided test with greater pitch and 
roll angles should be required by the agency, and verified with dynamic 
testing.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              Appendix VII
                                 Center for Injury Research
                                           Goleta, CA, June 1, 2008
Hon. Mark Pryor,
Chairman,
Senate Subcommittee on Consumer Affairs, Insurance, and Automotive 
            Safety,
Washington, DC.

   Re: Oversight Hearing on Passenger Vehicle Roof Strength

Dear Chairman Pryor:

        The probability of serious to fatal injury in a motor vehicle 
        rollover is a strong function of roof crush. If all vehicles in 
        the fleet had an FMVSS 216 SWR of 3.5 or greater, the number of 
        incapacitating and fatal injuries to occupants in rollovers 
        could be cut in half.

    We have a high degree of confidence in this conclusion based on the 
mutually consistent research and testing from three independent public, 
non-profit organizations (the National Highway Traffic Safety 
Administration, the Center for Injury Research and the Insurance 
Institute for Highway Safety) using three different methodologies and 
data sets. Their specific results are:

  <bullet> NHTSA found that the probability of serious to fatal injury 
        in rollovers on public roads is five times as high when 
        residual roof crush goes beyond nominal head room (i.e., is 
        greater than 4 to 5 inches) in actual rollovers.

  <bullet> CfIR found that there is a reasonable correlation between 
        residual roof crush in the dynamic Jordan Rollover System (JRS) 
        test and a vehicle's roof strength-to-weight ratio (SWR) in the 
        government's test. We have also found that roofs with less 
        residual crush also had lower peak roof intrusion speeds and 
        that when appropriately instrumented and oriented dummies were 
        used in such tests, they showed lower head and neck injury 
        measures. As discussed later, we also found that the 
        probability of side window failure (and therefore ejection) was 
        a function of the degree of residual roof crush (and therefore 
        a function of SWR).

  <bullet> IIHS found a statistically significant correlation between 
        the FMVSS 216 strength-to-weight ratio (SWR) and the risk of 
        incapacitating and fatal injury in actual rollovers of mid-
        sized SUVs. Their analysis showed that an increase in the SWR 
        standard from 1.5 to 2.5 would reduce the risk by 28 percent 
        for these vehicles. If that relationship holds more broadly, 
        increasing the strength to 3.5 would reduce the risk of such 
        injuries by more than half.

    It is interesting that although IIHS studied all rollovers of only 
a specific class of vehicles, and we tested a wide range of vehicles 
primarily for their ability to reduce head and neck injuries as well as 
ejections, the reduction in casualties in the IIHS study and the 
reduction in roof crush in our testing, per unit of SWR increase, was 
proportional.
    These findings should be tempered by the fact that the current 
FMVSS 216 quasi-static test of roof crush resistance has serious 
limitations as a measure of rollover occupant protection. The FMVSS 216 
test stresses a roof only in a specific direction; it stresses only one 
side of the roof, and does not apply forces with the dynamic shock of 
an actual roof impact in a rollover. Furthermore, this test invites 
manufacturers to design vehicles that can pass the test rather than 
vehicles that protect occupants.
    NHTSA has traditionally preferred dynamic testing with dummies for 
frontal and side impact regulatory and consumer information testing. 
This philosophy should carry over to rollover testing. Such testing can 
provide substantially enhanced data on all aspects of rollover 
performance and permit development of more efficient designs for 
rollover occupant protection.

        For these reasons, JRS tests or some equivalent dynamic tests 
        should be used by NHTSA and automakers to evaluate rollover 
        occupant protection performance.

    More than 250,000 rollovers in the United States each year result 
in more than 10,000 fatalities and 20,000 serious injuries. Motor 
vehicle crashes are a leading cause of death to young people. The 
fatality rate in rollovers is six times that of police-reported frontal 
and side impacts and they inflict quadriplegia or serious, permanent 
head injuries on more than 6,000 of our fellow citizens.
    Occupant protection in passenger car, light truck and van rollovers 
remains the most critical unsolved problem in motor vehicle safety. 
This submission for the hearing record is intended to provide your 
committee with information and perspective that will assist in its 
further formulation of Federal motor vehicle safety policy.
    One of us (Nash) has shown, using National Accident Sampling System 
data, that between two-thirds and three-quarters of all rollovers do 
not involve significant complicating factors such as major collisions, 
so that the life savings from stronger roofs would be roughly 3,500 
people each year, and serious injury savings would be as many as twice 
that number. This conclusion applies to all rollover injuries to the 
current population of belted, unbelted and ejected occupants.
    It must be emphasized that the IIHS studies found a correlation 
between roof strength and lower rates of all types of injury to 
occupants regardless of restraint status and ejection. NHTSA and CfIR 
found that higher roof strength reduces the potential for direct head 
and neck injury from roof intrusion, and CfIR found that the potential 
for side window failure which provides an avenue for ejection (which 
itself is correlated with higher injury rates) is also a direct 
function of roof crush.
The Nature of Rollover Injury
    In the late 1960s NHTSA recognized that the two critical mechanisms 
of rollover occupant injury are direct injury from roof intrusion and 
the increased potential for injury to partially or completely ejected 
occupants. The auto racing industry successfully addressed these issues 
for rollovers that are much more violent than typical public road 
rollovers by providing strong roll cages, highly effective occupant 
restraints, and driver head protection padding with helmets. This 
demonstrates that the human body can sustain the basic forces of a 
rollover if it is properly protected. The same principles of occupant 
protection can be afforded the public using protective features that 
are low in cost and that do not restrict an occupant any more than a 
conventional safety belt.
    Occupant ejection can be controlled by ensuring the integrity of 
the occupant compartment: in particular by reducing side window 
breakage. Although safety belt use is important, even an unrestrained 
occupant cannot be ejected unless there is a major opening such as a 
broken window in the occupant compartment.

        Rollovers are a sequence of low energy impacts easily tolerated 
        by the human body in an occupant compartment that resists 
        crush, contains its occupants, and is appropriately padded.
The Biomechanics of Rollover Injury
    There is no specific biomechanics issue concerning injury to 
ejected occupants. Once ejected, an occupant is subject to uncontrolled 
impacts with the ground and other external objects, or to being crushed 
by the vehicle itself. Virtually all experts in the field agree that 
good occupant restraint can reduce complete ejection, but partial 
ejection to belted occupants can result if side windows fail and 
particularly if the weak roof of a vehicle moves so that the resulting 
envelope of the vehicle no longer protects an occupant's head.
    If an occupant is unrestrained but not ejected, he or she may 
tumble about the interior of the vehicle, but injuries are inflicted 
only if the occupant encounters hard or sharp objects in the interior 
of the vehicle. Again, there are no specific biomechanics issues, and 
experts generally agree that injury to occupants can be reduced by good 
restraints that are used.
    The critical biomechanics issue arises when considering direct head 
or neck injuries to a restrained occupant from an intruding roof 
component. There is a significant body of biomechanical data from tests 
using human cadavers that show not only the mechanisms of neck injury 
from forces typical of rollovers, but the injury tolerance of humans. 
These data show that a typical injury mechanism is from a force on the 
head that results in a combination of compression loading of the neck 
and flexion (forward bending) of the neck. This type of injury is 
observed all too often in restrained vehicle occupants in rollovers who 
are seated under a part of the roof that has crushed extensively. The 
evidence from biomechanics research also shows that the speed of a head 
impact (such as by an intruding vehicle roof) is at least as important 
as the extent of roof crush.
    Achieving a dynamic rollover test using anthropometric test dummies 
has been hampered by the fact that the neck of the existing dummy that 
is in common use--the Hybrid III--has poor biofidelity. Nevertheless, 
existing biomechanics research provides a basis for establishing neck 
injury criteria, and our recent work using dummies in the JRS shows how 
the Hybrid III can be used to better measure the potential for real 
world neck injury in dynamic tests.

        Our JRS test protocol overcomes the lack of biofidelity of the 
        Hybrid III dummy and shows a clear relationship between the 
        speed and extent of roof crush and human head and neck injury.
Testing for Rollover Occupant Protection
    It is clear that we can test a vehicle roof's resistance to crush 
and the speed of roof intrusion under various conditions. The test used 
in FMVSS 216 is an oversimplified version of such a test, and there are 
various dynamic tests that provide a much more realistic measure of 
roof performance in a rollover.
    Virtually all experts in this field agree that dynamic tests have 
the potential to provide a better indication of a vehicle's rollover 
performance than the quasi-static test specified in FMVSS 216. The 
forces on a roof during a rollover vary substantially in both magnitude 
and direction during a rollover, and only a dynamic test can emulate 
those forces. The gold standard for automotive crash testing is dynamic 
testing using anthropometric test dummies to measure the potential for 
injury.
    Quasi-static tests cannot provide direct information on the 
potential for human injury in a rollover, nor can they be used to 
evaluate the performance of designs and features other than roof 
strength that affect rollover occupant protection. The mechanism of 
injury and the protection of occupants in rollover can only be studied 
with repeatable, dynamic rollover tests. Instrumented anthropometric 
test dummies that have a high degree of biofidelity, and injury 
criteria that have been derived from biomechanics research can provide 
more definitive indications of the rollover occupant injury potential.
    Although NHTSA has been generally committed to dynamic testing for 
crashworthiness and occupant crash protection since 1970 in all crash 
modes, it took decades to implement such testing for frontal and side 
impact crashes. The agency has yet to seriously consider dynamic 
testing for its rollover occupant protection regulations. It has said 
that it would take too long to develop a rollover occupant protection 
standard based on dynamic testing.
    In 1970, NHTSA specified a dynamic test, the dolly rollover test 
specified in FMVSS 208, to measure the potential for occupant ejection 
in a rollover. The first major dynamic test program--dolly rollover 
tests using instrumented Hybrid III dummies to measure the potential 
for occupant injury--was General Motors' Malibu tests, conducted in 
1983 (Malibu I with unrestrained dummies) and 1987 (Malibu II with 
restrained dummies). Half of the vehicles in these tests had roll cages 
emulating strong roofs and half were unmodified production vehicles.
    In the early part of this decade Ford Motor Company sponsored the 
development of the Controlled Rollover Impact System (CRIS), a complex 
dynamic test of vehicle response to the forces of a rollover. We have 
developed a simpler, less expensive, better controlled and highly 
repeatable dynamic test called the Jordan Rollover System (JRS).
    The primary debates concerning dynamic testing concern test 
protocols and conditions, how a dummy is used to measure the potential 
for injury, and the interpretation of such measures.
    The industry has primarily relied on the Malibu tests to support 
its claims that occupant injury is not related to roof crush. We and 
others disagree based on analysis of the data and film from the same 
Malibu tests that has been grudgingly released in bits and pieces over 
the past decade. We have attached video from these tests, rendered to 
show what happens to the dummies in an inertial frame of reference 
(that is, with the horizon held steady). This film shows the relatively 
benign ride of the dummy in the Malibu with a strong roof (roll cage) 
while roof crush in the production Malibu produces devastating 
distortion of the dummy occupant's neck. In four cases, instrumentation 
on the restrained dummies demonstrated that the forces on the neck were 
sufficient to severely injure a human under the same conditions.
    CRIS has been used to support Ford and General Motors defense 
positions in product liability cases rather than for the development of 
improved rollover occupant protection. Tests using this system have 
been designed to ensure that dummies in the test vehicles show high 
neck loads typical of diving injuries regardless of roof performance.
    We have used the Jordan Rollover System to conduct dynamic tests, 
some with Hybrid III dummies, to better understand the mechanism of 
occupant injury and to determine how anthropometric dummies can be used 
to more accurately indicate the potential for neck injury in a 
rollover.
    CfIR has demonstrated the value of the JRS as a dynamic test of 
rollover occupant protection and that it meets all of NHTSA's stated 
requirements for use in regulations and consumer information programs: 
reliability, repeatability, ability to predict injury and to replicate 
real world injury patterns. Despite this, except for tentative oral 
expressions of appreciation of the JRS, NHTSA has not acknowledged our 
submissions, requested more data, nor formally accepted or rejected the 
JRS as either a research tool or test instrument.
    The agency never definitively responded to a 2005 proposal to 
conduct JRS research tests at nominal cost nor to a 2007 proposal to 
join us in defining the JRS test protocol for testing current 
production vehicles that had been tested as part of NHTSA's roof crush 
resistance program. With a major grant from the Santos Family 
Foundation through the Center for Auto Safety, we are currently 
conducting a series of JRS tests of the same contemporary vehicles 
tested by NHTSA. The vehicles have been contributed by the State Farm 
Insurance Company.
    NHTSA should have a comprehensive rollover occupant protection 
program, using dynamic testing that covers the two primary causes of 
injury: direct injury from roof intrusion and ejection. Yet it has been 
unwilling to seriously consider a rollover standard based on dynamic 
testing, and seems determined to propose only a modest upgrade of its 
current standard based on a quasi-static roof crush resistance test.

        Although we have demonstrated that the Jordan Rollover System 
        dynamic test meets all of the criteria NHTSA has set forth, the 
        agency has refused to acknowledge that a legitimate dynamic 
        test of rollover occupant protection exists that could be the 
        basis for its rulemaking. NHTSA remains stubbornly committed to 
        static testing with arbitrary SWR criteria and will not even 
        acknowledge that the body of JRS dynamic rollover test results 
        demonstrate that the minimum quasi-static SWR criteria should 
        be significantly higher than 2.5 or that a dynamic rollover 
        test can substantially more accurately evaluate roof crush and 
        predict injury potential.
Jordan Rollover System Test Results
    CfIR's dynamic research with the Jordan Rollover System (JRS) 
demonstrates that serious injury in a rollover results from rapid, 
irregular roof intrusion into the head of an occupant where that 
intrusion imposes both compression and flexion forces on the occupant's 
neck. Such forces result from roof intrusion of more than about 4 
inches into the occupant survival space at a rate of more than 10 feet/
second (7 mph). A static roof crush test cannot predict the severity or 
type of injury.
    Figure 1 shows the residual roof crush from JRS testing as a 
function of FMVSS 216 SWR of vehicles including those identified as 
common to NHTSA's and IIHS's static tests and analyses. The red line 
represents the results of two roll JRS dynamic tests.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 1 & 2: Residual roof crush post JRS tests of vehicles versus 
SWR (left) and IIHS Injury rate (right) of mid size SUVs versus SWR.
    Figures 1 and 2 above, illustrate the coordination between the 
research of rollover roof crush from JRS testing and IIHS's statistical 
injury rate (using incapacitating injuries and fatalities to belted, 
unbelted and ejected drivers) of mid size SUVs versus SWR.

        The combined results of NHTSA, CfIR and IIHS data indicates 
        that the current fleet of vehicles which has an average SWR of 
        around two represents a 10 percent risk of incapacitating 
        injury and death (as also identified by NHTSA crash data) and 
        that a future fleet of vehicles averaging an SWR of 4 would 
        represent a 5 percent risk.

    Our most recent JRS test program involving contemporary vehicles 
with dummies included a Jeep Grand Cherokee (SWR = 1.8), a Chrysler 300 
(SWR = 2.5), a Hyundai Sonata (SWR = 3.2), a Toyota Camry (SWR = 4.3), 
and a VW Jetta (SWR = 5.2). The video tapes of these tests are attached 
to this submission in a DVD format disk. They show the progressively 
milder stress to the dummy neck in the vehicles with stronger roofs.
    As an example, we tested a 2006 Hyundai Sonata with an SWR of 3.2 
which is 25 percent higher than what has been proposed by NHTSA. We 
used a Hybrid III dummy equipped with both upper and lower neck sensors 
and a lateral high speed camera to observe neck compression and 
flexion, with the dummy neck in a realistic orientation. Figure 3 shows 
the Sonata in the JRS fixture before the test and Figure 4 shows it 
inverted with the initially trailing (far) side roof at maximum crush.
    Figure 5 shows a rear view of the occupant inside the Sonata before 
the test and Figure 6 shows the dummy when the vehicle is inverted at 
the time of maximum roof crush. The compression/flexion forces at this 
impact would be sufficient to cause a serious cervical spine injury to 
a human under the same circumstances.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 7 shows a sequence of side views of the dummy as the roof 
crushes into the occupant survival space in this test.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 7: Side view of the head impact in a sequence of 8 
millisecond frames during which the neck is subject to severe 
compression/flexion forces from roof intrusion.

        A dynamic test provides detailed injury measures and the 
        ability to assess real world human injury as a function not 
        only of roof strength but of vehicle geometry and protective 
        features such as padding, pretensioning of belts and activation 
        of window curtain air bags.
Ejection and Roof Crush
    An occupant can be ejected only if there is an avenue through which 
he or she can leave the occupant compartment. A restrained occupant is 
unlikely to be fully ejected unless there is a serious failure of the 
belt system. A restrained occupant can be partially ejected if a side 
window or sun roof is broken, and particularly if the roof collapses in 
such a manner that the envelope of the occupant compartment no longer 
contains the occupant's head. Nearly half of all rollover fatalities 
and serious injuries result from partial or complete ejection. We have 
observed that vehicle windows are unlikely to break if the roof 
structure over them is not significantly distorted. In the Malibu 
tests, a substantially higher proportion of side windows broke in the 
production vehicles than in the vehicles with roll cages emulating a 
strong roof.
    In the JRS tests that have been conducted, we have also observed a 
correlation between window failures and lower vehicle strength to 
weight ratios. Figure 8 shows the JRS data (left axis) and data on 
ejections from the IIHS study of mid-sized SUVs (right axis).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 8: Data on window breakage in JRS tests shown with ejection 
data from the IIHS study of accident data on mid-sized SUVs.

        These data confirm the fact that a dynamic test can provide a 
        more reliable, comprehensive picture of a vehicle's rollover 
        occupant protection capability. Vehicle geometry also has a 
        significant effect on the dynamics of a rollover. The 
        performance of safety belts, padding, seats and windows under 
        rollover conditions cannot be assessed with a static test.
Current Rulemaking: The January 2008 SNPRM
    Both NHTSA and IIHS have analyzed crash data to demonstrate an 
obvious correlation between roof strength as measured in the FMVSS 216 
test: a higher SWR will generally reduce rollover injuries. That 
relationship, while definitive, does not address the question of how 
greater roof strength reduces injury. The JRS can show specifically how 
injuries result from poor roof performance and the degree to which a 
strong roof can control ejection.
    The current roof crush standard, established in 1971, specifies 
that a large platen be slowly pressed into a front corner of the roof 
at a shallow angle. In the test, the resistance force must exceed 1.5 
times the vehicle weight before it reaches a depth of 5 inches (the 
limit before the ``non-encroachment zone'' or ``occupant survival 
space'' is violated).
    In its 2005 proposal, NHTSA presented a highly flawed analysis as 
the basis for its proposed roof crush resistance standard. The proposal 
was that the minimum resistance force be raised to 2.5 times a 
vehicle's weight, that non-encroachment zone be defined according to 
interior headroom, and that the standard be expanded to cover heavier 
vehicles. It did not update its analysis in its 2008 SNPRM, with the 
only substantive change in its proposal being the possibility of 
sequentially testing both sides of the roof. It has ignored or 
misinterpreted its own research and has paid only perfunctory attention 
to data submitted to the rulemaking docket.
    A major problem with the simple quasi-static test is that 
manufacturers are inclined to design vehicles to meet the standard, not 
necessarily to protect occupants. Many anomalies in design cannot be 
detected in a static test. As an example, several Toyota models have 
SWR in excess of 4, but reviews of detailed rollover investigations of 
Toyota rollovers shows that these vehicles have very weak windshield 
headers that often buckle in actual rollovers. We have observed this 
problem in our JRS testing, but it did not show up in FMVSS 216 
testing.
    Occupant compartment design affects occupant safety in all crash 
modes. Some manufacturers have indicated that they added strength to 
the roof areas of their vehicles in order to improve frontal or side 
impact performance. Figure 9 shows a correlation between side impact 
performance and roof crush resistance in the FMVSS 216 test.
    NHTSA has asked for cost data for SWR 3 and 3.5. Government and 
industry calculations and estimates have ranged from 20 to 200 pounds 
and from $50 to $270 per vehicle. In fact, industry cost estimates have 
historically been substantially higher than the actual costs incurred 
in implementing standards. Furthermore, the cost of improved roof crush 
performance should be shared with the benefit of achieving better 
frontal and side impact performance. It is also the case that the 
economic losses from rollovers, as estimated using NHTSA's own economic 
cost of vehicle crashes, is thousands of dollars per vehicle, so that 
even modestly effective improvements can be easily justified on an 
economic basis.
    The agency has mostly wasted the last 7 years since its request for 
information concerning the upgrading of rollover occupant protection. 
This should not be considered an excuse for a slapdash rule as has been 
proposed that will have only a marginal impact on rollover casualties. 
The Congress must oversee and direct this agency to take appropriate 
steps to promulgate rollover occupant protection standards that truly 
meet the need for motor vehicle safety using the best available data 
and scientific and technological developments in biomechanics, vehicle 
design, and testing.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 9: Side impact star rating versus SWR.

    CfIR research has demonstrated that it has a dynamic test device 
and protocol that provides a better and more specific indication of 
actual rollover occupant protection performance. We have demonstrated 
why dynamic testing will facilitate the design of vehicles that provide 
protection more efficiently: at lower additional cost and weight; and 
that the improvement of rollover occupant protection is highly cost-
beneficial. This conclusion will continue to hold even when all light 
vehicles are equipped with electronic stability controls that reduce 
(but do not eliminate) rollovers.
    NHTSA needs the direction and support of the Congress in setting 
research priorities and the most effective and efficient standards in 
this area. We look forward to your leadership to ensure that the 
tragedy of rollover injuries and fatalities can be sharply curtailed by 
improved vehicle safety performance.

        Increased roof strength per se is not likely to cost very much 
        (in weight and dollars) in light of the vehicle improvements 
        necessary to do well in dynamic testing for injury reduction in 
        offset frontal and side impact crashes.
What is CfIR?
    Since the National Highway Traffic Safety Administration (NHTSA) 
opened its current roof crush resistance rulemaking in 2001, the Center 
for Injury Research (CfIR) has been in the forefront of rollover 
occupant protection research and testing, and has been a major 
participant in NHTSA's rulemaking. CfIR is a non-profit organization 
founded by a former General Motors executive and a retired NHTSA Senior 
Executive.
    In response to NHTSA's 2001 request for data, CfIR has submitted 34 
comments consisting of data from more than 50 quasi-static tests and 
nearly 100 dynamic rollover tests. We have also provided extensive 
analysis and interpretation of government and industry roof crush 
tests, rollover accident data, and the biomechanical potential for 
occupant injury in rollovers.
    Should the Committee staff need more information or clarification, 
we plan to attend the hearing and will be available in Washington on 
Monday and Tuesday June 2 and 3.
            Sincerely,
                                            Donald Friedman
                                        Carl E. Nash, Ph.D.
DVD video Disk Attachments:
Malibu II Test 3--Production
Malibu II Test 2--Rollcaged
JRS Jeep Grand Cherokee (SWR = 1.8)
JRS Chrysler 300 (SWR = 2.5)
JRS Hyundai Sonata (SWR= 3.2)
JRS Toyota Camry (SWR = 4.3)
JRS VW Jetta (SWR= 5.2)

    Senator Pryor. Thank you.
    Let's go ahead and proceed to Mr. Stanton.
    And, like I said, maybe after Mr. Stanton and Ms. Gillan 
testify, maybe we'll have the video clip working.
    Mr. Stanton, go ahead.

      STATEMENT OF MICHAEL J. STANTON, PRESIDENT AND CEO,

            ASSOCIATION OF INTERNATIONAL AUTOMOBILE

                      MANUFACTURERS, INC.

    Mr. Stanton. Thank you, Mr. Chairman.
    I'm Mike Stanton. I'm with the Association of International 
Automobile Manufacturers. And thank you for the opportunity to 
be here today.
    In 2005, Congress directed NHTSA to address rollover 
crashes and related safety concerns through rulemaking to 
mandate the installation of electronic stability control 
systems, reduce occupant ejection, improve door lock 
performance, require the installation of side impact protection 
airbags, increase safety belt use, and improve roof strength, 
while also enhancing NHTSA's consumer information program 
through vehicle labeling.
    NHTSA is well along in implementing these measures. In 
addition to the roof-strength final rule that we anticipate to 
be issued soon, NHTSA has already issued a final rule for ESC, 
has upgraded its side impact rule, and has issued a final rule 
to upgrade existing door lock and door retention regulations to 
help prevent occupant ejections. It is our understanding that 
the agency plans to propose new occupant retention requirements 
later this year.
    Regarding the NHTSA roof-strength rulemaking, AIAM has 
provided comments in response to the agency's Notice of 
Proposed Rulemaking and also the supplemental notice. Our 
primary concern is that the agency provides adequate lead time 
for manufacturers to comply with the new roof crush 
requirements. Although we cannot yet fully quantify the impact 
of the agency's recently proposed two-sided test on current and 
future vehicles, as a general matter manufacturers would need 
to redesign the roof structure and all related components to 
comply with the new test requirements.
    The SNPRM references a study indicating that weight 
increases may be avoided if sufficient time is provided in the 
final rule to allow for the necessary design and weight 
modifications to be incorporated at the time of full or major 
model changes. Changes implemented under these circumstances or 
other circumstances would tend to involve the addition of 
weight, which conflicts with NHTSA's new CAFE greenhouse gas 
standards.
    If roof-related changes can be implemented at the time of 
full model change, high-strength materials and more 
sophisticated structures may be used to achieve a more 
favorable overall result. Therefore, we strongly urge the 
agency to provide sufficient lead time so that modifications to 
roof structure and related components may be implemented at the 
same time as major model changes. Since many major changes are 
on a 5- or 6-year cycle, we suggested, depending upon the 
requirements in the final rule, 3-year lead time and at least a 
3-year phase-in period. Provisions for earning--early credits 
would also be appreciated.
    In our comments on the SNPRM, we also noted the agency has 
proposed a number of significant changes from the 2005 
proposal. Among these is the adoption of a two-sided test, but 
an updated cost-benefit analysis with the new changes is not 
yet available. Among the factors that we noted that are 
critical to the selection of optional test requirements in the 
final rule are, first, the need to consider actual maximum 
weight capacity of vehicle designs; two, incorporation of the 
safety benefits of ESC and side-curtain airbags; three, 
adjustments to a more realistic fuel price; four, a more 
definitive determination of the frequency of multiple roof 
contact crashes for various vehicle classes, and the safety 
significance of these crashes; and, finally, number five, 
consideration of compliance lead time in relation to vehicle 
design cycles.
    The potential use of a new test device to measure head 
contact intrusion also presents a degree of uncertainty 
regarding the achievement of an optimal tradeoff between costs 
and benefits. Therefore, we requested that the agency provide 
an opportunity for comment on a full cost-benefit analysis 
reflecting the elements of the final rule. We cannot provide a 
detailed assessment of the roof-strength performance 
requirements until we have had the opportunity to review such 
an updated analysis, and this is consistent with what was being 
said earlier, it's more important to get it right than it is to 
get it done in the next 30 days.
    Our comments also provided suggestions related to the 
proposed tests in order to improve the repeatability of the 
test results. Repeatability of compliance test results is 
critical so that manufacturers can be reasonably assured that 
their vehicles will meet the new standards when tested by the 
government. In particular, with regard to the test 
repeatability, we would oppose the required use of a dynamic 
test for assessing roof strength. We have seen no indication 
that such a test could be made repeatable to meet legal 
requirements, nor have we seen any indication that such a test 
would provide safety benefits beyond those of the tests that 
the agency has proposed.
    Thank you, sir. This concludes my testimony.
    [The prepared statement of Mr. Stanton follows:]

     Prepared Statement of Michael J. Stanton, President and CEO, 
      Association of International Automobile Manufacturers, Inc.
    Good Morning. My name is Michael Stanton, and I am President and 
CEO of the Association of International Automobile Manufacturers, or 
AIAM. AIAM represents 14 international motor vehicle manufacturers who 
account for 33 percent of all light duty motor vehicles produced in the 
United States. Fifty-five percent of all vehicles sold in America by 
AIAM members are produced in the United States. Nationwide, AIAM member 
companies have invested $39.3 billion in U.S.-based production 
facilities, have a combined domestic production capacity of 4.1 million 
vehicles, directly employ 92,700 Americans, and generate almost 600,000 
U.S. jobs in dealerships and suppliers nationwide. AIAM appreciates the 
opportunity to present its views to the Subcommittee on the important 
matters of vehicle rollover crashes and enhanced roof strength.
    To summarize our position, AIAM supports Congress' direction to 
NHTSA to issue upgraded roof strength requirements as part of a 
comprehensive strategy to address vehicle rollover crashes. We also 
support the agency's methodology in assessing the costs and benefits 
associated with various possible regulatory approaches, by focusing on 
the ``target populations'' that could potentially benefit from various 
remedial measures. AIAM continues to urge NHTSA to provide 
manufacturers adequate lead-time to comply with the upgraded 
requirements so that roof structure redesign may be incorporated in 
full vehicle model changes. We also urge the agency to take all 
appropriate steps to assure that the new roof crush test procedure is 
fully repeatable.
    Rollover crashes are relatively rare events, yet they have 
disproportionately large safety impacts. On an annual basis, rollovers 
account for only about 3 percent of vehicle crashes, yet they account 
for approximately 10,000 occupant fatalities. This represents about 
one-third of all light vehicle crash fatalities. Therefore, a 
comprehensive effort to prevent rollovers and improve occupant safety 
in rollovers is an entirely appropriate priority for Congress, NHTSA, 
and vehicle manufacturers.
    In its August 2005 proposal to upgrade roof crush standards, NHTSA 
identified several factors that relate to fatalities in rollover 
crashes, such as high vehicle speed, night driving, a preponderance of 
young, male drivers, alcohol use, and failure to use safety belts. Most 
rollover crashes are single vehicle, run-off-road crashes that occur at 
highway speeds. According to NHTSA statistics, nearly three-fourths of 
the people killed in rollover crashes are unbelted, with about two-
thirds of the fatalities in all rollovers involving occupants being 
ejected from the vehicle.
    Congress has mandated a comprehensive approach to addressing 
rollover crashes. In the 2005 SAFETEA-LU law, Congress directed NHTSA 
to address rollover crashes and related safety concerns through 
rulemaking to mandate the installation of Electronic Stability Control 
systems (ESC), reduce occupant ejection, improve door lock performance, 
require the installation of side impact protection air bags, increase 
safety belt use, and improve roof strength, while also enhancing 
NHTSA's consumer information program through vehicle labels. NHTSA is 
well along in implementing the measures specified in the SAFETEA-LU 
law. In addition to the roof strength final rule that we anticipate 
will be issued soon, NHTSA has already issued a final rule for ESC to 
prevent rollovers, has upgraded its side impact rule, and has issued a 
final rule to upgrade existing door lock and door retention regulations 
to help prevent occupant ejections. It is our understanding that the 
agency plans to propose new occupant retention requirements later this 
year.
    Consistent with the Congressional direction, NHTSA proposed a 
comprehensive response to vehicle rollovers. This response begins with 
the preferred approach of preventing the occurrence of rollovers, 
through such measures as mandating the installation of ESC, the 
development of other electronic crash avoidance systems such as road 
departure warning systems, and the 2004 enhancement of the agency's New 
Car Assessment Program (NCAP) which provides consumers information on 
the rollover propensity of specific models. NHTSA also noted that 
enhanced enforcement of impaired driving laws and speed limits would 
reduce the frequency of rollovers. The agency also presented a series 
of measures that could mitigate rollover crash injuries, such as the 
installation of side curtain air bags, improved door and latch systems, 
improved occupant restraint systems, and enhanced roof structures.
    AIAM fully supports this comprehensive approach to addressing 
vehicle rollovers, as envisioned in SAFETEA-LU and pursued by NHTSA. It 
is clear there is no single, ``silver bullet'' that will eliminate 
rollover crashes and their consequences, given the multiple causative 
factors and injury mechanisms. We believe the installation of ESC will 
provide substantial safety benefits--by helping drivers maintain 
control of their vehicles, ESC will help drivers avoid running off the 
road and rolling over in the first place. The new occupant ejection 
mitigation rule is likely to require enhancements to side air bag 
systems such as increasing the size of the air bags and assuring that 
the air bags remain inflated for longer periods of time to help prevent 
ejection. This has the potential to address some of the two-thirds of 
rollover fatalities involving occupant ejection. Continued efforts in 
the areas of alcohol counter-measures and speed enforcement will also 
provide significant benefits. Additionally, states and the industry 
have undertaken efforts to increase safety belt use, and in 2007 safety 
belt use in the United States was 82 percent.
    AIAM supports NHTSA's approach for analyzing the costs and benefits 
of the various rollover mitigation initiatives. The agency's 
methodology focuses on a ``target population'' of injuries and 
fatalities that potentially could be addressed by a particular remedial 
measure, in an attempt to sort out the separate effects of these 
measures. Of the SAFETEA-LU rulemaking initiatives, AIAM believes that 
equipping vehicles with ESC is likely to provide the most significant 
reduction in serious or fatal injuries in vehicle rollovers. In fact, 
NHTSA estimates that ESC has the potential to prevent more than two-
thirds of passenger car and SUV rollovers that would otherwise occur in 
single vehicle crashes. Manufacturers are working to install ESC in 
vehicles ahead of regulatory deadlines, and for Model Year 2008, AIAM 
members offer over 170 models with ESC as either standard or optional 
equipment.
    Regarding the NHTSA roof strength rulemaking, AIAM has provided 
comments to NHTSA in response to the agency's August 2005 Notice of 
Proposed Rulemaking and the January 2008 Supplemental Notice of 
Proposed Rulemaking (SNPRM). A primary concern of AIAM is that the 
agency provide adequate lead-time for manufacturers to comply with the 
new roof crush requirements. Although we cannot yet fully quantify the 
impact of the agency's recently proposed two-sided test on current/
future models, as a general matter manufacturers would need to redesign 
the roof structure and all related components to comply with the new 
test requirements. The NHTSA SNPRM references a study indicating that 
weight increases may be avoided if sufficient lead-time is provided in 
the final rule to allow for necessary design and weight modifications 
to be incorporated at the time of full or major model changes. Changes 
implemented under other circumstances would tend to involve the 
addition of weight, which conflicts with NHTSA's new CAFE/greenhouse 
gas standards and a market environment of sky-rocketing fuel prices. If 
roof-related changes can be implemented at the time of a full model 
change, high-strength materials and more sophisticated structures may 
be used to achieve a more favorable overall result. Therefore, AIAM has 
strongly urged the agency to provide sufficient lead-time in the final 
rule so that modifications to roof structure and related components may 
be implemented in accordance with the timing of full or major model 
changes. Since many full or major model changes are on five, six, or 
more year redesign cycles, we suggest, depending on the requirements in 
the final rule, 3 years lead time in addition to at least a three-year 
phase-in period. Provisions for earning credits for early compliance 
should also be adopted.
    In our comments on the SNPRM, we also requested that there be a 
Small Volume Manufacturer (SVM) provision that would delay compliance 
to the 100 percent date for manufacturers that produce less than 5,000 
vehicles for the United States market. NHTSA has included a SVM 
provision in major recent rulemakings (FMVSS 208, 214, and 301 for 
example) to allow low volume/single line manufacturers sufficient time 
to redesign and test their vehicles. Without such a provision, the 
smaller companies would, in effect, have to meet the requirements for 
100 percent of their vehicles at the beginning of the phase-in period.
    In our comments on the SNPRM, we also noted the agency has proposed 
a number of significant changes from the 2005 proposal. Among these is 
the adoption of a two-sided test, but an updated agency cost-benefit 
analysis reflecting the new changes is not currently available. Among 
the factors that we noted that are potentially critical to the 
selection of optimal test requirements in the final rule are: (1) the 
need to consider actual maximum weight capacity of vehicle designs; (2) 
incorporation of the safety benefits of ESC and side curtain airbags; 
(3) adjustment to a more realistic fuel price; (4) a more definitive 
determination of the frequency of multiple roof contact crashes for 
various vehicle classes and the safety significance of these crashes; 
and (5) consideration of compliance lead-time in relation to vehicle 
design cycles. The potential use of a new test device to measure head 
contact/intrusion also presents a degree of uncertainty regarding the 
achievement of an optimal trade-off between costs and benefits. 
Therefore, AIAM requested that the agency provide an opportunity for 
comment on a full cost-benefit analysis reflecting the elements of the 
final rule. We cannot provide a detailed assessment of the roof 
strength performance requirements until we have had the opportunity to 
review such an updated analysis.
    The AIAM comments also provided suggestions related to the proposed 
tests in order to improve the repeatability of compliance test results. 
Repeatability of compliance test results is critical, so that 
manufacturers can be reasonably assured that their vehicle designs will 
meet the new standards when tested by the government. In particular 
with regard to the test repeatability concern, we would strongly oppose 
the required use of a dynamic test for assessing roof strength. We have 
seen no indication that such a test could be made adequately repeatable 
to meet legal requirements, nor have we seen any indication that such a 
test would provide safety benefits beyond those of the tests that the 
agency has proposed.

    Senator Pryor. Thank you.
    Ms. Gillan?

 STATEMENT OF JACQUELINE S. GILLAN, VICE PRESIDENT, ADVOCATES 
                  FOR HIGHWAY AND AUTO SAFETY

    Ms. Gillan. Thank you, Senator Pryor. Good morning. My name 
is Jackie Gillan. I'm Vice President of Advocates for Highway 
and Auto Safety.
    First, let me thank the subcommittee for holding today's 
hearing. Every year, on average, there are more than 10,000 
deaths and over 200,000 injuries as a result of rollover 
crashes. For years, consumer health and safety groups pressed 
the National Highway Traffic Safety Administration to act on 
this critical safety problem, but the agency demurred. We then 
turned to Congress for help in demanding agency accountability, 
and you listened, and you acted. Because of the bipartisan 
leadership on this committee, the 2005 SAFETEA-LU bill included 
some of the most important vehicle safety measures ever signed 
into law.
    Congress showed great vision by crafting a comprehensive 
and coordinated approach to rollover crash safety that includes 
rollover prevention, an occupant ejection standard, and an 
upgrade of the roof-strength standard. That approach could 
ultimately save thousands of lives and prevent tens of 
thousands of injuries if implemented in the manner Congress 
intended.
    Unfortunately, I am here to inform you that NHTSA has not 
seized this opportunity to significantly advance safety. In 
each safety rule required by SAFETEA-LU, the agency has done 
considerably less than it could have or should have. As a 
result, SAFETEA-LU rulemakings will not achieve the potential 
level of safety envisioned by Congress or expected by the 
public.
    I am here today to urge Congress to make it clear to NHTSA 
that the current roof-strength proposal is unacceptable and 
should not be issued as a final rule in July. The roof-strength 
standard was issued nearly 40 years ago, and will not likely be 
upgraded and improved for many, many years to come. If NHTSA's 
weak and ineffective proposal becomes final, generations of new 
vehicles will meet a weak standard that will put millions of 
Americans at risk of death or serious injury because NHTSA 
didn't get it right. We can do better--and, in fact, we must do 
better--to ensure that in the future, individuals like Dr. 
Garcia will be adequately protected in a rollover crash and 
avoid serious, costly, and lifelong injuries.
    Let me just quickly go over some of the numerous problems 
with the agency's proposal.
    One of the most fundamental faults of the proposed rule is 
that it relies on a static-force test for roof strength and 
proposes only a marginal improvement from the old standard. 
Most vehicles sold in the United States already meet the 
proposed rule, while some models greatly exceed it and provide 
superior lifesaving protection. Instead of a static-force test, 
Advocates strongly support the use of a dynamic test that 
reproduces the real-world experience of vehicle roofs crashing 
into the ground, and how occupants and safety systems respond 
to those forces.
    During a rollover crash, passenger vehicle roofs flex and 
recoil. Another failed feature of the proposed rule is that 
NHTSA ignores this and does not require a minimum intrusion 
limit or survival space over the heads of occupants. Instead, 
the agency has proposed a no-head-contact requirement. In 
addition, this no-head-contact requirement is compromised by 
the use of a 50th-percentile male test dummy, because anyone 
taller that is not protected by the proposed rule will suffer 
injury.
    Let me briefly address the aspect of that rule as a mother 
of a teenaged son. The 50th-percentile male test dummy has a 
seated height of nearly 35 inches. Last night, I measured my 
son, whose overall height is about 5 feet 10 inches. He exceeds 
the seated height of the test dummy; therefore, the proposed 
upgrade of the roof-strength standard, which should protect him 
against deadly roof crash in a rollover crash, will fail him 
and most of his friends.
    In January, NHTSA issued a Supplemental Notice of Proposed 
Rulemaking. This notice is an even stronger indictment of the 
inadequacy of the agency's proposed rule, and is plagued with 
procedural problems. For example, NHTSA's research program, 
testing both sides of the roof, relied on flawed methodology 
that resulted in inconsistent data, and the agency cannot rely 
on these tests to issue a final rule.
    Furthermore, the agency drastically underestimates the 
potential benefits of a stronger rule, and the Insurance 
Institute for Highway Safety study shows that they are 
completely wrong on that count.
    The supplemental notice proposes several regulatory 
benefits that are not supported by benefit-cost analysis. 
Instead of giving the public an opportunity to comment on 
these, NHTSA asserts a ``just trust us'' rationale, without 
affording the public any chance to review, challenge, or 
comment on their assertions.
    In closing, Mr. Chairman, Advocates strongly supports an 
upgrade to the roof-crush standard that will save lives and 
provide strong occupant protection in rollover crash. However, 
this rule is too important, too many deaths have already 
occurred, and too many lives are at stake for the agency to 
rush ahead to issue a defective, deficient, and dangerous rule.
    Thank you very much.
    [The prepared statement of Ms. Gillan follows:]

      Prepared Statement of Jacqueline S. Gillan, Vice President, 
                 Advocates for Highway and Auto Safety
Introduction
    Good morning, Mr. Chairman and members of the Senate Consumer 
Affairs, Insurance, and Automotive Safety Subcommittee of the Committee 
on Commerce, Science, and Transportation. I am Jacqueline Gillan, vice-
president, of Advocates for Highway and Auto Safety (Advocates). 
Founded in 1989, Advocates is an alliance of consumer, health and 
safety organizations, and insurance companies and associations working 
together to make our roads and highways safer. Advocates encourages the 
adoption of Federal and state laws, policies, programs, and regulations 
that save lives and reduce injuries in motor vehicle crashes on our 
Nation's highways.
    Our organization has worked closely with the members and staff of 
the full Committee and has been integrally involved in generating many 
of the motor vehicle-related safety provisions contained in Section 
10301 of SAFETEA-LU, the Safe, Accountable, Flexible, Efficient 
Transportation Equity Act: A Legacy for Users, Pub. L. 109-59 (Aug. 10, 
2005). The vehicle safety-related rules required in title X, subtitle C 
of SAFETEA-LU were developed and adopted by this Committee in a 
bipartisan effort to improve public safety on our highways. Congress 
showed great vision in that legislation by crafting a comprehensive 
approach to rollover crashes that addresses both vehicle crash 
avoidance and crashworthiness, and requires both an upgraded roof 
strength regulation and a standard to reduce occupant ejections. 
Collapsing roofs and occupants thrown from their vehicles are the two 
leading reasons why rollover crashes are so deadly. The Congressional 
plan in SAFETEA-LU to address all major, interrelated aspects of 
rollover crash losses in a comprehensive and coordinated way ultimately 
could save thousands of lives and prevent tens of thousands of injuries 
annually if implemented in the manner Congress intended.
    Unfortunately, I am here to inform you that despite clear, explicit 
Congressional direction to mitigate the problem of rollover crash 
deaths, the National Highway Traffic Safety Administration (NHTSA), the 
agency within the U.S. Department of Transportation that is charged 
with implementing the SAFETEA-LU provisions, has not seized this 
opportunity to strengthen its standards related to rollover protection 
by proposing optimally effective occupant protection countermeasures. 
Despite legislative instruction to address the necessary safety 
measures in a coordinated manner to prevent deaths and severe injuries 
in rollover crashes, the sad truth is that NHTSA is taking an 
inadequate and piecemeal approach to rollover safety. The agency has 
divided the rollover crash event into isolated, disconnected safety 
problems and devised improvements intended to achieve only marginal 
gains in safety.
    To date, NHTSA has not followed the strong bipartisan leadership of 
Congress that directed vigorous agency responses to chronic vehicle 
safety problems. Instead, the agency has fashioned weak and incomplete 
regulatory responses to SAFETEA-LU rulemaking initiatives. In taking 
this understated approach to major safety issues affecting the lives of 
millions of vehicle occupants, NHTSA has failed to provide the 
necessary safety protection for current and future generations of 
drivers and passengers. This is true not only in its the proposed roof 
strength rule, the subject of today's hearing, but also in its earlier 
efforts to reduce side impact losses, a rule that is still pending, as 
well as in its research approach to ejection prevention, and even in 
the final rule on electronic stability control systems, which was 
published in 2007. In each case, the agency has so far done 
considerably less than it could have to advance safety and occupant 
protection. As discussed later in this statement, in each of these 
regulatory areas NHTSA has opted for marginal improvements in safety 
technology and benefits rather than adopt existing, state-of-the-art 
safety performance, test procedures, and technologies that would secure 
significantly greater safety benefits. As a result, SAFETEA-LU 
rulemakings will not achieve the potential level of safety envisioned 
by Congress.
    NHTSA has not heeded Congress on roof strength. The agency has 
proposed a weak rule to improve roof strength that cannot achieve the 
legislative goal of ensuring enhanced, equal protection of front seat 
occupants, both the driver and passenger. I am here today to urge 
Congress to make it clear to NHTSA that the current rulemaking proposal 
is unacceptable and that the agency needs to dramatically rethink and 
revise its proposal in order to fulfill its statutory obligations and 
protect the American public.
Rollover Crash Background
    There is perhaps no more terrifying or lethal motor vehicle crash 
than a rollover. When a rollover crash occurs, a car, pickup truck, or 
sport utility vehicle (SUV) is out of control in the fullest sense. A 
driver has no power to stop this catastrophic event. The tires are no 
longer gripping the road and evasive maneuvers using steering and 
braking are no longer possible. In a rollover crash the driver and 
other vehicle occupants are at the mercy of the laws of physics and are 
protected by only the effectiveness of safety systems that have been 
designed into their vehicle.
    The outcome of rollover crashes is absolutely horrific. According 
to a NHTSA status report on rollover occupant protection research, 
rollovers are only 2 percent of all annual motor vehicle crashes, but 
resulted in 10,698 deaths in rollover crashes in 2006. 2006 Annual 
Assessment of Motor Vehicle Crashes, NHTSA, Sept. 2007, updated January 
2008, at 95. A total of 32,092 vehicle occupant deaths occurred that 
year in motor vehicle crashes, so rollover crashes alone account for 
more than one-third of annual occupant fatalities. Traffic Safety Facts 
2006, NHTSA, National Statistics Summary, at 1.
    These figures are staggering and completely unacceptable. Yet, 
NHTSA, the agency entrusted with protecting people in their passenger 
vehicles, has been reluctant to take any action on its own initiative 
to reduce the tens of thousands of deaths in rollover crashes that 
occur year, after year, after year. Although the agency has received 
petitions for a rollover stability standard since the 1980s, NHTSA did 
not see fit to establish such a standard. In 1991, Congress required 
the agency to consider the issue and the agency opened rulemaking in 
1992 (57 FR 242, Jan. 1, 1992), but terminated that effort in 1994 (59 
FR 33254, June 28, 1994).
    Despite the involvement of roof crush in many rollover crashes, 
NHTSA took no action through the remainder of the 1990s to address the 
issue with a proposed rule strengthening the standard, even after its 
acknowledgement of the extent and severity of losses from rollovers. At 
the same time, with increased sales of narrow wheelbase, high center of 
gravity Light Trucks and Vans (LTVs), including pickup trucks and SUVs, 
the number of rollover crash deaths in these types of vehicles rose 
dramatically.
    More than 120,662 people have died in rollover crashes and over 2.9 
million have been injured since NHTSA terminated its rulemaking action 
in 1994. NHTSA Data Run, 1994-2006, prepared for Advocates for Highway 
and Auto Safety, National Center for Statistics and Analysis, NHTSA, 
May 27-28, 2008.
    In short, NHTSA has not been diligent in responding to the enormous 
threat posed by rollover crashes. Although electronic stability control 
systems showed great promise in preventing rollovers, NHTSA took no 
action to require that technology until directed to do so by Congress 
in SAFETEA-LU. And, again, with respect to roof strength, even though 
roof crush is a major factor in rollover crashes, it was not until the 
enactment of SAFETEA-LU that the agency published its weak proposed 
rule.
1971 Roof Strength Standard
    The current roof strength standard, Federal Motor Vehicle Safety 
Standard (FMVSS) No. 216, Roof Crush Resistance, was originally adopted 
in 1971 (effective Sept. 1, 1973), and after 37 years, it remains the 
only standard that addresses vehicle crashworthiness in a rollover. 
This outdated standard still relies on 1960s thinking to provide 
protection to occupants in 21st century vehicles. The standard is 
extraordinarily weak, requiring that a plate press on one front corner 
of the roof at only 1.5 times the weight of the vehicle--the gross 
vehicle weight rating (GVWR)--but only up to 5,000 pounds for passenger 
cars. 23 CFR  571.216S4(a).
    The standard is even weaker for LTVs. In the early 1990s, NHTSA 
extended the test still using only 1.5 times the vehicle weight, to 
these other types of passenger vehicles--but only up to 6,000 pounds 
GVWR. 55 FR 15510 (Apr. 17, 1991). Incredibly, the agency excused all 
LTVs over 6,000 pounds from even being tested. As a result, there is no 
standard for roof strength for large SUVs, big pickup trucks, and large 
passenger vans. Id.,  571.216S4(b).
    Many researchers have documented the major role that roof crush 
plays in rollover crash deaths and injuries, and that a stronger 
standard could prevent many deaths and serious injuries. Despite this 
research, the standard has remained essentially unchanged despite the 
thousands of annual deaths and injuries from rollover crashes. Against 
this backdrop NHTSA has proposed an upgrade to the roof strength 
standard that, by the agency's own reckoning, will save very few lives 
in rollover crashes.
The 2005 Proposed Rule is Badly Flawed
    The 2005 NHTSA notice of proposed rulemaking (NPRM) on roof 
strength, 70 FR 49223 (Aug. 23, 2005), is badly flawed in several 
fundamental ways. First, the 2005 NPRM retains the static plate 
(platen) test developed four decades ago and fails to require a 
dynamic, real-world rollover crash test that adequately models what 
actually happens to passenger vehicles and their roofs in rollover 
crashes. Second, the proposal only requires vehicles be tested at 2.5 
times the weight of the vehicle which is a 2.5 strength-to-weight ratio 
(SWR). This represents only a marginal increase in roof strength, a 
level already met by two-thirds of the current makes and models in 
production today.
    In addition, the proposed rule actually weakened the existing 
standard by removing any limit on the amount of permitted intrusion of 
the roof into the occupant compartment. Instead, the agency substituted 
a strict ``no head contact'' criterion with the top of the head of a 
50th percentile male test dummy. Id. at 49232. If there is any amount 
of space, no matter how small, between the roof and the head of the 
test dummy, the vehicle passes; any roof contact with the dummy's head 
and the vehicle fails. Taking this course of action would allow 
vehicles that already have very low roofs close to the heads of drivers 
and passengers to continue to be manufactured and sold as long as the 
roof did not actually touch the head of the dummy during the static 
test.
    This means, however, that occupants taller than the 50th percentile 
male test dummy are provided no assurance of any head protection from a 
collapsing roof in a rollover crash. Indeed, NHTSA's minimalist 
contact/no contact criterion guarantees that taller people, including 
as much as half of all male drivers, will be at greater risk of being 
struck by a collapsing vehicle roof in a rollover crash.
The 2008 Supplemental Proposed Rule (SNPRM) is Defective
    NHTSA published a supplemental notice of proposed rulemaking 
(SNPRM), 73 FR 5484 (Jan. 30, 2008), in part to address the issue of 
affording protection on both the driver's and passenger's sides of the 
vehicle in response to Section 10301 of SAFETEA-LU. The SNPRM supplied 
additional test results and summarily mentioned alternative regulatory 
options. Yet, the SNPRM builds on the weak foundation laid in the prior 
2005 NPRM, since it augments and encompasses but does not replace the 
prior proposal. Thus, references in this statement to the SNPRM include 
both the prior 2005 NPRM as well as the 2008 SNPRM.
    The SNPRM is both substantively unacceptable and legally 
inadequate. The fundamental flaws in the agency's approach include: the 
failure to consider a dynamic test in place of the old, 1971-era static 
test; the inadequacy of the agency's testing procedure for each side of 
passenger vehicle roofs; the gross underestimation of safety benefits 
from a stringent roof strength standard; and the failure to provide 
benefit/cost analyses for suggested alternative roof strength options, 
including the lack of a benefits assessment for specific alternative 
regulatory proposals included in the agency rule. These problems 
fatally undermine the SNPRM, and as a result require the agency to 
rethink and revise its approach to roof strength, including 
documentation of specific proposed regulatory alternatives, and 
issuance of a new proposal before a final rule is adopted. NHTSA cannot 
move forward to a final rule on the basis of the SNPRM. My statement 
addresses each of these problems in turn.
No Consideration of a Dynamic Test
    It appears that NHTSA refused to credit new developments on 
potential dynamic tests and to explore them carefully as Congress urged 
the agency to do in Section 10301 of SAFETEA-LU: ``The Secretary may 
consider industry and independent dynamic tests that realistically 
duplicate the actual forces transmitted during a rollover crash.'' 
These are not idle words--Congress expected that NHTSA would examine 
and review a new generation of dynamic roof strength tests now in use 
by manufacturers and independent researchers. However, the agency has 
not indicated in the SNPRM that it actually acquired or conducted 
comparison tests on any of the dynamic test systems in use today.
    Advocates supports the use of a dynamic test that shows the real-
world behavior of passenger vehicle roofs crashing into the ground, and 
how occupants respond to those terrific forces, including the 
performance of active and passive restraint systems, seating systems, 
door locks and latches, and vehicle windows (glazing). Real-world, 
dynamic testing is the best means of modeling what occurs in actual 
rollovers and determining what safety countermeasures should be 
proposed.
    NHTSA's proposal to press down only on the front corner of a 
vehicle roof with a plate at an undemanding force level does not 
reproduce real-world crash forces. This compliance test can show 
nothing about occupant kinematics, that is, how people in actual 
rollover crashes respond to rollover forces and are injured, or how the 
multiple in-vehicle safety systems contribute to protecting occupants 
from death and severe injury. Instead, the agency has proposed an 
inadequate approach to improving resistance of passenger vehicle roofs 
to deformation and intrusion that can result in severe or lethal head 
and neck trauma.
    Before NHTSA issues a final rule it must test and evaluate the 
current technologies used for dynamic rollover testing to determine 
roof strength performance. This should include actual testing of the 
Jordan Rollover System (JRS), the Controlled Rollover Impact System 
(CRIS), used for in-house testing by a least one manufacturer, and 
other similar test devices. Until the agency conducts its own tests and 
acquires first-hand experience with these dynamic test devices, it has 
not fulfilled its obligation under SAFETEA-LU and to the public.
    Since NHTSA continues to rely on the static test as the basis for 
rulemaking, Advocates has analyzed the substantive and procedural 
problems we have found in the SNPRM. Advocates' comments filed with the 
agency SNPRM rulemaking docket analyzed these problems in detail and 
those comments are submitted for the hearing record. This statement 
addresses the major problems we found.
NHTSA's Testing Procedure is Inadequate
    In the SNPRM, NHTSA provides new static roof test results that 
reveal a fundamental flaw in the agency's testing methodology. In 
conducting testing on both the driver and passenger sides of existing 
vehicle makes and models, NHTSA has undermined its ability to use the 
results of its new round of tests by adopting a flawed testing 
protocol. This is not just a minor matter of technical procedure but a 
basic mistake in gathering scientific databased on sound testing 
methodologies. In conducting tests on each side of vehicle roofs, the 
agency failed to heed its own proposed standard of a 2.5 times vehicle 
strength-to-weight ratio (SWR) when conducting the tests on the first 
side of the roof. Instead of conducting a first-side test to a specific 
minimum strength level in accordance with its own proposed test regime 
to lay the foundation for testing the second side of the roof, NHTSA 
simply continued applying pressure to the plate on the first side of 
the roof regardless of the strength level achieved. The agency stopped 
the test only when the roof touched the head of the test dummy, or the 
windshield cracked, or 5 inches of crush had been attained. In doing 
so, NHTSA made it impossible to use the test of the first side of the 
roof to obtain consistent results regarding how the second side would 
perform when crushed with the plate. Not surprisingly, the actual 
second side test results were inconsistent and varied widely. Some 
vehicles had stronger roofs, that is, resisted crush better when the 
second side was tested, while others were weaker, sometimes 
substantially weaker, when the plate was pressed on the other corner of 
the roof.
    Since NHTSA appears committed to the static force platen test, it 
is essential that any first-side test must be properly conducted to 
demonstrate how a roof will perform when a subsequent crushing force is 
applied to the second side of the roof. By allowing any amount of force 
application to be used and plate intrusion limited by either a maximum 
of 5 inches, or windshield cracking, or dummy head contact, the agency 
rendered its tests worthless for determining how first-side roof crush 
affected second-side crush. The crux of the matter is whether both 
sides of a vehicle roof meet a standard using a demanding force 
application level, such as 3.5 or 4.0 times the vehicle weight, 
controlled by limits on maximum intrusion and minimum residual 
headroom. NHTSA must redo properly the first test to determine how well 
the first-side crush response predicts the response of the second side. 
So far, the agency has no basis from the data generated for 
consideration in the SNPRM to adopt a standard that ensures that both 
the driver and the passenger have a high level of protection from roof 
crush and intrusion. NHTSA has to conduct these tests at different 
strength-to-weight ratios based on the SNPRM, from an SWR of 2.5 up to 
4.0 and offer a specific choice based on a realistic assessment of 
benefits and costs. Until the agency performs these new tests and 
offers documentation to support one or more specific regulatory 
alternatives for notice and comment, it cannot move forward to a final 
rule.
No Requirement for Survival Headroom
    Another essential safety aspect that is lacking in the proposed 
rule is a requirement for minimum residual headroom--to ensure that in 
real-world rollovers there is survival space maintained over the heads 
of occupants after the dynamic response of the roof to rollover forces. 
One of the cardinal rules of safety design in recent years has been the 
importance of maintaining the integrity of the passenger compartment in 
a crash. This philosophy has been used to improve crash survivability 
in frontal and side impacts and should be applied to protect against 
roof crush and intrusion.
    Research analysis shows that even though the roof actually comes 
down onto the heads of occupants in a simulated rollover crash, the 
vehicle roof can, nevertheless, show some post-crash space over the 
head of occupants. Passenger vehicle roofs flex and recoil in real-
world rollovers. A dynamic test could show what actually happens in the 
interaction between a deformed roof and the vehicle occupants during a 
rollover crash. To account for this movement of the roof, a static roof 
strength test must require residual headroom to assure an adequate 
level of occupant safety when the roof deforms in a rollover. A 
residual survival space or headroom requirement is only a surrogate for 
the safety margin that could be provided through a dynamic test, but 
far better than the minimal ``no contact'' criterion proposed in the 
SNPRM. The no-contact/contact, pass/fail criterion is an inherently 
defective approach to approximating what is needed to protect occupants 
in actual rollover crashes, and it cannot ensure that the roof will not 
actually injure occupants in real-world rollover crashes. A given 
vehicle can pass both the strength and no-contact criteria of the 
supplementary proposed rule, yet that same roof can still injure or 
kill occupants. Thus, a regulation based on a static test should 
include a minimum headroom requirement to ensure occupant survival 
space.
Reliance on Windshield and Windows to Improve Static Test Results
    Another aspect of the proposed standard that is objectionable is 
the fact that the static test is conducted with the vehicle windshield 
in place and the vehicle side windows rolled up. In many rollover 
crashes, the windshield frequently pops out of its frame when force is 
applied to the front of the roof in a rollover. In addition, window 
glazing made of tempered glass shatters during the initial contact in a 
crash if it is not retracted. Nevertheless, the proposed roof strength 
rule continues to rely on an artificial test protocol that involves 
testing the roof with the windshield in place and all side windows in a 
closed position. Testing a vehicle roof with the added strength of the 
window glazing in place provides an artificial result and a false sense 
of security. Passing the static strength test conducted in this manner 
provides no assurance that the same vehicle will not suffer glazing 
failure roof deformation and intrusion in a real-world rollover crash.
The SNPRM Implies a Severe Underestimation of Safety Benefits
    NHTSA has revised downward its estimate in the SNPRM of the 
population that would benefit from stronger roofs from the number 
presented in the 2005 NPRM on the basis of yet-unrealized claims about 
the influence of electronic stability control systems on rollover crash 
occurrence. After NHTSA successively whittles down the number of lives 
that are relevant to a stronger roof crush resistance standard through 
one rationalization after another, the agency concludes that stronger 
roofs would affect the lives of only 476 people. 73 FR 5485. This is 
not the number of lives saved, but rather the target population within 
which the agency believes that benefits of saving lives can occur with 
a stronger roof standard. In the 2005 proposed rule, NHTSA estimated 
that the target population was 595 fatally injured occupants who could 
be affected by a stronger standard. 70 FR 49229. But within that target 
population estimated for the 2005 proposed rule, the agency guessed 
that as few as only 13 or 44 lives would be saved annually from 
stronger roofs. Id. at 49242. As a result, the agency's unstated 
benefits estimate for a 2.5 SWR standard, given a smaller target 
population calculated for the SNPRM, would inevitably be even lower, in 
fact, lower almost to the vanishing point.
    An agency benefits assessment of a stronger roof crush resistance 
standard must also be forged in light of the important study performed 
by the Insurance Institute for Highway Safety (IIHS). IIHS's analysis, 
contained in its publication, Roof Strength and Injury Risk in Rollover 
Crashes (March 2008) (IIHS Roof Strength Study), demonstrates that 
real-world benefits can accrue to many occupants who are not part of 
the agency's benefits target population because other crashworthiness 
system features operate to save lives in tandem with much stronger 
roofs. IIHS Roof Strength Study at 13.
    IIHS found that increasing the SWR to about 3.16 would save 212 
lives in single-vehicle rollovers. Id. at 11. This figure of 3.16 SWR 
is as far as IIHS's data analysis would permit it to judge benefits in 
lives saved. However, the IIHS submitted comments to the SNPRM docket 
stating that a standard at 3.5 SWR could save even more lives. Even at 
just 3.16 SWR, IIHS estimates that the number of lives saved would be 
almost double the number for a standard indexed to 2.5 SWR. Advocates 
firmly believes that benefits would further increase at some unknown 
but nevertheless exponential rate if the agency raised the static test 
requirement to at least 4.0 SWR along with adopting all of Advocates' 
other suggested revisions, including the need for a maximum intrusion 
limit and a minimum survival-headroom limit, that we have shown to be 
necessary.
    It is also true that NHTSA acknowledges the limitations of its own 
benefits assessment. The agency has only 32 crash cases from which it 
has previously inferred benefits, as pointed out in the IIHS Roof 
Strength Study at 2. Such a small number of cases has several data 
shortcomings. The agency itself states that ``the characteristics of 
this limited sample may not accurately represent the full benefits from 
the proposed roof crush resistance upgrade.'' 70 FR 49242. The agency 
is correct. It should place no confidence in its meager estimate of 
lives saved from stronger roofs cited in the 2005 NPRM or the updated 
target population figure used in the 2008 SNPRM.
NHTSA Makes No Determination of Cost Estimates in the SNPRM
    Finally, with regard to cost estimates for more protective vehicle 
roofs, there is no definitive analysis accompanying the SNPRM. The 
agency cites high cost figures provided by industry sources, including 
claims that a standard based on a SWR of 3.5 would cost an additional 
$130 for a large SUV to comply with, could be even 50 percent higher 
(73 FR 5488), and might require an unbelievable additional 540 pounds 
of extra weight for an SUV that meets such a standard.
    On the other hand, NHTSA also refers to a ``tear-down'' study 
conducted by Ohio State University that examined the Volvo XC90 and the 
Ford Explorer SUVs. 73 FR 5489, Improving Roof Crush Performance of a 
Sport Utility Vehicle, Ohio State University (2007). The inexpensive 
but highly effective roof strengthening of the XC90 was applied to 
upgrade a Ford Explorer to the roof crush resistance of the Volvo. It 
was determined that achieving equivalent roof strength ``would increase 
material and tooling costs by $81 and weight by 15 kilograms (33 
pounds).'' Id. Another study conducted by the National Crash Analysis 
Center of The George Washington University, Cost, Weight, and Lead Time 
Analysis Roof Crush Upgrade, ``found that strengthening the 2003 Ford 
Explorer to 3.0 SWR would raise the vehicle's price by $33 to $35 and 
increase its weight by 5 to 10 kilograms (10 to 23 pounds).'' Id.
    The SNPRM provides no insight, however, regarding the agency's view 
of these varying costs. Since there is no adequate cost analysis 
presented for public review and comment, it was impossible for the 
public to provide the agency with informed comments on the potential 
costs and benefits of the different options that the agency indicated 
it was considering. NHTSA cannot proceed to a final rule without first 
presenting the public with an in-depth benefit/cost analysis of the 
different regulatory alternatives it is considering and stating which 
alternative it is proposing and supporting that choice.
The SNPRM is Procedurally Inadequate
    It is apparent that NHTSA has not laid the necessary foundation in 
the rulemaking record in order to issue a final rule. As already 
mentioned, even though NHTSA offers several new alternative SWRs as 
potential candidates for testing roof crush resistance, it provides no 
assessment of the costs and benefits of the potential alternatives that 
it states could be chosen for a final rule. The alternatives laid out 
in the SNPRM range from a choice of a 1-side test at 2.5 SWR up to a 2-
sides test at 3.5 SWR. Lacking credible test results and benefits 
analyses for selecting one alternative over another, NHTSA simply 
asserts a ``just trust us'' rationale. The SNPRM states that 
``regardless of which alternative is adopted in the final rule, the 
agency will ensure that the final rule is cost beneficial . . . .'' 73 
FR 5490.
    This pronouncement is breathtaking in the context of agency 
rulemaking where publication of a benefit/cost analysis prior to 
adoption of a final rule is a baseline requirement of established 
rulemaking procedure. NHTSA must provide supporting documentation from 
test data and a benefits-cost analysis tailored to justify the 
regulatory alternatives it is considering. The agency must allow the 
public an opportunity to review and comment on its detailed regulatory 
analyses before it determines which option to adopt. NHTSA cannot 
proceed from the preliminary assessment of new, potential regulatory 
alternatives mentioned in the SNPRM without a full, detailed rulemaking 
proposal of those regulatory alternatives.
NHTSA's Flawed Approach to SAFETEA-LU
    At the outset of this statement I mentioned the crucial topic of 
NHTSA's approach to the SAFETEA-LU passenger vehicle safety-related 
rulemakings. That approach is neither as forward-looking or 
comprehensive as Congress intended, nor is it justified under the 
circumstances.
    For example, NHTSA's use of the 37-year-old static test for 
improving roof strength will inhibit the development of other safety 
regulations. Choosing an anachronistic, static test for roof crush 
resistance denies the agency the advantages of determining the value of 
improving other key safety design and performance features of passenger 
vehicles in rollovers. The isolated approach of simply applying a plate 
pushed against a front corner of a vehicle roof immediately undermines 
a systems engineering approach to rollover safety. It eliminates the 
possibility of the agency studying the effects of a dynamic roof 
strength test on other vehicle safety systems including door latches, 
locks, and hinges to resist failure leading to occupant ejection. 
Because it is a static, not a dynamic test, it also forgoes showing 
occupant kinematics and injury responses in actual rollovers. It 
dispenses with any possibility of determining restraint system 
effectiveness in achieving occupant containment and reducing occupant 
excursion within the vehicle cabin when rollovers occur. After all, 
these systems operate dynamically and not in isolation from each other. 
Rather, they work synergistically and nearly simultaneously to reduce 
injury to occupants by preventing excessive excursion or by providing 
forgiving surfaces to cushion occupant impacts with injury-inflicting 
vehicle interior features. NHTSA has instead chosen a roof crush 
resistance test approach that cannot provide any information in these 
areas and therefore impedes the development of other safety standards.
    The SNPRM proposal continues the use of the static plate test 
stands in stark contrast to other major vehicle safety standards that 
have evolved from static or quasi-static to fully dynamic compliance 
tests, including different frontal crash tests and lower and upper 
interior side-impact crash tests. The need for full evaluation of 
rollover crashes under real-world test conditions was emphasized in 
comments filed by a group of international crash safety researchers, 
DVExperts International Pty. Ltd. (DVExperts). DVExperts stressed that 
``[e]ach of the other mandated crashworthiness standards rely on a 
systems approach to crashworthiness. A dynamic test [of roof strength] 
is necessary to evaluate the performance of the rollover protection 
system, which is made up of the restraints, airbags, glazing, and roof 
strength.'' DVExperts at 4.
    This crucial point about the negative influence of a static test 
for roof strength on other crashworthiness standards should not be 
taken lightly. A bare-bones static test can directly impact the quality 
of allied rulemaking actions that NHTSA must undertake to fulfill 
Section 10301 of SAFETEA-LU, including the actions the agency must take 
to prevent partial and complete occupant ejection. Partially ejected 
occupants, as well as occupants who are unbelted but remain within the 
occupant compartment, would certainly benefit from a stronger roof 
strength rule that is based on a realistic dynamic test. It is likely 
that non-ejected, unbelted occupants, for example, could suffer fewer 
severe and fatal head, face, and neck injuries by preserving more 
rollover survival space which, in turn, would reduce the chances of an 
occupant striking rigid roof structures such as headers, rails, and 
sunroof frames, as well hitting the roof proper apart from these 
framing structures.
    It is clear that a static test for determining roof strength in 
rollovers has far-reaching consequences for other crashworthiness 
safety countermeasures that Congress has charged NHTSA with improving 
and ensuring a high level of effectiveness. This raises the question of 
what shortcomings will be built into an agency proposed rule on 
ejection prevention. If the agency chooses a test using a surrogate 
measure for showing whether different features of vehicle interiors can 
prevent partial or complete occupant ejection, this again will not be a 
test of how people actually are ejected in different kinds of crashes, 
especially in rollover crashes.
    NHTSA's shortsighted approach to effective standards may have 
compromised the potential safety benefits of electronic stability 
control (ESC) systems technology adopted in a final rule in 2007. 72 FR 
17236 (April 6, 2007). ESC systems help prevent vehicle departure from 
their intended paths, and ultimately help to reduce rollover crashes 
due to loss of vehicle control. While requiring ESC on all new vehicles 
after September 1, 2011, the agency did not require that the most 
effective ESC systems be installed. The performance standard issued by 
the agency did not require ESC systems to include automatic braking, 
traction control, a performance criterion for vehicle understeer, or 
roll stability control for SUVs. The agency rule not only set the 
performance requirements below the current state-of-the-art level for 
ESC technology, it requires less sophisticated ESC systems than some 
manufacturers are already installing in production models. That ensured 
that less advanced ESC systems would remain in the marketplace for 
years to come. While the mandatory installation of ESC systems in all 
vehicles will save many lives, the adoption of a stronger, more 
sophisticated performance standard by NHTSA would have made the rule 
even more effective.
    Another example of NHTSA opting for halfway measures is the still 
pending rulemaking on improving side impact protection for occupants, 
69 FR 27990 (May 17, 2004), a rulemaking that Congress in SAFETEA-LU 
required NHTSA to complete by July 1, 2008. Although NHTSA took the 
right approach in the 2004 proposed rule to ensure full side impact 
protection for front seat occupants by essentially requiring upper and 
lower air bags, the agency failed to require the same demanding test 
for rear seat occupants that would lead to a similar use of side impact 
air bags. Advocates' comments to the rulemaking docket point out in 
detail how the agency has shortchanged providing equal protection for 
rear seat occupants, and we emphasized that the agency's proposed rule 
does not protect children under the age of 12 regardless of their 
seating position.
    Congress, in response to this unacceptable agency action to deny 
improved side impact protection to rear seat occupants, included 
language in SAFETEA-LU to correct this omission. The Senate 
specifically directed that the Secretary shall complete a rulemaking 
proceeding to establish a standard ``designed to enhance passenger 
motor vehicle occupant protection, in all seating positions, in side 
impact crashes.'' (Emphasis supplied.) The proposed rule issued in 2004 
will not adequately protect rear seat occupants, especially with regard 
to head and neck injuries; does not protect children; and does not 
sufficiently address the special, additional injury-prevention needs of 
older occupants in side impact crashes. It remains to be seen if NHTSA 
heeds explicit legislative instruction on providing enhanced side 
impact occupant protection in all seating positions.
Conclusion
    Advocates is compelled, in light of the problems with the pending 
rule, to recommend that NHTSA not issue a final rule upgrading Standard 
No. 216 by the statutory deadline of July 1, 2008. It is clear that the 
roof crush resistance supplementary proposed rule is incomplete, not 
properly documented, does not provide much greater safety for 
occupants, and is not ready to be issued as a final rule. Congress 
foresaw the possibility that the agency might require more time than 
allotted in SAFETEA-LU. As a result, Section 10301 grants the Secretary 
unilateral authority to delay a rule under the rollover protection 
provision that the Secretary determined could not be issued on time. In 
this instance, the Secretary should make such a determination and set a 
new, later date for issuing a final rule. Although Advocates has fought 
for many years to get this standard substantially upgraded, we would 
rather have NHTSA get it right than issue a weak and ineffectual rule 
that will surely remain in place unchanged for decades to come.
    Recently, the White House Chief of Staff, Joshua Bolton, issued a 
memorandum to the heads of all departments and agencies regarding the 
issuance of regulations in the final year of the administration. 
Memorandum: Issuance of Agency Regulations at the End of the 
Administration (May 9, 2008). He emphasized that regulatory agencies 
have a responsibility to continue to ensure that regulations issued 
during the final year are ``in the best interests of the American 
people.'' Bolton Memorandum at 1.
    Mr. Chairman, I can state without hesitation that it would not be 
in the best interests of the American people for NHTSA to issue the 
roof strength rule in its present guise. The Bolton Memorandum went on 
to state that agencies should provide an appropriately open and 
transparent process including ``robust public comment, and a careful 
evaluation of and response to those comments.'' Bolton Memorandum at 2. 
The roof strength rule lacks the necessary test results and benefit/
cost analysis that must be presented to the public before the agency 
can issue a final rule. This rule is too important, too many deaths 
have already occurred, and too many lives are at stake for the agency 
to rush to issue a defective, deficient and dangerous rule.
    That concludes my testimony, and I would be pleased to answer any 
questions that you may have.
                                 ______
                                 

 1971 Roof Crush Standard--37-year Old Antiquated Standard Has Not Kept
            Pace With Changes in Technology or Vehicle Fleet Dec. 8, 1971       National Highway Traffic Safety Administration
                    (NHTSA) issues final rule establishing roof crush
                    standard to take effect in 1973.
Mar. 22, 1973      Center for Auto Safety petitions NHTSA to apply
                    Federal motor vehicle safety standards, including
                    roof crush standard, to light trucks and
                    multipurpose passenger vehicles with gross vehicle
                    weight rating (GVWR) of 10,000 pounds or less.
Sept. 1, 1973      Roof Crush Resistance standard, FMVSS No. 216, takes
                    effect for passenger cars.
Apr. 17, 1991      NHTSA issues final rule, effective Sept. 1, 1993,
                    extending application of roof crush resistance
                    standard amended to light trucks, vans, buses, and
                    multipurpose passenger vehicles (MPVs) with GVWR of
                    6,000 pounds or less, specifically declining to
                    extend the standard to light trucks, vans, buses and
                    MPVs with a GVWR of up to 10,000 pounds.
Dec. 18, 1991      Intermodal Surface Transportation Efficiency Act
                    (ISTEA) requires application of passenger car safety
                    standards to light trucks, vans, buses, and MPVs
                    with GVWR of 6,000 pounds or less, and ISTEA also
                    directs NHTSA to commence rulemaking proceeding on a
                    standard to prevent rollover crashes.
Jan. 3, 1992       NHTSA issues advanced notice of proposed rulemaking
                    to establish a rollover prevention standard.
Sept 23, 1992      NHTSA releases Planning Document for Rollover
                    Prevention and Injury Mitigation listing alternative
                    actions agency could take to address rollover
                    problem, including research into improved roof crush
                    resistance to prevent head and spinal injury.
Jan. 22, 1993      NHTSA delays by 1 year, until Sept. 1, 1994,
                    effective date for application of roof crush
                    standard to light trucks, vans, buses, and multi-
                    purpose passenger vehicles with gross vehicle weight
                    rating of 6,000 pounds or less.
June 23, 1994      NHTSA terminates rulemaking on rollover stability
                    standard, Secretary of Transportation instead
                    announces that agency will address factors involved
                    in preventing rollover casualties including roof
                    strength requirements.
May 6, 1996        Petition for rulemaking including a request that the
                    agency require ``roll cages'' as standard equipment
                    on passenger cars filed with NHTSA.
Jan. 8, 1997       NHTSA grants petition requesting rulemaking to
                    require ``roll cages.''
Apr. 27, 1999      Roof crush standard procedure for placement of test
                    device modified to accommodate vehicles with raised
                    and highly sloped roofs, change in standard did not
                    address underlying roof crush testing and strength
                    requirements.
Sept. 2000         In wake of Firestone tire/Ford Explorer rollover
                    fatalities, NHTSA Administrator states that agency
                    needs to improve roof crush safety standard.
Oct. 22, 2001      NHTSA publishes notice and request for comments on
                    roof crush resistance, describing agency roof crush
                    research and testing as part of rollover program
                    over past 30 years.
Sept. 17, 2002     NHTSA Administrator states that roof crush intrusion
                    potentially contributes to serious or fatal injury
                    in 26 percent of rollover crashes.
July 15, 2003      National Transportation Safety Board (NTSB) concludes
                    roof crush contributed to severity of driver
                    injuries and diminished passenger survivable space
                    in Henrietta, Texas crash of 15-passenger van.
July 2003          NHTSA estimates that 1,339 serious or fatal injuries
                    caused by roof crush intrusion are suffered by
                    belted occupants each year. NHTSA lists proposed
                    rule to upgrade roof crush resistance as possible
                    2004 action, and final rule as possible 2005 action,
                    in Vehicle Safety Rulemaking Priorities and
                    Supporting Research 2003-2006. However, no proposed
                    rule is issued by the close of 2004.
Aug. 10, 2005      SAFETEA-LU legislation enacted, requires that NHTSA
                    issue a proposed rule by December 31, 2005, to
                    establish performance criteria to upgrade vehicle
                    roof strength for driver and passenger sides, and
                    may consider dynamic tests that realistically
                    duplicate actual forces transmitted during a
                    rollover crash, and issue a final rule by July 1,
                    2008.
Aug. 23, 2005      NHTSA issues decidedly weak upgrade of roof crush
                    resistance standard that will not substantially
                    improve roof strength in most vehicles, eliminates
                    minimum headroom clearance requirement following
                    testing and fails to require testing on both driver
                    and passenger sides as provided in SAFETEA-LU. NHTSA
                    proposed only a marginal increase in vehicle roof
                    strength quasi-static piston test that even the
                    agency estimates would save only either 13 or 44
                    lives. Most production vehicles already meet the
                    proposed test criteria, and the proposal does not
                    meet the 2-sided test requirements in SAFETEA-LU.
Nov. 2005          Advocates for Highway and Auto Safety, Public
                    Citizen, Insurance Institute for Highway Safety and
                    numerous other organizations file comments critical
                    of NHTSA's proposed rule.
Jan. 30, 2008      NHTSA issues supplemental notice of proposed
                    rulemaking (SNPRM). The initial agency proposed rule
                    did not address the need for improving roof strength
                    on both sides of the vehicle. The SNPRM discusses
                    varying options regarding degree of strength-to-
                    weight (SWR) ratio that could be required but
                    presents no specific revised proposal and provides
                    no economic or safety analysis of any of the options
                    raised in the SNPRM.
Mar. 27, 2008      Advocates for Highway and Auto Safety, Public
                    Citizen, Insurance Institute for Highway Safety and
                    numerous other organizations file comments regarding
                    SNPRM. Advocates points out both safety and
                    procedural problems exist. IIHS study of vehicle
                    roof strength finds roof strength has strong effect
                    on occupant injury risk, refuting prior industry
                    studies.
June 4, 2008       Senate Commerce, Science and Transportation
                    Subcommittee on Consumer Affairs, Insurance, and
                    Automotive Safety holds hearing on NHTSA's proposed
                    upgrade of roof strength rule.
                                 ______
                                 
                      Advocates for Highway and Auto Safety
                                     Washington, DC, March 27, 2008
Docket No. NHTSA-2008-0015
National Highway Traffic Safety Administration
U.S. Department of Transportation
     Federal Motor Vehicle Safety Standards--Roof Crush Resistance 
 Supplemental Notice of Proposed Rulemaking, 73 FR 5484 (Jan. 30, 2008)
I. Introduction
    The National Highway Traffic Safety Administration (NHTSA) has 
published a supplemental notice of proposed rulemaking (SNPRM) 
proposing a revised roof crush resistance standard (Federal Motor 
Vehicle Safety Standard No. 216). 73 FR 5484 (Jan. 30, 2008); 49 CFR  
571. On August 23, 2005, NHTSA published a notice of proposed 
rulemaking (NPRM) while Congress was considering a mandate to the 
agency to upgrade the roof crush resistance standard. 70 FR 49223 (Aug. 
23, 2005). Section 10301(a) of the Safe, Accountable, Flexible, 
Efficient Transportation Equity Act: A Legacy for Users (SAFETEA-LU) 
(Pub. L. 109-59, Aug. 10, 2005) directed the Secretary to initiate a 
rulemaking proceeding ``to establish performance criteria to upgrade 
Federal Motor Vehicle Safety Standard No. 216 relating to roof strength 
for driver and passenger sides[]'' and to ``issue a . . . final rule by 
July 1, 2008.'' \1\ Codified at 49 U.S.C.  30128(d).
---------------------------------------------------------------------------
    \1\ The preamble of the supplemental proposed rule does not cite 
this specific statutory mandate and only alludes to it in relation to 
the abbreviated public comment period that the agency claims was 
selected, in part, due to ``the need to comply with a statutory 
deadline.'' 73 FR 5486.
---------------------------------------------------------------------------
    The SNPRM, a quasi-static test of roof crush resistance, is 
essentially identical to the compliance protocol currently required in 
Standard No. 216 except for the current regulatory requirement of an 
intrusion limit and the substitution of a no head contract pass/fail 
criterion. Windshield glazing, as well as closing moveable glazing and 
locking doors, are required in conducting the roof crush resistance 
test. The SNPRM also adds a requirement to secure moveable and 
immoveable roof structures and to remove all ``nonstructural 
components,'' such as roof racks. 73 FR 5484, 5492-5493. In contrast to 
the 2005 NPRM for amending Standard No. 216 that proposed a test of 
only one side of a passenger vehicle roof at 2.5 times unladen vehicle 
weight, 70 FR 49223, the supplemental proposal offers the potential 
adoption of a 2.5 times (2.5<greek-e>), 3.0<greek-e>, or 3.5<greek-e> 
unladen vehicle weight platen force application near the front corners 
of the roofs of passenger vehicles less than 10,000 pounds gross 
vehicle weight rating (GVWR).\2\ The agency is also considering whether 
an amended Standard No. 216 would require only a test of one side of a 
passenger vehicle roof (1-side test) or of both sides (2-sides test). 
The platen application would measure only peak forces, no intrusion 
limit would be specified in the amended standard, and a successful 
compliance test would hinge only on intrusion at the required platen 
force application without any roof component or portion of the platen 
contacting the head of a 50th percentile male anthropomorphic test 
device (ATD, test dummy). 73 FR 5491-5493.\3\
---------------------------------------------------------------------------
    \2\ For all practical purposes, multiples of unladen vehicle weight 
and values for strength to weight ratio (SWR) are used interchangeably 
by NHTSA and in these comments, although technically the two metrics 
are not identical.
    \3\ Although the proposed text of the amended regulation contains 
alternatives for a 1-side or a 2-sides test, it still specifies a 
maximum force application of only 2.5 times unladen vehicle weight. 
Agency consideration of a 3.0X or 3.5X test is discussed only in the 
preamble of the SNPRM. 73 FR 5490.
---------------------------------------------------------------------------
II. The Supplemental Proposed Rule Will Not Adequately Protect 
        Occupants in Rollover Crashes
    The proposed rule crush resistance rule as presented is seriously 
inadequate in several ways.

  <bullet> The proposed compliance procedure is only a component test 
        and cannot demonstrate actual roof crush resistance in rollover 
        crashes.\4\ Compliance with NHTSA's regulation as proposed 
        would have no predictive value for determining what the actual 
        impact response of a given passenger vehicle roof will be in 
        rollover crashes of 2 quarter-turns or more.
---------------------------------------------------------------------------
    \4\ See, comments of DVExperts International Pty. Ltd., March 4, 
2008 (DVExperts), NHTSA-2008-0015-0010.1, at 4.

  <bullet> The agency has not shown the relationship between the quasi-
        static test metric at the 3 different proposed application 
        forces (2.5<greek-e>, 3.0<greek-e>, 3.5<greek-e>) to 
---------------------------------------------------------------------------
        differences in real-world rollover occupant injury response.

  <bullet> The proposed quasi-static test cannot show roof dynamic 
        flexion or recoil and cannot show occupant excursion even when 
        front seat occupants are belted. Both of these rollover 
        dynamics can substantially reduce survival space and result in 
        head and face roof impacts despite a given vehicle 
        demonstrating Standard No. 216 compliance.

  <bullet> The SNPRM quasi-static platen application procedure is not a 
        real-world test because it directs manufacturers to close all 
        moveable glazing, secure moveable or unmovable roof structures, 
        and remove roof racks before testing for compliance. These 
        actions increase the probability of compliance even though new 
        vehicles will often be factory-equipped with roof racks, other 
        roof structures, and will be operated with opened moveable 
        glazing. 73 FR 5492.

  <bullet> A roof meeting the most stringent regulatory alternative 
        proposed in the SNPRM does not ensure that a belted occupant 
        will avoid serious head-face-neck injury. In fact, this is 
        implied by the agency's own 2005 benefits analysis based solely 
        on a 2.5<greek-e>, 1-side test: the lives saved--13 or 44, 70 
        FR 49225--were only a small fraction of the population defined 
        (596) \5\ as even susceptible of benefiting from the proposed 
        rule.\6\
---------------------------------------------------------------------------
    \5\ FMCSS 216, Upgrade Roof Crush Resistance, Preliminary 
Regulatory Impact Analysis, National Highway Traffic Safety 
Administration, August 2005 (2005 PRIA), at IV-7.
    \6\ The target population in the SNPRM has been further reduced to 
476 belted, non-ejected occupants.

  <bullet> The upright, safety belt-retrained ATD--the Hybrid (H)III 
        50th percentile male test dummy--has no dynamic function or 
        injury measurement for the proposed compliance test. Its use 
        cannot show the dynamic response of safety belts to 
        translational forces and occupant inversion that can result in 
        occupant contact with an intruding roof even if the vehicle 
        passes the quasi-static platen test using the dummy head 
        contact/no-contact compliance test criterion.\7\
---------------------------------------------------------------------------
    \7\ See, M. Bidez, et al., ``Occupant Dynamics in Rollover Crashes: 
Influence of Roof Deformation and Seat Belt Performance on Probable 
Spinal Column Injury,'' Annals of Biomedical Engineering, 35:11 (Nov. 
2007), 1973-1988.

  <bullet> Use of only a 50th percentile male ATD for the compliance 
        test immediately denies equal safety protection to taller 
---------------------------------------------------------------------------
        occupants.

  <bullet> The proposed quasi-static compliance test disregards 
        dramatic differences in occupant injury response and morbidity 
        related to occupant age, and ignores the fact that older 
        occupants are much more prone to death and injury in rollover 
        crashes than younger occupants.

  <bullet> The SNPRM offers several regulatory alternatives without 
        support from a cost-benefit analysis projecting lives saved and 
        injuries averted or reduced in severity for each regulatory 
        combination of SWR with a 1-side or 2-sides test. The failure 
        to supply a cost-benefit analysis for each regulatory 
        alternative denies the public an opportunity to evaluate the 
        agency's comparative estimates of costs and benefits before 
        submitting comments supporting one or more of the regulatory 
        alternatives of the SNPRM.
III. The Proposed Quasi-Static Platen Test of Roof Crush Resistance Is 
        Weak
    The SNPRM relies on the belief that roofs designed to meet a higher 
strength requirement in a quasi-static test of applied plate force are 
more resistant to crush and intrusion and will maintain sufficient 
occupant headroom and survival space during real-world rollovers. But 
no correlation of the proposed 2.5<greek-e> SWR metric based solely on 
no head contact without an intrusion limit has been made with actual 
occupant fatality and injury data of passenger vehicles in rollover 
crashes.\8\ NHTSA's proposed surrogate measure of adequate roof 
strength--contact or no contact with the head of a 50th percentile test 
dummy--proves nothing about how any vehicle complying with the proposed 
quasi-static platen test will actually resist roof deformation and 
intrusion during rollover crashes and cannot predict occupant injuries 
in rollover crashes.
---------------------------------------------------------------------------
    \8\ ``The energy absorbed by the roof may be more relevant to 
injury risk than the peak force it can withstand, or the roof's 
performance over a plate displacement other than 5 inches would better 
predict injury risk. M. Brumbelow, et al., Roof Strength and Injury 
Risk in Rollover Crashes, Insurance Institute for Highway Safety, March 
2008 (IIHS Roof Strength Study), at 5.
---------------------------------------------------------------------------
    NHTSA has not shown in the SNPRM that passenger vehicle roofs that 
resist intrusion at greater, specific SWR force applications in such a 
quasi-static test also result in fewer occupant severe injuries or 
deaths. One major deficiency in the recent roof intrusion study 
published by NHTSA \9\ is the fact that intrusion cannot be correlated 
with specific injury predictions even for the very conservative 
benefits target population except at a gross level of analysis. The 
2007 NHTA Vertical Roof Intrusion Study only shows that ``coefficient 
estimates for intrusion were negative indicating that an increase in 
intrusion tended to be associated with an increase in the level of 
injury severity; the coefficient estimates for post-crash headroom were 
positive, indicating that an increase in headroom tended to be 
associated with a decrease in the level of injury severity.'' \10\
---------------------------------------------------------------------------
    \9\ The Role of Vertical Roof Intrusion and Post-Crash Headroom In 
Predicting Roof Contact Injuries to the Head, Neck, or Face During 
FMVSS No. 216 Rollovers--An Updated Analysis, DOT HS 810 847, October 
2007 (2007 NHTSA Vertical Roof Intrusion Study).
    \10\ 2007 NHTSA Vertical Roof Intrusion Study at 11.
---------------------------------------------------------------------------
    This implies that, in general, stronger, more intrusion-resistant 
passenger vehicle roofs providing more post-rollover survival space 
will protect more front-seat occupants from severe injuries and deaths. 
Yet, NHTSA has failed to provide any evidence in the SNPRM that a roof 
crush resistance standard based on the platen test can be correlated 
with substantial improvements in the real-world prevention of head, 
face, and neck injuries in rollover crashes.
    This crucial point is emphasized in recent comments filed with the 
docket:

        The proposed standard raises the force level required to 
        generate roof crush, but it does not necessarily result in 
        increased energy resistance or reduced roof crush in a 
        rollover. Individual vehicles with different peak loads can 
        have similar energy resistance capabilities and therefore 
        similar degrees of roof crush in a rollover, and, inversely, 
        individual vehicles with identical peak loads can have 
        dramatically different energy resistance capabilities and 
        dramatically different degrees of roof crush. For this reason, 
        simply requiring a minimum force level does not ensure that 
        roofs will be able to resist a significant amount of energy in 
        a rollover nor maintain the necessary structural integrity. 
        Consideration for structural energy management is critical if 
        the Agency's goal is to reduce roof intrusion.\11\
---------------------------------------------------------------------------
    \11\ DVExperts at 5 (emphasis supplied). In its 2005 proposed rule, 
NHTSA specifically asked for comments on an energy absorption criterion 
added to the requirements of Standard No. 216 because two commenters 
argued that a peak force requirement alone is insufficient to prevent 
roof collapse after initial peak force is attained. The agency stated 
that it would have to conduct additional analysis to evaluate energy 
absorption to establish test parameters. 70 FR 49236. However, two and 
one-half years have elapsed since the agency asked for further comments 
on an energy management criterion for the standard, and there is no 
indication that the agency has conducted the additional analysis 
necessary to test vehicles for roof energy management in rollover 
crashes.

    The Insurance Institute for Highway Safety (IIHS) has recently 
published an important study supporting the concept that more highly 
crush resistant passenger roofs will provide enhanced protection of 
front seat occupants from head, face, and neck injuries if based on a 
more stringent quasi-static test. The IIHS Roof Strength Study 
indicates that vehicle roof energy management is a major parameter 
relating to occupant injury.\12\ NHTSA needs to evaluate these findings 
in light of its demurral on using an intrusion limit and energy 
absorption criterion to adopt a roof crush resistance standard based on 
the platen test of Standard No. 216. The IIHS Roof Strength Study 
comprised 22,817 single-vehicle rollover crashes involving drivers 
suffering both incapacitating injuries and deaths in 11 sport utility 
vehicle (SUV) models in police-reported crashes in 12 states. These 
crashes were matched with roof strength results from using the quasi-
static platen test in which 8 midsized SUVs' roofs were crushed at 2, 
5, and 10 inches of platen displacement. The highest SWR achieved by 
any of the study vehicles undergoing the platen test was 3.16. The 
study performed logistic regression analyses of the 12 states' single-
vehicle rollover crashes, controlling for the state in which the 
crashes occurred, Static Stability Factor (SSF), and driver age. The 
results of the analyses found that lower incapacitating and fatal 
injury rates were associated not only with higher values of peak force 
and SWR, but also for energy absorption.
---------------------------------------------------------------------------
    \12\ IIHS Roof Strength Study at 5.
---------------------------------------------------------------------------
    These findings support the need for NHTSA to adopt several, 
interacting metrics to a roof crush resistance compliance test that 
relies on a quasi-static platen test of intrusion. Using only a SWR 
multiple, such as 2.5<greek-e>, 3.0<greek-e>, etc., without an 
intrusion limit, no energy management requirement, and only a head no-
contact/contact (pass/fail) criterion cannot provide sufficient 
assurance that a complying vehicle will provide substantially enhanced 
roof crush resistance, which, in turn, will produce lower rates of 
severe injury and death in rollover crashes. The IIHS Roof Strength 
Study found consistent trends in odds ratios for reduced risk of fatal 
or incapacitating driver injuries that were correlated with reduced 
platen displacement, higher SWRs, and higher energy absorption.\13\
---------------------------------------------------------------------------
    \13\ Id. at 10.
---------------------------------------------------------------------------
    Using the logistic regression models of driver fatality risk to 
calculate the odds ratio for a full 1-unit increase in peak force, SWR, 
and energy absorption, the study found that the lowest driver fatality 
risk was associated with a 2-inch peak force platen displacement, 2 
inches SWR, and 2 inches energy absorption.\14\ Overall, the logistic 
regression analyses found that rollover injury risks were significantly 
lower for vehicles with stronger roofs regardless of which strength 
assessment was used. However, the IIHS Roof Strength Study could not 
determine whether any one metric is more predictive of injury outcomes 
than others.\15\ This implies that NHTSA should act prudently and adopt 
several different metrics to ensure that the quasi-static platen test 
results in substantial safety benefits in injury prevention.
---------------------------------------------------------------------------
    \14\ Id. at 11. The finding in the IIHS Roof Strength Study that 
occupant injury is strongly related to a higher SWR and the amount of 
intrusion is consistent with Advocates' prior comments that responded 
to the 2005 proposed rule. Advocates supported a SWR of at least 3.0X 
and, preferably, 3.5<greek-e> and the restoration of an intrusion limit 
of a maximum of 3 inches, the platen test conducted without the 
windshield and with retracted side glazing. See, comments of Advocates 
for Highway and Auto Safety dated Aug. 23, 2005 (Advocates' 2005 
Comments), to Docket No. NHTSA-2005-22143-0136, at 4-5, 13.
    \15\ Id. at 13.
---------------------------------------------------------------------------
    In order to be cautious in using a non-dynamic, surrogate measure 
of real-world vehicle roof responses to rollover impact forces, NHTSA 
should seriously consider establishing multiple measures for conducting 
a quasi-static platen compliance test if the agency continues to insist 
that it cannot adopt a dynamic compliance test. Given the agency's 
continued insistence on the quasi-static compliance test, Advocates 
supports the following as the main features of the test protocol, 
including the minimum number of metrics and their values:

  <bullet> A SWR of no less than 4.0<greek-e> \16\
---------------------------------------------------------------------------
    \16\ A SWR of at least 4.0<greek-e> is recommended by DVExperts. 
Advocates supported a SWR of at least 3.0<greek-e> and desirably 
3.5<greek-e> in its comments filed in response to the 2005 proposed 
rule, but this stance was based on the agency eliminating reliance on 
the windshield and closed side glazing for the quasi-static compliance 
test. Since FMCSA appears to be resolute in allowing both to be used in 
complying with an amended Standard No. 216, Advocates has increased its 
recommended minimum SWR to at least 4.0<greek-e>. See, Advocates' 2005 
Comments at 15-16.

  <bullet> An intrusion limit of no more than 2 inches with maintenance 
        of force level instead of simply achieving peak force.\17\
---------------------------------------------------------------------------
    \17\ DVExperts cites the roof crush resistance achievement of the 
Volvo XC90. Volvo requires that a minimum force level of 3.5X SWR be 
reached within 2 inches of platen displacement, but then maintained to 
within 7.9 inches, followed by a force level of 4.3X SWR maintained 
within 11.8 inches of platen displacement. DVExperts at 3-5. Volvo's 
test requirements result in a roof in a rollover crash that 
progressively becomes stronger as the forces of a rollover test roof 
crush resistance.

  <bullet> A residual headroom limit of no less than 2 inches from the 
        top of the head of a 50th percentile male ATD.\18\
---------------------------------------------------------------------------
    \18\ Advocates continues to support the use of a 95th percentile 
male ATD in the test protocol if NHTSA continues to insist on the use 
of a dummy in the platen test. However, the use of the ATD has no 
relationship to any injury measure. For all practical purposes, the ATD 
used in the proposed platen test is a manikin. See, Advocates' 2005 
Comments at 12; DVExperts at 6.

  <bullet> Moveable side glazing should be retracted or otherwise 
        positioned to open side portals.\19\
---------------------------------------------------------------------------
    \19\ Advocates urges the agency to reconsider barring the use of 
windshields in conducting the platen test.

    Surprisingly, NHTSA takes no action in the SNPRM to factor in the 
amount of intrusion that should be permitted in a quasi-static platen 
test apart from an ATD head no-contact requirement, despite the fact 
that its own 2007 Vertical Roof Intrusion Study found ``a statistically 
significant relationship between intrusion and injury for belted 
occupants . . .'' and that, ``together with other factors . . . will 
likely lead to slightly higher benefits than was estimated in the 
NPRM.'' 73 FR 5490. When this finding is framed by the more specific 
finding of the IIHS Roof Strength Study linking the level of force 
applied to a vehicle roof with the amount of intrusion for the extent 
and severity of occupant injury, NHTSA must appreciate that a revised 
roof crush resistance standard must incorporate an intrusion limit to 
accompany a SWR force level in the final rule. The agency cannot simply 
disregard its own finding that ``a statistically significant 
relationship between intrusion and injury'' has been determined through 
its own further investigation by offering a roof crush resistance 
regulation that has no specific intrusion limit other than avoidance of 
ATD head contact. This would be a capricious choice that is contrary to 
the evidence in the rulemaking record provided by NHTSA itself, IIHS, 
and DVExperts that a specific intrusion limit figure is necessary to 
produce injury prevention benefits.
IV. Without Requirements for an Intrusion Limit, Minimum Residual 
        Headroom Space, and Sustained Force, the Proposed Quasi-Static 
        Platen Test Can Be Easily ``Gamed'' By Manufacturers
    Requirements that limit maximum intrusion, specify a minimum 
residual headroom space, and use sustained force and energy absorption 
as components of a strengthened quasi-static roof crush resistance test 
can substantially reduce the ability of manufacturers to manipulate 
other features of roof and roof support design that will translate into 
passing the compliance test. These measures will not nullify the 
ability of manufacturers to ``game'' a quasi-static compliance test of 
roof components, as recognized by other commenters to the docket, but 
the use of more, specific test metrics for determining compliance will 
limit the ability of manufacturers to introduce compensatory design 
features to pass the platen test.\20\ The simpler NHTSA renders the 
compliance test requirements, the easier it is for manufacturers to 
compensate for weak forward roof crush resistance by artful choices of 
other design changes. Test manipulation is strongly facilitated by 
NHTSA's binary compliance criterion of dummy head contact/no-contact 
while dispensing with a platen intrusion limit. The use of the HIII 
head for the criterion is gratuitous since the ATD has no injury 
response measurements even if head contact occurs. Even if the ATD had 
injury response measurement corridors, such as measurement of neck 
axial compression, flexion, or shear, complying with the quasi-static 
test shows nothing about how an occupant would actually respond in a 
real-world rollover crash because occupant kinematics in a rollover are 
categorically different from the static, belted ATD seated in an 
upright position used for such a binary compliance decision.\21\
---------------------------------------------------------------------------
    \20\ ``There are ways to `trick' the quasi-static simple test and 
achieve artificially high loads, by incorporating a strong B-pillar, 
for example, meanwhile ignoring the critical areas that bear loads in 
real world rollovers such as the A-pillar and windscreen header.'' DV 
Experts at 4.
    \21\ See, DVExperts at 6.
---------------------------------------------------------------------------
    If the agency chooses a quasi-static test at 2.5<greek-e>, 
3.0<greek-e>, 3.5<greek-e>, or some other SWR figure, the test should 
specify (a) a maximum intrusion limit of no more than 2 inches and (b) 
that limit must be reached at a distance no less than 2 inches from a 
50th percentile ATD head, although Advocates urges the agency to 
require a greater residual head space that will respond to the safety 
needs of the 95th percentile of front seat male occupants. However, a 
choice of a lower SWR will substantially counter the benefits of a 
stringent intrusion limit and residual headroom requirement. NHTSA's 
crash data investigation showed that 9 percent of occupants with post-
crash headroom above the tops of their heads nevertheless still 
experienced roof contact injuries to the head, neck, or face, while 34 
percent suffered such injuries when headroom was below the tops of 
their heads. 70 FR 49237. This clearly shows that increasing residual 
headroom will commensurately increase benefits because of lower rates 
of head, face, and neck injuries, especially in connection with a more 
demanding SWR than 2.5<greek-e>.
    Removing an intrusion limit and substituting a binary criterion of 
head contact/no contact will allow manufacturers to design to maximum 
intrusion that falls just short of head contact, a design choice that 
can allow considerable intrusion reducing the margin of safety for 
preventing severe head, face, and neck injuries in actual rollovers. In 
real-world rollovers, manufacturers of low roofline vehicles can pass a 
head non-contact regulatory compliance platen test with only a small 
margin that will disappear in real-world rollovers due to excursion 
even of belted occupants, transient roof dynamic flexion and recoil, 
and roof structural failures that cannot be replicated in a quasi-
static test. Measurable residual headroom found post-crash does not 
ensure that roof contact and consequent head, face, and neck injuries 
even to belted occupants did not occur.
    A regulation based solely on a simplistic ``no contact'' compliance 
criterion cannot reach the agency's goal of ``quantifiable benefits of 
limiting headroom reduction,'' and it allows manufacturers to 
manipulate the test for compliance that will continue to result in 
unacceptable occupant head, face, and neck injuries in rollovers. A no 
head contact criterion with no intrusion limit and no required minimum 
residual space above the heads of occupants simply indulges 
manufacturers to continue to produce compliant, low roofline vehicles 
with little margin before head contact, margins that easily will be 
exceeded in real-world rollover crashes with a high risk of severe 
injury.
    Failure to specify an intrusion limit, which should be considerably 
less than 5 inches, and basing the test on peak force resistance rather 
than sustained resistance has no real-world correlation with multiple 
quarter-turn rollover crashes. A roof that might sustain, say, a 
2.5<greek-e> SWR load in the first impact of each side might 
subsequently fail in the second set of impacts in vehicles that suffer 
multiple full rolls. NHTSA tested several passenger vehicles with an 
inverted drop test and concluded that the quasi-static test of Standard 
No. 216 was as accurate in reproducing roof deformation as a drop test 
in producing deformation similar to real-world crashes. 70 FR 49231. 
All of these vehicles presumably complied with existing Standard No. 
216, including the 5-inch intrusion limit. Yet, NHTSA also found a high 
percentage of vehicles that complied with the quasi-static test 
requirements of No. 216 but also suffered roof intrusion beyond 5 
inches in real-world rollover crashes. Specifically, the agency found 
that 32 percent of cars and 49 percent of light trucks under 6,000 
pounds exceeded 5.9 inches of vertical roof intrusion, and 55 percent 
of light trucks with a GVWR greater than 6,000 pounds and less than 
10,000 pounds suffered vertical roof intrusion exceeding 5.9 inches. 
Id. at 49236.
    This shows that, in fact, complying with a quasi-static test that 
claims to reproduce real-world deformation does not predict whether any 
given complying vehicle will nevertheless suffer roof intrusion 
exceeding the limits of such a standard. The agency's subsequent review 
of heavier passenger cars near or above 3,333 pounds GVWR, id. at 
49237, found that several of these withstood 1.5<greek-e> vehicle 
weight in the platen test. But this compliance result clearly has no 
predictive value for whether any of these vehicles would not suffer 
severe roof crush in real-world rollover crashes, including crashes 
that resulted in greater than 5 inches of vertical intrusion. NHTSA 
cannot substantially improve roof strength while also dramatically 
reducing occupant deaths and injuries based solely on a higher SWR 
value and an ATD no-contact compliance criterion.
V. SAFETEA-LU Requires NHTSA to Upgrade Passenger Vehicle Roof Strength 
        In Standard No. 216 for Both Driver and Passenger Sides
    NHTSA is required by law to upgrade ``roof strength for [both the] 
driver and passenger sides.'' SAFETEA-LU, Sec. 10301(a), codified at 49 
U.S.C.  30128(d). In order to accomplish this, the agency must require 
a compliance procedure that demonstrates the strength of both sides of 
a passenger vehicle roof. This makes eminent sense because NHTSA cannot 
predict which side of a rolling vehicle will receive the first impact, 
and because vehicles in multiple quarter-turn rolls can suffer impacts 
to both sides of the roof. As a result, Congress understood that the 
agency must ensure that both sides of a passenger vehicle roof are 
strengthened in any upgrade of Standard No. 216, and a 2-sides test is 
the only realistic means for ensuring this goal of enhancing real-world 
occupant protection in rollovers.
    It is clear from the agency's tabulated results of 1-side and 2-
sides testing in the SNPRM, 73 FR 5486-5487, Tables 2 and 3, that 
compliance with the quasi-static test at the adopted force level for 1-
side cannot determine whether the vehicle would comply with a 
sequential test of the 2nd side if tested with the platen. Even the 
agency's summary analysis of tests conducted for the 2005 proposed rule 
showed that first side test results cannot be used to predict second 
side test results using the platen test. In testing the second side of 
a Crown Victoria, local peak force was reduced 17 percent between 50-90 
mm of crush in contrast with the first side test. 70 FR 49239. But a 
platen test of both sides of a Land Rover Freelander produced an 
increase in force during the second side test over that of the first 
side starting at approximately 40 mm of plate movement. As contrasted 
with the Lincoln LS test, local peak force was increased by 20 percent 
on the second side for the Freelander, whereas the Lincoln LS suffered 
a decrease in force beginning at 40 mm of platen intrusion, resulting 
in a 20 percent decrease in peak force for the second side. Id. As a 
consequence, NHSTA concluded that ``some vehicles may have weakened or 
strengthened far side roof structures as a result of a near side 
impact.'' 70 FR 49239. NHTSA found similar disparities in the test 
results for 1-side and 2-sides tabulated in SNPRM, showing that 1-side 
peak force roof responses cannot be relied on to gauge second side 
responses, especially in light of the fact that increases, rather than 
decreases, in peak force in the second side tests were the exception 
rather than the rule. See, Table 3, 73 FR 5487.
    Although NHTSA asserts in the SNPRM that it is actively considering 
whether to adopt a 1-side or a 2-sides compliance test, e.g., id. at 
5490, the agency is arguably less able to relate the results of a 1-
side test to real-world roof crush resistance in rollovers and occupant 
injury responses than even the use of a quasi-static 2-sides test. The 
statutory mandate cannot be satisfied with a 1-side platen test.
VI. The Proposed Platen Test Impedes Development of Other, Crucial 
        Safety Performance Features for Reducing Injury in Rollover 
        Crashes
    Contrary to NHTSA's assertion that the SNPRM is ``part of a 
comprehensive plan for reducing the serious risk of rollover crashes,'' 
73 FR 5484, NHTSA's refusal to consider a dynamic test for determining 
roof crush resistance to intrusion in rollover crashes denies the 
agency the advantages of determining other key safety design and 
performance features of passenger motor vehicles in rollovers. Instead, 
the agency has chosen to perpetuate an outdated, simplistic method of 
applying localized force to the corners of an upright passenger vehicle 
roof near the A-pillars as a surrogate for the dynamic forces acting on 
vehicle roofs in real-world rollovers.
    Perpetuating this anachronistic approach evades a systems 
engineering response to rollover crash occupant safety, an approach 
that would rely on a dynamic test protocol that simultaneously 
demonstrates occupant kinematics and injury responses in actual 
rollover crashes. The proposed platen test cannot show the effects of 
actual rollover crashes on vehicle safety systems, including door 
latch/lock and hinge strength to resist failure leading to ejection and 
restraint system effectiveness in sustained rollover events to maintain 
occupant containment and to reduce occupant excursion.\22\ Restraint 
system performance, door component retention effectiveness, and 
occupant injury mechanisms in rollover crashes shown in compliance 
tests of a dynamic roof crush resistance standard would be immensely 
valuable in helping the agency to accelerate the adoption of more 
effective crashworthiness standards governing the safety performance of 
these vehicle systems. Instead, NHTSA has chosen a roof crush 
resistance test approach that cannot provide any information in these 
areas and therefore delays the development of standards based on 
dynamic tests in these areas. In fact, choosing a quasi-static platen 
test undermines the agency separately establishing both active and 
passive restraint system and seating system standards for rollover 
protection on the basis of dynamic testing.
---------------------------------------------------------------------------
    \22\ These important benefits of a dynamic roof crush resistance 
standard are also emphasized in the comments of DVExperts at 2.
---------------------------------------------------------------------------
    The proposal to continue the use of the quasi-static platen test 
stands in stark contrast to the evolution of other major safety 
standards from quasi-static to fully dynamic compliance tests, 
including Standards Nos. 201, 208, and 214. This is recognized in 
comments filed with the docket: ``Each of the other mandated 
crashworthiness standards rely on a systems approach to 
crashworthiness. A dynamic test is necessary to evaluate the 
performance of the rollover protection system, which is made up of the 
restraints, airbags, glazing, and roof strength.'' \23\ The agency has 
previously documented the increases in benefits of lives saved and 
injuries reduced as a consequence of more stringent, effective vehicle 
design factors and safety performance resulting from dynamic testing, 
yet it has paradoxically ignored its own record showing the benefits of 
dynamic testing in the SNPRM.
---------------------------------------------------------------------------
    \23\ Id. at 4.
---------------------------------------------------------------------------
VII. A Strong, Effective Roof Crush Resistance Standard Can Achieve 
        Benefits Substantially Greater Than Previously Estimated By 
        NHTSA
    Although NHTSA contends that its revised estimate of the number of 
head injuries prevented by stronger roofs and the impact of electronic 
stability control (ESC) in reducing rollover crashes will erode 
benefits of a strengthened roof crush resistance standard,\24\ the 
benefits analysis provided by the agency in the 2005 proposed rule 
artificially restricted potential benefits of reduced head, face, and 
neck injury to only belted, non-ejected front seat occupants.\25\ The 
agency's target population for an amended Standard No. 216 is produced 
by its statistical approach to avoiding confounders in determining 
potential benefits and its compliance with the Office of Management and 
Budget's proscription on double-counting benefits for any proposed 
rule.\26\
---------------------------------------------------------------------------
    \24\ NHTSA projected in its 2007 final rule on ESC benefits of 
between 4,200 and 5,500 deaths prevented annually when full fleet 
implementation of ESC (beginning with Model Year 2012) occurs. 72 FR 
17236 (April 6, 2006). Of the approximately 10,800 annual rollover 
crash fatalities, this means that ESC will not prevent as many as 60 
percent of rollover fatalities. Even if many of those dying in rollover 
fatalities suffer fatal injuries because of ejection or because of 
trauma suffered to other body regions than the head, face, and neck, a 
strong roof crush resistance standard can ensure that many additional 
lives can be saved in rollover crashes that cannot be prevented by ESC 
alone.
    \25\ In contrast, the IIHS Roof Strength Study did not find that 
belt use was confounding the results of its final regression model. 
Preliminary models for drivers with reported belt use estimated roof 
strength effects nearly identical to the effects estimated for all 
drivers. Id. at 12.
    \26\ See, 2007 NHTSA Vertical Roof Intrusion Study at 3.
---------------------------------------------------------------------------
    This method of isolating the purported target population for the 
benefits of a stronger roof crush resistance standard is largely an 
artifact of the agency's statistical analysis \27\ and thereby 
substantially underestimates potential benefits of a stronger Standard 
No. 216. Furthermore, even NHTSA has recognized that it has a very 
limited set of cases--32 crashes--from which to infer benefits,\28\ 
some of the relevant cases within the sample lacked data elements, and 
certain individual cases were assigned very large sample weights. As a 
result, NHTSA admits that ``the characteristics of this limited sample 
may not accurately represent the full benefits from the proposed roof 
crush resistance upgrade.'' 70 FR 49242.
---------------------------------------------------------------------------
    \27\ Id.
    \28\ The IIHS Roof Strength Study emphasizes that the agency's 
benefits estimates are based on only 32 National Accident Sampling 
System/Crashworthiness Data System (NASS/CDS) rollover crashes. Id. at 
2.
---------------------------------------------------------------------------
    The agency's analysis in the 2005 NPRM pointed out that about 64 
percent of the 10,000 occupants fatally injured in rollovers each year 
are killed when they are either partially or completely ejected during 
the rollover. This means that about 6,400 fatally injured occupants die 
from ejection. NHTSA further states that about 53 percent of these 
fatally injured individuals are completely ejected, and 72 percent of 
these are unbelted. 72 FR 49227. This amounts to about 3,480 fatally 
injured occupants who are only partially ejected.
    These partially ejected occupants, as well as occupants who are 
unbelted but who remain within the occupant compartment, might benefit 
from a stronger roof crush resistance rule even though they do not fall 
within the agency's artificially restricted potential benefits 
population of only front-seat occupants who are belted and not ejected 
at the time of rollover crashes. It is likely that non-ejected, 
unbelted occupants could suffer fewer severe and fatal head, face, and 
neck injuries by preserving more rollover survival space gained by 
highly crush resistant roofs that reduce the chances of impacting rigid 
roof structures such as headers, rails, and sunroof frames, as well as 
with the roof proper apart from these framing structures. This 
inference appears to have at least partial support in the agency's 
concession that ``seriously and fatally injured occupants who had a 
non-MAIS roof contact injury may also derive some benefit from 
decreased roof intrusion.'' Id. at 49229.
    This inference that many occupants not part of NHTSA's benefits 
target population may avoid severe injury or death from roof crush in 
rollovers is also supported by IIHS in its recent Status Report \29\ 
and the IIHS Roof Strength Study that properly point out that real-
world benefits can accrue to occupants who are not part of the agency's 
benefits target population because other crashworthiness system 
features can have increased effectiveness in tandem with much stronger 
roofs.\30\ Some of the occupants excluded from NHTSA's benefits target 
population \31\ could nevertheless avoid death in rollover crashes if 
roofs were appropriately strengthened. In contrast to the agency's very 
low benefits estimates, the IIHS Roof Strength Study found that after 
controlling for major confounders, even amending Standard No. 216 to 
increase the SWR to 2.5<greek-e> could save 108 lives of the 668 front 
outboard seat occupants who were killed in single-vehicle rollovers in 
2006, and that increasing the SWR to 3.16<greek-e> could have saved 212 
lives.\32\
---------------------------------------------------------------------------
    \29\ Status Report, IIHS, 43:2, March 15, 2008.
    \30\ IIHS Roof Strength Study at 13.
    \31\ NHTSA concluded from the evaluation of only 32 crashes in the 
NASS/CDS that, after excluding convertibles as a class, no benefits of 
more crush-resistant passenger vehicle roofs would accrue to occupants 
in one quarter-turn passenger vehicle rollovers, fixed object roof 
impacts, ejected occupants, unbelted occupants, rear seated occupants, 
and occupants with no coded roof intrusion over their seating 
positions. PRIA, Sec. IV; IIHS Roof Strength Study at 2.
    \32\ IIHS Roof Strength Study at 11.
---------------------------------------------------------------------------
    The increase to 3.16<greek-e> SWR from 2.5<greek-e> SWR is less 
than one full unit, yet the number of lives saved is almost double the 
number of a standard indexed to 2.5<greek-e> SWR. Advocates believes 
that further increases in lives saved by each half-unit SWR increase in 
roof strength would rise at some unknown but nevertheless exponential 
rate. Adding a stringent maximum intrusion limit, such as 2 inches, and 
a minimum residual headroom space as compliance requirements would 
probably increase these gains by substantial amount while probably also 
increasing the exponent for each half-unit step in SWR magnifying the 
number of lives saved. These gains could move upward at even at greater 
rate given the additional strength supplied by windshield retention 
when a high SWR with stringent limits on intrusion and residual 
headroom space interact to ensure higher rates of windshield retention 
and resistance to cracking.\33\ Even introducing fleet-wide effects of 
ESC benefits in preventing rollover fatalities, estimated at about 60 
percent effectiveness for passenger vehicles, cannot reduce real-world 
benefits to only the untenably small numbers estimated in the 2005 
proposed rule.
---------------------------------------------------------------------------
    \33\ See, id. at 13.
---------------------------------------------------------------------------
    NHTSA also cannot reduce benefits in any final rule based on the 
exaggerated figures provided by the Alliance of Automobile 
Manufacturers (Alliance) for the weight and cost of complying with 
2.5<greek-e>, 3.0<greek-e>, or 3.5<greek-e> roof crush resistance 
standard. The Alliance estimates that it would cost an additional $130 
for a large SUV to comply with a 3.5<greek-e> alternative and that, 
based on NHTSA's cost studies, ``total costs could be 50 percent 
higher.'' 73 FR 5488. Similarly, the Alliance estimates that the 
additional weight of the extra countermeasure design changes to meet a 
3.5X SWR standard could be as much as 540 pounds. These inflated 
estimates are consistent with past Alliance claims that, in each 
instance, are intended to dissuade NHTSA from adopting a substantially 
stronger or a more demanding standard in a key crashworthiness safety 
area. Even NHTSA's own study of the comparative costs and weight needed 
to upgrade a Ford Explorer to the roof crush resistance level of a 
Volvo XC90 SUV ``would increase material and tooling costs by [only] 
$81 and weight by [only] 15 kilograms (33 pounds).'' Id. at 5489. These 
figures are cited and supported by comments already submitted to the 
docket.\34\ The Alliance cost and weight figures for substantial 
strengthening of passenger motor vehicles to better resist roof crush 
have no credibility, and NHTSA should continue to reject them.
---------------------------------------------------------------------------
    \34\ DVExperts at 2-3.
---------------------------------------------------------------------------
VIII. The SNPRM Is Procedurally and Substantively Inadequate
A. The SNPRM Has No Supporting Cost-Benefit Analysis to Justify a Final 
        Rule
    The SNPRM has no cost-benefit analysis of the various combinations 
of test requirements (1-side at 2.5<greek-e>, 2-sides at 3.0<greek-e>, 
etc.) suggested by NHTSA as potential regulatory outcomes. The failure 
to provide the costs and safety benefits of different alternative 
combinations of SWR with 1-side or 2-sides testing denies the public an 
opportunity to evaluate NHTSA's justification for a final rule choosing 
one of these alternatives to amend Standard No. 216. Without the 
ability to review and critique alternative costs and benefits for 
different regulatory alternatives, the public is unable to show that a 
more demanding SWR (that is, a peak force requirement greater than 
2.5<greek-e>) on both sides of a vehicle roof is needed to 
appropriately reduce occupant deaths and injuries or to challenge an 
agency cost-benefit analysis that NHTSA believes supports its 
regulatory choice.
    NHTSA states that a number of major factors will substantially 
change both benefits and costs of a final rule. 73 FR 5488. Among these 
are major revisions to the benefits population that is the target of 
the SNPRM because the agency has modified its analysis of the cause of 
death in rollover crashes, resulting in a reduction by one-third the 
number of annual fatalities attributable to head injury that were 
estimated in the 2005 Preliminary Regulatory Impact Analysis. Id. At 
5485. Moreover, NHTSA states that the installation of ESC on new 
passenger motor vehicles as a result of the April 2007 ESC final rule, 
72 FR 17236 (April 2007), ``will significantly reduce both the target 
population and the safety benefits associated with FMVSS No. 216.'' 73 
FR 5488. Further, the agency forecasts increased costs if a 2-sides 
regulation were adopted. However, figures for the costs and benefits of 
these major impacts on various regulatory alternatives are not provided 
for public review and comment. Instead, NHTSA asserts that ``regardless 
of which alternative is adopted in the final rule, the agency will 
ensure that the final rule is cost beneficial. . . .'' Id. at 5490. 
This conclusory assertion does not fulfill the agency's obligation to 
present the public with the regulatory alternatives it is considering.
B. The SNPRM Is Not a Proposed Rule
    The SNPRM is incomplete and does not fulfill the requirements for a 
proposed rule. Without a cost-benefit analysis, without proposing a 
specific regulatory alternative for comment, and without an assessment 
of how the rule can be improved at a minimum with the addition of a 
specific intrusion limit figure and, desirably, with an energy 
absorption criterion, the supplementary proposal is only equivalent to 
an advance notice of proposed rulemaking seeking initial data, views, 
and arguments for various combinations of prescriptive requirements for 
a range of regulatory alternatives. NHTSA cannot move from this notice 
to a final rule without proposing a specific regulation and without a 
cost-benefit analysis of all regulatory alternatives, especially in 
light of major changes in costs and benefits that the agency 
anticipates because of the new considerations indicated in the 
foregoing paragraphs of Section VIII of these comments. That cost-
benefit analysis must include an assessment of each regulatory 
alternative, including the alternative proposed by NHTSA for amending 
Standard No. 216. The cost-benefit analysis must also comprise an 
assessment of the injury prevention benefits of an energy management 
criterion, a maximum residual headroom limit, and the addition of a 
specific vertical intrusion limit to a SWR value governing an amended 
standard.
    The SNPRM regulatory alternatives comprise several different 
possible combinations of SWR with a 1-side or 2-sides platen test, with 
a simple no head contact criterion. These are the principal components 
of a prospective final rule. It is clear that the agency cannot proceed 
to a final rule on the basis of this SNPRM given its own finding in its 
recent 2007 NHTSA Vertical Roof Intrusion Study, as buttressed by the 
more detailed findings of the IIHS Roof Strength Study, that the number 
of fatalities and the extent of severe injuries are directly linked to 
the interaction of roof crush resistance with the amount of intrusion.
C. NHTSA Has Authority to Establish a New Deadline for Issuing a Final 
        Rule
    Contrary to NHTSA's claim that it has to accelerate its rulemaking 
action to meet a statutory deadline by dispensing with a new assessment 
of costs and benefits for this SNPRM, SAFETEA-LU provides an 
opportunity for the Secretary to inform Congress that the enacted 
regulatory deadline cannot be met and to select a new deadline.\35\ 
There are major unresolved issues and a lack of an adequate cost-
benefit analysis impacting the supplementary proposed rule. There is no 
need or justification for NHTSA to short-circuit the rulemaking process 
by requesting comments without a complete cost-benefit analysis showing 
the impacts of different regulatory alternatives, including 
alternatives that must include evaluation of the benefits of an 
intrusion limit. The SNPRM openly compromises the public in responding 
to a specific proposed regulation with required supporting materials 
justifying the agency's choice. It is indefensible for the agency to 
issue a final rule without any justification in the SNPRM why, at a 
minimum, the agency needs to forego an adequate cost-benefit analysis 
of the regulatory alternatives it is considering, in light of the 
explicit discretion that Congress provided for NHTSA to set new 
rulemaking deadlines. It is too important to a major opportunity to 
advance public safety to rush the adoption of a rule that clearly is 
not ready, especially when Congress has provided the agency ample 
flexibility in giving full consideration to all options for improving 
rollover safety by requiring stronger roofs.
---------------------------------------------------------------------------
    \35\ SAFETEA-LU specifically provides the Secretary and NHTSA with 
discretion on meeting statutory deadlines for regulatory action:
    (e) DEADLINES.--If the Secretary determines that the deadline for a 
final rule under this section cannot be met, the Secretary shall----
    (1) notify the Senate Committee on Commerce, Science, and 
Transportation and the House of Representatives Committee on Energy and 
Commerce and explain why that deadline cannot be met; and
    (2) establish a new deadline.
    SAFETEA-LU,  10301(a), codified at 49 U.S.C.  30128(e).
---------------------------------------------------------------------------
IX. Conclusion
    The proposed rule as modified by the SNPRM is still inherently 
deficient at several major junctures. NHTSA is prepared to adopt a 
compliance test that, even if indexed to a higher SWR, is arguably 
weaker than the current standard because it lacks a maximum intrusion 
limit. The benefits of the agency adopting a much more demanding SWR 
figure, such as at least 4.0<greek-e>, accompanied by a stringent 
intrusion limit of 2 inches and a minimum residual headroom limit of 2 
inches, would result in many more lives saved each year even despite 
the growing contribution of ESC to reducing rollover crashes.
    In part, those annual lives saved from reduced head, face, and neck 
trauma would be further augmented by lives saved from reduced occupant 
ejections because much stronger roofs would produce less portal 
deformation leading to loss of glazing and door component retention 
failures that result in open ejection paths. NHTSA may not be able to 
count these benefits in its artificially constrained cost-benefit 
analysis, but these benefits are real and they would be produced as 
corollary benefits from a much stronger roof crush resistance standard, 
even one based on a quasi-static roof component test. It is hard to 
understand why NHTSA, while continuing to demur on the adoption of a 
dynamic roof crush resistance standard, would pass up an opportunity 
not only to save many more lives from reduced head, face, and neck 
trauma due to weak roofs in rollover crashes, but also to gain the 
additional lives saved from reduced ejections. The agency can 
acknowledge that ejection benefits would be forthcoming just from a 
stronger roof crush resistance regulation even if it also had to state 
that such benefits could not be quantified in this rulemaking action.
    A much stronger roof strength standard would also increase the 
effectiveness of upper interior air bags and curtains because front 
pillars, headers, and side rails would resist deformation far better 
and thereby increase the lifesaving benefits of these upper interior 
passive restraint systems.\36\ This is particularly true if the agency 
also moves forward with upper interior head impact protection systems 
that are required to have sustained inflation throughout the protracted 
amount of time that a rollover crash can consume before the vehicle 
comes to a stop.\37\ A weak roof strength standard undermines future 
agency efforts to combine different strategic responses to occupant 
compartment safety that provide the safety management synergism that a 
well-reasoned, systems engineering approach can provide. Even the IIHS 
Roof Strength Study and DVExperts appreciate the effect of a much 
stronger roof crush resistance standard on other, mutually dependent 
and interacting safety systems within the occupant compartment. NHTSA 
should not forswear these prospective benefits, much less undermine its 
future rulemaking actions in these and other crashworthiness design and 
performance areas, by refusing to adopt a much more demanding roof 
crush resistance standard along the lines suggested by Advocates in the 
foregoing comments.
---------------------------------------------------------------------------
    \36\ ``As the number of vehicles with side curtain airbags 
increase, the likelihood of ejection through the side windows should 
decrease. However, weak roofs could compromise the protection afforded 
by these airbags if they allow the roof rails to shift laterally and 
expose occupants to contacts with the ground.'' IIHS Roof Strength 
Study at 13.
    \37\ DVExperts emphasizes this at 2, 8.
---------------------------------------------------------------------------
    Advocates also wants to emphasize here that NHTSA apparently 
regards any quasi-static test method for determining roof crush 
resistance to be essentially occupant age-neutral in its effects, 
despite its own 2007 NHTSA Vertical Roof Intrusion Study finding a 
statistically significant correlation of roof crush with front seat 
occupant age.\38\ Unfortunately, that unstated assumption clearly is 
not the case. The IIHS study also found strong correlations of 
significant injury risk increases--12 to 13 percent--for each 10-year 
increase in driver age.\39\ To date, NHTSA has offered a proposed roof 
crush resistance regulatory proposal that disregards the substantial 
greater propensity to injury of older vs. younger vehicle occupants, 
despite the fact that the 8 adjusted models of its 2007 Vertical Roof 
Intrusion study found that occupant age was one of the 4 statistically 
significant variables.\40\ Given the rapid ``squaring'' of the 
demographic pyramid in the U. S., with disproportionately large 
increases each year in both the number and percentage of older 
passenger vehicle occupants, NHTSA has an obligation to err on the side 
of caution by adopting a standard that will afford substantially 
increased protection to older front-seat occupants who are more prone 
to severe injuries and death in rollover crashes where roof crush is 
the main cause of head, face, and neck trauma. The SNPRM foists starkly 
inequitable safety impacts on older Americans. If the agency does not 
adopt a standard that affords substantial protection to older vehicle 
occupants in rollover crashes involving roof crush, the agency will be 
imposing substantially more severe injuries and societal costs on a 
rapidly aging U.S. vehicle occupant population.
---------------------------------------------------------------------------
    \38\ 2007 NHTSA Vertical Roof Intrusion Study at 16.
    \39\ IIHS Roof Strength Study at 14.
    \40\ 2007 NHTSA Vertical Roof Intrusion Study at 16.
---------------------------------------------------------------------------
    NHTSA cannot issue a final rule based on the SNPRM. The SNPRM is 
essentially procedural window-dressing without advancing a specific, 
substantive regulatory proposal for public review and comment. The 
proposal is incomplete without a specific assessment of injury and 
fatality prevention from the various regulatory alternatives on which 
the agency requests comments, without the consideration of a specific 
roof vertical intrusion limit and energy absorption criterion, and 
without an assessment of the different costs and benefits of these 
alternatives. The agency cannot issue a final rule without prior notice 
and comment that provides the public an opportunity to assess NHTSA's 
cost-benefit analysis and its injury and fatality claims for different 
regulatory alternatives taking these considerations into account. A 
final rule issued on the basis of the SNPRM and the existing rulemaking 
record would be subject to challenge. NHTSA should instead avail itself 
of the explicit statutory permission granted the agency to establish a 
later date for completing roof crush resistance rulemaking in order to 
provide a more reasonable and effective regulatory proposal with ample 
opportunity for public comments on the merits.
            Respectfully submitted,
                                Gerald A. Donaldson, Ph.D.,
                                          Senior Research Director.

    Senator Pryor. Thank you.
    And thank you all for testifying today.
    Let me go ahead and start, if I may. I think, in Mr. 
Stanton's testimony, he said that he was opposed to the dynamic 
test. I just want clarification, if I can, from Mr. 
Strassburger. Are you all equally as opposed to dynamic 
testing?
    Mr. Strassburger. We are opposed to dynamic testing, for 
the reasons I indicated. Despite decades of trying, there is 
yet still no dynamic test that is repeatable and reproducible 
such that it gives us the engineering data that we need to be 
able to design our vehicles. If a test gives us the three 
different answers to the same question, which of those answers 
do we, as engineers, use to design our vehicles?
    Senator Pryor. And is that----
    Mr. Strassburger. The quasi-static test works well, it is 
representative of the deformation that we see in real-world 
crashes, and it should be retained.
    Senator Pryor.--and is that true with the vehicle test that 
Ms. Claybrook talked about, the Jordan Rollover----
    Mr. Strassburger. Our----
    Senator Pryor.--dynamic test?
    Mr. Strassburger.--our concerns with the Jordan Rollover 
Test are exactly the same; it's not repeatable, it's not 
reproducible.
    Senator Pryor. OK. Let me ask, if I may, Mr. Strassburger, 
about doing the test on both sides of the roof instead of just 
one side. Currently, NHTSA just tests one side. What's your 
association's position on testing both sides?
    Mr. Strassburger. Here again, we think that the quasi-
static test, where the agency, at its option, can test either 
side of the vehicle, should be retained. We, again, have 
concerns about the reproducibility and the repeatability of the 
two-sided test. It adds additional test complexity, it adds 
additional test variability, but it doesn't give us additional 
engineering data to design our roofs.
    Senator Pryor. Mr. Stanton, do you have a position on the 
two-sided test?
    Mr. Stanton. Yes, Senator, it's not terribly deep, in that 
we--we looked at the one-sided test, and you can test either 
the right or the left side, so you've got to build both sides 
the same way, but then when NHTSA came out with the SNPRM on 
the two-sided test, we just, quite honestly, didn't know 
enough. We looked at it, and we said it shows some promise, 
but, as of right now, we're not in a position to endorse it or 
to say that it's not a good test, either.
    Senator Pryor. So----
    Mr. Stanton. We would like to see additional data on that.
    Senator Pryor.--OK. So, you're opposed to it, for the time 
being, at least.
    Mr. Stanton. No, we're not opposed to it. We're--we just 
need additional information to find out whether or not it would 
be better and provide better data than the single-sided test.
    Senator Pryor. All right.
    Mr. Strassburger, on that two-sided test, it seems to me 
that doing a two-sided test would give you more data to work 
with, and it seems to me that when there is a rollover, often 
times the integrity of the roof is compromised with that first 
crush. To me, it seems it would be important to know what 
happens when there is a second crush on the other side of the 
roof. Why I am wrong about that?
    Mr. Strassburger. It would seem to give you more data, but 
in the limited amount of data that the agency has provided, 
some of that data was in conflict with each other; they 
provided just two test series where they tested the same 
vehicle twice, and in each instance there was conflicting test 
data that was----
    Senator Pryor. But you're----
    Mr. Strassburger.--generated by those tests.
    Senator Pryor.--but you're basing that on NHTSA's data that 
they provided. What about your data? Because I know the auto 
manufacturers have a lot of data on this, as well.
    Mr. Strassburger. It is part of the rulemaking record, and 
I don't believe we provided any data that we had on two-sided 
tests.
    Senator Pryor. No, I understand you haven't provided it to 
NHTSA. But, your companies have internal data, I'm sure, on 
this kind of testing, on the two-sided testing.
    Mr. Strassburger. If they do, none of that has come to the 
Alliance.
    Senator Pryor. OK.
    Mr. Strassburger. We don't have that data.
    Senator Pryor. Well, there again, I think that the public's 
perception will be that a two-sided test is a better test than 
a one-sided test. If the public knows that that's available, I 
think the public would want to see a two-sided test.
    While I have you, Mr. Strassburger, let me ask this. Is 
there a strength-to-weight ratio that most closely resembles a 
rollover, or are there just too many variables in a rollover?
    Mr. Strassburger. All of the--there are too many variables. 
There--the technical literature is rich with debate on the 
relationship--the causal relationship between roof strength and 
injury risk. To this date, even with the most recent IIHS 
study, we don't see a causal relationship with injury risk and 
roof strength. And we have concerns about the IIHS study. We've 
looked at it, haven't finished reviewing it. But, when we apply 
standard statistical tests to test the rigor of the assumptions 
that the IIHS study has adopted, their conclusions don't hold 
up.
    Senator Pryor. But, you would agree, as a general matter, 
that the stronger you make the roof, the less likely it is for 
you to have a serious injury or fatality in a rollover 
accident, wouldn't you?
    Mr. Strassburger. Intuitively, you would think that, but 
the data does not show that. And, at the end of the day, we're 
not going to improve motor vehicle safety through good 
intentions or because we think we will do so. We need to have 
some certainty or some reasonable expectation that things are 
going to change in the real world with the changes that we 
make.
    Senator Pryor. Ms. Claybrook, do you agree with what Mr. 
Strassburger just said?
    Ms. Claybrook. No, I don't, for a number of reasons. First 
of all, on the dynamic test device, of course, the industry 
hasn't ever attempted to use this, and neither has NHTSA. But, 
if you look at real-world crashes, which are referred to as 
other similar instances in the literature, and you look at the 
tests that occur with the JRS on the same model vehicle, you 
see they're quite similar. The JRS test device does mimic what 
happens in the real world.
    There have been repeatability tests done. They have come 
out very close when the same vehicle has been tested again and 
again. Of course, this has all been done privately by a few 
individuals, and I believe that NHTSA should put some money 
into this, since it doesn't have any other test device that is 
dynamic that has this quality and capacity and is inexpensive.
    The industry--for example, General Motors has a new test 
system, that they announced with great fanfare, that--where 
they test the vehicle. It tests the side head airbag, but it 
very specifically doesn't test for roof crush, because they 
don't want to have any data. And, of course, the trade 
association doesn't have the data. It's the companies, as you 
point out, that have whatever data they have collected.
    The CRIS device that Ford has is like the dolly rollover 
test, only more sophisticated, but it doesn't control the 
vehicle after it's thrown off the back of the vehicle in a way 
where they can assure repeatability. The brilliance of the JRS 
device is that it is totally controlled testing. And we now 
have the film. So, if it would be possible----
    Senator Pryor. Yes, let's go ahead and watch that.
    Ms. Claybrook.--to take a look at that--it's 17 seconds. 
Oh, we did, and now we don't? OK. Well--
    [Laughter.]
    Ms. Claybrook.--hopefully----
    Senator Pryor. It wasn't meant to be.
    Ms. Claybrook.--hopefully, at some point, we'll get to see 
that better.
    The other issue that has been raised is that the auto 
companies, since the early 1970s, have taken the position that 
if the roof crushes in, your head is already damaged because 
you hit the roof first. This has been shown, technically, in a 
number of papers and analyses, to be malarkey. And it's also, 
just by your own thought process, pretty much malarkey. But, if 
you look at who gets injured in crashes, if you look at just 
the crashes--at the vehicle after the crash, and who gets 
injured, it's the people sitting where the roof crushed in that 
are the ones who have the head injury and are quadriplegics and 
paraplegics. So, it's very obvious that when the roof crushes, 
the person sitting under it is often harmed.
    The other issue about roof crush is this. When the vehicle 
is upside-down, the backbone of the vehicle is the roof. And 
so, the belt system isn't going to work right if the roof 
crushes in. The side head airbag isn't going to work right if 
the roof crushes in. The doors are going to come open if the 
roof crushes in. The windows are going to pop out or crack. The 
windshield is going to be damaged if the roof crushes in. The 
roof controls all those elements. And what causes ejection is 
when there is no side window or when there is--the windshield 
itself is not there, or when the doors open. If the belt has a 
pretensioner for rollover, which most of the vehicles today do 
not, and this should be required, that's not going to work 
properly if the roof crushes in. The roof is like the chassis 
when the vehicle is right-side-up. In rollover crashes the roof 
is the critical element in the performance of this vehicle and 
the survival space, as it's called, for the occupant inside.
    These industry arguments are just arguments, they're----
    Senator Pryor. Let----
    Ms. Claybrook.--not facts.
    Senator Pryor.--let me ask this, Ms. Claybrook. If, 
assuming the NHTSA decides not to do the dynamic test, and I 
know you want them to do a dynamic test, but assuming they 
decide not to, does it make sense for NHTSA to then do the two-
sided roof test?
    Ms. Claybrook. It should do a two-sided roof test, but it 
also should change where the platen is placed and the force 
that is used, because right now when a rollover occurs, the 
engine makes the vehicle tilt forward, when it's upside-down, 
which means that the occupants tilt forward, which means that 
the most critical part of the vehicle is the roof over the A-
pillar, which holds the windshield. And so, when the windshield 
cracks on the first corner roll, then there is a 30 percent 
reduction in the strength of the roof, and that's the reason 
you have to have, a two-sided test. It should be done without 
the windshield in there, so that you really get what the true 
forces are that are experienced in that crash.
    The way the current test is designed, the B-pillar is the 
part--the pillar by your shoulder--is the one that gets the 
most pressure, and the A-pillar does not get a sufficient test. 
In addition to a two-sided test, the platen should be smaller 
and at a sharper angle, it should exert more force, it should 
be moved forward, and the windshield shouldn't be there. That, 
if you're going to do a quasi-static test, is the one that 
would make a lot of sense.
    Senator Pryor. OK.
    Dr. Garcia, let me ask you--I don't know if you're familiar 
with this proposed preemption that they're trying to do, where, 
basically, NHTSA would try to limit the ability to go to court 
after one of these. Do you have an impression of what that 
would do out there in the real world, what the preemption 
clause would do?
    Dr. Garcia. Right. It would definitely impact negatively 
the American people. I spent a lot of years--I came from a very 
poor background--to go to school. If I didn't have the ability 
to go to court and make my case, my life would have been 
totally lost by now, with no resources.
    I mean, this impacts a lot of different situations. You 
know, the healthcare issue--I mean, you have to understand what 
it is to live with an injury like the one I have. Dr. Pena, 
behind me, is also living with it. You cannot take away that 
right. I went to court, and we won. We proved to a jury that 
the roof was defective. You cannot take away the right of the 
individual to go in there and have their day in court.
    So, it will have an impact on the--not just on me, but 
potential people who will become injured. I mean, we're not 
just here just for us. We're already injured. We're here for 
people like you. We're here for your children, for this to 
finally come to an end. And closing the doors to the courtroom, 
I don't think that that is just. I think that's cruel and 
unusual punishment when you do that.
    Senator Pryor. Mr. Oesch, do you have a position on the 
preemption clause?
    Mr. Oesch. We don't, sir, but I would like to address two 
other things, if you----
    Senator Pryor. Sure.
    Mr. Oesch.--don't mind.
    Senator Pryor. Sure.
    Mr. Oesch. Thank you.
    You were right, when just a moment ago what you said 
intuitively was exactly what our study showed; that is, with 
increased roof strength, there was lower injury risk. Mr. 
Strassburger referred to a study that was commissioned by the 
Alliance, questioning those results. We'll be sharing with the 
Alliance, and we'd like to share with this committee, with your 
permission, our analysis of that study.
    [The information referred to follows:]

                     Insurance Institute For Highway Safety
                                                      June 18, 2008
Hon. Mark Pryor,
Chairman,
Subcommittee on Consumer Affairs, Insurance, and Automotive Safety,
U.S. Senate ,
Washington, DC.

Dear Chairman Pryor:

    On June 4, 2008, the Senate Subcommittee on Consumer Affairs, 
Insurance, and Automotive Safety held an oversight hearing on passenger 
vehicle roof strength. I testified on behalf of the Insurance Institute 
for Highway Safety (IIHS) regarding a study we recently completed 
revealing that increased roof strength in the quasi-static test 
mandated under Federal Motor Vehicle Safety Standard (FMVSS) 216 
reduces the risk of fatal or incapacitating driver injury in rollover 
crashes (Brumbelow et al., 2008). While seemingly intuitive, this 
finding contradicts previous studies, funded by automobile 
manufacturers, that reported no relationship between FMVSS 216 results 
and injury risk in real-world rollover crashes (Moffatt and Padmanaban, 
1995; Padmanaban et al., 2005).
    In testifying on June 4, the Alliance for Automobile Manufacturers 
(AAM), represented by Mr. Robert Strassburger, maintained its position 
that stronger roofs do not reduce injury risk and questioned IIHS's 
study based on a critique AAM commissioned from M. Laurentius Marais of 
Wecker Associates (AAM, 2008). However, Marais' critique does not 
support AAM's statements concerning the IIHS study. In addition, the 
critique misrepresents IIHS's research and is, itself, based on 
problematic statistical analyses.
AAM Claims Not Supported by the Marais Analysis
    During the roof strength hearing, Mr. Strassburger said, 
``intuitively you would think that [stronger roofs reduce injury risk] 
but the data do not show that.'' He stated that the conclusions of the 
IIHS study ``don't hold up'' and that ``we don't see a causal 
relationship with injury risk and roof strength.'' However, these 
comments are not supported by Marais' analysis, which also indicates an 
overall decrease in injury risk as roof strength increases. Rather than 
contradicting the relationship, Marais concluded that ``the IIHS 
Study's 28-percent result cannot be validly extrapolated to roof 
strength in the relevant range from SWR 2.5 to 3.0-3.5 and beyond.'' 
Thus, Marais focused on whether the data in the IIHS study indicate 
that injury risk decreases by exactly the same amount for each 
incremental change in roof strength. This was not the research question 
the IIHS study was designed to address. Criticizing the study on this 
basis can be compared with criticizing a finding that hotter 
temperatures increase the incidence of heat stroke by saying that the 
data do not show the same rate of increase between 80 and 100 degrees 
as from 90 to 110 degrees.
    Marais began his critique of IIHS's study by attempting to 
duplicate the research. He was unable to obtain data from 3 of the 12 
states used in the IIHS study, somewhat reducing his sample size. Even 
with data from the 9 remaining states, it is not clear that Marais 
correctly duplicated the IIHS study, as Figure 1b in his analysis shows 
injury rates 36-43 percent higher than when IIHS counts are limited to 
the same 9 states. Despite this discrepancy, Marais' logistic 
regression with these data estimated a 27 percent reduction in the risk 
of fatal or incapacitating driver injury for a 1-unit increase in roof 
strength-to-weight ratio (SWR), which is similar to the IIHS study's 
estimate of a 28 percent risk reduction for the same increase in roof 
strength. This is the best estimate of the relationship between roof 
strength and injury risk with the data available. It answers the 
question IIHS research was designed to address, showing that roof 
strength as measured under FMVSS 216 is strongly related to the risk of 
injury in real-world rollovers.
Methods Used by Marais Are Inappropriate
    Marais' main criticism of the IIHS study is based on his 
application of a ``rainbow test'' meant to determine whether the 
vehicles with the lowest and highest roof strengths show injury risk 
reductions of the same magnitude as vehicles with intermediate roof 
strengths. However, for such a test to be conclusive the low, 
intermediate, and high strength groups must each have enough data to be 
analyzed separately and produce meaningful results. This is not the 
case here, and Marais' manipulations of the data confirm only that this 
is a small dataset (11 roof designs), not that there is a level of roof 
strength above which there is no benefit of increased strength.
    Beyond the criticisms resulting from his flawed ``rainbow test,'' 
Marais performed 2 logistic regression analyses attempting to show the 
relationship of roof strength and injury risk for only those vehicles 
with the strongest roofs. The first was limited to vehicles with roof 
SWR values of at least 2.0, and the second included vehicles with roof 
SWRs at or above 2.5. These predicted injury risk increases of 2 and 3 
percent, respectively, for each 1-unit SWR increase. Marais concluded 
there is ``no statistically reliable indication of a reduction in the 
risk of injury in the range of SWR from 2.5 to 3.5.'' But these 
conclusions are highly sensitive to the SWR cutoff points Marais 
selected, as demonstrated by 3 additional logistic regression analyses 
of the IIHS study data. Cutoff values of 1.9, 2.0, and 2.1 produced 
injury risk predictions of a 32 percent decrease, 13 percent decrease, 
and 21 percent increase, respectively.
    Furthermore, if Marais had estimated the risk of fatality alone 
(excluding incapacitating injuries) using his selected cutoff values of 
2.0 and 2.5, he would have found risk reductions of 53 and 40 percent, 
respectively, for 1-unit increases in SWR. These comparisons 
demonstrate the potential bias from statistical analyses that use 
arbitrarily selected cutoffs in small datasets and confirm that these 
data are not sufficient to answer Marais' question of whether or not 
the effect of roof strength changes. The best estimates from the 
available data are those that consider all the vehicles in the IIHS 
study.
Marais Analysis Misplaces Burden of Proof
    The IIHS study clearly shows that stronger roofs reduce injury 
risks, in contrast to previous research funded by members of AAM. If 
AAM believes there is a level of roof strength that is no longer 
beneficial for occupant protection, or that actually increases the risk 
of injury in rollover crashes, the burden of proof is on AAM to provide 
data demonstrating such a trade-off. The Marais analysis fails to do 
this.
    It is true that the available data do not allow precise estimates 
of the benefit of roof strength for vehicles stronger than those IIHS 
has tested, and IIHS has not attempted to make such estimates. However, 
the large benefit that has been found for the vehicles studied is 
sufficient evidence that increasing the minimum roof strength 
requirement to SWR 3.0 or 3.5 would save many more lives than the 
National Highway Traffic Safety Administration previously has 
estimated.
            Sincerely,
                                          Stephen L. Oesch,
                    Senior Vice President, Secretary and Treasurer.
References
    Alliance for Automobile Manufacturers. 2008. Comment to the 
National Highway Traffic Safety Administration concerning Federal Motor 
Vehicle Safety Standard 216, Roof Crush Resistance. Docket Document No. 
NHTSA-2008-0015-0090.1, June 4, 2008. Washington, D.C.: U.S. Department 
of Transportation.
    Brumbelow, M.L.; Teoh, E.R.; Zuby, D.S. and McCartt, A.T., 2008. 
Roof strength and injury risk in rollover crashes. Arlington, VA: 
Insurance Institute for Highway Safety.
    Moffatt, E.A. and Padmanaban, J., 1995. The relationship between 
vehicle roof strength and occupant injury in rollover crash data. 
Proceedings of the 39th Annual Conference of the Association for the 
Advancement of Automotive Medicine, 245-67. Des Plaines, IL: 
Association for the Advancement of Automotive Medicine.
    Padmanaban, J.; Moffatt, E.A. and Marth, D.R., 2005. Factors 
influencing the likelihood of fatality and serious/fatal injury in 
single-vehicle rollover crashes. SAE Technical Paper Series 2005-01-
0944. Warrendale, PA: Society of Automotive Engineers.

    Mr. Oesch. We can show that, in fact, our study 
demonstrates there is a consistent relationship between 
increased roof strength and lower injury risk. And that is why 
it is important for the Federal agency to adopt a standard that 
is going to require a high strength-to-weight ratio.
    Senator Pryor. And then, did you have a second point?
    Mr. Oesch. Yes, sir. I just wanted to address, very 
quickly--and it's addressed in my testimony--the dynamic test. 
We think the dynamic test is, in fact, a gold standard. We 
don't think, however, that we currently know enough about that 
test to be able to establish all the test conditions. In 
addition the test dummies that are currently used in the other 
types of testing are not appropriate for the rollover crash. 
So, at this time, we would urge that there be additional 
research done on that issue.
    Thank you, sir.
    Senator Pryor. Mr. Strassburger, do you have a position on 
the preemption clause?
    Mr. Strassburger. With respect to the preemption, we were 
surprised to see it in the proposal by the agency. We have 
submitted comments to the agency regarding that proposal. And 
should the--and we expect, as the agency goes through its final 
steps in the rulemaking and weighs all the input, it will make 
appropriate decisions, and we will abide by those decisions.
    Senator Pryor. And in your comments, did you support it or 
oppose it?
    Mr. Strassburger. In our comments, we specifically 
addressed whether or not the agency had authority to adopt such 
a preemption. The--we also commented, I believe, on the--some 
of the tradeoffs that the agency was looking to address with 
the preemption and their concern that it might lead to 
additional fatalities if it were absent. If those factors 
remain in place at the end of this rulemaking period, then we 
expect the agency will make appropriate decisions.
    Senator Pryor. I want to go a little bit out of order. Ms. 
Gillan, do you have a view on the preemption clause?
    Ms. Gillan. Senator, we don't have an official position on 
the preemption clause, but I will tell you, I've worked on 
highway safety and motor vehicle safety for over 20 years, 
inside and outside the Federal Government and through various 
administrations, and this is the first time that I've 
experienced or seen this kind of language put in these 
regulatory proceedings.
    Senator Pryor. Mr. Stanton, do you have----
    Mr. Stanton. Yes, we--in the Notice of Proposed Rulemaking, 
we commented, but we treated it as the need for a national 
standard. It's very important, when you're building automobiles 
to sell in 50 states, that the same requirements apply to all 
the automobiles. So, we took it as a design standard and 
commented on that. And we would support that very strongly, 
that there be a single design standard for our vehicles.
    Senator Pryor.--OK. I would comment, though, that there has 
never been one before, in the history of the auto industry, but 
I understand what you're saying.
    Mr. Stanton. Well, we don't--Senator, I think it goes to 
the point of, when we build a vehicle, and we meet national 
standards, we want to make sure that states don't set standards 
that are different than the national standard.
    Senator Pryor. Right. But, preemption--the part of the 
preemption clause I was talking about was really preempting 
state law----
    Mr. Stanton. Yes. No----
    Senator Pryor.--on tort claims.
    Mr. Stanton.--and we did not comment on that part.
    Senator Pryor. Yes, which is a little different.
    I saved you for the last on this, Ms. Claybrook, because 
you're a former NHTSA Administrator. And during your tenure 
there, did the agency ever try to do preemption?
    Ms. Claybrook. No, Mr. Chairman, we did not. In fact, just 
the opposite. We actually thought that there was great value to 
having the individual lawsuits. And the reason why is that 
NHTSA standards are broad performance standards, and they don't 
deal with lots and lots of issues that arise in the course 
either of manufacturing or in the course of designing vehicles. 
And so, the proposed rollover rule encourages a court to find 
preemption even if the standard doesn't address the particular 
item that is defective. So, that's one big problem.
    But, I would like to address the design issue here, if I 
have one second to do that. The position of the auto industry 
is that if a court makes a decision and says that, even though 
there is a Federal standard, there is negligence by the 
company, in terms of the way that they have designed the 
vehicle, they view that decision as the equivalent of a state 
standard. And so, they think that the lawsuit ought to be 
preempted, because the Federal Government has addressed this 
issue. But, the Federal Government really hasn't addressed this 
issue broadly. Even if it has, as Senator McCaskill pointed 
out, sometimes that standard's so out of date that it's almost 
irrelevant. And why should that preempt people who are injured 
from getting compensation.
    If people are injured because of the failure of a safety 
system in a car, particularly a safety system, then they should 
be able to recover, because they have been injured by the 
negligence of the company in designing or manufacturing it.
    And it is not as though, in this roof-crush area, that the 
companies haven't known for years of these deficiencies. In 
fact, NHTSA's 1971 proposed standard had a two-sided test, 
causing General Motors to test their vehicles, and they found 
they couldn't meet it, so they came back in to NHTSA and said, 
``Well, you don't really need a two-sided test, because both 
sides of the vehicle are the same,'' ignoring the fact, of 
course, that when one side's crushed in, the other side doesn't 
work as well.
    Senator Pryor. Yes, let me ask a little bit of a follow up 
on that, but also go in a little different direction because 
there is disagreement that I've read in the written testimony, 
and talking to folks in the industry and talking to the 
advocacy groups. There's a disagreement on how much 
strengthening the roof actually costs. I think NHTSA maybe has 
a view, and others have views. I've not been able to come up 
with a definitive number on that, and I know that part of that 
depends on what standard the roof has to meet. Let me ask this, 
if I can. If you all can give me your estimates, your best 
estimate, or best, maybe, rule of thumb, on what it would cost 
to actually strengthen these roofs to a level where you make a 
major improvement in roof-crush safety. I assume, Dr. Garcia, 
you would not have an opinion on that. So, I'll start with Mr. 
Oesch.
    Mr. Oesch. We have not evaluated that issue, sir. We've 
concentrated on looking at the relationship, between roof 
strength and injury reduction, and have conclusively shown: 
stronger roofs, less injury.
    Senator Pryor. OK.
    Mr. Strassburger, I know that part of what you consider, 
when you talk about that, is not just the materials in the roof 
itself, but you consider the engineering costs and retooling 
costs for redesign. So, how does that translate into cost per 
vehicle?
    Mr. Strassburger. First of all, Senator, let me say, in our 
normal deliberations within the Alliance, we don't consider 
costs at all. To the extent that we've provided cost 
information to--in this rulemaking, it has been at the request 
of the agency to develop such information.
    My testimony does provide both variable-cost and fixed-cost 
information, as well as mass changes or weight changes to 
vehicles in two instances, one for a large SUV and another for 
a large pickup truck. And to quickly summarize here, when we're 
looking at a--going to a strength-to-weight ratio of 2.5, for 
those vehicles we're looking at a weight increase of the large 
SUV of between 60 and 67 pounds, and a variable cost, or per-
vehicle cost, of about $38 to $58 a vehicle, versus a large 
pickup truck, where we're looking at between 38 and 68 pounds 
and a variable cost of between $55 and $185 a vehicle.
    Senator Pryor. OK.
    Mr. Strassburger. Those have been submitted to, not only 
this record, but to the agency, as well.
    Senator Pryor. Yes. We're going to leave the record open, 
by the way, for those of you who want to submit studies and 
documents, et cetera. So, we encourage you to do that.
    Ms. Claybrook, do you have a sense of what it would cost to 
strengthen the roofs in such a way that you would have a major 
increase in safety?
    Ms. Claybrook. Well, Public Citizen does not have the 
capacity to do those individual kind of calculations. There was 
a study by Ohio State University that was submitted to the 
docket which shows that an after-market upgrade of the Ford 
Explorer to provide the same level of protection as the Volvo 
XC90 was about $81. And that's an after-market effort, it's not 
mass production. So, you really have to reduce that 
significantly. We would say between $40, max, to $50 is 
probably a high end for production vehicles, and we view that 
as being relatively inexpensive, in the scheme of things.
    Senator Pryor. Mr. Stanton, did you have an opinion on 
that?
    Mr. Stanton. Yes, we did. We didn't comment on the cost, 
but we did comment on the lead time, and--which is extremely 
important. And, as I said in my statement, you know, 3-year 
lead time and 3-year phase-in, major redesigns of these 
vehicles, if we can do it during a major redesign, we can keep 
the costs down and we can do it right.
    Ms. Gillan. Senator----
    Senator Pryor. Ms. Gillan?
    Ms. Gillan.--advocates does not do studies about costs, 
but, in addition to the study that Joan Claybrook cited--and I 
have this in my testimony--the Ohio State University Study--we 
also cite another study, conducted by George Washington 
University, where they found that strengthening the 2003 Ford 
Explorer to 3.0 strength-to-weight ratio would raise the 
vehicle price by $33 to $35.
    Senator Pryor. OK.
    Well, like I said, that's an issue--I mean, that's a 
practical consideration that we need to think about. And the 
estimates are all over the board. I think that's an important 
consideration.
    We actually have a roll call vote going on right now, so 
what I'm going to do is conclude the hearing here in just one 
moment.
    I would like to thank all three panels of witnesses. I 
appreciate your time and effort, not just to get here, but all 
your preparation and the materials that you've already 
submitted for the record.
    We are going to leave the record open for 2 weeks. I 
anticipate that Senators will ask questions and submit those in 
writing to you, so we would ask you to get those back to us and 
give us thorough answers, if you possibly can, within the next 
2 weeks.
    And then, like I said, a couple of you have mentioned, a 
study or other additional documents that you'd like to submit 
for the record. Certainly, we'll take those.
    Again, I want to thank you all for being here today, and 
tell you how much we appreciate it. It's an important matter 
for the Senate committee to look at and to familiarize 
ourselves with.
    And I do think one of the messages, at least, that came 
through loud and clear today is that it's more important to get 
this right than to get it done fast. And I think pretty much 
everybody--in one way or another--almost everybody has said 
that today. We'll work with NHTSA and encourage them to do the 
right thing, even if it does take a little extra time. We want 
to affect the best public policy.
    So, again, thank you for your time, and I appreciate you 
all being here.
    And we will conclude the hearing.
    [Whereupon, at 11:53 a.m., the hearing was adjourned.]
                            A P P E N D I X

Hon. Mark Pryor,
Chairman,
Subcommittee on Consumer Affairs, Insurance, and Automotive Safety,
Committee on Commerce, Science, and Transportation,
U.S. Senate,
Washington, DC.

    Require NHTSA to Upgrade Roof Strength SWR to at Least 
4.0--Submission for the Record re: Hearing of June 4, 2008 
        NHTSA Rulemaking on Passenger Vehicle Roof Strength

To the Hon. Senator Pryor:

    As a 27-year-old member of the driving public, I am especially 
concerned about issues of auto safety. In 2006, nearly 43,000 Americans 
were killed in auto accidents. A large proportion of those (over 7,000) 
were in the 25-34 year old age group. Auto accidents claim more teen 
and young adult lives each year than any other cause of death. And roof 
crush accidents account for an estimated 25-percent of those. For these 
reasons I am concerned that the government and auto industry may not be 
working hard enough to ensure our vehicles are safe in rollover 
accidents.
    I attended the hearing you conducted on June 4, 2008, and listened 
carefully to all of the testimony. At this time, I would like to submit 
my own comments for your consideration and for the official record.
    While NHTSA and the auto manufacturers are attempting to 
``upgrade'' the Federal Motor Vehicle Safety Standard for roof strength 
to require a vehicle's strength-to-weight ratio (SWR) of 2.5 or 3 times 
the weight of the vehicle, they make excuses why the requirement cannot 
be at least 4.0 times the weight of the vehicle. I own and drive a 2005 
Toyota Scion tC with a roof SWR of 4.6. Therefore I would like to 
refute three of NHTSA and the automaker's claims as to why they cannot 
increase roof strength:

        1. Automakers claim: Requiring stronger roofs will take years 
        of research and development. WRONG. My 2005 Toyota Scion tC 
        already has a strong roof with a SWR of 4.6.

        2. Automakers claim: Requiring stronger roofs will add weight 
        to a vehicle, thereby decreasing its fuel economy. WRONG. My 
        2005 Toyota Scion tC, with its strong roof, weighs about 2,900 
        lbs. and gets a respectable 20/25 miles per gallon. It is 
        lighter than some of its competitors and gets better gas 
        mileage . . . and has a stronger roof at the same time.

        3. Automakers claim: Requiring stronger roofs will add 
        excessive cost to a vehicle. WRONG. My 2005 Scion tC has a base 
        price of $16,100. It is among the most economical vehicles 
        available for purchase . . . even with its strong roof.

    As you can see, the reasons offered by automakers as to why vehicle 
roofs cannot be strengthened are just poor excuses. If Toyota can mass-
produce an inexpensive, fuel-efficient car in 2005 with a roof 
strength-to-weight ratio of 4.6, why can't NHTSA create a better roof 
crush standard and why can't automakers design and manufacture stronger 
roofs today? The technology is clearly feasible and available to 
provide stronger roofs in more mass produced cars on the road.
    While NHTSA and the automakers work together to delay and weaken 
our roof crush standard and the safety of our vehicles, more young 
people will continue to die and be permanently injured in rollover 
accidents.
    Please work quickly to upgrade the roof crush standard to require 
at least a 4.0 SWR.
    Thank you for accepting my submission.
            Sincerely,
                                             Brandon Bloch,
                                                  Concerned Driver.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 

  Why the NHTSA Proposal for FMVSS 216 on Roof Crush Must Include At 
 Least a Strength-to-Weight Ratio of 4.0 and Dynamic Rollover Testing, 
    and Must Not Include ``Preemption'' Which Would Deprive Injured 
                                Victims

        by Byron Bloch--March 14, 2008, www.AutoSafetyExpert.com

    If vehicle testing is to have validity, it must be relevant to what 
happens in real-world accidents. As an experienced auto safety 
professional for about 40 years, I have documented the U.S. roof crush 
safety standard and its failure to ensure safe roofs. The U.S. fatality 
toll in rollovers used to be about 1,000 per year in the 1970s, and now 
it has climbed upward to over 10,000 per year in the U.S. Whats wrong 
with vehicle roofs, and why has the U.S. safety standard failed to 
ensure that vehicles would have safe roof structures ? And why is 
NHTSA, a regulatory agency, now trying to grant preemption from 
liability to automakers, and thereby deprive injured victims in 
rollover accidents of their right to seek justice for needlessly unsafe 
and defective roofs?

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The matrix of crash testing by some European automakers is a 
proclaimed effort to represent what happens in real-world collision 
accidents. As stated by GM-Opel in 1993, ``Because test standards are 
often too theoretical, the test program for Opel models focuses on 
reality--on real accidents on European roads.'' But in the U.S., each 
of the FMVSS safety standards typically uses only a single crash test 
or static-load test as a minimum compliance test that's often 
unrealistic to what happens in real-world accidents. And the compliance 
test does not get upgraded or strengthened for 20 or 30 years, if at 
all.
    However, beginning in the 1970s, many European automakers adopted 
dynamic rollover tests as their own requirement, possibly in 
anticipation that the U.S. compliance test would soon be upgraded, and 
also because they understood the validity of such realistic testing to 
represent what happens in actual rollover accidents.
    After more than three decades of delay, there is now a controversy 
about finally upgrading FMVSS 216. The U.S. automakers (GM, Ford, 
Chrysler) are urging a slight increase in the ``slow push'' force 
requirements . . . but with the highly-controversial proviso that 
compliance would grant automakers automatic preemption from any future 
product-liability claims if someone was severely or fatally injured by 
an allegedly too-weak roof in a rollover accident. This would deprive 
injured car-crash victims of their rights to seek compensation via 
litigation, and would shift the medical and rehabilitation cost burdens 
to the states or nation.
The ``Upgrading'' of FMVSS 216 to a ``Slow Push'' Test at 2.5 or 3 
        Times the Vehicle Weight Is Grossly Inadequate, Far Too 
        Minimal, and Well Below the State-of-the-Art
    All other accident scenarios have U.S. safety standards that 
require dynamic crash testing . . . frontal impact, side impact, and 
rear impact. So why is rollover the only accident scenario that is not 
matched to dynamic testing?

  <bullet> FMVSS 216 only requires a ``slow push'' test on a portion of 
        the roof. Presently, only one frontal corner of the roof is 
        tested, but the proposed new ``upgraded'' regulation will 
        likely include testing of first one side, and then the opposite 
        side. This is supposed to account for such potentially adverse 
        factors as the breakage and/or separation of the windshield, 
        which typically contributes a small percentage to the roof 
        strength.

  <bullet> FMVSS 216 is only a ``minimum requirement'' and when it was 
        introduced back in 1973, it was supposed to be replaced with a 
        dynamic dolly rollover test by 1978. But that never happened.

  <bullet> FMVSS 216 does not require any dynamic rollover test, which 
        would simulate what happens in real-world accidents. Such a 
        dynamic rollover test would also evaluate the effectiveness of 
        the seatbelt restraint devices, the interior surfaces and any 
        injury-mitigation padding, the side window glass and its 
        propensity for breakage, the effectiveness of inflatable side-
        curtain airbags, and the maintenance of proper seat anchorage 
        and seat strength.

  <bullet> FMVSS 216 does not measure intrusion or penetration into the 
        occupants' ``survival space'' as the roof deforms and crushes 
        downward and laterally and rearward during the rollover. 
        However, the pending upgrade to FMVSS 216 does include concern 
        for the roof contacting the head of a seated dummy. But the new 
        NHTSA proposal utilizes only a 50th-percentile average-size 
        male test dummy, whereas the use of 95th-percentile size male 
        test dummies would cover the greater range of at-risk sizes in 
        the population.

  <bullet> FMVSS 216 has been unchanged since 1973, while fatalities in 
        rollovers have increased from about 1,000 previously in the 
        early-1970s to now almost 11,000 per year in the U.S. Although 
        rollovers account for about 2-percent of all accidents, they 
        account for about 40-percent of all fatalities. This is 
        certainly an indication that the so-called ``safety 
        standard''for Roof Crush Resistance, FMVSS 216, has not 
        prompted sufficiently strong roofs in the vast majority of 
        cars, pickups, SUVs, and vans here in the U.S.

    Back in 1971, General Motors initially commented on the then-
proposed new standard called ``Roof Intrusion Protection''. GM pointed 
out these main considerations: (with emphasis added)

  <bullet> ``To help reduce the possibility of head and neck injuries 
        in the event of occupant contact with the roof in any type of 
        accident, most 1971 General Motors passenger car models 
        incorporate a new double steel roof with a contoured inner 
        panel.''

  <bullet> ``In 1967 General Motors initiated development of a static 
        roof crush test device and procedure similar to that proposed 
        by the Administration. Although we know of no safety 
        relationship correlating such a laboratory procedure with 
        occupant protection in actual rollovers, we have found it to be 
        a useful development tool in evaluating the effects of 
        structural changes.''

  <bullet> ``General Motors recommends that any laboratory test 
        procedure for roof strength be based on performance 
        requirements . . . using the concept of an interior `non-
        enchroachment zone' for the front seat that is not dependent on 
        ram travel.''

    Thus, GM was pointing out that the static-load or ``slow push'' 
type of roof test had no safety relationship with actual rollover 
accidents. Yes, it was a repeatable type of test to evaluate different 
roof designs in a laboratory context, but it did not evaluate what 
would happen in rollover accidents. Only a dynamic rollover test would 
do so, and thats likely why many European automakers also began in the 
early-1970s to also include dynamic rollover tests, such as the lateral 
dolly rollover test, in developing and testing their vehicles. Many 
European cars over the years have thus had stronger roofs.
    Ironically, NHTSA itself had contracted for a series of dynamic 
rollover tests ``to evaluate a vehicle rollover procedure'' and to 
assess ``the repeatability of rollovers over a wide range of 
automobiles and small trucks.'' As noted in the Abstract and 
Conclusions of this NHTSA project: DOT-HS-800-615:

        ``A series of tests were performed using a number of different 
        sizes and configurations of recent models of motor vehicles to 
        verify the rollover procedure called for in the `Occupant Crash 
        Protection Standard.' ''

        ``The tests proved the adequacy of this procedure to produce 
        repeatable rollovers and to demonstrate the applicability over 
        a large range of vehicle sizes and configurations.''

        ``Based on the results obtained from the tests conducted, it is 
        concluded that the same make, model, and weight vehicle will 
        roll the same number of times and sustain equivalent damage if 
        rolled at the same speed.''

    So back in 1971, NHTSA had test data and knowledge that the static-
load test wasn't realistic enough to correlate with real-world rollover 
accidents, and that dynamic lateral dolly rollover tests were 
repeatable. And remember, FMVSS 216 is only a ``minimum requirement'' 
and when it was introduced back in 1973, it was supposed to be replaced 
with a dynamic dolly rollover test by 1978.
    Dynamic rollover tests could and should have been phased in by the 
mid-to late-1970s. But that never happened. And now, with rollover 
fatalities in the U.S. approaching 11,000 per year, it is finally time 
to correct that oversight and needless delay.
NHTSA Tests of Current Production Roofs Show Variance in Strength-to-
        Weight Ratios . . . With Many Stronger Roofs in the 4 to 5 
        Range . . . So it Is Wrong to Settle for Only 3
    During the past 3 years, 2005-2007, NHTSA conducted 35 tests in 
which the force was applied via an angled platen downward onto the 
driver's side of the roof. These were essentially FMVSS 216 type tests, 
and the strength-to-weight ratio (SWR) was recorded. Force was applied 
until there was 127 mm (5 inches) of travel, unless head contact 
occurred first.
    More than half of the vehicles . . . cars, SUVs, pickups, and vans 
of mostly 2005-2007 vintage . . . had a strength-to-weight ratio of 3 
or less. And 11 of those vehicles would have failed the proposed NHTSA 
upgrade of FMVSS 216 at the proposed 2.5 SWR compliance test level.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    However, 24 vehicles would have passed with each having a SWR above 
2.5 and, therefore, according to a most unusual provision in the NHTSA 
proposal, those vehicles and their automakers would be exempt from any 
product-liability lawsuits alleging a defectively designed roof arising 
out of a rollover accident. The proposed NHTSA liability exemption 
would apply even if the roof strength had been needlessly compromised 
by designed-in structural weaknesses, and had buckled and collapsed and 
thereby caused fatal or quadriplegic injuries.
    The legal-liability pre-emption provision is being severely 
challenged, including by key members of the U.S. Senate Judiciary 
Committee (Sen. Patrick Leahy, Sen. Arlen Specter), who don't believe 
that NHTSA has the legal authority, to grant such legal liability 
exemptions. In the National Traffic and Motor Vehicle Safety Act of 
1966, which is the controlling Law enacted by Congress, there is a 
specific provision directly addressing this point:

        ``Compliance with a motor vehicle safety standard prescribed 
        under this chapter does not exempt a person from liability at 
        common law.''

    Thus, it is clear that Congress expressly prohibited against any 
exemption from liability at common law. By now trying to include such 
unwarranted preemption for vehicles whose roofs would comply with a 
minimum SWR of only 2.5 or 3 (or even 4) NHTSA is clearly disregarding 
or violating the applicable law.
Stronger Roofs With SWR of 4 to 5-Plus Are Now in Production and Are 
        Clearly Feasible, Economical, and State-of-the-Art
    Importantly, in these NHTSA tests, there were 8 vehicles that had a 
strength-to-weight ratio of 4 up to 5.1. These production vehicles, 
mostly by Toyota, Volvo, and VW, thus prove that it is practical to 
have a significantly stronger roof without any major cost or weight 
burdens. As examples, the 2006 VW Jetta had a SWR of 5.1, the 2007 
Toyota Scion tC had a SWR of 4.6, the 2006 Volvo XC90 was 4.6, the 2006 
Honda Civic was 4.5, and the 2007 Toyota Camry was 4.3.
    The adjacent series of photos shows the FMVSS 216 ``slow push'' 
roof crush test of a 2007 Toyota Camry 4-Door Sedan, which weighs about 
3,200 pounds. It has a roof crush Strength-to-Weight Ratio (SWR) of 4.3 
which is well above the minimal requirement of either 2.5 or 3.0 that 
NHTSA is now considering to apply to future vehicles. In other words, 
the current Toyota Camry, and many other vehicles, are already well 
above the level that NHTSA is considering for future vehicles.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The preceding photo shows the Toyota Camry's roof crush at the full 
load of 13,960 pounds (62,097 Newtons) as applied by the angled platen 
to the driver's side of the roof, to the platen travel displacement of 
5 inches. The photo below shows the headroom for the ``head on a 
stick'' test device, representing the driver, was still sufficiently 
maintained. As noted, the Camry's Strength-to-Weight Ratio was 4.3.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    A public-information rating system for roof strength should be 
based on the tested strength-to-weight ratio (SWR), so that prospective 
customers could select a vehicle with a stronger SWR of 5 over a 
competitive vehicle with a weaker SWR of only 3. This would also help 
stimulate the design and adoption of even stronger roofs in more 
vehicles.
Rollover Accident Case Examples Show How Roofs Actually Fail, and Why 
        They Were ``Defectively Designed'' Even Though They Complied 
        With FMVSS 216
    Here are just two examples showing how terribly weak the roofs are 
in too many vehicles, all of which meet the archaic FMVSS 216 so-called 
``Safety Standard''. In many such rollover accidents, FMVSS 216 was a 
failure.
Rollover--Roof Crush Accident Case A
    This rollover accident occurred in 1996, in Louisiana. A young man 
was driving a 1989 Ford Escort 2-door hatchback when, to avoid another 
vehicle that had cut into his lane, the Escort left the road and rolled 
over at about 35 mph on the grassy center median.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    In the rollover accident, the Ford Escort's roof buckled and 
crushed downward into his ``survival space'', causing forces that 
fractured his cervical vertebrae, rendering the seatbelted driver into 
a quadriplegic. The right-front passenger, seated where the roof did 
not buckle down, was basically uninjured.
    In the 2007 trial in Louisiana, I testified about the roof's 
defective design, including its open-section windshield header with 
large hole cutouts, and A-pillar with minimal reinforcement of only the 
lower six inches. I noted that though the vehicle complied with FMVSS 
216, its roof structure was clearly inadequate. The jury decided a 
verdict for the Plaintiff.
Rollover--Roof Crush Accident Case B
    This rollover accident occurred in 2002, on a highway in New 
Jersey. A 1999 Toyota RAV4 Sport Utility Vehicle (SUV) was impacted in 
its side by an adjacent vehicle, causing the RAV4 to rollover. The roof 
buckled and crushed downward into the ``survival space'' of the right-
front passenger, causing fracture of his cervical vertebrae, rendering 
him a quadriplegic. The driver, seated where the roof did not buckle 
down,was basically uninjured.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    In the 2007 trial in New Jersey, I pointed out the roof's 
windshield header was a weak open-section design with large hole 
cutouts and structural discontinuities. I showed safer alternative 
designs, including from a Toyota Camry with a stronger closed-section 
header that would have helped to reduce excessive roof crush.
    I noted that while the RA V4 roof complied with the FMVSS 216 
``slow push'' test, its roof structure was structurally inadequate and 
was prone to buckling and collapse. Toyota pointed out they had 
designed the vehicle roof to comply with FMVSS 216, and did not do 
dynamic rollover tests. The jury decided a verdict for the Plaintiff.
    The two photos below show the poor-design ``open section'' 
windshield header, and then a comparison between the Toyota Camry's 
stronger ``closed section'' windshield header (in green) versus the 
weaker ``open section'' header of the Toyota RAV4 SUV (in red).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Affirmed: Roof Crush Causes Quadriplegic and Fatal Injuries . . . Even 
        Though Some Automakers Say it Doesn't
    In a rollover accident, it is imperative to maintain the occupants' 
``survival space.'' It is a well-established principle in vehicle 
safety and crashworthiness that a vehicle should be designed so as to 
prevent or minimize intrusion or penetration into the passenger 
compartment ``survival space'' in all types of foreseeable collisions . 
. . including front impact, side impact, rear impact, rollover, and 
underride. Automakers and vehicle safety specialists often refer to the 
critical need to provide a strong ``roll cage'' vehicle construction to 
protect the passengers.
    However, in trying to rationalize why their vehicles have a 
particular roof strength that is allegedly too weak, some automakers 
argue that roof crush simply does not cause injuries to the head or 
cervical spine. In actual accident cases that lead to product liability 
litigation, the defendant automaker will often claim that the amount of 
roof crush is irrelevant to the cause of the plaintiff's quadriplegic 
or fatal injuries. The automaker's experts will cite the ``Malibu 
series of rollover tests'' as ``proof'' that roof crush does not cause 
head and spinal injuries. Thus, some automakers try to divert or negate 
the issue of a needlessly weak roof structure that buckled and crushed 
downward in the particular accident.
    In contradiction to the automaker's strategy and the ``Malibu 
tests'', there is a long history of authoritative and empirical studies 
and tests that prove that, in fact, the extent of roof crush is 
definitely the cause of the severity of injuries to the occupant's head 
and cervical spine in the rollover accident. The evidence is 
overwhelming in support of the strong causal relationship between roof 
crush and such injuries.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    In NHTSA's original NPRM in 2005 to amend FMVSS 216, NHTSA stated:

        ``In sum, the agency believes that there is a relationship 
        between the amount of roof intrusion and the risk of injury to 
        belted occupants in rollover events.''

    Following is an overview of some of the major studies that affirm 
the direct relationship between the extent of roof crush to the cause 
of the injuries to the head and neck of the occupant in a rollover 
accident.
    In 1982, the National Highway Traffic Safety Administration (NHTSA) 
issued a report on ``Light Vehicle Occupant Protection--Top and Rear 
Structures and Interiors.'' (SAE Report 820244.) This comprehensive 
NHTSA analysis pointed out a significant correlation:

        ``. . . accident statistics show that the degree of roof 
        intrusion is highly associated with occupant injury severity 
        and rate.''

    In 1992, the major report ``Vehicle and Occupant Response in 
Rollover Crash Tests'' was issued as a coordinated effort by NHTSA and 
by The Armstrong Laboratory, of the Department of the Air Force. In its 
series of 24 rollover crash tests to study vehicle and occupant 
dynamics, roof crush varied from about 4 to 20 or more inches. The test 
dummies were instrumented to measure head and neck forces. Among the 
conclusions:

        ``Most of the tests resulted in significant roof crush. Often 
        the body was trapped by the roof crush. In these cases, the 
        head/neck system was vulnerable to large loads from the roof. 
        ``

    In many of the rollover tests, the dummies received major 
compressive and lateral loads to their necks and there were major 
forces to the cervical spine, with many in the 1,000 to 3,000 pounds 
range.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    In the 1994 ``Rollover Crash Study on Vehicle Design and Occupant 
Injuries'' major report by Rechnitzer and Lane, from Monash University 
of Australia, the findings included this correlation:

        ``In mass data and other crash collections, the weight of 
        evidence is in agreement with a relationship between roof crush 
        and occupant injury. There is a convincing relationship between 
        rollover and spinal cord injury. Finally, there is strong 
        evidence of a connection between local roof crush and spinal 
        cord injury.''

    The Monash project analyzed many actual vehicle rollover accidents 
and injuries, including this example that shows how the passenger in 
the right-front seat was rendered a quadriplegic . . . because of 
cervical/spinal trauma . . . due to loading on head during rollover and 
roof crush. One of the Monash case examples is illustrated directly 
below, and I've added an arrow to show how the compressive load was 
exerted as the inverted vehicle's roof buckled and crushed inward into 
the survival space.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    In 2005, a study by Bidez, Cochran, and King evaluated ``Roof Crush 
as a Source of Injury in Rollover Crashes.'' The authors evaluated the 
data from instrumented dummies in a series of rollover tests of Ford 
Explorer SUVs, as conducted by Autoliv. Their conclusions included the 
following:

        ``Roof crush into the survival space of restrained dummies was 
        the direct cause of neck loads, which were predictive of 
        catastrophic neck injury in rollover crashes.''

        ``In the absence of significant roof crush into the occupant 
        survival space, no dummy neck loads predictive of catastrophic 
        injury were observed in this test series.''

    In 2007, NHTSA published the study ``The Role of Vertical Roof 
Intrusion and Post-Crash Headroom in Predicting Roof Contact Injuries 
to the Head Neck, or Face During FMVSS No. 216 Rollovers; An Updated 
Analysis.'' The report analyzed NASS CDS data for the 1997-2005 period, 
and conducted estimates from 24 different statistical models, 12 for 
intrusion and 12 for headroom. In all 24 statistical models, the 
relationship between injury severity and the explanatory variable of 
intrusion or headroom was statistically significant.
    In its conclusion, this latest NHTSA report stated:

        ``This report shows that a statistically significant 
        relationship existed between both vertical roof intrusion and 
        post-crash headroom on the one hand, and maximum injury 
        severity of head, neck, or face injury from roof contact.''

    These many authoritative studies all point out and affirm the 
direct causal relationship between roof crush and spinal cord injuries. 
Importantly, roof crush also has a direct bearing on causing windshield 
and side window glass retention and breakage (re: potential occupant 
ejection), on seatbelt restraint integrity (such as shifting the 
shoulder belt upper anchorage on the B-pillar), and causing roof pillar 
interior surfaces and edges to buckle and exacerbate head trauma). 
Strong roof structures, if integrated with the total ``safety cage'' 
body construction, will also thereby offer benefits in reducing 
intrusion and increasing side impact protection. For many reasons, 
therefore, it is imperative for NHTSA to mandate a strong roof 
structure, and for automakers to maximize their designs and testing to 
ensure strong roofs in 40-50-60 mph dynamic rollovers that represent 
real-world accidents.
General Motors Finally Establishes U.S. Rollover Crash Test Facility in 
        2006 . . . for Dynamic Rollover Testing . . . and NHTSA Should 
        Require Such Testing in FMVSS 216
    Up until 2006, General Motors in the U.S. did very little in 
rollover testing. Instead, they relied primarily on compliance with the 
``slow push'' test of FMVSS 216, and their vehicle roofs have been in 
the weak 1.9 to 2.6 strength-to-weight ratio (SWR), as tested by NHTSA.
    Historically, back in the 1950s, General Motors showed how their 
passenger cars could survive dynamic rollover tests at 50 mph with only 
minimal roof deformation. (Shown in photo below.) GM called this the 
``supreme test'' as validation of their strong ``turret top'' roof 
structure design. But then GM did very little rollover testing in the 
U.S. in the following 1970 though 2000 era. In that same era, GM-Opel 
in Europe began conducting dynamic rollover tests for improving 
rollover safety in their European vehicles.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    After decades of not conducting dynamic rollover tests in the U.S., 
GM in 2006 opened a $10-million state-of-the-art rollover crash test 
facility at their proving grounds in Milford, Michigan. When the 
facility was launched, NHTSA Administrator Nicole Nason was quoted as 
saying ``The work at this facility will contribute to fewer deaths and 
injuries from rollover crashes.''
    Her praise is in contrast to NHTSA's present plans (in Spring 2008) 
to amend FMVSS 216 to only require a ``slow push'' test on either one 
or two frontal corners of the roof . . . but to not also require 
dynamic rollover testing to validate the performance of the roof and 
the other crashworthiness measures en total.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    For their new facility in 2006, GM announced that multiple types of 
dynamic rollover tests will be conducted, including these descriptions 
in the GM press release:
    Trip Over--The most frequent type of rollover, accounting for 
nearly 70 percent of rollovers. A driver loses control, slides 
sideways, and has the motion of the vehicle arrested by hitting a curb 
or sliding off of the road.
    Ditch Fall-over--This simulates a driver driving off of the side of 
a road onto a steep embankment and over-correcting. The ditch fixture 
has four 5,500-pound panels that can be positioned to simulate 
different angles of descent.
    Corkscrew Ramp Flip-over--This simulates a driver at high speed 
striking a rigid object like a center median and flipping over and 
remaining in the original lanes of travel (as opposed to going into 
oncoming traffic). The test speed in a demonstration was 46 mph.
    Dolly Rollover--This test has been used in rollover research for 
more than 35 years and is conducted with the vehicle being pulled 
sideways on a platform at a 23 degree angle.
    GM reportedly intends to conduct dynamic rollover tests of 150 to 
200 vehicles each year. But the key will be how rapidly and effectively 
the test knowledge is transferred into their mass-produced vehicles . . 
. with stronger roof structures, more effective side-curtain airbags, 
safer side window glazing, more effective seatbelt restraints, interior 
energy-absorbing padding. In short, a more crashworthy vehicle to 
better protect occupants in rollover accidents. But will GM share this 
critical safety information with NHTSA and with the American motoring 
public?
To Be Truly Effective, the New NHTSA Roof Crush Safety Standard Must 
        Require SWR of at Least 4, Plus Dynamic Rollover Testing at 40 
        mph . . . With Phased-in Upgrades
    It is clear that sole reliance on a ``slow push'' test at a 2.5 or 
3 strength-to-weight ratio (SWR) will not be sufficient to ensure safe 
roof performance in real-world rollover accidents. The auto industry 
has already shown that it is entirely feasible and economical to have 
roofs with a SWR of at least 4 to 5 (as in the current VW Jetta, Toyota 
Scion tC, Volvo XC90, among others).
    It is also clear that the auto industry has, for 30-plus years, 
been conducting valid and repeatable dynamic rollover tests, especially 
by European automakers. These have typically been lateral dolly 
rollover tests in the 30 mph-plus range. NHTSA likes to point to a 
series of unusual rollover tests it conducted with an ``elevated'' 
dolly rollover apparatus as not ensuring sufficient repeatability, and 
then proceeds to dismiss all dynamic rollover testing, rather than 
affirming the proven merits of rollover testing done by many European 
automakers over the years.
    Such dynamic rollover tests are critically needed to ensure 
effective performance of the total system of side curtain airbags, 
seatbelts with pre-tensioners, windshield and side window glass 
integrity, interior padding, and other crashworthy measures.
    If a ``slow push'' test is included in an upgraded FMVSS 216, it 
must be a sequential two-sided test that ensures a strength-to-weight 
ratio (SWR) of at least 4, and with no injury-causation intrusion into 
the survival space of a seated 95th-percentile male test dummy that 
would cause a severity of head trauma or neck loads.
    The strength-to-weight ratio (SWR) of the tested vehicle should be 
required to be legibly displayed on the data sheet affixed to each 
vehicle's window, and be available from NHTSA and the automakers. A 
publicly-available ranking list of SWR for each vehicle will enable the 
public to compare the relative roof strengths of competitive vehicles, 
and thereby help stimulate the automakers to make continuous 
improvements.
    In addition to any ``slow push'' test, NHTSA must also require a 
dynamic rollover test to validate that all systems perform safely. A 
lateral dolly rollover at 40 mph would demonstrate validation of the 
total performance of the roof, seatbelt system with pre-tensioners, 
windshield integrity and retention, side window glass integrity and 
retention, interior padding, seat anchorage and seatback integrity, and 
other measures for optimal occupant protection and vehicle 
crashworthiness.
    There is no legal or ethical basis for NHTSA, as a regulatory 
agency, to include pre-emption for any roof that complies with its 
incredibly minimal and unrealistic ``slow push'' test that requires a 
strength-to-weight ratio of only 2.5 or 3, or for any other test. The 
injured citizen's rights to seek justice through the courts is an 
inherent constitutional right in most civilized societies, and an 
administrative regulatory agency is not empowered to rescind those 
rights.
    It is also of interest that various recent political appointees to 
NHTSA, including within its office of Chief Counsel, have come from the 
automakers, including Chrysler. Specifically who added that unwarranted 
preemption language to the NHTSA proposed roof crush rule . . . in an 
unjustified (and likely illegal) attempt to grant automatic preemption 
of liability to automakers?
    After a reasonable phase-in of 3 to 5 years, the requirements 
should then be increased to a SWR of 5, and dynamic rollovers at 50 
mph. And thereafter, NHTSA should consider increasing the roof 
strength-to-weight ratio (SWR) to 6, and require validation of the 
roof's performance and all related safety systems in dynamic rollover 
testing at 60 mph. The goal is to eliminate deaths and severe injuries 
in rollover accidents.
    In summation, NHTSA should upgrade FMVSS 216 to require:

        Initially Beginning with Model Year 2012

        Roof Strength-to-Weight Ratio (SWR) of at least 4.0 In 
        Sequential Two-Sided Roof Crush Test And Also Validation by 
        Lateral Dolly Rollover at 40 mph With Instrumented Seatbelted 
        Test Dummies (95th Percentile) To Record Forces to the Head and 
        Cervical Spine, and Note Effects on Seatbelt Restraints, Window 
        Glazing, etc.

        Subsequently Beginning with Model Year 2016

        Roof Strength-to-Weight Ratio (SWR) of at least 5.0 In 
        Sequential Two-Sided Roof Crush Test And Also Validation by 
        Lateral Dolly Rollover at 50 mph With Instrumented Seatbelted 
        Test Dummies (95th Percentile) To Record Forces to the Head and 
        Cervical Spine, And Note Effects on Seatbelt Restraints, Window 
        Glazing, etc.

    Upgrading to a ``6-60'' requirement may be needed, a roof SWR of at 
least 6.0 and dynamic lateral dolly rollover testing at 60 mph, 
especially if the continuing feedback from real-world rollover 
accidents demonstrates that additional lives can be saved and severe 
injuries prevented if the roofs were mandated to be even stronger.
    The compassionate and attainable goal is the elimination of severe 
injuries and fatalities in rollover accidents. The significant 
upgrading of FMVSS 216, as recommended herein, can be of significant 
help by mandating and encouraging automakers to design, develop, test, 
and implement notably stronger roof structures on an expedited basis.
    The present rate of over 10,000 deaths per year in rollover 
accidents is much too high a burden to the individual victims and their 
families, and to our Nation and other nations that will be encouraged 
to adopt our standard.
    This is a goal that is technically and economically feasible., and 
must be encouraged and supported by a strong NHTSA safety standard . . 
. as respectfully recommended herein.
            Respectfully submitted,
                                               Byron Bloch,
                                  Consultant in Auto Safety Design 
                                       and Vehicle Crashworthiness,
                                               www.AutoSafetyExpert.com
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                          James F. Ports, Jr.
    Question 1. Has the NHTSA conducted adequate testing and data 
collection on the alternative SWRs of 3.0 and 3.5 to know what impact 
they might have on roof strength and passenger safety?
    Answer. Yes. The Preliminary Regulatory Impact Analysis conducted 
in support of the August 2005 Notice of Proposed Rulemaking included an 
assessment of the 2.5 and 3.0 SWR (What is SWR) alternatives. Since 
that time, the agency has conducted additional roof crush testing and 
collected additional real world crash data to supplement our 
evaluation. Much of this was published in conjunction with the January 
30, 2008 SNPRM. NHTSA will finalize our analysis, including the 3.0 and 
3.5 SWR alternatives, in the Final Regulatory Impact Analysis for the 
final rule.

    Question 2. Will the NHTSA share its research data conducted in 
testing the SWRs of 2.5 and higher for one-sided testing and two-sided 
sequential testing?
    Answer. Yes. The majority of our testing to date was published with 
the NPRM and SNRPM. Any additional tests conducted since those 
publications will be made publicly available with the final rule.

    Question 3. Will the NHTSA share with the Committee its complete 
results on all costs estimated with each SWR and the estimated lives 
saved with each SWR for both one sided and two sided tests?
    Answer. The Preliminary Regulatory Impact Analysis published with 
the NPRM in August 2005 included costs and estimated lives saved for 
one-sided testing, but the agency had only limited two-sided testing 
available at that time. Such an analysis was not conducted for the 
SNPRM. The Final Regulatory Impact Analysis (FRIA) is now being 
completed in support of the final rule. The FRIA will be published 
along with the final rule and will include a full analysis of estimated 
lives saved and costs for each SWR alternative under consideration by 
the agency for both one- and two-sided testing.

    Question 4. What is NHTSA's opinion of establishing a ``star'' 
rating system for judging vehicle roof strength?
    Answer. Establishing a star rating system as a part of the agency's 
New Car Assessment Program (NCAP) for roof strength may be worth 
consideration, but first we are focused on completing the upgrade to 
the roof strength standard. Once we have decided upon that requirement, 
there may be merit in investigating enhancements to our NCAP rollover 
ratings including roof strength. Any such rating would need to reflect 
the real world risks based on crash data.

    Question 5. Should it be up to Congress or the Administration to 
decide when an industry receives immunity from tort lawsuits?
    Answer. We recognize that the first and most important step in 
considering the possible implied preemptive effect of a Federal 
regulation and its authorizing statute is ascertaining congressional 
intent. In the case of the Federal vehicle safety standards and the 
National Traffic and Motor Vehicle Safety Act of 1966, the Supreme 
Court considered the intent reflected in that Act's preemption 
provision and its savings clause in Geier v. Honda, 529 U.S. 861 
(2000). It held that they are best read together as allowing the normal 
operation of the ordinary principles of implied preemption with respect 
to those standards.
    While this decision was reached in the context of a standard that 
included express alternative compliance options and agency statements 
about the desirability of manufacturer experimentation with different 
types of technology, the Court did not suggest that implied preemption 
was unique to this particular standard. Since implied preemption turns 
upon the existence of an actual conflict, our task, as the agency 
charged with carrying out the purposes of the Act and technical 
expertise regarding the subject matter and purposes of the Federal 
vehicle safety standards, is to assess whether conflicts do or do not 
exist. In most cases, we find that they do not exist.

    Question 6. When and how did the agency decide to change its 
longstanding position (that tort law complements Federal regulations) 
as it began to illustrate in preambles to regulations since 2005?
    Answer. Given the public interest in preemption issues and the 
dependence of implied preemption on the existence of an actual 
conflict, we have sought in recent years to provide a fuller and more 
standardized discussion of preemption in our vehicle safety rulemaking 
notices and to focus those discussions on whether there is an actual 
conflict. In most cases we do not identify any conflict. Again, in the 
absence of a conflict, there cannot be any implied preemption.

    Question 7. With the preemption clause, is the NHTSA effectively 
preventing roof crush victims from using state tort laws to hold a 
manufacturer accountable for poorly designed or manufactured roof 
structures?
    Answer. In our notice of proposed rulemaking (NPRM), we identified 
potential State tort law actions that we believed could frustrate the 
agency's objectives by upsetting the balance between efforts to 
increase roof strength and reduce rollover propensity. We wanted to 
raise the possibility of preemption during the rulemaking process, when 
there is a chance to obtain and consider public comments, rather than 
after the fact during possible litigation.
    The legal theory underlying roof crush lawsuits is that the vehicle 
has a defect. Plaintiffs may allege both design defects and 
manufacturing defects. The concerns we raised in the NPRM that could 
lead to preemption were not related to alleged manufacturing defects, 
i.e., situations where it is alleged that a vehicle was not 
manufactured in accordance with the manufacturer's design 
specifications.
    We received many comments about the issue of preemption, and we are 
continuing to analyze the comments. We will fully consider all of the 
comments as part of the rulemaking process.

    Question 8. Please describe some of the effects weak roof strength 
has on other safety devises such as glazed windows, seat belts, side 
curtain airbags, and door retention devises.
    Answer. Detrimental effects of roof crush on vehicle occupant 
protection systems will mainly affect the greenhouse (above the window 
sill) portion of the compartment. The primary occupant protection 
systems located in this region for belted occupants are the seat belt 
shoulder belt anchors and rollover side air bag curtains.

  <bullet> Seat belt restraint system--seat belts reduce occupant 
        ejection by 91 percent in the real world. This estimate is with 
        the current roof crush requirements and factors in the effect 
        of any B-pillar deformation or other reductions in structural 
        integrity. The lap belt portion of the seat belt restricts the 
        excursion of an occupant in a rollover and is not affected by 
        roof intrusion.

  <bullet> Side air bag curtains--agency data have not shown reduced 
        effectiveness of rollover side curtain air bags due to roof 
        crush. Rollover sensors of such systems are designed to deploy 
        during the first \1/4\ turn roll of the vehicle. Thus, the 
        rollover side curtain air bags deploy to provide protection 
        prior to the occurrence of any roof crush.

    Question 9. Do you believe keeping a passenger inside a rolling 
vehicle is the safest event for a passenger in a rollover?
    Answer. Yes. As we have noted in our comprehensive plan, the first 
two priorities in protecting occupants are to first prevent the 
occurrence of the rollover, and if a rollover does occur to then ensure 
that the occupant is not ejected. The safest way to mitigate injuries 
in a rollover event is seat belt use since they are 91 percent 
effective in reducing occupant ejection. The fatality rate for an 
ejected vehicle occupant is substantially greater than for an occupant 
who remains inside of the vehicle.

    Question 10. How many people are ejected in rollover events?
    Answer. According to on our 2006 crash data files, NHTSA estimates 
that 15,120 occupants were ejected in rollover crashes that year.

    Question 11. What is the survivability rate for ejections in 
rollovers?
    Answer. According to on our 2006 crash data files, NHTSA estimates 
that the survivability rate for ejected occupants in rollovers was 
about 60 percent that year (8,956/15,120).

    Question 12. Does the current system in place provide consumers 
with enough knowledge on tire health and is it easy for consumers to 
know the age of a tire or the health of a tire?
    Answer. New labeling requirements for tires will become effective 
September 1, 2009. These new requirements will ensure that the 
production date of a tire is displayed on the outboard side wall of the 
tire. We think that this will make it easier for consumers to determine 
the age of their tires. Additionally, the agency has improved its 
consumer information material and has placed it at its main portal for 
vehicle safety consumer information, www.safercar.gov. This new section 
devoted entirely to tires, includes information on how to identify the 
age of the tire, and how to avoid conditions such as under-inflation or 
overloading that can lead to reduced tire integrity.

    Question 13. Where is the NHTSA in meeting Section 10303 of 
SAFETEA-LU Tire Research on tire aging?
    Answer. As required by SAFETEA-LU, the Department of Transportation 
delivered to Congress a report in August 2007 (copy enclosed).* In that 
report, we indicated that additional work needed to be done before we 
could make a regulatory decision on tire aging. That work is ongoing 
and is considering many factors including tire aging as a casual factor 
in crashes, solutions such as a tire expiration date, and the potential 
safety benefits of a regulatory tire aging requirement. We expect to 
complete that work in 2009.
---------------------------------------------------------------------------
    * This document is retained in Committee files.

    Question 14. Are there other ways of improving knowledge of tire 
age to consumers and those performing maintenance on vehicles?
    Answer. NHTSA has taken steps to improve the public's general 
awareness of proper tire maintenance including tire age. These include 
the periodic issuance of press releases and public service 
announcements, the inclusion of information related to tire age in our 
existing brochures, and the development of improved consumer friendly 
information on our www.safercar.gov website. We have also begun to work 
with key interested stakeholders such as the Rubber Manufactures 
Association and the National Automobile Dealers Association to develop 
material specifically focused at those who perform maintenance on 
tires. We will also continue to look for additional outreach programs 
and partners.

    Question 15. Is RFID a viable technology for improving tire age and 
tire safety identification for consumers?
    Answer. Radio frequency identification (RFID) may prove to be a 
viable technology to improve tire safety, particularly when a tire 
recall is involved. However, there are issues related to the 
standardization of the RFID chips for this purpose and, for the system 
to be most effective, tire dealers and vehicle service centers would 
need to purchase scanning tools and have access to a national database 
containing tire information. It is unclear at this point what 
additional safety benefits may be possible in the future. NHTSA 
continues to follow up the evaluation and applications of this 
technology.

    Question 16. Is the NHTSA content with their current tire age 
identification system?
    Answer. We believe that changes to the tire identification 
requirements for tire marking (effective September 1, 2009) will make 
it easier for consumers and service personnel to identify the date of 
manufacture and thus the age of a tire.

    Question 17. Are all ESC technologies equal?
    Answer. In 2007, NHTSA promulgated a final rule requiring that all 
electronic stability control systems operate using the same principles 
and the same system definition that would prevent the elimination of 
key sensor measurements in favor of software estimations. We know of no 
data showing significant performance differences in ESC systems in 
current production vehicles.

    Question 18. How does ESC prevent rollovers in multiple vehicle 
accidents or when something triggers the tripping of the vehicle (i.e., 
pothole, curb, soft soil, or guardrail)?
    Answer. ESC prevents rollovers by eliminating a substantial number 
of loss-of-control crashes where the vehicle leaves the roadway. In 
cases where ESC cannot prevent vehicles from leaving the roadway, our 
data indicate that ESC acts to allow the vehicles to leave the road at 
a lower speed or facing less sideways. By mitigating the danger factors 
even if vehicles leave the roadway, ESC helps the vehicles to roll over 
less often.
    However, if a crash with another vehicle is the cause of the 
rollover or the cause of road departure, we would not expect ESC to 
provide any benefit.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Claire McCaskill to 
                          James F. Ports, Jr.
    Question 1. The agency included language in the preamble to the 
NPRM on roof crush which would preempt state law claims, if the 
preamble language is relied upon by courts. If an automobile 
manufacturer has the technology to improve safety above the Federal 
standard, and the addition of such technology is a reasonable cost for 
either the manufacturer or the consumer, doesn't the manufacturer have 
an obligation to the American public to install this technology? If the 
manufacturer does not do so, shouldn't an injured American have the 
ability to hold that manufacturer accountable?
    Answer. In responding to this question, I note that it raises 
issues both about Federal preemption of State tort law and also about 
how State tort law should operate in situations where it is not 
preempted. While I can respond to your question as it relates to 
Federal law, the issue of how State tort law should operate where it is 
not preempted is a matter that is up to the individual States.
    In our notice of proposed rulemaking (NPRM), we identified 
potential State tort law actions that we believed could frustrate the 
agency's objectives by upsetting the balance between efforts to 
increase roof strength and reduce rollover propensity. We wanted to 
raise the possibility of preemption during the rulemaking process, when 
there is a chance to obtain and consider public comments, rather than 
after the fact during possible litigation.
    We raised the concern that some potential State tort laws could 
result in adverse safety consequences. We cited, for example, the 
possibility that a State tort law requiring greater levels of roof 
strength could lead to added weight to the roof and pillars of a 
vehicle, increasing the center of gravity and rollover propensity.
    We received many comments about the issue of preemption, and we are 
continuing to analyze the comments. We will fully consider all of the 
comments as part of the rulemaking process.

    Question 2. As discussed during the hearing, the agency is now 
including boilerplate language in all of its rules in an effort to 
preempt state tort claims. In each case, the agency relies upon the 
Geier v. Honda Motor Co., 529 U.S. 861 (2000), decision to preempt 
state tort claims. Why is the agency suddenly relying upon the narrow 
Geier v. Honda Motor decision to make these claims, when it did not 
even reference that case in preambles to rules between 2000 and 2005? 
Why would the agency state that it believes its rules preempt state 
tort law when there is not even a potential conflict between state and 
Federal law in question? Doesn't the Supreme Court decision in 
Medtronic v. Lohr, 518 U.S. 470, 511 (1996) require the existence of a 
conflict prior to asserting preemption?
    Answer. There may be a misunderstanding about our discussions of 
implied preemption of state tort law in our vehicle safety rulemaking 
notices. In most of our notices discussing that issue, we examined 
whether there might be a conflict, but did not find any. Without a 
conflict, there is, of course, no implied preemption. As we cannot 
perfectly predict the nature of the tort law decisions that might 
emerge in the future, we have stated that we cannot completely exclude 
the possibility that a conflict might be identified in the future.

    Question 3. The rules listed below contain preemption language in 
the final rules. In addition, the agency also has included preemption 
language in the preamble to final rules without first providing for 
notice and comments in the proposed rules. How can the agency justify 
not providing notice and consultation to state and local associations, 
when this will clearly impact the ability of state courts to respond to 
the health and safety needs of its citizens?
    This has occurred in the following instances:

  <bullet> February 6, 2007 Federal Motor Vehicle Safety Standards: 
        Door locks and door retention (72 Fed. Reg. at 5397).

  <bullet> April 6, 2007 Federal Motor Vehicle Safety Standards: 
        Electronic Stability Control (72 Fed. Reg. at 17300).

  <bullet> May 4, 2007 Federal Motor Vehicle Safety Standards: Head 
        Restraints (72 Fed. Reg. at 38023-24).

  <bullet> July 12, 2007 Federal Motor Vehicle Safety Standards: Tire 
        Pressure Monitoring Systems (72 Fed. Reg. at 38023-24).

  <bullet> July 24, 2007 Federal Motor Vehicle Safety Standards: 
        Occupant Crash Protection (72 Fed. Reg. at 40257).

  <bullet> September 5, 2007 Federal Motor Vehicle Safety Standards: 
        Side Impact Protection (72 Fed. Reg. at 50905).

  <bullet> September 11, 2007 Federal Motor Vehicle Safety Standards: 
        Side Impact Protection; Electric Powered Motor Vehicles (72 
        Fed. Reg. at 51953).

  <bullet> December 4, 2007 Federal Motor Vehicle Safety Standards: 
        Cargo Carrying Capacity (72 Fed. Reg. at 68458).

  <bullet> December 4, 2007 Federal Motor Vehicle Safety Standards: 
        Lamps, Reflective Devices, and Associated Equipment (72 Fed. 
        Reg. at 68265).

    Answer. We believe that it is desirable to seek public comment in 
connection with those vehicle safety standard proposals in which we 
identify a possible conflict between one of our standards and potential 
tort law decisions. However, we did not identify any conflict with 
respect to any of the nine notices listed in this question. As 
previously noted, there cannot be any implied preemption in the absence 
of a conflict.

    Question 4. Please explain why the agency has included a 
significant change in policy from prior versions of NHTSA rules to 
recently proposed versions, as indicated in the two examples below. 
Please also indicate who directed these changes. Were these changes 
made at the request of the Office of Management and Budget and/or the 
Office of Information and Regulatory Affairs, which reviews the rules 
prior to publication.
    Example 1:

        Dec. 14, 2004: Federal Motor Vehicle Safety Standards: Head 
        restraints. The preamble language states: ``The final rule is 
        not intended to pre-empt state tort civil actions.''

        May 4, 2007: Federal Motor Vehicle Safety standards: Head 
        restraints--final rule. The preamble language states: ``Federal 
        pre-emption questions can arise both in the courts' application 
        of state common law--often state tort law--or in the 
        application of a state statute or state or local regulation, 
        ordinance or similar measure. In a state tort suit, the 
        question may be whether imposing liability for particular 
        activities would be consistent or inconsistent with Federal law 
        or a Federal regulatory program.''

    Example 2:

        Dec. 27, 2002: Federal Motor Vehicle Safety Standards: Platform 
        lift systems for accessible motor vehicles--final rule. The 
        preamble language states: ``The final rule is not intended to 
        pre-empt state tort civil actions.''

        Dec. 20, 2007: Federal motor vehicle safety standards: Platform 
        lifts for motor vehicles; Platform lift installations in motor 
        vehicles--proposed rule. The preamble language states: ``In 
        addition to the express pre-emption noted above, the Supreme 
        Court has also recognized that state requirements imposed on 
        motor vehicle manufacturers, including sanctions imposed by 
        state tort law, can stand as an obstacle to the accomplishment 
        and execution of a NHTSA safety standard. When such a conflict 
        is discerned, the Supremacy Clause of the Constitution makes 
        their state requirements unenforceable. See Geier v. American 
        Honda Motor Co. (2000). NHTSA has not outlined such potential 
        state requirements in today's rulemaking, however, in part 
        because such conflicts can arise in varied contexts, but it is 
        conceivable that such a conflict may become clear through 
        subsequent experience with today's standard and test regime. 
        NHTSA may opine on such conflicts in the future, if 
        warranted.''

    Answer. Given the public interest in preemption issues and the 
dependence of implied preemption on the existence of an actual 
conflict, we have sought in recent years to provide a fuller and more 
standardized discussion of preemption in our vehicle safety rulemaking 
notices and to focus those discussions on whether there is an actual 
conflict. In neither of the two documents identified in this question 
(the head restraint final rule issued in May 2007 or the platform lift 
proposal issued in December 2007) did we identify any conflict. Again, 
in the absence of a conflict, there cannot be any implied preemption.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                         to James F. Ports, Jr.
    Question 1. I am interested in the role laminated glass, which is 
required in windshields, plays in providing structural support to 
vehicle roofs. Has NHTSA examined this during its testing protocols for 
the roof crush rule? What research do you have on the structural 
benefits to vehicle roofs of laminated glass windshields?
    Answer. Yes. NHTSA has analyzed the contribution that the 
windshield laminated glass makes relative to the measured strength of 
the roof. In the agency's two-sided testing, the windshield was 
generally broken during the first side test. In the January 2008 
Supplemental Notice of Proposed Rulemaking, we stated that on average 
the peak roof strength for the second side test was reduced by 8.7 
percent from the first side test. The windshield provides some of that 
load bearing capacity. NHTSA will address this issue more thoroughly in 
the roof crush final rule.

    Question 2. How will the agency address rear windows and occupant 
safety? Laminated glass is not required in rear windows. But, if it 
was, would that also provide additional strength to vehicle roofs? Has 
NHTSA considered this in developing its roof crush standards?
    Answer. Rear occupant protection due to roof crush will be 
addressed in the final rule. NHTSA has examined the contribution of 
rear window glass to the strength of the roof in our proposed test 
requirements. The agency has observed less influence on the roof 
strength performance due to the rear window than occurs with the 
windshield.

    Question 3. For years NHTSA and others have urged parents to put 
young children in the rear seat for maximum protection in a motor 
vehicle crash. Would laminated glass help protect rear seat occupants 
from ejection in a crash?
    Answer. The agency is currently developing its proposal for 
ejection mitigation. SAFETEA-LU mandates establishment of performance 
standards to reduce complete and partial ejections of vehicle occupants 
from outboard seating positions. Rear seat outboard seating positions 
will be included in NHTSA's proposal. The performance requirements 
being developed anticipate side curtain and advanced glazing 
technologies as being likely countermeasures for ejection mitigation.

    Question 4. Laminated glass is not required in side windows. 
Although laminated glass is not required in side windows, has NHTSA 
looked at any potential benefits it may provide in providing additional 
strength to vehicle roofs?
    Answer. As was the case for the windshield, in the agency's two-
sided testing the side windows were generally broken during the first 
side test. In the January 2008 Supplemental Notice of Proposed 
Rulemaking, we stated that on average the peak roof strength for the 
second side test was reduced by 8.7 percent from the first side test. 
The side window load bearing capacity is included in that reduction. 
The roof crush final rule will establish a strength performance 
requirement, but not any particular technology to attain that 
performance.

    Question 5. A crushed roof can break the tempered glass now in the 
side windows thereby creating an opening in which an occupant could be 
ejected during rollovers or other crashes. In developing its roof crush 
standards, has NHTSA looked at multiple benefits to occupant 
protection, such as occupant ejection?
    Answer. Yes, in developing its comprehensive rollover approach to 
prevent the crashes, mitigate ejections, and protect those occupants 
who remain within the compartment, the agency has given extensive 
consideration to the target populations that would benefit from each of 
the strategies and how each of these three initiatives must work 
together to address the various aspects of the rollover problem. The 
agency's target population estimates for roof crush were published in 
both the August 2005 NPRM and the January 2008 SNPRM. The roof crush 
final rule is targeting the group that is most effected when roof 
structures are compromised. Seat belts are 91 percent effective in 
reducing ejections, and this is the target population that most 
benefits from an increased roof strength. Unbelted occupants in a 
rollover crash are violently tossed about the compartment of the 
vehicle and are more effectively addressed in the agency's ejection 
mitigation initiative. Our analysis of potential benefits for unbelted 
occupants due to increased roof strength, public comments on this 
issue, and any modifications to the target population will be described 
in the final rule.

    Question 6. Recently NHTSA updated its regulatory status report to 
include a timeline for an Advanced Notice of Proposed Rulemaking on the 
occupant ejection mitigation rulemaking as required by SAFETEA-LU. 
According to the status report an ANPR will be issued in the fall of 
2008. I am interested in the testing methodology and results NHTSA will 
be using to develop the ANPR and how a ``systems'' approach combining 
both laminated side glass and side air curtains can provide the most 
potential benefit in preventing or mitigating occupant ejections.

  <bullet> The SAFETEA-LU statute requires NHTSA to establish a 
        performance standard to ``reduce complete and partial 
        ejections''. Please provide test results (data, pictures, video 
        footage, etc.) that illustrate how side curtain airbags and 
        laminated glass perform as possible countermeasures for partial 
        ejections as both stand alone technologies and as a combined 
        system. Please include information illustrating how the 
        individual technologies alone provide lesser performance than a 
        combined system.

  <bullet> In response to questions at his confirmation hearing, DOT 
        Deputy Secretary, Admiral Thomas Barrett, has stated that both 
        ``side curtain and advanced glazing technologies are possible 
        countermeasures that manufacturers could employ to meet the 
        testing protocol.'' Please provide test results (data, 
        pictures, video footage, etc.) that demonstrate the performance 
        of these possible countermeasures as stand alone technologies 
        and as a combined system.

  <bullet> In response to questions at her confirmation hearing, DOT 
        Secretary Peters stated: ``NHTSA has conducted tests of side 
        curtain air bags in combination with laminated glass. These 
        tests have shown some level of improved performance over 
        individual technologies.'' Please provide test results (data, 
        pictures, video footage, etc.) that illustrate how the combined 
        technologies provide improved performance including information 
        illustrating how the individual technologies alone provide 
        lesser performance.

  <bullet> The DOT Secretary Peters further stated: ``NHTSA is 
        addressing full and partial ejections for all vehicle 
        occupants. Research serving as the basis for the proposal has 
        used both child and adult dummies in belted and unbelted 
        conditions.'' Please provide test results (data, pictures, 
        video footage, etc.) that illustrate the performance of 
        possible countermeasures as stand alone technologies and as a 
        combined system for individuals of varying size and age.

    Answer. NHTSA is completing work on development of requirements for 
ejection mitigation, and we expect to publish a proposal this fall. The 
proposal will have performance requirements but not specific 
technologies necessary to meet them. Docket NHTSA-2006-26467 contains a 
testing procedure guideline for research into the performance of 
ejection mitigation countermeasures. While NHTSA may deviate from this 
guideline for the ejection mitigation proposal, it does reflect 
procedures that the agency has been using in our research. Testing by 
the agency has involved side curtain window airbags, advanced glazing 
materials, and combinations of these technologies. Two of our most 
recent publications presenting the results of agency ejection 
mitigation research are attached,* and document testing of prototype 
and production side curtain air bags alone and in combination with 
laminated side windows. Additional research and analysis supporting the 
agency's performance requirements will be released with the proposal.
---------------------------------------------------------------------------
    * These documents are retained in the Committee files.

    Question 7. Airbag manufacturers have reported that the function of 
airbags can be supported by laminated glass because the laminated glass 
can provide a reaction surface for the airbag. Please provide test 
results (data, pictures, video footage) that illustrate how glass can 
support side airbag deployment by serving as a reaction surface.
    Answer. While some frontal air bags use the laminated windshield as 
a reaction surface for air bags in frontal occupant protection, not all 
do so. Side curtain air bags have evolved from solely side impact 
occupant protection systems to a countermeasure designed for rollover 
protection. The newer systems designed for rollover protection have 
increased coverage of the window opening and stay inflated for longer 
periods of time. In addition, they are tethered at the lower part of 
the window pillars to provide tension across the bottom edge of the 
curtain, thus mitigating the need for a reaction surface in rollover 
crashes.

    Question 8. In the recent past, NHTSA has launched several 
investigations into deployment issues associated with airbag systems on 
production vehicles (e.g., BMW, Nissan). Please provide data regarding 
the need for redundancy in occupant ejection prevention systems 
including the incidence of airbag malfunction.
    Answer. Agency examination of the crash data has shown no 
indication that side curtain air bag systems developed for rollover 
crashes are not sufficiently robust to provide the intended occupant 
protection. Through our enforcement efforts we have continued to 
monitor all vehicle systems for potential malfunctions. Past 
investigations for non-deployment concerns, including the BMW/MINI 
Cooper, Nissan Armada and Quest vehicles, resulted in either an 
extended warranty program, a service campaign or were closed with no 
further action. The agency's investigations did not identify any 
crashes, injuries or fatalities associated with malfunction of the side 
air bag system. A table of side air bag defect investigations since 
2003 is attached.<SUP>*</SUP> A second table * provides manufacturer 
voluntary safety recalls of side air bags.
---------------------------------------------------------------------------
    \*\ These documents: NHTSA's Crashworthiness Rollover Research 
Program--by Stephen Summers, Donald T. Wilkie, and Lisa K. Sullivan, 
National Highway Traffic Safety Admmistration, U.S. Department of 
Transportation; and J. Stephen Duffy and Michael Sword, Transportation 
Research Center, Inc.; PowerPoint Presentation--Status of NHTSA's 
Ejection Mitigation Research--dated May 9, 2005, presented at SAE 
Government/Industry Meeting-by J. Stephen Duffy, Transportation 
Research Center, Inc.; Recalls for Side Air Bag Deployment Malfunctions 
Improper/Reduced/No Deployment Since CY 2003--dated June 10, 2008; and 
Investigations of Side Air Bag Malfunctions Improper/Reduced/No 
Deployment Since CY 2003--dated June 10, 2008, are retained in the 
Committee files.
---------------------------------------------------------------------------

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
